<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2001

_______________________________________________________________________



                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama                        
 VIRGIL H. GOODE, Jr., Virginia     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin,
          Dena L. Baron, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 8
               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 64-316                     WASHINGTON : 2000





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 11, 2000.

             CDBG FUNDING FOR COLLEGE POINT SPORTS COMPLEX

                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. The subcommittee will come to order. We are in 
the presence of a distinguished member from New York State, Mr. 
Crowley. Welcome, Joe.
    Mr. Crowley. Good morning. Thank you for this opportunity.
    Mr. Walsh. Please proceed for the record.
    Mr. Crowley. I appreciate that very much, for allowing me 
this opportunity to testify before your committee today in 
support of an important project for my congressional district.
    I come before you to request that this subcommittee 
appropriate $3 million in Community Development Block Grant, 
CDBG, funds for the College Point Sports Complex and Fields in 
Queens, New York City. College Point is a working and middle-
class community of 25,000 people in Northern Queens, New York. 
Queens is the second most populace borough in the city, and the 
city is the Nation's most populace city. Therefore, open space 
and greenery are at a premium and every acre is cherished.
    Recognizing this, in the late 1970s, the City of New York, 
while crafting an urban renewal plan for the community of 
College Point, mandated a cut-out of 22 acres of green space 
within a sprawling 550-acre proposed industrial park. This 22-
acre site, to be referred to as the College Point Sports 
Complex, was to provide an appropriate balance of greenery and 
recreation space to match the business-like feel and concrete 
look of the 550-acre Corporate Park.
    As an amenity to make up for the increased congestion and 
traffic brought on the Corporate Park, the City of New York 
began to lease these fields to a volunteer city group in the 
community known as the College Point Sports Association. These 
lands were leased to the Sports Association for a fee of $1 a 
year. For over 25 years, the citizen board of neighbors and 
parents volunteered their time and energy in operating and 
maintaining 22 acres of fields for the enhancement of the whole 
neighborhood; in fact, for the whole portion of Northern 
Queens. These fields played host to thousands of children 
engaging in such after-school recreational activities as Little 
League, football, soccer and roller hockey.
    Then, in 1996, as part of a public works project, a private 
contractor was hired by the Sports Association to revamp the 
fields. As part of the arrangement, the private contractor was 
given permission by both the Sports Association and the City of 
New York to dump what is known as clean fill or as I call it, 
clean dirt, on the 22-acre site as part of the restoration. 
This agreement to dump clean field on the fields was nothing 
out of the ordinary and, in fact, would serve to benefit the 
fields by elevating them, as they lie on a flood plain.
    Unfortunately, shortly after the work began, it was 
discovered that illegal debris was contained in the fill being 
deposited in the sports complex, in violation of the agreement. 
I just want to point out that the fill was nontoxic, nor 
chemical, but was really more construction debris, pipes and 
such, that deemed it unfit for that type of disposal.
    In 1997, the City of New York stopped all work on the 
fields, closed down the sports complex and began battling the 
private contractor for remediation of the fields. During the 
course of these discussions, the city rejected a number of 
settlement offers. In the end, the city was unable to force the 
contractor to either pay for the mess or accept any blame. The 
result was the closure of these fields and the deprivation of 
the people of College Point and surrounding communities of the 
pledges of one of their few green spaces.
    Finally, in early 1999, the City of New York began the 
first of its four-step plan to clean up and reopen the sports 
complex. According to documents from the mayor's office, Phase 
One of this project is expected to cost upwards of $8 million, 
of which the city has allocated $5 million in its budget.
    I am here today to request another $3 million so that the 
city can successfully undertake Phase One of this important 
project. This sports complex represents part of the overall 
economic development program of the city, as well as serves 
children from not just the College Point community, but 
neighborhoods throughout Northern Queens.
    Additionally, the reconstruction of public works projects, 
public facilities and neighborhood facilities, as well as the 
payment of the cost of completing urban renewal projects are 
well within the scope of CDBG guidelines. These facts, along 
with the issue that there is not enough recreation or open 
space in Queens for these children, as well as the high costs 
of the renovation of a working-class community, reinforce my 
belief that there is an appropriate role for Federal assistance 
in this project. That is why I am here today respectfully 
respecting the assistance of the committee to provide $3 
million in Community Development Block Grant funds to complete 
Phase One of this project.
    Most importantly, and this is what I would like to conclude 
my remarks with, is that for 25 years a volunteer organization 
operated and maintained these fields at virtually no cost to 
the taxpayers. Thousands of people enjoyed these fields that so 
many community leaders, parents, coaches and children helped to 
maintain.
    Now, help is needed to rectify a situation that occurred, 
despite the best efforts of everyone involved in the community. 
After 25 years of volunteerism and giving to the community, the 
community needs a helping hand now.
    I would also just like to enter into the record that as we 
come to the beginning of the start of the Little League season, 
these fields are still not able to be used, and they sit in the 
shadow of Shea Stadium. So as young boys and girls are paying 
attention to what is happening in terms of the Major League 
level, there is really very little opportunity within their own 
neighborhoods to have a field that they can use to emulate 
their sports heroes.
    And with that, I am prepared to answer any questions you 
may have, formally, if you have any.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your thoughts.
    Mr. Crowley. Thank you, Mr. Chairman.
    Mr. Walsh. We will do the best we can.
    Mr. Crowley. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 11, 2000.

  SEWER INFRASTRUCTURE NEEDS FOR NEW BEDFORD AND FALL RIVER, BRISTOL 
     COUNTY, MASSACHUSETTS, AND FOR WORCESTER, MASSACHUSETTS, GKH 
                          NEIGHBORHOOD PROJECT


                               WITNESSES

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Walsh. All right.
    Mr. McGovern and Mr. Frank?
    Good morning. Welcome.
    Mr. Frank. Thank you, Mr. Chairman. We have been here, it 
is a familiar issue with the ongoing effort by two cities that 
we represent, poor, industrial cities, to comply with the Clean 
Water Act. They bear most of the burden, but the Federal 
Government has helped them, and I think it is important to do 
this not simply, obviously to alleviate some burden on them, 
but to keep supporting the Clean Water Act. I think it is good. 
And if we were not to have some Federal participation, even 
though we say the cities themselves bear most of the burden, 
you would find an erosion of support for the Clean Water Act. 
So we ask for a continuation at the same level, and contingent 
on their being fully cooperative with EPA in every other 
respect.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McGovern. I just will echo that regarding we are 
talking about two communities here, New Bedford and Fall River, 
and $1.5 million for each community.
    Fall River has a relatively high unemployment rate. It is a 
city that still needs a great deal of help in order to comply 
with the Clean Water Act and to deal with their CSO problem. 
They cannot do it alone. I mean, the burden would just fall on 
the residents, and it will just make a bad situation even 
worse.
    The administration I think has put this in their request as 
well. You have been generous to us in the past, and we just 
want to make the pitch one more time.
    And before I leave, I also want to make one other pitch. I 
did this last year, and I was not very successful, but I am 
going to keep on trying until it works. I also represent the 
City of Worcester, and there is a part of the city, the Main 
South area, that is incredibly blighted, has a high crime rate, 
a high poverty rate, and we are trying desperately to 
revitalize that section of the city. I know you have probably 
taken similar projects in New York. We are trying to put a new 
Boys and Girls Clubs there, a green space for the kids in the 
neighborhood, a major housing revitalization project and trying 
to bring industry back there. I have also made a request to 
this committee for $4 million for that. But anything you can 
do, I feel passionately about this project, and I know the 
budget is tight, but this is very dear to my heart.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Go ahead, Barney.
    Mr. Frank. I just want to throw in, because there was extra 
money that I was remiss in not thanking you, Mr. Chairman, 
acknowledging the work your subcommittee and the subcommittee 
that Mr. Lazio and I together chaired last year. Because we 
worked cooperatively, very important legislation went through 
preserving housing. I know we have got another housing bill 
going through, and I look forward to that same cooperation. I 
think we have a very good record of the two subcommittees----
    Mr. Walsh. Yes, your subcommittee really does its work. It 
gets the authorizations done.
    Mr. Frank. Well, it has not always been a collaborative 
relationship between the two subcommittees, so I want to 
acknowledge that and thank you.
    Mr. Walsh. It has been great. We are delighted with the 
work that you are doing and support it. And I think you find 
strong support on this subcommittee for the Clean Water Act and 
for funding and meeting our commitment. I think we need to have 
high standards, but we need to help, too.
    Mr. Frank. Thank you.
    Mr. McGovern. Thank you.
    Mr. Walsh. Thank you both very much. We will do the best we 
can.
                              ----------                              

                                           Tuesday, April 11, 2000.

   FUNDING FOR THE HACKENSACK UNIVERSITY MEDICAL CENTER WOMEN'S AND 
                          CHILDREN'S HOSPITAL


                                WITNESS

HON. STEVEN R. ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Walsh. I would like to welcome Mr. Rothman.
    Mr. Rothman. Chairman Walsh, thank you so much for allowing 
me to appear before you.
    I want to speak with you this morning very briefly about a 
proposed Women's and Children's Hospital at the Hackensack 
University Medical Center in Hackensack, New Jersey. The bottom 
line is the need for additional women's and children's care is 
growing at the Hackensack University Medical Center.
    This is an $85 million project, and we are asking the 
committee for $2 million of the $85 million. Forty-eight 
million of the funds will come from the hospital, the center 
itself, and philanthropic contributions are expected to provide 
an additional $38 million. So out of the $85 million-project, 
we are asking for $2 million.
    Obviously, the community would not be investing $85 million 
or $83 million if there was not a tremendous need in the first 
place, and that need is borne out by the figures. The number of 
babies born at the Medical Center has increased 70 percent in 
the last 10 years. The number of critically ill newborns in 
this regional center of New Jersey has doubled in the same 
year.
    To meet this need, the facility has expanded to its 
maximum. They have developed comprehensive subspecialties in 
pediatric oncology, pediatric neurosurgery, pediatric 
infectious disease, pediatric critical care and high-risk 
maternity.
    As I say, this is a regional center that covers patients 
from 21 New Jersey counties, as well as from Pennsylvania and 
New York. As you may know, this facility is located in my 
district in Bergen County, which is 20 minutes across the 
Hudson River from Manhattan.
    The new facility will be able to accommodate the increased 
patient demand, and it will also have an impact on families 
that now cannot get this highly specialized pediatric care in 
Bergen County or even Northern New Jersey. They travel from my 
part of the State into New York City. So this will save our 
residents, and there are almost a million people in my county 
alone, will save them all of that wear and tear on themselves 
and their children. It is a big need, a growing need. And, 
again, the numbers show the rise in 70 percent in the births 
and the care of these little babies, and the community would 
not be spending $83 million to build this facility, asking for 
$2 million from this committee, if there really was not a huge 
need.
    I thank you very much, Mr. Chairman, Congressman 
Frelinghuysen, for all of your courtesies in allowing me to 
testify before you. I hope you will give this project your 
kindest consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you. We are glad you made it.
    Rodney, do you have a question?
    Mr. Frelinghuysen. This medical center does a great job, 
and it is a pleasure to have Congressman Rothman here 
advocating. He is a good advocate for it.
    Mr. Walsh. Do you have commitments for the other $83 
million?
    Mr. Rothman. I do not know, personally, how they are doing 
it. I can tell you this is one of the most rapidly expanding 
medical centers in all of New Jersey, and they do not build 
unless they have got total commitments. They have already been 
designated a Children's Hospital. They are a university medical 
center. They are a teaching hospital. They grew from a little 
Hackensack hospital into a teaching hospital into a medical 
center. And my belief is that we will get the funds, and 
certainly the committee could condition that if it wishes. But, 
again, $2 million out of $85-, while $2 million is a lot of 
money, is not everything, and my belief is that they would not 
proceed without substantial commitments over and above the $2 
million that this committee might allocate.
    Mr. Walsh. Thank you.
    Mr. Rothman. Thanks so much.
                              ----------                              

                                           Tuesday, April 11, 2000.

  FUNDING FOR THE NATIONAL COALITION FOR HOMELESS VETERANS AND RELATED 
                            VETERANS' ISSUES


                               WITNESSES

HON. JACK QUINN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
HEATHER FRENCH, MISS AMERICA 2000
    Mr. Walsh. Welcome to our subcommittee this morning.
    Mr. Quinn. Thank you very much, Mr. Chairman, from the 
Great Empire State of New York.
    Mr. Walsh. Yes, we are.
    Mr. Quinn. That is what I explained to Miss America coming 
over here, of course, that we talked about Syracuse. She has 
been there many times. Almost attended there, Syracuse 
University. She can explain that to you.
    But I also talked about the time of year she was there, in 
terms of the weather.
    Mr. Walsh. I suspect she will be talking about winter. 
Whenever Syracuse or Buffalo comes up, people tend to talk 
about the winter.
    Mr. Quinn. Well, as someone said to me, they used the line 
that you and I can never repeat, in fact, it was the coach at 
Michigan State University after the final four said that their 
weather is described as 11 months of snow and one month of bad 
sledding. [Laughter.]
    I said, ``Oh, you have got the wrong place if you are 
talking about Buffalo.''
    Anyway, Mr. Chairman, we appreciate very much your giving 
us the opportunity to talk a little bit about the difficult 
decisions all of you make when it comes to funding. But I 
wanted to introduce to the subcommittee and to all of you Miss 
America, Heather French, who has been a stalwart voice for 
homeless veterans and veterans in general, but certainly 
homeless veterans.
    She is the daughter of a disabled Vietnam veteran and has 
taken advantage I think of her position as Miss America to use 
a national platform to talk about those things that are 
important to her, but that are important to Americans and 
important to veterans who serve America.
    You know that she is a role model in this regard, and she 
has agreed to return, after testifying before my subcommittee 
over in Veterans' Affairs, about the needs for this. She has 
agreed to return today to talk to all of you and maybe answer 
any questions that you might have.
    So it is a distinct honor and privilege for me to introduce 
to all of you Miss America.
    Mr. Walsh. Thank you. We welcome you to the subcommittee. 
We will take all of your testimony for the record, and if you 
would care to summarize at whatever pace you want to proceed at 
go ahead. It is great to have you here.
    Ms. French. Thank you. Chairman Walsh, thank you for having 
me today, especially in this intimate setting. This is quite 
nice, actually.
    Mr. Walsh. It is a nice place to work. [Laughter.]
    Ms. French. It would seem so, and even as an artist, it 
would seem so.
    I just wanted to express my viewpoints that I have seen, as 
I travel across the country as Miss America. Many of you may 
not know my connection with veterans run long past my history 
with the Miss America Organization. Before I had the dreams of 
becoming Miss America and of receiving that scholarship to pay 
for my education, I had the proud distinction of being a 
daughter of a disabled Vietnam Veteran.
    At the age of four, my father began taking me into the VA 
system with him where he would receive treatment for his 
disability, and that was where I learned how not just to listen 
with my ears, but to listen with my heart where veterans are 
concerned. I found that it did not just make a difference with 
our veterans, it made the difference in how we respect their 
service.
    At that time, the VA was a long tradition of long waiting 
periods. And the VA that we attended, there was a Bingo light 
board from 1 to 1,000, and when you would go, you would receive 
like 999, and a 4-year-old does not sit still very long for 
four hours while her father is waiting to receive his 
treatment. And that was where I learned that lesson of how to 
respect the veterans. And I learned also that their 
disabilities were not just outward disabilities, but were 
inward disabilities. I learned that those disabilities did not 
just affect the veteran, but it affected their whole family, as 
it did our family.
    So being raised in a family where we had to come together 
in order to work with my father's disabilities and to get past 
the struggles of night terrors every single night as he relived 
parts of the war, the tragedy of losing four of his best 
friends right by his side, who are all four together on the 
same panel on the Vietnam War Memorial, Panel 32E, those were 
the struggles that I got to see every day and listen to every 
single night.
    And as I grew, I was a Girl Scout for 12 years and 
continued volunteering in the VA system. So it stuck with me. 
And I am definite proof that once you teach your children at a 
young age, if you can really have them grasp at an early age, 
they will take that on the rest of their life. And volunteering 
in the VA system then led me to volunteer at a homeless shelter 
in Cincinnati, where I attended school. I learned there about 
the 225,000 homeless veterans that we have today.
    A gentleman walked in with camouflage on and a Vietnam 
veteran cap, and I asked him because I was working the 
administration desk, where you sign in every homeless person, 
and I said, ``Sir, can I help you?''
    And he said, ``Well, I am here to sign in.''
    I said, ``You are a veteran.'' I said, ``We are a homeless 
shelter.''
    And he said, ``I have been homeless for 20 years.'' That 
dumbfounded me. I thought how can a man like my father, women 
like my sister, who was in the Army, how can they be homeless? 
What has happened? But the reality is 27 million veterans in 
this country, it is very easy to lose some through the cracks, 
and those statistics keep rising every year.
    But I have had the pleasure of becoming Miss America and 
being able to shed a different spotlight on the issue, a very 
real spotlight. I sort of serve as a field representative, I 
might say, across this country. I get to travel 20,000 miles 
each month, one day off a month. Every other day I am in a 
different city, in a different area, able to see the different 
faces that cross our Nation. I get to see, in the eyes of these 
veterans, situations that they just cannot deal with, as the 
normal population of Americans think; that every time we 
stepped over three homeless persons on the street, one of those 
homeless persons is a veteran, someone who could be a Medal of 
Honor recipient or a Purple Heart recipient, and that, to me, 
is my father.
    I have been able to see programs that work day-to-day. I 
have been able to see the good, the bad and the ugly, I always 
say. I get a unique opportunity to see extreme views. I get to 
see creative, permanent solutions that work; creative solutions 
that work in one community that may work in another community.
    Just yesterday I was in Melbourne, Florida, visiting a 
homeless veterans facility, and I got a chance to visit with 
the director of that facility. And he was asking me questions 
about what I've seen. He said we have veterans who are fathers 
who are absentee fathers. We want to get them a special spot 
through the legal system and have them in this transitional 
unit, yet being able to pay for being an absentee father. And I 
quickly said, ``Oh, my goodness. There is a program at U.S. 
Vets in L.A., in California, that has a fathers' program.''
    But, see, all of these questions were answered with 
programs who are a partner of the National Coalition for 
Homeless Veterans. They serve a large number of veterans 
throughout this United States. And I was here a few weeks ago 
to testify on building stronger alliances between community-
based organizations and Federal Government. Yes, the VA takes 
tremendous care of our veterans, but they are the primary 
medical care of our veterans. We are dealing with a subculture, 
225,000 veterans, that make up one-third of the homeless 
population. This is not a small subculture. This is harsh 
reality, facts. Ten thousand of those veterans are women 
veterans, women with children. Some of these men still have 
families.
    It is our duty, we have said in this country, to never 
leave our wounded behind. The reality is we have. And every day 
we have this excitement of rushing into the new millennium to 
new programs, to new attitudes, but we are still leaving those 
veterans behind to pay that price of the past. So it is our 
duty in the new millennium to bring them with us. We cannot any 
longer go day-to-day letting them deal with their past, letting 
them try to figure out how to overcome that. Veterans have 
specific needs, and I stress that my mother, when my father was 
sent to war, made the comment to me, ``The man that went to war 
is not the same man that came home.''
    Veterans have long had specific needs in this country. And 
if they had specific veteran-related needs before they became 
homeless, they have even more specific needs after they become 
homeless. It is just like women veterans who need specific 
groups for their problems, such as sexual trauma. We cannot put 
them in the same groups as male veterans. That emotionally 
would not work for them. And it is just like veterans being put 
into a generalized group, a generalized AA meeting. What we are 
working with are not just substance abuses, we are not working 
with just alcoholism and drug addiction, and pain killers to 
weather cold out on the streets, we are dealing with PTSD 
problems, Post-Traumatic Stress Disorder, which I can tell you, 
from personal experience, is a very real issue.
    When a man like my father struggles every night with night 
terrors, when he gets up in the middle of the night to scream 
because of the dreams that he has, it is reality that men and 
women will find substance to numb that pain. They have seen 
worse things in their daytime than we have seen in our 
nightmares. That is tragedy, but that is also something that 
the Federal Government was partly responsible for. That is why 
we are to be held accountable. If our men and women are willing 
to pay the ultimate sacrifice to be able to go to war or be in 
the place to go to war, it is our responsibility to take care 
of them because we all sent them over there into combat. It 
takes everyone working together to bring them home. That is why 
they are the most special populations of Americans.
    I have had the chance to meet with several wonderful 
veterans as well, as I have gone across the country, not just 
seeing programs, but being able to hold hands of veterans. 
That, to me, is so important as Miss America. Because first and 
foremost, I do not want them to see the crown, I want them to 
see their daughter, their sons, their family, who is now coming 
back to reconnect their lives with their community. And one 
veteran gave me a special present, as I have gone on the road, 
and he is also a disabled Vietnam veteran. He said, ``In this 
box is a representation of why you fight every day, of who we 
are as veterans. And when you get tired of traveling that 
20,000 miles a month, when you cannot log any more frequent 
flyer miles in, remember what you are fighting for.''
    And this gentleman gave me his Purple Heart. And every day 
that goes on the road with me. This is a symbol that freedom is 
not free, and you hear that every day. Every Veterans Day we 
make the same speeches. They are good intentions, but good 
intentions do not save lives of homeless veterans. They do not 
put them into transitional units. They do not fund those 
dollars that they need in order to get to successful civilian 
lives.
    These are scars that have been left, not an outward 
disability, but an inward disability. For every Purple Heart 
that I see, I think about the millions of people who did not 
come home with their Purple Hearts. Every time I look at a 
group of people, as I have gone across the country, I always 
tell them the most important thing that we can do in this 
country to increase patriotism is to honor those who did not 
make it home by continuing to serve those who are living. That 
is a permanent monument. That is a monument that is not stone, 
it is not etching, it is not something that is stemmed 100 feet 
in the air, but it is something that is forever engraved on the 
heart. And that is what our American citizens need to see.
    How can we be a role model for our children? How can we 
tell them patriotism needs to be in your future? How can we 
tell them what the Pledge of Allegiance means and what Veterans 
Day means if we cannot find it in our heart to support that 
special population of veterans?
    We always tell our children, you have to respect your 
elders, you have to respect your country, you need 
responsibility, but yet we continue to not be held accountable 
for that. We do not take responsibility. And as a young person 
today, that is what I want to see. I want to know that my 
fellow friends are going to see a country that is taking care 
of their mothers and fathers so that when my brother and sister 
get old enough and they need to be taken care of because they 
are veterans, they are going to see a great treatment and a 
great evolution to take care of them.
    I do have a unique opportunity as well to carry around 
something many people get to carry around with them. This is my 
greatest crowning achievement. I should say that I also have to 
admit that when I won Miss America, it wasn't just Heather 
French that won Miss America, it was 27 million veterans in 
this country that won because every stone in this crown 
represents them. I have had the chance to pass this through 
thousands of hands of veterans as I have gone across the 
country. That is what makes this crown so special.
    A lot of people ask: Why are you not wearing the crown, why 
do you not walk around with the crown on your head? [Laughter.]
    And I always say, well, I was not really born with a crown 
on my head. I was not born with a silver spoon in my mouth, and 
it took my whole family to get to this point. It took us 
together.
    But I have been able to see specific veterans and ask them 
what stone would you like to pick out? What stone do you want 
to represent you? And it is interesting how all of the Marines 
take the big stones. [Laughter.]
    In fact, we reserve those for the Marines, since my father 
and my brother are both Marines. But he said, ``No matter.'' He 
said, ``I just want to be a small stone in the front, and I 
would be proud if you would represent me.'' That is what Miss 
America is about. That is what Heather is about.
    And being able to see that pride in their eyes when they 
get to hold this crown, and they know that someone nationally 
is trying to bring a spotlight in a special way to veterans' 
issues and concerns so that no longer when they cry are they 
going unheard. I have seen men, full-grown men, crying in front 
of me, women veterans who cannot feed their children. They 
cannot find the support that they need, and listening and being 
there is one of the most important needs.
    We have several specific programs around the country that 
have helped veterans, formerly homeless veterans, find jobs. We 
have quotas in companies where they will hire, that they will 
definitely hire so many veterans and usually hire above that 
quota, but I want to see as a special population of people 
being taken care of because they do not fall in the general 
homelessness population. They do not need any more patronizing 
speeches to say, ``Thank you for your service, but we cannot 
back up that thank you with a continuum of care.''
    And that is why the National Coalition of Homeless Veterans 
is so important. They have over 241 programs that represent 
over 43 States. That is a network unlike any network we have 
today in this country. And what is so special about that 
network is I had a chance to go to the National Coalition 
Annual Conference here in Washington, D.C. The amount of 
networking that takes place at that conference between those 
programs is extraordinary because they get a chance to partner 
together and to help each other. And that is the technical 
skills that they need. They need to be able to tell each other 
what works. They need to be able to bring in other programs 
that have questions, that need to know what funding is out 
there, what grant they can get, how they should go about to get 
these grants because you know grant writing is almost half of 
the process.
    But there are so many young, untried programs that simply 
cannot facilitate those specific needs. They do not know how to 
write the grants. They do not know who to go to, who is going 
to listen. And so every day we have good intentions starting, 
but we are not able to back those good intentions with the 
technical skills that they need.
    If you do not want me here in 5 years continuing to talk to 
you, then I implore you these are permanent solutions. The 
National Coalition is a permanent way to rid veterans of the 
homelessness disease. They are a population of people that can 
be dealt with. They are the most disciplined Americans that we 
have. Ask any veteran, look at any veteran who is in college, 
they make the best grades. They are the teacher's pet. They are 
the most disciplined people that we have. And that is why 
taking them into a special account would be our responsibility 
and be the best thing that our Government has done in a long 
time.
    It is time to pay them back. It is not as if we continue to 
donate money or we are giving something to them. They earned 
the right to be taken care of. That is what we promised them. I 
can tell my dad would not have joined the Marine Corps and had, 
with the thoughts of getting a disability, had he not thought, 
``I am serving my country because my country deserves to be 
taken care of.'' I think now it is our turn to take care of 
them.
    And I would love to answer any questions that you have 
concerning the things that I have seen, the reactions that I 
have seen, and the programs that I have experienced, if you so 
choose.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Well, thank you very much for your very 
persuasive and passionate testimony for American veterans, 
especially for homeless veterans. I think you will find a 
sensitive ear on this subcommittee. This is the most important 
priority of this subcommittee. We have a number of agencies, 
EPA, the Federal Emergency Management Agency, NASA, Housing, 
HUD, but this is the number one priority, and it is the issue 
that we try to resolve first.
    Last year we provided the largest increase ever in the 
history of the veterans medical care programs, and I think that 
commitment will continue this year.
    This is Congressman Mollohan, who is the ranking Democrat 
on the subcommittee; Mrs. Meek, and you met Ms. Kaptur.
    Alan, do you have any questions or comments you would like 
to make?
    Mr. Mollohan. Mr. Chairman, I would just like to join you 
in welcoming the witness to the hearing and assuring her that 
homeless veterans are a real priority of this subcommittee. We 
recognize the problem of our veterans, generally, and I have 
not heard a more eloquent, adamant plea for veterans. And you 
are certainly doing a job.
    Thank you for appearing before the subcommittee.
    Ms. French. It is my pleasure. Thank you.
    Mr. Mollohan. It is our pleasure. Thank you.
    Mr. Walsh. We are also joined by Congressman Frelinghuysen 
of New Jersey.
    Mr. Frelinghuysen. Thank you for being a great asset.
    Ms. French. It is my pleasure. It was a pleasure to visit 
your State and to be able to actually testify before your 
Housing Committee. Your governor has done a wonderful job with 
veterans as a special population, of course her husband being a 
Vietnam veteran himself is a great advocate as well.
    Mr. Frelinghuysen. Great. Thank you.
    Ms. French. It is my pleasure.
    Mr. Walsh. Ms. Kaptur or Mrs. Meek?
    Mrs. Meek. Thank you for appearing before us. We appreciate 
your sensitivity to the issues of veterans.
    Ms. French. It is my pleasure. Thank you.
    Ms. Kaptur. I think we need to get you to run for Congress. 
[Laughter.]
    It has been a lonely battle for homeless vets, and all I 
would say is thank you so very much for taking this issue on. 
It is one that I personally have cared very deeply about, and 
we need all of the help we can get.
    Ms. French. Absolutely.
    Ms. Kaptur. And so we appreciate your testimony today. In 
your travels, have you had a chance to meet Dr. Fuller Torre, 
who has written a book, ``Nowhere To Go,'' who runs the Stanley 
Foundation?
    Ms. French. No.
    Ms. Kaptur. I would highly recommend it. He is the most 
able author on this topic of the homeless, including homeless 
vets. I just have the highest respect for him. And I would also 
ask in your capacity as Miss America, I think we also need your 
help in a couple ways: As you travel around the country, we do 
need better evaluations of what the Veterans Department is 
doing in terms of meeting the needs of this population. There 
have been a lot of administrative difficulties with relating to 
the housing, to the psychiatric care, to the regular health 
programs. And you may meet scholars out there at universities 
or places where we could get better guidance administratively 
on how to improve these programs.
    The VA is the largest hospital system in the country, and 
sometimes the fourth floor does not speak to the first floor 
here in Washington or the third floor. And it is not that they 
are not trying, but any assistance in evaluation and how we 
could better tailor these programs, you have asked for a 
special account, but there are, in my opinion, after looking at 
this for several years, serious administrative problems there 
at the Department. So I would just encourage you in those two 
areas, speaking with Dr. Torre, looking at some of his 
literature and helping us define administratively how to handle 
this set of veterans.
    Ms. French. Well, what we would like to see done is that 
more of the responsibility be able to be given to the National 
Coalition because we believe VA is the primary medical clinic 
for veterans. But we are seeing with the hospitals I have been 
to, one or two hands for their homeless outreach team. But what 
those one or two hands do, though, is they then refer them to 
community-based organizations. The National Coalition can do 
that, and that is what they are already doing, but can do a 
better job if they had the funding behind them to spread the 
awareness.
    They already do the majority of the bulk of the work. The 
VA serves about 38,000 homeless veterans annually. The National 
Coalition does almost 60,000 veterans annually. So they take 
them from the medical standpoint, and they are the ones 
responsible for the full transition. Those community-based 
organizations are with those homeless veterans day in and day 
out. The VA just serves as a place to actually, the middle man, 
for getting the homeless veteran into a facility. So I would 
like to see more responsibility put on the National Coalition, 
and maybe then you could create room in the VA for better 
administrative staff on other issues.
    Mr. Walsh. Jack, would you like to wrap up?
    Mr. Quinn. Just to thank you, all the members and Mr. 
Chairman, for your time. I know you have a very, very busy 
schedule. But Linda Boone is with us today from the National 
Coalition for Homeless Vets, and we have a great success story 
from California with us here today.
    As Miss America pointed out, it is a multi-faceted problem, 
whether it is not just homelessness, but usually alcohol or 
drug dependency, and an unemployment problem and everything 
rolled together. One of every three homeless persons is a 
veteran. Those are undeniable statistics, and we are just here 
from our Veterans Subcommittee on Benefits, which is my 
chairmanship, to talk with you to find a way to get the money 
to the right place in time to put a dent in this number.
    So we appreciate your time and your attention. And 
ultimately we would point out also that we are arranging for a 
visit to a transitional housing facility here in Washington, 
D.C., on 16th Street when we return from the Easter break. I 
will keep you all informed, and we would love to have any of 
you join us. If you have not seen the ones back in your own 
district, we will put something together early morning and 
invite you to come along.
    Mr. Walsh. Thank you both.
                              ----------                              

                                           Tuesday, April 11, 2000.

   GULF COAST HAZARDOUS SUBSTANCE RESEARCH CENTER AND GULF COAST AIR 
                          RESEARCH COOPERATIVE


                                WITNESS

HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Walsh. Mr. Lampson is next.
    Mr. Lampson. I don't have a crown.
    Mr. Walsh. Neither do we. There is only one in the country 
that I know of. Go ahead.
    Mr. Lampson. Thank you, Mr. Chairman, Members.
    I am here to talk about the Gulf Coast Hazardous Substance 
Research Center, which is a university-based consortium, and to 
support line-item funding in the amount of two and a half 
million dollars for that center, and also funding for the Gulf 
Coast Air Research Cooperative through the EPA Office of 
Research and Development, also at the level of two and a half 
million dollars.
    I brought a number of folks with me. This is a consortium, 
as I just said, of a number of universities, that include Texas 
A&M University System, the University of Texas, Rice 
University, University of Houston, Lamar University in 
Beaumont, Texas, Louisiana State University, Mississippi State 
University, the University of Alabama, and the University of 
Central Florida, and it also enters into agreements with some 
private organizations as well.
    And if I can do so, I brought a big old group of people 
that I wanted you to know. And they are: Dr. David Cocke from 
Lamar University; Dr. Bill Batchelor from Texas A&M University; 
Dr. S.K. Hong of the University of Central Florida; Dr. Shankar 
Chellam of the University of Houston; Dr. David Constant of 
Louisiana State University; Dr. Ray Loehr of the University of 
Texas at Austin; Dr. Mason Tomson of Rice University; Dr. Alan 
Ford, chair elect of the Environmental Division of the American 
Chemical Society; Mr. George Talbert, who is the Director of 
the Texas Air Research Center; Dr. Richard Dobbs, Director of 
the Gulf Coast Hazardous Substance Research Center, and Dr. 
Jack Hopper, who is the Director of the Texas Hazardous Waste 
Research Center.
    Mr. Walsh. An impressive lineup.
    Mr. Lampson. Let me tell you, the area that they represent 
is an interesting one. We probably are involved with more 
petrochemical activity--and in my congressional district, 
probably about 20 percent of the total petrochemical processing 
capacity of the country falls within my district--but if you 
look at the area that these universities and these scientists 
here represent, it is probably 50 percent of the capacity of 
processing petrochemicals in the world, and it happens in the 
southern part of the United States.
    And so the work that they have done is critical. The center 
carries out a program of peer-reviewed research, evaluation 
testing, and development and demonstration of alternative or 
innovative technologies that may be used in minimization, 
destruction or handling of hazardous wastes associated with the 
petroleum and chemical and other Gulf Coast industries, to 
achieve better protection of human health and the environment.
    And the center has been around since 1988. Since its 
inception, they have sponsored over 400 projects, had more than 
500 principal investigators, and over 400 graduate students 
affiliated with the various universities doing these projects. 
They have produced more than 1,300 publications, theses, and 
technical presentations, and has been extremely successful in 
leveraging additional outside research support for projects 
originally funded by the center through federal, state and 
industrial research grants.
    They gained significant recognition in the United States as 
one of the major university environmental research centers, and 
the major category, areas of research are: site remediation by 
technology innovation and modification and emerging 
technologies, waste treatment, and pollution prevention. Their 
areas of technology research include: biological remediation, 
soils and sludge treatment, separations, hazardous substance 
monitoring and detection, combustion, oxidation, pollution 
prevention and modeling and risk assessment.
    They have received a number of awards including the 
Presidential Green Chemistry Award, and the State of Texas 
Governors Award for Environmental Excellence in Innovative 
Technology.
    And their transfer programs are designed to bring 
technologies for a cleaner environment out of the laboratory 
and into the field for practical application. As a component of 
the Technology Transfer Program, the center also operates the 
Gulf Coast Environmental Library as a service to the academic 
and non-academic public.
    The region that they serve represents a unique geographic, 
economic and environmental region. Its meteorology and 
climatology is dominated by the Western Gulf with extremes in 
temperature, humidity, precipitation and coastal air mass 
movements.
    The Gulf Coast has an unusual mix of large industrial 
emission sources, extensive transportation emission sources, 
significant biogenic emissions and a complex coastal 
meteorology. And these sources and the meteorology interact to 
produce ozone, hazardous air pollutants and fine particulate 
matter. Regional transport of air pollutants formed along the 
coast can affect hundreds of miles inland. Emission sources in 
the Gulf Coast region and the chemistry of hazardous air 
pollutants and fine particulate matter emitted by these sources 
are poorly understood. And you have heard that for an awfully 
long time.
    The influence of the high humidities commonly encountered 
along the Gulf Coast is unknown and the transport of pollutants 
driven by the coastal meteorology is not well characterized. 
Emission rates must be related to air quality, which requires 
good science, good engineering, modeling, information 
management and decision-making.
    And the solution, in our opinion, to the air problem lies 
in studies by local to regional research cooperatives. It is 
expedient that the Gulf Coast has the Substance Research Center 
take the lead in mounting a coordinated and integrated air 
research effort. And the main objective of the Air Research 
Cooperative is to focus on three major concerns: critical data 
gaps don't exist, unique Gulf Coast air chemistry and 
characterization, and then control of the emissions that 
contribute to Gulf Coast air quality problems. And you might 
know that Houston has been so much in the newspaper lately with 
it now as being the worst polluting city in the United States, 
having surpassed Los Angeles.
    Pollution prevention, which is a recognized strength of the 
center, will be emphasized throughout the effort. The research 
will involve diagnostic, prognostic and control studies in 
cooperation with laboratories within the Gulf Coast Hazardous 
Substance Research Center and among its member university 
researchers.
    The benefits which will flow from the improved 
understanding will be numerous: improved air quality, better 
environmental and regulatory decision-making, better and more 
focused monitoring, better applications of resources, improved 
regional economics, increased competitiveness, and reduced 
health risk, with the bottom line being the improvement of the 
quality of life in the region and continued economic health.
    And we need that, and we hope that that is what you will 
join me in doing in supporting their effort for both the $2.5 
million line-item grant for the center, as well as the Gulf 
Coast Air Research Cooperative through the EPA Office of 
Research and Development in the amount of $2.5 million.
    And I will be happy to answer any questions, and all these 
gentlemen as well.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Any questions for the witness?
    Mr. Mollohan. It is excellent testimony, Mr. Chairman.
    Mr. Walsh. Yes, it is.
    Mr. Mollohan. Coupled with the documents.
    Mr. Lampson. It is a complicated and long process to go 
through. I might mention one thing just for your consideration. 
There has been some talk in the past about the request of their 
air study being related to some extent to the Mickey Leland 
Center in Houston. It is not. That is a completely different 
process or study that they are involved with. It has to do more 
with human health as opposed to understanding the pollution 
problem and trying to determine real solutions to those 
problems so that we can begin to cause it to decline. So the 
focus is completely and totally different.
    Mr. Walsh. Well, you have done a great job presenting the 
array of tools you have to deal with this critical issue, and I 
would like to thank all of you for coming today, and it 
obviously makes it clear that it is a priority for your 
communities and for your universities, and we will give it the 
proper attention it deserves, depending on the funding we have, 
obviously, to be responsive to it.
    Mr. Lampson. Thank you, Mr. Chairman and Members.
                              ----------                              

                                           Tuesday, April 11, 2000.

     ALVIN C. YORK VETERANS MEDICAL CENTER, MURFREESBORO, TENNESSEE


                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Walsh. Good morning, sir. Welcome to the table.
    Mr. Gordon. I don't have the entourage of the previous 
ones, but it means no less maybe.
    Mr. Walsh. We are impressed with what you brought.
    Mr. Gordon. I know you all are running a little bit behind, 
so I will try to be brief here this morning.
    Four years ago you had the list and the good foresight to 
provide $2.3 million for the Alvin York VA Center for the 
renovation of three psychiatric wards. That was the 
engineering, building, design, that sort of thing. Last year 
you were once again kind enough to provide $12.7 million for 
the first of these two facilities.
    So let me quickly sort of bring you up on where we are. The 
Alvin C. York Medical Center is in my home town of 
Murfreesboro, Tennessee. My father was a grounds keeper there 
for 27 years. When I was in high school I started going out as 
a volunteer, and have regularly gone out ever since, and I am 
well aware of the needs and the good work that facility does. 
It is the only psychiatric hospital in Tennessee, so all the 
psychiatric patients in all the state come there.
    They have three of these buildings for the patients. They 
were all three built in the '40s and the '50s. Because of that, 
they are extremely overcrowded. You know, you have four or more 
to each room. You have a bathroom facility down at the end of 
the hall, and it is very difficult to serve women there in that 
kind of facility. So the VA, recognizing that it was important, 
put it on their list for their development plan. That was last 
year.
    In full disclosure, what happened is, last year's 
administration put it in their budget. I am told by both the 
minority and majority counsel of the Authorizing Committee, 
that they, be an oversight, left it out of their authorization. 
You, again, were kind enough to appropriate the $12.7 million, 
so it is setting there ready to go. Engineering, design, 
everything has been done. The committee tells me that in the 
first vehicle that they have this year, they are going to 
correct that error and put the full authorization in, so for 
you to know that.
    But it is just going to be much more economical to do all 
three--you know, be able to have a better contract for all 
three buildings, and so for $6 million more, we can do three 
rather two, rather than come back in a couple of years and have 
to pay premiums to get everything started over again.
    So that is my story. I think it is something that is 
worthwhile. We have tried to go through all the right steps. It 
has taken a long time, but we tried to do it the right way, 
because I know that a lot of folks just come in and think that 
they can grab something off the tree, and you do need to go 
through the right process.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mollohan. We appreciate that. And you have done that.
    Mr. Gordon. Thank you.
    Mr. Walsh. Any questions of the witness? Mr. Goode.
    Mr. Goode. Does this facility only treat residents of 
Tennessee or patients from anywhere in the country?
    Mr. Gordon. I don't know the answer to that. I would 
assume, they do multiple treatments in some of the other parts 
of the VA, but it is the only psychiatric one, and it is a 
specialist there, so I would assume that if there were folks 
from around the country--Louis, do you know? It gets the whole 
mid-south? Okay. So I guess Virginians would be welcome.
    Mr. Goode. I don't know if Virginia is in mid-south.
    Mr. Finkel. I believe it is based on proximity.
    Mr. Gordon. But if you had veterans that needed this care 
in Virginia, you wouldn't want them to come here right now, 
unfortunately, with the kind of facilities that they have. It 
really does need--particularly if they were women. It needs to 
be changed.
    Mr. Walsh. Any other questions or comments?
    Ms. Kaptur. I just want to say, Mr. Gordon, thank you for 
testifying, and I am glad that we are improving the psychiatric 
hospitals.
    Mr. Gordon. I am impressed that this many members of the 
Appropriations Committee are here to listen to this over and 
over. I know it can be dull. This is really impressive that you 
are taking it this seriously, to come here. I don't think I 
have ever been here before with this many members.
    Mr. Walsh. Now, this is a working subcommittee.
    Mr. Gordon. This is the most full committee that I have 
seen, and I am impressed. Thank you.
    Ms. Kaptur. He told us you were coming. [Laughter.]
    Mr. Walsh. Thank you for your consistent testimony in 
support of that facility. We understand its importance to the 
State, to the Nation, and we will try to do our best to meet 
your expectations.
    Mr. Gordon. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 11, 2000.

                      EPA/SAFE DRINKING WATER ACT


                                WITNESS

HON. JAMES A. BARCIA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Barcia. Thank you very much, Mr. Chairman.
    Mr. Walsh. You are welcome. It is good to have you back.
    Mr. Barcia. Mr. Ranking Member, and distinguished members 
of the committee, I want to begin this morning by thanking you 
for your past support with regard to a critical water project 
in my district in the upper thumb for the 5th District of 
Michigan.
    Many years ago, back in the 1800s, before the Superfund was 
created or the Mining Reclamation Act was tasked, so it wasn't 
retroactive, we had a lot of coal mining which occurred in the 
thumb, and in the process, it destroyed the underground water 
aquifer. Even though it is a community that is a peninsula that 
juts into Lake Huron, and they are surrounded by the fresh 
water of Lake Huron, the groundwater is heavily contaminated 
with barium, arsenic, lead, and a very high iron content of 
about 29 grains.
    And so over the years people have put up with the problem. 
The City of Bad Axe currently has three cisterns, which hold 
the well water, and then it is distributed to Bad Axe and the 
immediate vicinity, and it is a situation where the water 
quality is so bad, that about every two years the water heaters 
have to be replaced, and the faucets become very corroded, and 
the Michigan Department of Public Health has issued public 
warnings that the water should not be consumed, although people 
do continue to consume it.
    But when you visit that community, even the coffee that 
would be sold in restaurants, if it is the groundwater that is 
used, it is so distasteful that people notice a major 
difference even in the coffee.
    But it is a public health issue, and I want to thank the 
committee for your past support. I know several of you, by 
taking a leadership role about four years ago, this committee 
approved about $7 million in federal funding for the project. 
It passed the House. It got to the Senate and it got cut by 
half, and then got cut again to about $2 million. And then one 
year, the following year, the leadership at that time had said, 
``We will phase the funding in over three years because it is a 
lot easier to get $7 million spread over three years than it is 
to get it all in a single year.'' And we said, ``That is just 
wonderful, because the project can't be completed in that 
timeframe anyway.''
    So we started with the engineering, and the water tower is 
currently under construction, and there is a lot of excitement. 
The project grew. Also the Senate attached an amendment to the 
provision which said that it must be a 50/50 percent cost 
shared basis with the local community raising 50 percent of the 
cost of the project. So the project grew, and we now have about 
15 townships with the City of Bad Axe that would like to--they 
all have similar water quality problems, and the city, with the 
townships, have created a water authority, and they are in the 
process of bonding and borrowing about $9.5 million to 
construct a micro-filtration plant, which would provide the 
capacity and the production of the water to service the 
interior county.
    Congress, you have appropriated about $4,300,000 so far. 
The request will be--it is another $20 million project, and it 
will complete the process. If you can help us this year get a 
sizable portion to just wrap up the project, I would be so 
grateful, I would never request additional money in the----
    Mr. Mollohan. Never say never. [Laughter.]
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Barcia. As Marcy and Joe and some of you have known, I 
have had sleepless nights a couple of times when we weren't 
sure, because the community has proceeded in good faith. And it 
is a relatively small population. It is not a high-income or 
affluent area. It is a rural farming area. I think Bad Axe has 
about 1,300 people. And so it is very difficult for them to 
assume this kind of financial hardship and burden, but they 
have done it, and if there is any way you could help us with 
this last piece and finish it up, there is a tremendous 
excitement in the community about having good, fresh, safe 
drinking water, tap water, and I know that the entire region 
would appreciate it, and I would be eternally indebted to each 
of you, and I want to say that we never could have gotten to 
the point we are today without the leadership and the support 
of each of you on the subcommittee.
    And I know that you hear just numerous requests for 
tremendous, for funding for other districts, but this is one 
that involves public health. It will also involve economic 
development, of course, because we will be a more attractive 
region to reside and to perhaps start a business. But the 
primary reason is the public health, because the water is so 
badly contaminated, that it should not be consumed by the 
populace there, and unfortunately, our State of Michigan, we do 
have the state revolving fund, which makes loans, but 
unfortunately, last year--and it seems that each year for each 
of these years that we have faced this problem, only two 
communities have used up all of our state revolving fund money, 
the City of Flint and the City of Detroit. And so there is 
virtually no money left in the state revolving fund. Otherwise, 
we would have brought the State of Michigan in as a partner, 
and we don't have a precedent in which to--from the state level 
from state government, from the DNR or the other state agencies 
with the problem of environmental quality. Why they don't have 
a water program, I am not sure, but we don't, and we have 
explored every possible alternative at the state level.
    Would anyone have a question?
    Mr. Walsh. Jim, I think as a minimum, any community should 
have good safe drinking water, and I think that is something 
this subcommittee would strongly support. That is why we have 
supported the project in the past, and I can't speak for the 
subcommittee, but I think something we would like to be 
involved with. I suspect those sleepless nights might have been 
because of that coffee laced with barium and iron. [Laughter.]
    Maybe you ought to stop drinking that.
    Two questions. One, what is the quality of Lake Huron 
water? And do you have drinking water chlorinated?
    Mr. Barcia. Well, the poor oxygen plant, which the water 
will be piped approximately 17 miles to Bad Axe, but will pick 
up all the township area between--I should have brought a map--
the tip of the thumb, and the interior of the county, and it 
was rated the best-tasting tap water in the State of Michigan 
in a test that was held, a drinking water test. I don't think 
they will have to use very heavy chlorination, because the 
intake----
    Mr. Walsh. So that is the only purification they have to 
do?
    Mr. Barcia. Yes. Yes. The intake is well off the shore. It 
is in deep water, so the water has a very pleasant smell, a 
very pleasant taste to it, and the community is very excited. 
The problem is, Port Austin, also is a community of only 800 
residents, and so their plant was so tiny that they didn't have 
the capacity to generate the volume of water and also the 
pressure to pump it 17 miles. But it will be about a 7-inch 
main. And in the future, it could splinter off and other 
communities could tap into that same water source.
    And the Rural Development Administration has helped put the 
package, the loan together for the micro-filtration plant, but 
we will probably--I think the cost is $9.5 million, and the 
City of Port Austin donated 20 acres of land for the plant to 
be built.
    Mr. Walsh. Any other questions? Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    What is the cost of the total project, Jim?
    Mr. Barcia. The total cost will be about $20 million.
    Mr. Mollohan. And how much do you have so far?
    Mr. Barcia. And so far we have $4,300,000 that we have had 
from Congress. We have a commitment for about $9.5 million of 
financing for the plant, and also the water tower is currently 
under construction.
    Mr. Mollohan. Conventional financing?
    Mr. Barcia. Yes, low-interest loan.
    Mr. Mollohan. Through the state?
    Mr. Barcia. Through the Rural Development Administration.
    Mr. Mollohan. There is no state money in this at all?
    Mr. Barcia. No.
    Mr. Mollohan. Well, this kind of leveraging, you ought to 
go back to the state and get some money.
    Mr. Barcia. Well, we have tried, but unfortunately, only 
two cities have received state fund money, Flint and Detroit.
    Mr. Mollohan. Well, that is an issue you need to deal with 
it. I mean, you really do. Whether you are successful or not, 
but you really----
    Mr. Barcia. Well, we have tried, and we have been turned 
down, but we will continue. The DEQ was attending all the 
meetings, and they approved, but they were very reluctant--you 
know, they have to approve it, and they are very reluctant to 
proceed with approval until they see where the rest of the 
financing is coming from. They don't want to get a project----
    Mr. Mollohan. Who is that?
    Mr. Barcia. The Department of Environmental Quality in the 
State of Michigan.
    Mr. Mollohan. Well, everybody has that issue. I mean, we 
could have that issue. You have got to put together a financing 
scheme, and then go forward with it, if everybody stuck it 
forward. But I know you are really passionate about this, and 
it is a much-needed project, and we want to--I know, the 
Chairman wants to be extremely supportive.
    By the way, how is Bob Traxler doing?
    Mr. Barcia. He is doing very well. He lately has been 
spending his winters in Florida, but this winter stayed in Bay 
City. And I will give him all of your best. He often asks me 
how things are going, and wants me to check on people, and I 
know that if any of you have an opportunity to visit Michigan 
for any reason, Bob has a beautiful home overlooking a block of 
Mackinaw space on Mackinaw Island, and if you haven't been 
there, there are no vehicles. It is horse and buggy only. It is 
one of Michigan's top tourist destinations----
    Mr. Mollohan. It is not anywhere near this water project? 
[Laughter.]
    Mr. Barcia. No, sir, it is a long way from Bad Axe. It is 
in Bart Stupak's district right by the Mackinaw Bridge.
    Mr. Stupak. You fly over it.
    Mr. Barcia. Isn't that a beautiful island? And Bob is--I 
know that Congressman Stokes has had the pleasure of staying 
with Bob, and he would extend the invitation to each of you, 
because he misses his work on the Appropriations Committee, but 
he is also enjoying his home.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Knollenberg?
    Mr. Knollenberg. Very quickly, Mr. Chairman.
    Jim has been consistent from the very beginning in his 
request here. And you bring up a good point, Mr. Mollohan, in 
terms of the state. We have, and will continue, to put pressure 
on the state in terms of the DEQ's contribution here, but it is 
beginning to affect some other areas. As you know, Jim, we have 
people from my district to the south of you, that get up that 
way. There is some recreational activity up there, and so it is 
something that, frankly, will eventually get worse rather than 
better, and I recognize there has to be some sharing here. And 
so I have sought to help you.
    Mr. Barcia. Yes, you sure have, Joe and Marcy, and Mr. 
Chairman, and Ranking Member. All of you have been so 
supportive. I just wish we could have just gotten that first $7 
million and been done with it with a one-shot installment. It 
would have been behind us, but each year, you know, it is just 
a lot of anxiety as to whether we will be able to finish the 
project.
    Mr. Walsh. Ms. Kaptur.
    Ms. Kaptur. I agree with the Chairman in that clean water 
is a fundamental, and I can't think of a member who has worked 
harder on any project than Jim Barcia, and we want to thank you 
very much for your testimony this morning. And every single 
clean water program we have is so over subscribed, you would 
think in the 21st century we could figure out a way to do this. 
And I personally would be willing to sign a letter as a member 
of this subcommittee to the Governor of Michigan--maybe some of 
my colleagues would want to join me in that--urging the State 
of Michigan to take a look at that, and to sort of put the 
monkey on their back for a bit to say, as Ranking Member 
Mollohan said, that they have a role here, and I don't know if 
it is something that they look at on a regular basis, but I 
offer that.
    Mr. Barcia. If I can make one final comment.
    Ms. Kaptur. And any support of our Agriculture Committee 
that we can to complete this project.
    Mr. Barcia. Thank you. The one project that we face in 
Michigan, as Joe is so familiar with, and I have introduced 
legislation in the Transportation Infrastructure Committee, 
which many of you have co-sponsored, which would appropriate, 
and assuming there were sufficient revenue, about $1 billion 
for a combined sewage overflow challenges, because in Michigan 
we face--we have such a minuscule budget for water that I think 
Grand Rapids has about a $300 million tab to stop their CSO 
discharges or raw effluent and untreated sewage into Lake 
Michigan, and the City of Detroit has about a $400 or $500 
million problem. Port Huron, who you have given some money to, 
I think 3 million, I think last year, has about, again, about 
an $80 million problem. The City of Saginaw, which is just down 
the river--up-river from Bay City, has about $100 million CSO 
problem.
    So unfortunately, all of the water dollars are being put 
into trying to control the discharge of raw sewage, untreated 
sewage into our great lakes, and so the EPA, of course, and the 
State Government have applied a lot of pressure to correct 
those deficiencies first, but we will continue to explore every 
avenue for financing. And if there is a way that you could help 
us again this year, and if it was in amount sufficient, 
hopefully I won't have to ever come back. And I will be 
eternally grateful for all you have done to date, and if you 
could help us again this year, I would be most appreciative, as 
the people in my district.
    Mr. Walsh. Thank you very much.
    Mr. Barcia. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 11, 2000.

          HUD-EDI, SECTION 8, PROJECTS & TENANT-BASED HOUSING


                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Walsh. Ms. Pelosi. We welcome you, the distinguished 
members of the committee, and thank you for the fine work you 
do on HUD operations.
    Ms. Pelosi. Thank you very much, Mr. Chairman.
    Mr. Walsh. Your priorities are our priorities.
    Ms. Pelosi. I appreciate you saying that. I wanted to hear 
you say that.
    Thank you, Mr. Chairman, Mr. Mollohan, members of the 
committee. I thank you for the opportunity to testify today, 
but a bigger thank you for all of your support that you have 
given to the projects that I have testified to before 
nationally and locally in my community.
    I am going to try to stick to my notes because that will 
make it briefer.
    Mr. Chairman, I want to start on the national level, and I 
urge the subcommittee to fund the $292 million necessary to 
meet current needs and bring additional new eligible 
communities into the effective HOPWA Program as estimated by 
HIV/AIDS community policy experts. Under current HOPWA 
authority, 101 jurisdictions qualified for fiscal year 2000 
funding and the HUD estimate in fiscal year 2001 will increase 
to 105 to 111 qualified jurisdictions. Unless HOPWA funding is 
substantially increased, jurisdictions will face decreased 
service levels and could suffer decreased funding. To avoid 
these reductions, I hope the subcommittee will provide as close 
to this level as possible, but no less than the 
Administration's request of $260 million. Just last week, as 
you know, the House voted to authorize a funding level higher 
than that.
    In HUD and Section 8 Housing, I support the 
Administration's request for 120,000 new or incremental Section 
8 Rental Assistance Vouchers, and urge the subcommittee to 
provide $690 million to fully fund this request. This voucher 
for homeless individuals, 32,000 for Welfare to Work, 60,000 
distributed on a fair share basis, according to the size and 
need of local communities.
    I urge the subcommittee to provide full fiscal year 2001 
funding to renew all Section 8 properties appropriate specific 
funds to target at-risk projects and prevent tenant 
displacements. For the long term I support a new regulatory and 
legislative framework to preserve at-risk housing as part of 
the affordable stock. In the short term to ensure effective 
appropriations and maximize affordable housing preservation. I 
urge that the subcommittee provide adequate resources to fund 
preservation matching grants, which experts have estimated at 
$300 to $500 million. Specifically, I request funding for the 
Vento-Ramstad preservation bill as modified to supplement the 
currently formulate state and local jurisdiction grants to 
allow for direct HUD funding to non-profit and/or tenant 
organizations. This approach leverages our federal investment 
with additional local monies and limits taxpayer expenditures 
by focusing on socially motivated owners.
    The next is the environment--that is for HUD. I just wanted 
to go to the CDBG for a second before I leave HUD. I hope that 
the subcommittee would include $2 million for CDBG/EDI funds. 
The program support and capital commitments for the Center for 
Economic Development at the University of San Francisco. I was 
at the national level. I am now going to the local level, but 
this is a program of national significance, I hope the 
committee will agree.
    This center will expand its focus on three areas: inner-
city business incubator, family-owned business promotion, and 
Latin-American trade expansion. This funding will enhance 
University of San Francisco small business and trade promotion 
activities.
    I hope you will include $500,000 in CDBG/EDI funds to 
assist Mercy Housing expand its development and management 
activities providing technical and financial assistance and 
services to increase the production of affordable housing for 
low-income Americans. Currently Mercy Housing, as you may 
know--I am sure you do know--provides services in an 18-state 
service area, and has a capacity to leverage matching 
investments from foundations, corporations, the faith-based 
community and local government.
    And while still on CDBG, I hope--I respectfully request 
that the subcommittee provide $1.5 million for transitional 
housing services to assist homeless adults with families in San 
Francisco. Between 8,000 to 10,000 homeless persons live in San 
Francisco and have special needs. This is especially important 
for people coming out of hospitals. That is, whether it's 
domestic abuse, substance abuse, those kinds of things, or the 
criminal justice system, to help them reunify with their 
children; and programs targeting chronically homeless men, to 
prepare them to live independently.
    Then I wanted to talk about EPA for just a moment. The 
California Urban Environmental Research and Education Center. 
On behalf of a bipartisan group of 18 California members, I 
request $1 million to help California Urban Environmental 
Research and Education Center expand its partnerships with 
universities and local environmental organizations to foster 
grassroots environmental protection throughout California. For 
every federal dollar invested, the partners in the CAL State 
University System provide a 50 percent local match that helps 
communities learn about and resolve environmental issues 
through educational services of expert CAL State and small 
private colleges. This is an 18-member joint request.
    And I think that I do want to associate myself with all of 
the testimony in support of the clean water program, and we 
have some needs in our community as well, at the San Pablo 
Baylands Stewardship Management Plan Implementation, which I 
will submit for the record.
    Again, I thank the committee for your past support. Nice to 
see you here, Mr. Goode. And I urge your support of these 
requests. Thank you. I am pleased to answer any questions you 
may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much. Are there any questions of 
the witness?
    Mrs. Meek. I just want to commend you for having a well-
organized presentation in such a way that we can really 
understand what she is offering, and they are all very good.
    Ms. Pelosi. Thank you, Mrs. Meek. Thank you so much.
    Mr. Walsh. Thank you, Nancy.
    Ms. Pelosi. Thank you members, Mr. Chairman, Mr. Ranking 
Member.
                              ----------                              

                                           Tuesday, April 11, 2000.

                      VETERANS INDEPENDENT BUDGET


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Walsh. Mr. Stupak.
    Mr. Stupak. Thank you.
    Mr. Walsh. Welcome.
    Mr. Stupak. Mr. Chairman, just a couple issues I want to 
bring up specifically to my district, but first a couple of 
other things, if I may first.
    The Veterans Independent Budget, as you know, there is an 
increase proposed by the administration, a $1.36 billion, and 
the Independent Budget proposes for veterans $1.9 billion for 
veterans' health, and I would strongly support the $1.9 billion 
level. I realize that under limited circumstances you are doing 
the best you can, but we pay a lot of service to the veterans, 
and when you look at veterans' health, it is a big need.
    Along those lines, if you would increase that funding, then 
things like CBOCs, the Community Based Outpatient Clinics, 
which where there were none in my district when I first came 
into Congress, now we have six of them, so if we could increase 
funding to our veterans, I am sure I would see at least one or 
more CBOCs in my district. They have been a great, great help.
    And if I may, let me bring you to an issue for your input 
and maybe some suggestions. Veterans, when they have to travel 
for medical reasons, they get $6 a trip. Well, if you have a 
payment area like Iron Mountain Veterans Hospital in my 
district, that is 26,000 square miles. And after three trips, 
you get $18, and that is the most you can get in a month. 
Anything you go over $18, then you get 11 cents a mile.
    I am going to try to introduce legislation would increase 
the current travel reimbursement rate. For some of these guys 
who are traveling 400 miles one way, you give them $6 for the 
trip for their gas, that won't even get them out of town let 
alone get there and back. And you are only allowing them three 
trips.
    Mr. Walsh. Four hundred miles one way?
    Mr. Stupak. Oh, yes, easy. In my district, oh, yes. If you 
are coming from Sault Ste. Marie, you have to go to Iron 
Mountain. That is 325 miles. But because Iron Mountain has 
limited facilities, then they say, well, good to see you here, 
but you have got to go down to Milwaukee, Wisconsin. Now, that 
is another 200-some miles, so that is probably about 530 miles 
one way. And if they take their own car, that is where they 
are. Now they can drive to Iron Mountain, jump a bus, get on 
the bus, but the bus--then they are there 3 days because the 
bus drops you off and doesn't come back for another--every 
other day. Travel in the area is just amazing.
    Mr. Walsh. Like New Jersey, right, Rod?
    Mr. Frelinghuysen. Sure.
    Mr. Stupak. So that is one we are looking at. The 
Legislative Council is trying to work with us on how best to 
address it. We realize it is going to put a squeeze on other 
services for veterans. But I am talking about basically guys 
who are totally and permanently disabled, get the 
reimbursement, and travel for them--and many times they have to 
go with the specialized van that they have already, or a DAV 
van will pick them up. But it is really been a hardship for 
them, and it is one that has been brought to my attention more 
than once in the last year, and so it is something I think we 
have to take a look at, reimbursement rates.
    Mr. Chairman, from my district there are two projects we 
are looking at, which is Sault Ste. Marie Community Action 
Agency. They have actually built fine facilities for seniors in 
downtown Sault Ste. Marie, and they have spent something like 
$9.3 million. The whole project was $9.575 million. They are 
short about $300,000. We would hope that this committee could 
see to maybe appropriate them about $300,000 to finish up their 
project. It is an innovative concept of providing affordable 
housing to seniors while revitalizing the downtown area. 
Actually, it has been looked at as sort of a showcase for 
small- and medium-size businesses--or cities throughout the 
United States. So I hope you could take a close look at that.
    The other earmark, if you will, that I am asking for in my 
district is $500,000 for Northern Initiatives. This was really 
going to be working with Michigan Technological University on 
the western end of the Upper Peninsula. They are going to do 
``Smart Park,'' if you will, and this will be an incubator for 
the western end of the Upper Peninsula to focus on technology 
transfer and commercialization of university research. So those 
would be the two projects I would be looking at: $300,000 for 
Sault Ste. Marie to finish up that Avery Center, and also 
$500,000 for Northern Initiatives.
    Last, but not least, I would just like to support Habitat 
for Humanity and the President's request for $7.5 million for 
capacity building and $17.5 million for the SHOP program. And I 
would ask the subcommittee to consider going above the 
President's request to provide $10 million for the Habitat's 
Capacity Building program and another $20 million for the SHOP 
program. I have 28 counties in my district, as you know, Mr. 
Chairman, and Habitat for Humanity provides a good service for 
these folks. We are out there every spring, as I am sure you 
are, helping them all with these homes. And it is just a good 
investment. The Capacity Building program and also the SHOP 
program, I think we could put a few more bucks in and really 
have benefits for everyone throughout this Nation, not just my 
district but everyone else.
    So those would be my requests, pump up the budget here and 
there, and just two small requests for my district. Any 
questions?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony.
    Mr. Mollohan, any questions?
    Mr. Mollohan. Thank you for your testimony.
    Mr. Goode. Mr. Chairman, may I ask one question?
    Mr. Walsh. Mr. Goode, sure.
    Mr. Goode. How much is the independent VA budget over what 
the President submitted? You stated the number, and I missed 
it. Did you say--he asked for $1.3 billion over last year, and 
you were asking for $1.9 billion?
    Mr. Stupak. Correct.
    Mr. Goode. $600 million.
    Mr. Stupak. Correct, one-tenth of 1 percent of projected 
surplus, about $700 billion, so if we can do one-tenth of 1 
percent of projected surplus, we should be able to help out 
here.
    Mr. Goode. You would place that as a higher priority than a 
lot of other things requested.
    Mr. Stupak. Yes, I really would, because I think we have to 
take care of our veterans now. They are an older group right 
now. Their costs, their medical demands are a little bit higher 
than normal because they are an older group of veterans. And as 
we get older, the costs go up, and I think we have got to keep 
pace with it if we can.
    Mr. Walsh. Thank you, sir.
    Ms. Kaptur. If I may, Iron Mountain, is that a clinic or a 
hospital?
    Mr. Stupak. That is a hospital. But there are very few 
inpatient beds left, maybe 13, and we have had to fight to save 
them. So most of them go to Milwaukee. So when our people go on 
the road to the hospital, they may very well end up on the road 
for 3 to 5 days because the bus only comes every other day. So 
they drop you off, and if you missed your appointment, then you 
sit there for 3 days for no reason.
    Mr. Mollohan. We have the six counties----
    Mr. Stupak. Yes. The CBOCs have been very good to handle 
the small stuff. But when we get into medical surgeries, things 
like that, they usually go outside.
    Mr. Walsh. Thanks.
    Mr. Stupak. All right. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

               HOUSING OPPORTUNITIES FOR PEOPLE WITH AIDS


                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Walsh. Welcome to the committee, the subcommittee. Good 
to have you here.
    Mr. Nadler. Thank you, Mr. Chairman and Ranking Member 
Mollohan, for allowing me to testify in front of the 
subcommittee today. I am pleased to speak in support of 
requesting an appropriation of $292 million for HOPWA, the 
Housing Opportunities for Persons With AIDS for fiscal year 
2001.
    The HOPWA program is critically important to thousands of 
people living with HIV or AIDS and their families and their 
communities in States across the country.
    As you know, just last week, the House voted to raise the 
fiscal year 2001 authorization of HOPWA from the 
administration's request of $260 million to $275 million. This 
was an important first step toward adequately funding this 
crucial program, and I am gratified by the action. I urge the 
subcommittee to appropriate $292 million, which is the amount 
identified by the leading organizations of the AIDS community 
as necessary for HOPWA to continue to address the housing needs 
of those living with HIV and AIDS. And the reason, this figure 
is derived basically by saying how much will it cost to 
maintain the current level of services given the additional 
numbers of people and communities signing up.
    As you know, HOPWA is voluntary, and additional communities 
sign up every year, and because people are living longer with 
AIDS, people stay alive longer, need housing services longer, 
and more people keep coming in, and the 292 figure is what 
would be necessary to maintain the current level of services 
for the increasing number of communities and people coming into 
the program.
    One hundred and seven Members from both sides of the aisle 
have demonstrated their support for this funding level by 
signing a letter to the Appropriations Committee urging the 
$292 million appropriation. At any given time, one-third to 
one-half of all Americans with AIDS are either homeless or in 
imminent danger of losing their homes. These are people who 
face discrimination or who have lost their jobs due to illness 
or, most cruelly, are placed in the untenable position of 
choosing between expensive life-saving medications and other 
necessities such as shelter.
    HOPWA is the only Federal housing program that specifically 
provides cities and States with the resources to address the 
housing crisis facing people living with AIDS. Among the 
services HOPWA delivers are rental assistance, help with 
utility payments, and information on low-income housing 
opportunities.
    It is also a critical element in the effective treatment of 
HIV and AIDS. There is a clear link between stable housing and 
the ability of individuals living with HIV to live long and 
healthy lives. Some people responded so well to new therapies 
that they have been able to go back to work after years on 
disability. But these treatments require a stable living 
environment to be effective. Especially when you have to take 
the regimen of 20 or 30 different pills at specified times, you 
need a stable environment. To deny individuals the means to get 
healthy would be a terrible cruelty.
    HOPWA is a locally controlled program that provides maximum 
flexibility to States and communities to design and implement 
the strategies that best respond to local housing needs. It 
also supplies a low-cost alternative to acute care hospital 
beds, typically paid for with Medicaid dollars, which are often 
the only available shelter for people living with AIDS.
    In fact, whereas an acute care facility would cost on 
average $1,085 a day under Medicaid, assistance under HOPWA 
averages just $55 to $110 a day. Clearly, it is in our interest 
to increase our support for this cost-effective program.
    Currently, fiscal year 2000 funds are serving people in 67 
cities and 34 States. It is a well-run, far-reaching, and 
successful program. But as the success of HOPWA grows, so, too, 
does the need for funding. As a result of the recent advances 
in care and treatment, the people currently being housed are 
living longer and the waiting lists for these programs are 
growing even longer. On top of these strains on the program, 
new geographic areas join HOPWA each year. Without a 
significant increase in funding, it will be unable to 
adequately serve even those already in the program, not to 
mention those who now seek to join it.
    The housing crisis facing people living with AIDS or HIV 
exacts an enormous toll, personally and economically, on 
individuals, their families, and communities across the 
country. HOPWA dollars help lessen this toll. I urge you to 
fund HOPWA at $292 million to ensure that communities across 
the country have the necessary resources to address the housing 
needs of their citizens who have fallen ill with AIDS.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your testimony and your strong and 
consistent support for people with AIDS and HIV, and I know 
this is an issue the subcommittee takes seriously.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. I appreciate the 
witness' testimony.
    Mr. Nadler. Thank you.
    Mr. Walsh. Any other questions or comments for the witness?
    Ms. Kaptur. I just wanted 15 seconds.
    Mr. Walsh. Ms. Kaptur.
    Ms. Kaptur. Jerry, in New York, how have these dollars been 
used? Have they been used for multiple housing units? Are they 
group homes? Are they individual units? I am just curious.
    Mr. Nadler. They have been used in a variety of ways. In 
fact, they have been used every way you mentioned.
    One of the nice things about the HOPWA program is that it 
affords maximum flexibility for local governments, so they have 
been used for that, they have been used for group homes in New 
York. They have been used mostly in multiple dwellings. That is 
what we have in New York. There may even be some single-family 
homes, though I don't know that.
    Ms. Kaptur. Are any of those operated by some of the----
    Mr. Nadler. Oh, sure.
    Ms. Kaptur [continuing]. Health organizations or 
volunteer----
    Mr. Nadler. Yes, there are--when I said group homes, they 
are generally operated by some nonprofit health organization.
    Ms. Kaptur. Thank you very much.
    Mrs. Meek. I just wanted to thank you, Jerry, for your 
long-time support of HOPWA.
    Mr. Nadler. Thank you.
    Mr. Walsh. Thank you, sir.
                              ----------                              

                                           Tuesday, April 11, 2000.

                        CHESAPEAKE BAY WATERSHED


                                WITNESS

HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Walsh. The gentleman from Maryland, welcome. Mr. 
Chesapeake Bay.
    Mr. Gilchrest. Good morning, Mr. Chairman, gentlemen.
    Mr. Walsh. I always like to note that the Chesapeake Bay 
begins in my district, where the Susquehanna River rises in the 
southern part of my constituency.
    Mr. Gilchrest. You have Cooperstown?
    Mr. Walsh. No, but actually there are several rivers, the 
Susquehanna, the Shenango. The Shenango flows into the 
Susquehanna, and the Shenango rises in Cortland, New York, 
which is still a bit farther north than Cooperstown.
    Mr. Gilchrest. Beautiful part of the country.
    Mr. Walsh. Yes, it is.
    Mr. Gilchrest. Catskills.
    Mr. Walsh. Actually, it is even farther west than 
Catskills.
    Mr. Gilchrest. Do you have the Catskills?
    Mr. Walsh. I do not. I think Ben Gilman and Maurice Hinchey 
do.
    Mr. Gilchrest. I see.
    Mr. Walsh. Anyway, it is like the Garden State. [Laughter.]
    Mr. Gilchrest. Well, Mr. Chairman, I want to talk about 
four programs that affect the Chesapeake Bay and our district. 
It is the Chesapeake Bay Program, Oyster Habitat Restoration, 
Small Watershed Grants Program, and Somerset County Waste Water 
Treatment Plan Upgrades, which is a small, little, very rural 
farming fishermen community on the lower part of the Eastern 
Shore.
    The Chesapeake Bay Program, we are asking $19,517,400. It 
is a multi-agency effort that has been in effect since 1983, 
and what it has been able to do is understand the nature of the 
habitat--how to sustain the habitat in and around the 
Chesapeake Bay in order to sustain the fisheries, sustain 
agriculture, sustain habitat on the upland areas so that the 
Chesapeake Bay region can retain its natural setting that 
nature intended over the past tens of thousands of years with 
the continual onslaught, I guess, if I can put it in those 
terms, of human development.
    Nature is very dynamic, and the Chesapeake Bay Program is 
trying to understand how that dynamic fits in with human 
activity. It is always changing, it is always vibrant, and 
human activity has a tendency to be there. It is not dynamic. 
It is one big dull thud that has an interaction, mostly 
negative, with the natural processes.
    So the Chesapeake Bay Program, being a multi-agency 
program, whether it is NOAA, EPA, Fisheries Service, Fish and 
Wildlife, even the Department of Agriculture, how do we have 
this human presence in this very sensitive environmental 
watershed and sustain both, economically and environmentally?
    So it is a very positive program that has been very 
successful. It is not a program that ends because human 
development doesn't end, human activity doesn't end. So how do 
we continue to understand the very critical dynamic between the 
two? So it has been and continues to be a successful program.
    The next is Oyster Habitat Restoration. This is a $100 
million effort over the next 10 years; $50 million will come 
from two States, Maryland and Virginia. The other $50 million 
will come from various Federal agencies, the ones I just 
mentioned to you, will contribute--for example, we are asking 
your committee to give $1 million toward this annual 
appropriation, and that will come from various other Federal 
agencies to contribute over 10 years the Federal contribution 
of $50 million. The reason we think this is a pretty vital, 
important program is because it has been known for a long time 
that oysters filter nutrients in the water column in the 
Chesapeake Bay. It used to be 100 years ago that oysters could 
filter the entire Chesapeake Bay in 3 days so it kept the water 
quality in harmony and it kept it clean. The oyster population 
now compared to 100 years ago is about 2 percent of what it 
was. Ninety-eight percent of the oyster population is gone. So 
the bay basically doesn't filter itself anymore. We have to do 
this. Like a prosthesis, what is stronger, your arm or an 
artificial arm? We are trying to artificially filter the bay, 
and it just doesn't work.
    So over the next 10 years, we want to restore 10 percent of 
what the oyster population was of about 100 years ago. That is 
what this $100 million over 10 years is going to do. But they 
are not just going to restore oyster reefs like you have heard 
about. Oyster reefs are what used to be in the Chesapeake Bay. 
The reefs could be as high as 20 feet or 30 feet. They would 
just break the surface of the water.
    By doing that, several things happen. One, the number of 
oysters would filter the bay. Two, because of the close 
proximity and the mass amount of oysters, the population would 
continue to grow, and the ability to procreate was a thousand 
times better because when the oyster spat goes into the water 
column, the water will carry it away. And unless it lands on 
another oyster, it is not going to take seed.
    The other thing is after 10 years of restoring 10 percent 
of the oyster population, you will have a basic principal, like 
a big bank account, and you can then draw on the interest. You 
would never have to draw on the principal. The principal can 
actually continue to grow while you draw on the interest, and 
that interest will be more oyster production or more oyster 
harvest than we have right now. And it would be at that point 
that the oyster population would continue to expand. The $100 
million would have done its job tenfold, and then you wouldn't 
need that program anymore.
    The next one on the list is Small Watershed Grants Program, 
$1,500,000. This has been a twofold successful program. One, it 
is an educational program. It not only goes to schools, Boy 
Scouts, Girl Scouts, but it goes to senior citizen centers. It 
goes to planning agencies. It goes to county commissioners, and 
a whole range of people have begun to build on this program by 
growing oysters, for example, in the creek right behind their 
house or helping to restock the rockfish or assuring habitat 
for crabs. So that has been a successful program.
    The last one, Somerset County Waste Water Treatment Plant. 
Somerset County is a very rural community on the lower Eastern 
Shore where the two main sources of income are from farming and 
from fishermen, from watermen. These little communities are 
struggling with upgrades on their sewage treatment plants. 
There are four sewage treatment plants. This $4 million will go 
the entire way that is necessary to reduce the nutrients, 
mostly nitrogen, and some phosphorous, coming out of these 
sewage treatment plants, which basically are fouling the areas. 
For example, the watermen can't catch the oysters near the 
outfalls because of the fecal coli count, the high nutrient 
count, and too many nutrients which causes problems with oxygen 
in the water and a whole list of other things.
    The point is these four sewage treatment plants with their 
upgrades complete with nutrient removal, the water would be 
much improved. The economy will be improved because the fishery 
habitat will then benefit from it.
    So, Mr. Chairman, that is it in a nutshell.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your advocacy for the 
Chesapeake Bay. If every estuary or body of water in the 
country had an advocate like you, the water in this country 
would be a lot cleaner.
    Mr. Gilchrest. Thank you.
    Mr. Walsh. And I mean that. This subcommittee I think has 
been helpful over the years. We have never provided less than 
the President has requested for the Chesapeake Bay Program. It 
is of critical importance to that region. What you learn there, 
that is all of our coast, Florida----
    Mr. Gilchrest. New Jersey.
    Mr. Walsh. Marcy has some seashore on the Great Lakes, 
which we learn from all of these endeavors, and we thank you. I 
have never asked you a question on this that you didn't know 
the answer to, Wayne.
    Mr. Gilchrest. You might not want to ask me anything today, 
then. We don't want to break that streak. [Laughter.]
    Mr. Walsh. Does anyone have any questions of our witness? 
Mr. Mollohan.
    Mr. Mollohan. Mr. Chairman, I would just say advocacy and a 
more generous budget resolution.
    Mr. Walsh. Yes, right. We are working on the latter.
    Mr. Mollohan. I am glad to hear that.
    Mr. Walsh. Marcy.
    Ms. Kaptur. I just wanted to ask about the continuing 
problems of Chesapeake Bay, to what extent are we still getting 
leeching from the poultry industry at Delmarva? And in your 
judgment, how close are we to resolving that, and are any of 
those companies participating in the Chesapeake Bay Program?
    Mr. Gilchrest. The poultry industry--farming in general has 
been--you know, most of you here probably have some farming in 
your communities, so you have a tendency to have farmers that 
don't want to change. But then the younger farmers do, so the 
poultry industry has come on, somewhat begrudgingly, but we 
were always enthusiastic, talking right to the top dogs with 
Tyson or Purdue or ConAgra or whoever. We brought them into a 
room. We sat them down with some hydrologists, some soil 
scientists, and we explained to them how it all worked, how the 
complex nature of soil and water and nutrients mixed.
    So we have come a long way, Marcy. Purdue, for example, 
understanding the nature of nutrients from poultry litter, 
contaminating the groundwater and the Chesapeake Bay, has 
decided on every one of his farms--and there are well over 
1,000--to take all the poultry litter from those growers, 
pelletize it, and turn it into compost, and then bring it up to 
the Northern Shore where we have a phosphorous deficit, or ship 
it out to the Midwest where they may need it, where fertilizer 
that the ratio between nitrogen and phosphorous is then a much 
better ratio than it is in the natural state.
    So USDA has worked very well with the Chesapeake Bay 
Program to come up with a nutrient management plan for 
agriculture to reduce those problems.
    Ms. Kaptur. Thank you.
    Mr. Gilchrest. You are welcome.
    Mr. Walsh. Anyone else?
    [No response.]
    Mr. Walsh. Thank you, Wayne.
    Mr. Gilchrest. Thank you.
                              ----------                                


                                           Tuesday, April 11, 2000.

                            INDIANA PROJECTS


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Walsh. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Walsh. We welcome the gentleman to the subcommittee 
today, and we certainly have great respect for his abilities on 
the full committee. Glad to have you with us today.
    Mr. Visclosky. Mr. Chairman, Mr. Mollohan, and other 
members of the subcommittee, I understand you have my complete 
statement in the record.
    Mr. Walsh. Yes, we do.
    Mr. Visclosky. I just wanted to come today, first of all, 
to thank you, Mr. Chairman, Mr. Mollohan, and others for your 
careful consideration last year and for your generosity.
    I do have a number of requests in my statement. Over the 
years our staffs have worked very closely as we approach markup 
as well as conference. I would like to continue that practice 
and do believe, as I sit here today, I will again receive your 
careful consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you. We are overwhelmed by your brevity.
    Mr. Mollohan. Thank you, Peter.
    Mr. Visclosky. Thank you very much.
    Mr. Mollohan. Excellent way to make your case.
    Mr. Walsh. Possibly the best presentation of the day.
    Mr. Mollohan. Yes. [Laughter.]
    Mr. Visclosky. I will stop while I am ahead, Mr. Chairman.
    Ms. Kaptur. Just out of curiosity, Peter, are there two, 
three, four, five, six, ten, 25, or 35 requests?
    Mr. Visclosky. Five.
    Ms. Kaptur. Okay. Thank you.
    Mr. Visclosky. Five with an asterisk, Ms. Kaptur. 
[Laughter.]
    Six, if you----
    [Laughter.]
    Mr. Walsh. Thank you very much.
    Mr. Visclosky. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 11, 2000.

       MOLLALLA, OREGON, COMMUNITY LIBRARY AND TECHNOLOGY CENTER


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Walsh. Ms. Hooley, we welcome you to the subcommittee 
today.
    Ms. Hooley. Thank you.
    Mr. Walsh. Your testimony will be submitted for the record 
in its entirety, and if you would like to give us a brief 
summation, we would be delighted.
    Ms. Hooley. I would love to give you a brief summation. 
Thank you very much for letting me do this. I want to mention 
three projects, and I also understand how tight money is and 
the caps are.
    The first is for a small community that is in Mollalla. It 
is a small rural community that used to live on timber 
receipts, and now it has sort of been left behind. And what 
they are trying to do is catch up with the modern-day world and 
become a much more knowledge-based community. And so instead of 
throwing in the towel, what they did is they leased from the 
school district the old high school in which they want to build 
the library and a technology center. And they have raised most 
of the money for this project. What they are desperately still 
needing is $100,000 for construction. Hopefully we can get that 
out of the community block grant program for bricks and mortar, 
and it will complete this project for a really poor rural 
community.
    The other projects are three small communities that really 
need help with their water systems. I am only going to talk 
about one and that is Adair Village that used to be an Army 
post up until the late 1970s. And when they turned it over to 
the community to use for housing and become a little village, 
they left the water transmission lines in bad shape. They lose 
two-thirds of the water getting it to their homes. This is a 
community of 294 people, mostly low-income people. They have 
already incurred $350,000 worth of debt for their water system. 
They can't afford any more. They just can't pay it. And so to 
fix their current system, find out where the holes are and plug 
them up or put new pipes in, what they need is $450,000 to go 
with their $350,000. And, again, this was the Federal 
Government's property. They turned it over so the public could 
use it.
    And then last, but not least, as a former teacher, I want 
to talk to you about an environmental learning center. This is 
for the West Linn-Wilsonville School District. They have 
purchased land, a house and a barn and three acres between an 
existing middle school and a brand new grade school. It has got 
lots and lots of wetland areas, and so they want to put in an 
environmental center which would run year-round. They figure 
they would educate about 7,000 students a year. And what they 
are looking for is money to renovate the existing facilities 
and construct the nursery, which is $600,000. And, again, this 
is to study wetland restoration, participate in wildlife 
preservation, and the center's natural flora in the nursery.
    That is it. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much.
    Ms. Hooley. See, they are all very modest. Did you notice 
that?
    Mr. Walsh. Any questions of our witness? Mr. Mollohan?
    Mr. Mollohan. Thank you, Mr. Chairman. I appreciate the 
witness' testimony.
    Ms. Hooley. You are welcome.
    Mr. Walsh. Thank you so much. We will give it full 
consideration.
    Ms. Hooley. Thank you. Just remember, it is modest.
    Mr. Walsh. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

  ECONOMIC DEVELOPMENT INITIATIVE AT DEPARTMENT OF HOUSING AND URBAN 
                              DEVELOPMENT


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Walsh. We welcome the gentleman from Indiana to the 
subcommittee. Your testimony will be submitted for the record. 
If you care to summarize, that would be welcome.
    Mr. Roemer. All right. Thank you, Mr. Chairman and members 
of the committee. I appreciate your time and your patience with 
many requests.
    My first request would be to bring to your attention, I am 
asking for $2 million in Federal assistance from the Economic 
Development Initiative at HUD for the demolition and 
revitalization of the Studebaker corridor in downtown South 
Bend.
    Downtown South Bend is my home district, where I was born 
and raised, and in 1963, the Studebaker plant employed over 
19,000 people. We have brick buildings that are still scattered 
all over downtown South Bend that are still there, that are 
starting to fall apart, that are eyesores to the community, and 
we need a way for demolition and then revitalization of our 
downtown community. And we have had a study to look at how to 
put this together. A community task force has developed an 
aggressive 10-year plan calling for the demolition of the 
majority of these facilities, a clean-up, a remediation, and 
then a development of a light industrial park that will offer 
business services, warehousing, and a safe and consolidated 
home for light industry.
    They estimate that this plan could cost as high as $30 
million. You can imagine how many buildings are still left. 
Studebaker, I think, was one of the top three or four car 
manufacturers in the United States at that time, so there is 
still a host of warehousing and facilities that are still 
scattered up across the horizon.
    Second, I would like to bring to your attention a request 
for $300,000 in Federal assistance, although the HUD EDI funds, 
for the installation of a natural gas and electric service to 
the Harrison Ridge subdivision project in Elkhart County.
    Without going into all the details, this is a provision 
that is in partnership with Habitat for Humanity of Elkhart 
County, the main sponsors of the Harrison Ridge project, and 
they have worked with the Indiana Housing Finance Authority, 
the Indiana Department of Commerce, the Federal Home Loan Bank 
of Indianapolis, and local community partners to secure over 
$1.3 million in loans and grants. This final $300,000 request 
is the final obstacle to completion of a very promising project 
to try to increase home ownership in this area.
    We are having a huge, huge infusion of Hispanics into the 
area. In the Wall Street Journal the other day, it said that 
Indiana as a percentage was in the top four States of the 50 
with Hispanic population coming into our State, and we are 
trying to encourage in innovative and new ways home ownership 
rather than just rental, and this is a way of partnering with 
Habitat for Humanity to try to encourage that. And as I said, 
this is the missing piece of the puzzle of the $1.3 million 
project.
    So I appreciate your attention to both those concerns, one 
a big concern for the city of South Bend to finally remove some 
longstanding obstacles to downtown revitalization of our inner-
city area with the Studebaker buildings, and then a small 
project with Habitat for Humanity. And I would be happy to try 
to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony. One of 
the real challenges of this subcommittee is reinvesting in our 
cities and helping them to transition from old industry to new 
and weak neighborhoods to strong, and so we applaud what you 
are attempting to do and we will do the best we can to support 
you.
    Any comments or questions, Mr. Mollohan?
    Mr. Mollohan. I thank the witness for his testimony, Mr. 
Chairman. Have you looked at brownfields?
    Mr. Roemer. We have. We have looked at that over the years 
to see where we might be able to go for funding there, too.
    Mr. Mollohan. Okay. I just wanted to say thank you, Mr. 
Chairman.
    Mr. Walsh. Thank you, sir.
    Mr. Roemer. Thanks.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            OREGON PROJECTS


                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Walsh. We welcome Mr. Blumenauer to the subcommittee. 
What a tie.
    Mr. Blumenauer. I figured I would want to be in style.
    Mr. Walsh. It caught our attention. Your entire statement 
will be in the record, and if you would care to summarize, we 
would appreciate that.
    Mr. Blumenauer. Just two points, briefly, and I do 
appreciate your courtesy today, notwithstanding my tie.
    As the subcommittee may know, I have been focusing my 
efforts here on things that promote livable communities, ways 
that we have better partnerships with the Federal Government in 
concert with local governments, with the private sector, 
simpler common-sense efforts that create value, that provide 
positive models, and do promote more livable communities.
    I come before you today referencing two specific items that 
I hope you will pay special attention to. I have been working 
for over a dozen years with people in Portland. In the private 
sector and local government, we have used some creative efforts 
actually from the subcommittee and Federal money from HUD with 
the creation of a little streetcar that actually is now coming 
to fruition. It is going to open next year with less than $4 
million of Federal money. It is a $75 million project. The 
Federal money jump-started the project that has promoted 
substantial private investment and other local governments, and 
it is opening up an area of our downtown.
    We have an opportunity to extend it further. We have the 
city and our university together with the private group that 
have come together with a joint request for $3 million from the 
Housing and Urban Development Department's Economic Development 
Initiative that will extend the streetcar, open up literally 
thousands of new housing units, ten thousand jobs, and enable 
the university to do more in terms of its public and private 
partnerships.
    I think it is really an extraordinary effort. It has 
spawned a lot of other additional initiative. I would hope that 
the subcommittee would look at it. I don't think you are going 
to leverage more money in any other place. I would imagine the 
Federal income tax dollars that are going to come from this 
would more than offset the amount that we are talking about. 
And I do believe that it is an extraordinarily powerful model 
that you could see in other communities.
    The other speaks to a regional housing afforability 
initiative where there is $1 million from the Housing and Urban 
Development Department Economic Development Initiative for a 
regional affordable housing effort.
    As you know, affordable housing is a problem throughout the 
country, and in the Portland metropolitan area where we have 
had an urban growth boundary, we have been doing some things 
that some people are looking at and scratching their heads. We 
have had the local government----
    Mr. Walsh. Urban growth boundary?
    Mr. Blumenauer. An urban growth boundary. Under State law, 
there is a line that is drawn that focuses urban development 
within the line. We don't build on the farm and forest land 
outside the boundary. It has enabled us, as one of the few 
metropolitan areas in the country, maybe the only metropolitan 
area in the country, that is expanding population much more 
rapidly than it is expanding the urbanized area.
    We increased 42 percent in population, 20 percent in 
urbanized area. Chicago, it has been like 10 to 1 the other 
way.
    But part of what we are trying to do is make sure that the 
housing for people in lower-income are a part of that process, 
and we have all the regional governments coming together with 
the housing authority, with our regional government, the major 
cities and counties to jointly promote affordable housing, 
which some people are trying to, you know, keep at arm's 
length. But here the people are coming together to actually try 
and promote it.
    I think at a time when we don't have adequate public 
housing around the country, when we have been wrestling with 
the issues of how to promote it, being able to provide a little 
incentive for a regional effort to step up and do some 
pioneering efforts has, I think, real potential. And this in 
the long run, I think, is going to, again, reduce the pressure, 
and I have great sympathy for what you are dealing with in the 
subcommittee, and I know you have got a number of us coming in 
and pleading our cases. But these are two areas that are going 
to promote housing, they are on a regional basis, they are 
cooperatives, they are people that are combining their 
priorities. And I think it is safe to say that people around 
the country are looking at our region and thinking that maybe 
we are doing some things that are a little different and have 
application.
    You have an opportunity here to really help jump-start a 
couple that would make a big difference, and I would 
respectfully request your consideration.
    I appreciate your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for you testimony. We have a little 
time. I am just curious. A single-family, three-bedroom home in 
a modest neighborhood in Portland, how much could that sell 
for?
    Mr. Blumenauer. The average home price for Portland is 
about $165,000.
    Mr. Walsh. Are they strong neighborhoods, weak 
neighborhoods?
    Mr. Blumenauer. Actually, as a result of some of these 
policies, we are finding that there are fewer and fewer of what 
you would call weak neighborhoods. In the census tract, in the 
heart of the metropolitan area that was the poorest census 
tract in the region, housing values have double in the last 10 
years.
    Mr. Walsh. That is phenomenal.
    So every area of the city has appreciated in value?
    Mr. Blumenauer. We are seeing remarkable appreciation, and, 
in fact, the home builders have an afforability index, and I 
have been trying to figure out why they rate Portland as one of 
the least affordable. I mean, Santa Cruz, according to them, 
with $315,000 average home value, is more affordable than 
Portland with $165,000. And in looking at the research, they 
use a distribution so that if you have slums and really 
distressed neighborhoods, then you are, quote, more affordable.
    And we have worked very hard to avoid that, and that is why 
this regional housing initiative is so important, because we 
don't have throw-away----
    Mr. Walsh. The idea would be to provide rental housing?
    Mr. Blumenauer. Both rental housing and opportunities for 
owner-occupied. Some of the nonprofits are working with local 
government because we find many poor people actually are paying 
enough in rent----
    Mr. Walsh. Oh, there is no question.
    Mr. Blumenauer [continuing]. To support it if we can get 
them in.
    Mr. Walsh. Have you looked at the Section 8 voucher 
Congressman Lazio mentioned in the bill yesterday for more 
REACH payments.
    Mr. Blumenauer. I think these have powerful opportunities 
for being engaged, but by the same token, I think the efforts 
that we have tried to do in terms of focusing development, 
promoting different types of partnerships, and scattering--for 
example, in the first project I mentioned that has the 
potential of over 3,000 new housing units, there will be 
affordable housing that will be linked into that to avoid the 
concentrated poverty that is so devastating.
    Mr. Walsh. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Who is the ``we,'' Earl, when you talk about ``we have this 
program''? Who sits around the table?
    Mr. Blumenauer. In Portland, there are two elements to 
this. One is we have the only popularly elected regional 
government in the country that invites representatives from the 
cities and the counties to join with them on both the housing 
and the transportation initiatives.
    In terms of the housing initiative here, there is a 
subgroup that has been formed that includes the housing 
authorities and the representatives of local governments that 
are themselves crafting these approaches.
    Mr. Mollohan. And the housing authorities are low-income 
housing authorities?
    Mr. Blumenauer. Yes.
    Mr. Mollohan. Okay. So they sit at the table.
    Mr. Blumenauer. Yes.
    Mr. Mollohan. Who else sits at the table?
    Mr. Blumenauer. In these initiatives, we have had----
    Mr. Mollohan. Say the affordable housing initiative.
    Mr. Blumenauer. There would be representatives from the 
city of Portland, the metropolitan service district, the three 
counties, and then there would be some of the smaller 
jurisdictions who would also join with some of the nonprofits, 
the NGOs. There are over 30 of them that are in part using some 
of the programs authorized by this subcommittee.
    Mr. Mollohan. What nonprofits? Give me an example of a 
couple of nonprofits that would be working on this.
    Mr. Blumenauer. There are people with--there is a very 
active Habitat for Humanity. There is the--the first and the 
granddaddy in the city of Portland is called REACH Community 
Development that over the course of 20 years has developed an 
inventory of several thousand housing units.
    Mr. Mollohan. What is their mission? That is a 501(c)(3)?
    Mr. Blumenauer. Its focus started in inner-city Portland, 
saving and rehabilitating, defining apartment units. They have 
helped with some single-family efforts. And they manage 
properties and they rehabilitate properties.
    Mr. Mollohan. It is a nonprofit?
    Mr. Blumenauer. Yes, sir. There is one in outer southeast, 
Rose Community Development, that probably has 100 units now and 
is bootstrapping.
    We had some that have focused on tax-foreclosed properties, 
but because we eliminated tax-foreclosed properties--
    Mr. Mollohan. Sorry. Tax-foreclosed or----
    Mr. Blumenauer. I am sorry.
    Mr. Mollohan. No, that is all right.
    Mr. Blumenauer. But since we have had the increase in 
property values, we don't have people abandoning property 
anymore. So we are looking at other efforts. I can provide to 
you a list of the----
    Mr. Mollohan. Would you?
    Mr. Blumenauer. Yes.
    Mr. Mollohan. I would be personally interested. We have 
real challenges with reconstituting old housing stock.
    Mr. Blumenauer. Yes, sir.
    Mr. Mollohan. It is a wonderful asset, all the utilities, 
and it sounds like quite often it gets passed by with building 
new communities out wherever, not a lot of thought. It sounds 
to me like it is really impressive that, first of all, you 
sound like you have a real cooperative effort here. That is in 
and of itself impressive. Secondly, it sounds like you have a 
lot of resources on tap of all the kinds of players you need to 
make a program like this successful.
    Mr. Blumenauer. I will say it is one of the bright spots of 
my 25-year public service career, watching business people come 
up--I had one friend who developed--they called it 
Homeownership One Street at a Time, HOST, where they went in 
and bought a distressed block----
    Mr. Mollohan. Who did that?
    Mr. Blumenauer. It was a group of home builders.
    Mr. Mollohan. Who is the organizer? Is Portland State 
University the facilitator of all of this?
    Mr. Blumenauer. No. I know I am overstaying my time. I will 
provide some information about the groups in terms of the 
housing initiatives. The university is a partner in the 
affordable housing, but it has been very much, in terms of the 
NGOs, the community development organizations, it has very much 
been a grassroots effort that the city using some of the 
Federal money that comes from the subcommittee has provided the 
seed to promote that type of activity.
    Mr. Mollohan. But this is organized and coordinated?
    Mr. Blumenauer. Yes, sir.
    Mr. Mollohan. By whom?
    Mr. Blumenauer. Well, this regional housing initiative that 
the major--the three housing authorities in the city of 
Portland are the conveners, but they have brought others to the 
table, and the----
    Mr. Mollohan. That is really impressive.
    Mr. Blumenauer. And the 30 nonprofits work together very 
much as a group. They have a coordinating committee, and they 
beat up on me as one.
    Mr. Mollohan. Thank you.
    Mrs. Meek. It is a good model.
    Mr. Blumenauer. Thank you very much. I appreciate your 
courtesy.
    Mr. Walsh. Thank you, sir.
                              ----------                              

                                           Tuesday, April 11, 2000.

                           NEBRASKA PROJECTS


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Walsh. Let's see. Mr. Bereuter, the gentleman from 
Nebraska, welcome, sir.
    Mr. Bereuter. Mr. Chairman, Mr. Mollohan, Mr. 
Frelinghuysen, thank you very much.
    Mr. Walsh. We will include your full testimony in the 
record, and if you would care to give us a brief summary, we 
would appreciate it.
    Mr. Bereuter. Thank you very much. I have two Nebraska 
district requests. They are both related to the CDBG funds. One 
is for the renovation of a unique 1907 Whitcomb Conservatory, 
which is built in the Frank Lloyd Wright style. It has been 
used basically just for limited storage the last 3 years. It is 
quite a unique structure. It would be used as a combination 
community and college facility, and it is in bad need of 
repair. The costs are going to be substantially beyond--Doane 
College and the city of Crete would put in a substantial amount 
of money, but I think it is definitely beyond their capacity 
without some assistance, and it is the first time I have 
requested anything for what would in part be a college from 
this subcommittee, or any other, for that matter.
    It will be a cultural resource of importance. It is 
historically significant, and I wanted to call the attention 
and ask for your possible favorable consideration. The request 
is $2 million, and I know you have far more, as usual, than you 
can cope with.
    The second is for South Sioux City, Nebraska, which is the 
lower-income portion of the Sioux City metropolitan area, which 
is the lowest-income MSA in that region. It is one that is 
suffering from problems with substantial refugee immigration 
costs today since it is a meat-packing center. The largest 
facility in the country is located there. And this is for a 
blighted area to help them clear land for a community center.
    I am going to do something that is not quite unique--well, 
the Environmental Protection Agency, there is a request for 
$850,000 for University of Nebraska's Water Sciences Laboratory 
at the Water Center. It does research work for the entire 
north-central part of the country. It is focused on remediation 
activities, remediating hazardous water contamination.
    I have a reminder to you to request that you support the 
administration's request for the HUD Section 184 housing loan 
guarantee program, which, with the help of a lot of my 
colleagues, I am the original sponsor. It provides now in its 
continued existence for the possibility of purchasing or 
building a home on Indian reservations. In the past, we have 
had title problems, and so the only alternative for Indians 
living on a reservation was public housing.
    Section 184 program is going rather well. In a bill we just 
passed on the floor, the authorization bill last week, it does 
create an Indian Land Title Commission, because we do have some 
problems on different determinations by BIA field offices 
across the country. So some tribes are able to use it well, 
some are not. The $6 million appropriation in the 
administration request would leverage up to at least $72 
million in loan guarantee programs.
    And as I came to you last year with something very unusual, 
I am suggesting that you cut, you eliminate HUD's rural housing 
program. This is a responsibility of USDA. They pursue it a lot 
more effectively. They are actually asking for a $2 million 
increase. My judgment is that this is duplication. As a former 
HUD employee, as an urban planner, I can tell you this is not 
where this function ought to be located. Scrap the whole 
program. Save yourself $29 million or $27 million from last 
year's funding level. That is my unusual suggestion to you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bereuter. I would like to ask Congressman Frelinghuysen 
if his grandmother is Susie.
    Mr. Frelinghuysen. Cousin.
    Mr. Bereuter. Cousin. Thank you. We saw her artwork on 
display.
    I would be happy to answer any questions you might have, 
Mr. Chairman and members of the subcommittee.
    Mr. Walsh. Thank you for your testimony. I have no 
questions. Any other members?
    Mrs. Meek. I would like to have a copy of Mr. Bereuter's 
testimony.
    Mr. Bereuter. Absolutely. We can provide that.
    Mr. Walsh. Anyone else?
    Mr. Mollohan. Mr. Chairman, I appreciate the witness' 
testimony.
    Mr. Walsh. Thank you, Doug.
                              ----------                              

                                           Tuesday, April 11, 2000.

                         JOSLIN DIABETES CENTER


                               WITNESSES

HON. SAM GEJDENSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. GEORGE R. NETHERCUTT, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF WASHINGTON
    Mr. Walsh. Welcome.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    I am here first of all, to thank the subcommittee for the 
$2 million appropriation that was made to the Joslin Diabetes 
Center last year for expanding the Joslin Vision Network 
program to VA hospitals. I am on the Defense Appropriations 
Subcommittee. We put Joslin money in the Defense Department to 
help in looking at the back of the eye for diabetics, detection 
of diabetic disease. And it is now being expanding to the VA. 
It is being expanded in other parts of the government agencies 
that deal with people who are sick, primarily through diabetes. 
And so Joslin is a preeminent facility. They have great 
research that they do in terms of trying to deal with diabetes 
and finding a cure for it.
    This gives the detection opportunity I think unlike any 
other opportunity around the country. It is a visionary kind of 
a thing, with no pun intended. It really is a new development 
in trying to detect diabetes and cure it and to prevent it from 
getting worse in the patient population, veterans and otherwise 
who have it. So we are asking for a $3 million increase, I 
should say a total appropriation of $5 million that expands 
this technology to regional veterans' centers, with the hope 
that more veterans will get looked at and will have their 
diabetes problem addressed.
    So, with that, I am happy to answer any questions, but this 
is such a problem for our country. As you know, I am head of 
the Diabetes Caucus and am really worried about it and trying 
to find a cure for it. We just had Interior Subcommittee 
testimony from Indian tribes, and talk about a high incidence. 
It hits all of our minority populations disproportionately. And 
we have to cure it, and we are getting close, I am convinced. 
This is a way for the veteran population to be treated faster 
and better and earlier and detect their diabetes and work to 
find a cure for it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. The subcommittee funded this at the $2 million 
level.
    Mr. Nethercutt. Right.
    Mr. Walsh. And you are requesting $5 million?
    Mr. Nethercutt. Right. This will expand it to regional 
centers. It will make the technology more available. There will 
be refinements in the technology and the kind of equipment that 
can be used in hopefully all VA centers around the country, and 
it may be able to be bought off the shelf as it is refined. But 
this is relatively early in the stages of trying to develop 
equipment that takes a hard look behind the eye, and then makes 
it easier for physicians to know what they are facing with 
respect to the veteran population that has diabetes.
    Mr. Walsh. Okay. Any other questions? Mr. Mollohan?
    Mr. Mollohan. I thank the witness for his testimony.
    Mrs. Meek. Thank you.
    Mr. Frelinghuysen. Is there anything in here for juvenile 
diabetes?
    Mr. Nethercutt. Indeed there is.
    Mr. Frelinghuysen. And what are we doing? Is there anything 
like this in the juvenile area?
    Mr. Nethercutt. There is. In fact, Joslin is doing it, they 
are, and we are--through NIH, Joslin is--and through Defense 
Department----
    Mr. Frelinghuysen. Are they testing?
    Mr. Nethercutt. They are indeed. They are testing all ages 
across the spectrum of everybody who has diabetes. They are 
looking at it from a preventive standpoint, too. You may be 
able to see the development of diabetes in someone and the 
deterioration of their eyesight, which is a common consequence 
of diabetes.
    Mr. Frelinghuysen. You and I serve on that subcommittee.
    Mr. Nethercutt. Yes, sir.
    Mr. Frelinghuysen. You know--I was unaware, but it is 
obvious, I guess, that the military runs the largest number of 
day-care centers in the country.
    Mr. Nethercutt. Yes.
    Mr. Frelinghuysen. I just wonder whether they have 
preventive action, preventive programs that relate to diabetes 
that would be somewhat suggestive.
    Mr. Nethercutt. I think that is a good suggestion that we 
do it. Last year you may recall in our subcommittee we put $7 
million in to be used for Department of Defense screening, 
which would include children. But I don't know to what extent.
    Mr. Frelinghuysen. Why not use it for those 
responsibilities for day-care centers?
    Mr. Nethercutt. I think it is a great idea. I think it is a 
great idea. And then Pittsburgh Hospital, through Mr. Murtha, 
had collaborated to make this successful, and they testified 
before our subcommittee, as you remember, I guess a few weeks 
ago.
    Mr. Walsh. The subcommittee welcomes the gentleman from 
Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. I agree with everything Mr. Nethercutt said.
    Mr. Walsh. He is doing real well.
    Mr. Gejdenson. He is doing a great job. The only thing I 
would say is that, one, technology is making this much more 
cost-effective because of the remote capabilities. They are 
able to, you know, use a video camera, basically, the new high-
quality ones, and get all the information back to their central 
facility. So that allows them to service a lot more people for 
the same amount of money. And I think obviously there are lots 
of illnesses that have devastating impacts on society, but 
there is probably none that, while we can't cure either Type I 
or Type II at the moment, if we find out about it and monitor 
it, we can do more. That is nice from a humane point of view. 
But it is also from an economic point of view. If a veteran 
loses a leg, somebody loses a leg, they are in a nursing home, 
they are in a hospital. The costs then end up--you know, 
somebody ends up blind who might be able to see, they are going 
to need a lot more government support.
    And I don't have the numbers with me, but if you look at 
the numbers on Medicare--and probably some of you know better 
than I do--it is astounding how much of Medicare's health 
budget is spent on seniors who have got the devastating.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nethercutt. One out of four dollars. Twenty-five 
percent of the Medicare budget goes to the consequences of that 
disease.
    Mr. Gejdenson. Yes, and, you know, a lot of this stuff is 
preventable. I had about ten kids in my office yesterday who 
are diabetic, and, you know, I am Type II. But, you know, some 
of these kids, four, five years old, are already on a pump 
taking needles every day. I can't think of a more painful thing 
to have to go through.
    We thank you for your consideration, and we know you have 
lots of money this year, so it shouldn't be a problem. 
[Laughter.]
    Mr. Walsh. Thank you for your advocacy. You both are doing 
a real nice job.
    Mr. Nethercutt. I might just add, Indian tribes, we are 
seeing Indian tribes now----
    Mr. Gejdenson. Oh, 50 percent and better.
    Mr. Nethercutt. And some 65 percent incidence of diabetes 
in the tribal community, so it is killing out our people.
    Mr. Walsh. Okay. Thank you.
                              ----------                              

                                       Tuesday, April 11, 2000.    

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES


                                WITNESS

HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
    Mr. Walsh. We will call our next witness, Eddie Bernice 
Johnson. Welcome to the subcommittee.
    Ms. Johnson. Thank you very much.
    Mr. Walsh. We will include your statement in the record. If 
you care to summarize, that would be welcome.
    Ms. Johnson. Okay. Thank you very much. I came to make an 
appeal on behalf of the historically black colleges. Microsoft, 
IBM, and AT&T have all contributed to attempting to upgrade 
with infrastructure and instruction of the technologies at the 
historically black colleges.
    What we all hopefully recognize is that the majority of the 
black American teachers in this country graduate from 
historically black colleges. It is critical that our teachers 
learn the latest teaching techniques used in technology. We 
need as much match or proportion of which you can possibly give 
to that support.
    Microsoft gave $50 million. IBM gave $50 million. AT&T gave 
$1 million for curriculum. And there is a deficit of $30 
million.
    I am not asking for a specific amount. I am making an 
appeal based upon the extreme need. All of us know that in the 
last 5 years classroom instruction has fell behind what it 
needs to be throughout, but what it left behind is our 
teachers. Many of our great teachers are almost retirement age, 
and so they are not that into the new technologies.
    Also, 5 years ago, we talked about technology as if it was 
just going to be for the math, science, and engineering 
education. But today we must talk about it in every classroom, 
whatever subject, because we are having to live with the impact 
of our new technologies throughout our lives.
    Our teachers are not prepared. That is a critical element 
that we must give attention to.
    This morning Congressman Ehlers and I introduced 
legislation, three different bills, to address much of the 
technology with our students and teachers and private 
partnerships with our businesses. I am from a totally high-tech 
environment, workforce in my area. The businesses have been 
very supportive in our partnerships, but they will always leave 
something for the government to take care of. And so that is 
what I wanted to present because--and I will leave my full 
written testimony here. It is so critical.
    And we have such a shortage of teachers. The largest school 
district in my district out of the six that I have is the 
Dallas Independent School District in the city of Dallas. Half 
of the teachers are retirement-eligible. They retire, but they 
come back teaching full-time. They are not prepared for today's 
classroom, but that is the best that we can do. We have got to 
address the crisis of the lack of teachers across the board. 
Every school district, every private school, are having very 
great difficulty attracting and keeping good teachers because 
what we are finding is that if they do graduate up to par, they 
don't make it to the classroom because the jobs pay more. We 
hope to eventually look at incentives for teachers.
    When we first started looking at that for teachers that 
teach science, math, engineering type courses, now it is so 
critical that every classroom be included, it is going to be 
difficult to fit those out for additional salaries without 
looking at salaries across the board. That is basically a local 
government problem, and I understand that. But I share that as 
a problem that we face in attracting K-12 teachers. It is at a 
critical time throughout our Nation for every school district. 
It is not just certain ones.
    We hope soon, probably in the next 5, maybe 20 years, to 
stop lifting this H(1)(B) cap and graduate our students that 
are fully equipped to meet the marketplace. We are not there at 
this time.
    Technologies came on so rapidly to the workplace and to the 
marketplace and moved so swiftly that we have got to do a 
little extra to catch up.
    That is my statement.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Well, thank you for making a very strong case 
for historically black colleges. It is a marvelous commitment 
on the part of American business, and we are always looking for 
Federal funds to leverage private funds. Obviously you have put 
the cart before the horse. In any event, you have gone out and 
found the money, and we hear you. And given our allocation, we 
will do the very best that we can to meet the commitment.
    Any other comments or questions?
    Mr. Mollohan. I appreciate the witness' testimony, Mr. 
Chairman.
    Mrs. Meek. I do, too, and I want to say to her that you 
have really touched a pivotal point here with HBCUs, and I do 
hope that this subcommittee can view your request favorably. I 
have noticed that it is pretty much not only in this area, but 
out in California where they have the Silicon Valley and all of 
that. And if we are going to deal with diversity in the 
workplace, what you presented to us today is very, very 
credible.
    Ms. Johnson. And my area is second only to Silicon Valley.
    Mrs. Meek. Second only?
    Ms. Johnson. We have hired more people recently than 
Silicon Valley in the last 2 years.
    Mrs. Meek. Excellent.
    Ms. Johnson. So I see it, I feel it on a day-to-day basis.
    Mrs. Meek. Right. So being on the Science Committee has 
really framed this.
    Ms. Johnson. Yes. I am ranking member on Basic Research. We 
have the National Science Foundation oversight and the 
educational support.
    Mrs. Meek. Well, thank you.
    Mr. Walsh. Thank you very much for your testimony.
    Ms. Johnson. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

          RURAL ECONOMIC DEVELOPMENT CENTER OF NORTH CAROLINA


                                WITNESS

HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Frelinghuysen [presiding]. Good afternoon. Welcome. 
Thank you for being with us. A copy of your full statement will 
be put in the record.
    Mr. McIntyre. Okay. Well, thank you very much, and the 
members of the subcommittee, I am here to speak on behalf of a 
proposal that is of the utmost importance to rural North 
Carolina. But before I speak to that I would be remiss if I 
didn't thank you all for the great attention you gave last year 
to a project in Navassa, in northern Brunswick County, that 
served a very deserving area with a community center to help 
the health needs of senior citizens and the day-care needs of 
that predominantly African-American community. I do want to 
thank you again and express on behalf of the residents of that 
part of my district their great appreciation for the funding 
you sent our way last year.
    This year what I am asking for is some help to help 
communities that are in similar situations that need help with 
one of the most basic necessities of life, and that is drinking 
water and clean water. In North Carolina, we have had an $800 
million bond that was passed to provide funding for water and 
waste water treatment projects, but I know that you know how 
much we do appreciate what you have done to help North Carolina 
with the Hurricane Floyd Recovery, and especially my colleague 
from North Carolina, Mr. Price. And I want to thank you all for 
your attention.
    The problem that we have run into is not only the State 
running out of money because of the hurricane crisis, but a lot 
of the communities cannot even qualify for these clean water 
bonds and for water treatment plants because they can't get 
their plans and specifications paid for because they can't 
cover the start-up costs. And so the $2.5 million which I am 
asking for help would go to the Rural Economic Development 
Center of North Carolina which specializes in supporting rural, 
underserved areas, of which 85 percent of North Carolina is 
classified as rural. And with the devastation of the hurricane 
and the help we have received there, the only remaining problem 
is that some of these rural areas cannot compete with other 
areas of the State to get their plans and specifications paid 
for for start-up costs. And that is all they need. If they can 
get out of the gate, we have got the money that can work with 
them. But they are behind because of being rural areas. They 
have very high unemployment. My county and an adjoining county 
have twice the State's unemployment rate. This is one of those 
areas of America that you hear the President talk about and 
others of not being part of the economic prosperity. And they 
will never get out of the gate if they can't even get the plans 
and specifications done for a proposal for winning the money 
that is in place for waste water treatment and for clean water.
    So we are simply asking for help for start-up costs, and if 
these rural communities could just get that help to get out of 
the gate, then we can proceed. And the proposal that I submit 
before you is not merely one for just my area, it has the 
support of the entire State delegation. We have won bipartisan 
support for this. They signed on to my letter, which was sent 
over to the committee for this proposal.
    If you can help us provide safe drinking water and the 
opportunity for effective waste water treatment, what that will 
mean for people just putting food on the table in these rural, 
underserved areas will mean literally the world to them because 
of the high unemployment and the problems they are having not 
being part of the economic boom that the rest of the country is 
sharing in, and on top of all that, having to live through what 
they have just suffered recovering from the hurricane.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you very much for making a strong 
and well-articulated case, backed up, I am sure, by Mr. Price 
and your entire congressional delegation.
    Mr. McIntyre. Thank you.
    Mr. Frelinghuysen. We will do our level best to be of help 
to you.
    Mr. McIntyre. Okay.
    Mr. Frelinghuysen. Mr. Mollohan.
    Mr. Mollohan. Thank you. Mike, you are a strong advocate 
for your constituents, I will say that. I experienced that last 
year when you did a good job for them. I am sure Mr. Price will 
be very supportive of your request. Thanks for your testimony.
    Mr. McIntyre. Yes, sir. Thank you very much.
    Mr. Frelinghuysen. Mr. Price.
    Mr. Price. I also want to thank you, Mike, for coming 
before us and putting together an innovative proposal. I 
remember some years ago we were investigating what was then 
called the Farmers Home Administration and a rather spotty 
pattern of utilization of Farmers Home programs in North 
Carolina. And it turns out that the explanation was much like 
what you have found here, that a lot of communities simply 
didn't have the wherewithal to even make application to do the 
ground work to apply for these funds successfully.
    Mr. McIntyre. Right.
    Mr. Price. So your idea here of using the rural center--I 
might just say a word about the rural center and why it is well 
equipped to do this. But I think it addresses a real need, and 
we will do our best to address it.
    Mr. McIntyre. Thank you very much. And getting them out of 
the gate to work together with the public and private funds 
that have been available will then give them access, and that 
is all we are really asking for, is just access.
    Mr. Mollohan. There are a number of community water 
development groups that you might explore as resources to help 
you do this. I forget the names of them exactly, but there are 
a couple that we fund in this bill that you might look to. They 
work very closely with rural communities, particularly 
communities that don't have resources. Are you familiar with 
them?
    Mr. McIntyre. Right. Well, through USDA Rural Development 
and also the Clean Water Management Trust Fund that we have in 
North Carolina, there are opportunities. And, again, a lot of 
the problem has been they just can't quite avail themselves if 
they don't get out of the gate.
    Mr. Mollohan. The Small Floods Clearinghouse and the 
National Environmental Training Center, you might look at those 
two organizations for this kind of help.
    Mr. McIntyre. Okay. Well, we appreciate your consideration 
of this in helping these folks at least get out of the gate on 
going forward.
    Mr. Frelinghuysen. Thank you very much.
    Mr. McIntyre. Thank you. Appreciate it.
                                           Tuesday, April 11, 2000.

                   CHICAGO TUNNEL AND RESERVOIR PLAN


                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Frelinghuysen. Mr. Weller, good afternoon. The 
gentleman from Illinois.
    Mr. Weller. Good to be here.
    Mr. Frelinghuysen. A copy of your entire statement will put 
in the record, and you may proceed at your leisure.
    Mr. Weller. Thank you, Mr. Chairman. Thank you, members of 
the subcommittee. I just want to make my annual appearance to 
ask help for a project that the subcommittee has invested in 
over the last several years. In fact, I come here today to make 
a request for continued effort to protect Lake Michigan, of 
course, one of our greatest lakes to protect what serves as a 
source for drinking water for millions of Chicago area 
residents. We have, of course, 7.5 million residents of the 
Chicago metropolitan area, many of whom depend on Lake Michigan 
for drinking water. And part of our effort and environmental 
initiative in the Chicago area over the last decade, of course, 
has been the construction of the Chicago Tunnel and Reservoir 
Plan, what locally is nicknamed DEEP Tunnel. And DEEP Tunnel, 
of course, is a big tunnel under the city of Chicago, which 
serves essentially as a retention facility for storm water. And 
without this facility, we literally have raw sewage as well as 
other debris that is flushed out in Lake Michigan when there 
are heavy rains.
    As I stated earlier, this is necessary to protect the 
drinking water for millions of Illinois residents, including 
about 500,000 households on the South Side of Chicago and the 
South suburbs, much of what I represent.
    In the last few years, this subcommittee has invested 
almost $43.5 million in DEEP Tunnel. The taxpayers at the 
State, Federal, and local level have invested over $2.29 
billion in the construction of DEEP Tunnel. There are 16 miles 
of the remaining leg yet to be constructed. The first 8-mile 
segment is underway and, of course, is what you folks have 
funded of that completion in the last few years.
    What I am asking for today is to continue this construction 
project, keep it on its desired timetable, which is to ask for 
$10 million from the subcommittee, and I ask your continued 
support for DEEP Tunnel and your continued support for 
protecting the drinking water of the Chicago metropolitan area.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Well, thank you for your long-time 
advocacy and your annual visit, and maybe we should move 
something from the big dig in Boston to Chicago. I guess they 
are having some big problems up there.
    Mr. Weller. Well, I would say, Mr. Chairman, this has been 
a project I believe that the dollars are very well spent. It is 
well managed. It has been a good project. It has been a 
partnership with the State and local as well as Federal 
Government. It has strong bipartisan support. The delegation, 
pretty much every member of the delegation has signed a letter 
in support of this project every year which we have come before 
your subcommittee, and, of course, I submit my entire statement 
for the record.
    Mr. Frelinghuysen. Thank you for being here for Chicago and 
its citizens.
    Mr. Weller. Thank you.
    Mr. Frelinghuysen. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. I appreciate this.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                           MINNESOTA PROJECTS


                                WITNESS

HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Frelinghuysen. Mr. Oberstar, good afternoon. Welcome.
    Mr. Oberstar. Thank you, Mr. Frelinghuysen.
    Mr. Frelinghuysen. The committee welcomes you.
    We will put a copy of your entire remarks in the record. If 
you would like to begin and tell us what your needs are?
    Mr. Oberstar. I will just go through the highlights. 
Congratulations on winning the chairmanship of the 
subcommittee.
    Mr. Frelinghuysen. Well, it is not the first time, but it 
is my pleasure to be here.
    Mr. Oberstar. There was a time when that would have been 
considered a coup. [Laughter.]
    If there had been an uprising, but committee Chairs are 
more benign these days, and I must say to the committee I 
remember when the gentleman's father served in Congress, and my 
first committee hearing I attended as a junior staff member on 
the Hill, it was Peter Frelinghuysen. I have very fond memories 
of him.
    Mr. Frelinghuysen. Well, thank you very much.
    Mr. Oberstar. I want to address just a few issues. The 
first is the city of Virginia, Minnesota, in my district, which 
was noted for many years by visitors to that community for not 
having chimneys on the houses. How do you heat your homes? 
Well, they have a central heat system, steam heat, 
cogeneration. They and several other communities in the iron 
ore mining country of my district were the first in this idea 
which took on a lot of significance in the first energy crisis 
we had in the early 1970s of steam generation.
    Well, the steam system has deteriorated with the downturn 
in iron ore mining and the lack of jobs, the outmigration of 
people. But it is still the most efficient way to heat the 
community in a place that has 40 below zero weather a good part 
of the year.
    The $5.6 million we are asking for will be the centerpiece 
of conversion of this facility to all the steam lines to 
upgrade them. Now in the winter months you see this--it looks 
like Siberia, these dilapidated facilities rising and then 
tilting back down to earth and snow melting around it while 
everything else is 40 below zero. And at the end of the line, 
you get warm water instead of steam. And because of the lack of 
economic activity, the city can't afford, the people can't 
afford to do this, can't afford the conversion which would cost 
as much as $20,000 to move from steam lines to oil or gas.
    The second is the Audubon Center of the North Woods, which 
is a raptor treatment center for birds of prey that are caught 
in traps or poisoned or accidentally shot, and they are brought 
into the raptor center, rehabilitated, and released back into 
the wild--eagles, hawks, owls. But, more importantly, it is a 
center for inner-city youth to come see the wonders of nature. 
The programs have statewide and region-wide significance. Some 
70 schools participated in the program this past year. This 
year we expect over 100 schools to participate. I have been out 
to the center many times, had the privilege of releasing an 
eagle myself, the most dramatic experience, this wounded bird 
that had been rehabilitated, its wing healed, and you don't 
realize how big a creature the eagle is, the big tongue and 
fierce beak they have, until you are up close--but don't get 
too close--and then release it out over the river, and it 
circled over the river and back over the assembled crowd, 
dipped its wings, turned, dipped again, then flew off, as if to 
say ``thank you.'' It was absolutely--the kids will never 
forget this. We had a visiting group from Russia of Russian 
students who came and had the same experience.
    So the funds will be used to make the center accessible for 
the handicapped, disabled, to soundproof the classrooms, both 
to prevent outside noise from distracting and inside sounds 
from getting into the surrounding area.
    Third is funding for the Mille Lacs Lake Indian 
Reservation, Chippewa Tribe that are camped on the shores of 
Mille Lacs Lake, which is Minnesota's prime walleye fishing 
lake. It is the third largest lake in the State, and it is 
regularly on national television on the sporting programs. But 
the reservation is from their casino funds providing more than 
half of the cost of funding this waste water treatment system 
that will collect through a collector system and interceptor 
sewer all the septic tanks, septic systems around Lake Mille 
Lacs for the Native American and non-Native American 
populations as well and preserve this remarkable and beautiful 
lake.
    The fourth project is Northeast Ventures, which is a 
microenterprise project which has supported several hundred 
small, very, very small enterprises to become self-sustaining 
initiatives. There are private funds matched with HUD special 
purpose grant funds that have been invested in projects that 
have a 95 percent success record.
    In our area of northern Minnesota, we are north of 60 
percent of the population of Canada and where distances are 
vast, markets are far away, opportunities are few. These 
microenterprise grants have been enormously successful. They 
are beyond what banks will support, beyond what the Small 
Business Administration will support, and I will just give you 
one example.
    A woman who was designing posters for her church to be 
displayed at a conference of their profession, and at the 
conference, a businessman in Duluth said, ``Those are 
magnificent posters. Who did them?'' He eventually came to this 
woman who has artistic talent and asked if she would design 
posters for his business. She went and did that, and he told 
others about it. Now with the microenterprise grant, she has 
ten people that are all from her immediate neighborhood, they 
all work in her garage, and they are all doing these posters of 
various kinds. They even do awnings now.
    Well, there are ten jobs that didn't exist and wouldn't 
have existed but for the Northeast Ventures microenterprise 
grant, which she is now, in fact, repaying back into Northeast 
Ventures.
    I beg the indulgence of the committee and support for what 
I consider to be very worthy projects, to be measured, I know, 
against many other very worthy initiatives; but these four are 
ones that I feel very strongly about.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Well, thank you for being here on behalf 
of your four projects. It has been an interesting demographic, 
geographic and historical perspective on your State. One of the 
values of serving on this committee, and I am relatively new, 
is that you get to learn a lot face-to-face. Thank you. We will 
do our level best to be of help.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Who is co-generating 
the steam that is used in your area?
    Mr. Oberstar. It's the municipal electric facility in 
Virginia.
    Mr. Mollohan. Owned by the municipality?
    Mr. Oberstar. The city of Virginia owns its own electric 
generating plant, and from the steam that produces electricity, 
they heat the homes.
    Mr. Mollohan. Is it coal-fired?
    Mr. Oberstar. It is a coal-fired facility.
    Mr. Mollohan. And it exists just to provide electricity 
just for this community?
    Mr. Oberstar. That is right, just for this town.
    Mr. Mollohan. Well, is this in the iron ore range, you 
said?
    Mr. Oberstar. It is the iron ore mining country, city of 
Virginia.
    Mr. Mollohan. So it is underground transmission of the 
steam?
    Mr. Oberstar. The steam pipes were laid, I think, about 
1915, 1916.
    Mr. Mollohan. Do the residents pay anything for this?
    Mr. Oberstar. They pay into their municipal utilities fund. 
I do not know what the costs are, but they pay an electric bill 
and a steam heat bill.
    Mr. Mollohan. What a progressive system that was. I am sure 
it was a company town, probably.
    Mr. Oberstar. Well, like many of your areas in the coal 
mining country, it was the mining company.
    Mr. Mollohan. Yes, would start the whole thing.
    Mr. Oberstar. The Carnegies and the Mellons and the 
Rockefellers, who started the towns, but the city fathers saw 
the wisdom of having their own electric generating plant--
Virginia, Mountain Iron, Buehl, my hometown of Chisholm--but 
when the ore was depleted--we have shipped four billion tons of 
iron ore from northern Minnesota in 100 years to the lower lake 
steel mills.
    Mr. Mollohan. It is a huge problem of trying to 
reconstitute your economy. I know exactly what you are into. 
SBA has a micro loan program, and I just confirmed that it 
really exists. I serve on that subcommittee, and they give both 
direct and guaranteed loans. Have you explored SBA's micro loan 
program?
    Mr. Oberstar. We use SBA to the maximum--I think over $100 
million in SBA loans went out to small businesses in my 
district in the last year, but these are enterprises that are 
below the SBA threshold.
    Mr. Mollohan. And they have a micro loan program.
    Mr. Oberstar. Yes, but these are ones--I direct them first 
to SBA and to a local bank. If they cannot get bank 
participation and SBA will not support it, then Northeast 
Ventures does.
    Mr. Mollohan. I am not sure whether it would be a fit, but 
they have a micro loan program where they will fund an 
organization which, in turn, administers micro loans to little 
kind of organizations that it sounded like you were talking 
about.
    Mr. Oberstar. Yes.
    Mr. Mollohan. If you want us to help you explore that, we 
would certainly be pleased to do it.
    Mr. Oberstar. I think we have used SBA to the maximum that 
we can.
    Mr. Mollohan. Okay. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you very much for that fascinating 
testimony.
    Mr. Oberstar. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            VETERANS AFFAIRS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Frelinghuysen. Mr. Filner, welcome. A copy of your full 
remarks will be put in the record, and you picked a good time 
here.
    Mr. Filner. I thank you for the opportunity. I thank you 
for all your work. I am the ranking member of the VA Committee 
on Benefits, and I wanted to talk about the VA budget. I think 
we are obviously in a better position than last year, when the 
administration said zero, and you all went about a billion-and-
a-half up, which was an incredible increase, very much needed.
    I think it was probably about half of what was needed, but 
it was a great step forward. This year, we start bumped up a 
billion-and-a-half. I would ask you all, by the way, as part of 
your homework, at some point--I know you do not have enough 
reading material--but the veterans organizations put together 
what they call the Independent Budget.
    It is not just saying give us more money because we need 
more money. It is a budget that is really professional, 
analytical, specific, and it says that about $3 billion worth 
of increase is necessary. So we would have a billion-and-a-half 
more above what the President suggested.
    I do not pretend to think we are going to get that high, 
but I would like to point out things that we ought to do as 
part of your deliberations----
    Mr. Frelinghuysen. Mr. Evans, you are recognized. Thank you 
for being here.
    Mr. Filner. The ranking member of the Veterans Committee is 
with me--I am with him today--to present our case. Let me just 
point out a few things that this, in the budget, points out, 
that we have to deal with. For example, the administration has 
proposed $350 million of new resources for medical care, 
authorized by the recently-passed Veterans Millennium Act, be 
deposited to the Treasury.
    Funds which are collected from veterans for the provisions 
of veterans' health care should be used for veterans, not as a 
substitute for appropriated dollars. So I hope you will look at 
that $350 million situation very carefully. The administration 
says let's substitute it. We say that ought to be added to, and 
I know the chairman of our committee, Mr. Stump, is very 
strongly in favor of this interpretation of how we should use 
the $350 million.
    We are not doing enough in research for a whole variety of 
things, just the Persian Gulf War illness is the best example. 
There are tens of thousands of people who are ill. It is 10 
years since the war. We have no remedy and we have no 
explanation, at least officially. There are lots of 
explanations, which I do not need to go into here now, but the 
official word is we do not know what caused it and we do not 
know how to treat it.
    We should not be leaving these people in the limbo that 
they are in without any support, so we request $65 million in 
additional medical research, of which half of that should be 
given to the Gulf War veterans. The need for long-term care 
increases as our veteran population increases, and we are 
looking for more areas to fund the State veterans homes which 
treat those people. So I would like you to look at that aspect.
    Let me make a couple more points in my few minutes. The 
Montgomery GI Bill, which is a great benefit to allow veterans 
to go on to college after their service, has become, if not 
meaningless as a benefit, very close to it; that is, it does 
not cover anywhere near the cost of college. There are 
proposals, backed up by important commissions, which have 
recommended a great increase in that benefit, which would 
include the full cost of college.
    I would like you to view that, not just as a benefit for 
veterans, but as a recruiting tool for our armed forces. We 
are, as you know--have great problems there. This would be a 
great recruiting tool if it were bumped up significantly. I 
hope that you will look at that. There are bills in by Mr. 
Evans and Mr. Stump to significantly increase that benefit.
    We are working on some compromise package that the all the 
veterans organizations and college organizations agree to, but 
I hope you will look at a significant increase in that regard.
    I have to say something about our homeless. Veterans 
comprise about one-third of our Nation's homeless benefits, but 
of the HUD funding for the homeless, only three percent--three 
percent--is directed specifically toward homeless veterans. We 
had asked Miss America, Ms. Heather French, who has taken this 
issue on as her project for the year of support for our 
homeless veterans.
    Mr. Frelinghuysen. She was in here this morning.
    Mr. Filner. She was in here. Good. We asked her--and I hope 
you had--she is incredibly articulate and knowledgeable about 
this issue. When I first saw it, I thought she was just going 
to read a few words like Miss Americas in the past and, you 
know, just do what other people have. She knows this issue. She 
is going around the country. I hope that you will listen to her 
and allocate at least three-quarters of a million dollars to 
the National Coalition for Homeless Veterans so they can help 
this population.
    In addition, the Department of Labor has a homeless 
veterans reintegration program that I hope you will fund at its 
authorized level of $15 million. We should be doing more for 
our national cemeteries, and one last item, because it is so 
close to my heart, this is an issue that I think has come to 
the attention of this committee for many years.
    In 1946, those Filipinos who were drafted into our armed 
forces with the promise of complete veterans benefits as we 
defeated the Japanese--the Congress of 1946 rescinded those 
benefits. For 54 years, there has been an injustice there. 
There are several proposals of varying amounts of money to try 
to remedy this historical injustice.
    I think that the most responsible one would appropriate $35 
million to take care of the health care of these veterans. They 
are getting very little help. What they want more than 
anything, and what the $35 million would provide, is dignity 
and long-hoped-for respect in a foreign nation that they 
served, helped us become the free Nation that we are, but have 
been treated very poorly since. So I would hope that you would 
look at that issue as you proceed forward.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you for very comprehensive 
testimony.
    Mr. Filner. Thank you.
                              ----------                              

                                           Tuesday, April 11, 2000.

                     DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Frelinghuysen. Mr. Evans, welcome.
    Mr. Evans. Thank you, Mr. Chairman. As the largest health 
provider--a population approaching 20 percent over the last 
five years, the VA experiences the same uncontrollable cost 
increases as other health care providers have seen. Despite 
what many view as a restrictive national formulary, VA's 
prescription drug costs have increased at rates of 15-to-25 
percent annually.
    Employee pay raises must be accommodated and, in my view, 
adjusted to accommodate looming shortages in the availability 
of health care personnel. In addition to new challenges posed 
by hepatitis C, the VA health care system has continued to 
effectively manage many other chronic physical and mental 
conditions veterans have in higher proportions than the general 
population.
    For fiscal year 2001, the administration has also requested 
funding to address the continuing long waits for care 
experienced by far too many veterans. In addition to 
recommending that Congress approve the appropriation for VA, 
Chairman Bob Stump and I have worked together in noting our 
objection to the legislative proposal to return to the U.S. 
Treasury revenues anticipated from new sources--authorities and 
the recently-enacted Veterans Millennium Health Care and 
Benefits Act. We worked together to recommend $80 million in 
additional funds for construction of State extended care 
facilities, and we have worked together to recommend a $25 
million addition for VA research for fiscal year 2001.
    In part, these funds support five new centers of excellence 
in the treatment and research of diseases, such as Parkinson's 
disease. There are many additional non-health-related 
activities that also merit support. VA statistics show the 
demand for burial benefits will continue to increase, with 
interments increasing 42 percent from 1995 to 2010.
    Unless new national cemeteries are established soon, the VA 
will not be able to meet the need for burial services for 
veterans in several major metropolitan areas of the United 
States. Accordingly, the Millennium Act directed the Secretary 
of Veterans Affairs to establish cemeteries in six areas of the 
United States with the most need. I understand the planning 
process is under way for a cemetery in Oklahoma City, and 
advance planning funds were included in the administration's 
budget for Miami, Florida and Sacramento, California locations.
    I urge you to appropriate the $1 million in advance 
planning funds that are necessary to begin the process of 
master planning and design for Pittsburgh, Detroit, and 
Atlanta. In addition, Arlington National Cemetery requires $8 
million for the first of two phases of production of two 
projects to grade and prepare approximately 33 acres of land 
for in-ground burial.
    This will provide Arlington with an additional 26,000 grave 
sites. I also urge you to earmark $750,000 for the Department 
of Housing and Urban Development, to provide technical 
assistance grants to the National Coalition for Homeless 
Veterans, which is very much needed.
    As Bob pointed out, currently only three percent of HUD 
grants are going to homeless veterans providers, yet 23 percent 
of our clients in these homeless programs are veterans. Last 
year, Congressman Hyde and I wrote to the committee concerning 
the cost effectiveness of moving certain functions now 
performed by the Hines, Illinois Benefits Delivery Network to 
the Austin Automation Center, Texas.
    In response to those concerns, the committee directed the 
VA to submit a report summarizing all cost/benefit studies that 
have been performed before commencing such a move. On March 9, 
2000, the VA submitted a VBA data center co-location cost 
analysis, which omits any reference to a long-term benefit 
study conducted by Performance Engineering Corporation.
    The study found that additional costs would be incurred as 
a result of the proposed move, and other critical information 
involving adequate personnel and other matters are missing from 
this report. I recommend the committee prevent the VA from 
proceeding on the co-location until such time--listed in the 
conference reports are fully met.
    I want to point out that we have worked very hard with 
Chairman Stump and the majority party in Congress to come up 
with, I think, some very good recommendations, and I hope that 
we, in the next fiscal year, continue that work of working 
together.
    I thank you for your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, Mr. Evans, for your 
testimony. This committee, I know, on a bipartisan basis, 
shares a lot of your concerns, and you can be sure that when 
Secretary West and his crew came, on several occasions, we 
vigorously engaged them in a lot of discussion in terms of the 
job they are doing and what, in fact, their future plans are.
    So we appreciate your testimony and your very important 
perspective as the ranking authorizer.
    Mr. Mollohan.
    Mr. Mollohan. Mr. Chairman, I very much appreciate the 
authorizers coming forward and testifying. I know that the 
Chairman, Mr. Frelinghuysen, and I, and all members of the 
committee, certainly want to work in cooperation with you and 
value your input here.
    Thank you.
    Mr. Filner. I do just want to underline--I think it is 
important, a constitutional issue. A bipartisan bill passed 
last year, the Millennium Veterans Health Care Act, and 
authorized third-party reimbursements to the four services. The 
legislative intent was clearly to be additional resources to 
the VA, and what the administration did was use that $350 
million, that estimate, and substituted for resources.
    So I think it is very important in terms of legislative 
versus executive privileges here, that we look at the 
legislative intent of that and not let them take that $350 
million away from the VA.
    Mr. Frelinghuysen. We are going to do our level best to 
keep them honest.
    Mr. Filner. Thank you.
    Mr. Frelinghuysen. Thank you very much, gentlemen.
    [Recess.]
                              ----------                              --
--------

                                           Tuesday, April 11, 2000.

        EPA PROJECTS--DRINKING WATER FOR EASTERN NORTH CAROLINA


                                WITNESS

HON. ROBIN HAYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Mr. Walsh [presiding]. I would like to welcome the 
gentleman from North Carolina to our subcommittee today. I 
believe we have your statement here. We will include it in the 
record, but if you would like to summarize, that would be 
appreciated.
    Mr. Hayes. Thank you. Mr. Chairman, I apologize for being 
almost late. I was real early, but I was in the wrong building.
    Mr. Walsh. Right church, wrong pew. Whatever. We are glad 
you made it.
    Mr. Hayes. Well, thank you. I wanted to just revisit some 
personality familiarity of the projects that we have before 
you. A couple of them are EPA projects and three of them, I 
think, Alex, are particularly suited to here.
    Ours is a very rural district. These are crucial issues for 
them, particularly the water. If you look down at Albemarle, we 
have four schools that have no drinking water. They are all on 
bottled water, so that is why they are very critical.
    An interesting project in Richmond County--several years 
ago, we have one of the worst industrial accidents in North 
Carolina history, where 25 people were trapped in a building, 
the Imperial Foods plant, and you may wonder why we look at a 
federal solution, but in North Carolina, as you remember, we 
had terrible devastation from Hurricane Floyd, and virtually 
all of the discretionary money, including the rainy day fund, 
has been directed at the eastern part of the State, and this is 
just such an emotional and crucial area in an economically 
disadvantaged location, that we felt good about coming to you 
all and asking about that.
    Now, the rest of it pretty much speaks for itself. I will 
be glad to answer any questions based on local knowledge.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. I do not have any questions. I have spoken to 
the gentleman several times about his request, and depending on 
our allocation, we will try to be helpful. These are important 
in a rural area, certainly, and I know Mr. Mollohan agrees that 
we need to do more in rural areas.
    Mr. Hayes. You have a few of those in your State.
    Mr. Mollohan. We have a lot of them in my State.
    Mr. Walsh. Surprisingly, New York does, too, and people 
just do not realize it. Most of the State is rural.
    Mr. Hayes. We get a lot of stone from New York in North 
Carolina. We have a lot of stone masons. A lot of it comes from 
upstate New York, and I was on the elevator with Mr. Hobson and 
a bunch of folks from West Virginia got into more folks from 
Ohio in West Virginia than are West Virginians, so very close 
to that.
    But your staff and the committee staff has worked very, 
very closely, listened extremely carefully, and they have 
looked at the possibilities, depending on allocation, as to how 
we can deal with this, and I feel very comfortable. You all 
have been very attentive to our request and I submit them to 
you.
    Mr. Walsh. Thank you, sir.
    Mr. Hayes. And I apologize for going to the wrong building.
    Mr. Walsh. You are right on time.
                              ----------                              --
--------

                                           Tuesday, April 11, 2000.

  FUNDING FOR THE HOUSING OPPORTUNITIES FOR PERSONS WITH AIDS (HOPWA) 
            PROGRAM AND THE CORPORATION FOR NATIONAL SERVICE


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Walsh. Welcome. The gentleman from Connecticut.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Walsh. Good to have you with us, Chris.
    Mr. Shays. Nice to be here, but unfortunately, hearing your 
previous conversation makes me want to walk out.
    Mr. Walsh. It is those budget hawks, you know.
    Mr. Shays. I am here for two reasons. I am here to talk 
about HOPWA and I am here to talk about national service. Both 
are relatively inexpensive programs, frankly. You allocated 
$232 million, and I am not talking billions. I am talking 
millions. The HOPWA community, the community that deals with 
people with HIV-AIDS, requested $292 million. You do not have 
an authorization for that, but you do have an authorization of 
the House that increased the President's number to 260, to 275, 
and I would hope that the minimum we would be able to look at 
is the 275 number.
    I will just submit the rest of my statement for the record 
and also just talk about national service. Of all the programs 
that we have here, I am amazed that this is not considered a 
Republican program, because two-thirds of it are local and 
State-based, and the average cost now is down to about $15,000 
per AmeriCorps participant. I would just hope that you would 
provide the funds for national service.
    I support the administration's request of $538 million, and 
I guess I could say it is half-a-billion. That sounds like a 
lot, but we are still talking in the millions, rather than the 
billions, and I know some on my side of the aisle, Jim, are 
pretty critical of AmeriCorps because it is the President's 
program, but that is the only reason.
    They cannot be critical of the fact that it is local and 
State-based. When they find some programs they do not like, 
unfortunately, they fail to acknowledge the fact that we could 
have had a standardized national program and it would not be 
too excellent and it would not be too bad. It would just kind 
of pass the audits and everybody would be happy.
    Instead, we wanted innovation. We said, ``Okay. We are 
going to have local programs. We will have some good ones. We 
will have some bad ones. We will try to root out the bad ones, 
but in the end, we will have a great program.'' There are 
14,000 AmeriCorps national service participants, and this is 
also seniors and this is men and women who are advising us, not 
just young people, in AmeriCorps.
    I would just hope that you would look favorably on both 
these programs, and that really concludes my testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Well, thank you for your consistent advocacy for 
these programs. Chris, you know I have the highest respect for 
you. As a Peace Corps volunteer, we shared a lot of the same 
priorities. I have got to tell you, the Budget Committee, what 
they are asking us to do this year with the allocations we are 
receiving is next-to-impossible.
    You come in and advocate for HOPWA and for AmeriCorps, both 
worthy programs. People come in and they advocate for other 
programs. Nobody advocates for all of them except for us. That 
is not necessarily what we want to do, but we have to meet all 
these needs. We have everybody's priorities. Everybody has 
their own individual ones.
    It is safe to say we are going to present this budget 
without any money for AmeriCorps, with, at best, level funding 
for HOPWA, potentially across-the-board cut in all of our 
research and science programs, and I know it is not the Budget 
Committee's fault. You are driven by politics just as much as 
any other committee, but it has put us in a real box.
    Mr. Shays. Well, Mr. Chairman, I have the highest respect 
for you, and on the floor, I voted against the emergency 
supplemental and the $4 billion. No, I voted against billions 
of dollars of spending. I voted against forcing the 
transportation bill to spend all the money and $20 million of 
projects were taken out because I was against it. So, no, I 
have no problem voting against spending, and I understand the 
problem you have.
    I am not quite sure how the allocations were made by the 
appropriators, but unfortunately, the only politics I see in my 
own party is that we think there is no waste, fraud, and abuse 
in defense, and we continue to vote out more money for defense 
and we continue to send troops everywhere. I think, in the end, 
when the story is told, we will realize that we close our eyes 
to the waste and the fraud and abuse in defense, and then we 
nickel and dime some programs that you have to deal with.
    So you have to do what you have to do, but I vote to cut 
spending all the time. I do not just ask for money, and I ask 
for very little.
    Mr. Walsh. Well, I am certainly not criticizing you for 
cutting spending. What I am suggesting is we just do not have 
enough money to meet current obligations, given the allocation.
    Mr. Shays. I would take your position. If you do not feel 
you have enough, then you have got to do what you have got to 
do, and I accept that.
    Mr. Mollohan. Mr. Shays, I would just add you are going to 
get your chance to vote against spending.
    Mr. Shays. What is that?
    Mr. Mollohan. Any one of these appropriation bills coming 
out, you are going to get your chance to vote against spending.
    Mr. Shays. Yes, and then wait till the Democrats want more 
spending, so that is my challenge.
    Thanks.
    Mr. Walsh. Thanks, Chris.
                                           Tuesday, April 11, 2000.

   NATIONAL ESTUARY PROGRAM, AGENCY FOR TOXIC SUBSTANCE AND DISEASE 
 REGISTRY (ATSDR), TOMS RIVER CANCER CLUSTER STUDY, AND SUPERFUND (EPA)


                                WITNESS

HON. JAMES SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
LINDA GILLICK, ACTIVIST, TOMS RIVER, NEW JERSEY
    Mr. Walsh. I would like to welcome the gentleman from New 
Jersey, Mr. Saxton, to the subcommittee. We have your 
statement, I believe, and it will be included in the record, 
and if you would care to give us the short version, we would 
appreciate it.
    Mr. Saxton. Thank you, Mr. Chairman. I have with me today 
Linda Gillick, who is an activist back in Toms River, New 
Jersey, and she is here to share with you some experiences that 
she has had more closely than I, with regard to childhood 
cancer and the cancer cluster in Toms River, but I would just 
like to mention a couple of other issues first.
    The National Estuary Program, as you know, is an extremely 
important program and one which I chair the subcommittee for 
reauthorization. The National Estuary Program is in the process 
of being reauthorized as we speak, and I am hopeful that we 
will be able to fully fund the program this year with the 
required $50 million and to permit these appropriated funds to 
be used for the implementation of the NEP management plans, 
which is a step further than we have gone so far.
    Also, in Ocean County, there is a need for the 
reimbursement of $800,000, which has already been appropriated, 
for a wastewater treatment plant, which I am hopeful will also 
be provided. Actually, all we need is language in your bill for 
that purpose.
    The third issue and something that is closely connected to 
the reason Linda Gillick is with me today is the appropriate 
level of funding for Superfund, for the cleanup of toxic 
materials. Unfortunately, New Jersey has the distinction of 
having more Superfund sites than any other State, and so it is 
extremely important to us and I encourage the subcommittee to 
fully support the President's budget request for Superfund, 
which provides $1.45 billion.
    Now, Mr. Chairman, I would like to, by way of introduction, 
bring to the attention of the committee--actually, I do not 
have to bring it to your attention, because you have been very 
much aware of this issue and extremely cooperative, and we 
appreciate that--but, in Toms River, New Jersey, an unfortunate 
situation has occurred, which we refer to as the cancer 
cluster, and the Agency for Toxics and Substance Disease 
Registry, ATSDR, is in the process of completing a study, an 
epidemiological study, actually, to try and determine what it 
is that has caused the high rate of childhood cancers in and 
around the Toms River area.
    Linda Gillick has been the leader of the local group. Her 
son, Michael, has had cancer for many years, and as a result of 
Linda's great work, the ATSDR was engaged by Senator Torricelli 
and myself, and others, and is in the fourth year or fifth 
year, currently?
    Ms. Gillick. Fourth year.
    Mr. Saxton. Fourth year of the epidemiological study, and 
to just conclude my part of the testimony and then turn to 
Linda, we are asking for $1 million to complete the study you 
have already appropriated $5.5 million, which has been, we 
think, very well spent, and so this $1 million, once this is 
appropriated, we will not have to come back for this purpose, 
hopefully, ever again.
    So let me just thank Linda for coming to share her 
experiences with us and to tell us why she thinks this is very 
important.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Welcome.
    Ms. Gillick. Thank you.
    Mr. Walsh. Good to have you with us.
    Ms. Gillick. Thank you very much. I brought some pictures. 
I have already shared this with one of your members. I 
appreciate Congressman Saxton giving me the time.
    Chairman Walsh, and members of the Subcommittee, thank you 
for the opportunity to address you on the importance of 
allocating additional funds for the ATSDR to complete the 
investigation into the childhood cancer cause in Toms River, 
Dover Township, New Jersey.
    It has taken many years and many lost lives to get the 
attention of government at a local, State, and Federal level, 
to recognize the health crisis existing in our town. I have 
personally met and shared the pain, anguish, and suffering of 
most of the 110 children and their families since 1979 battling 
childhood cancer. A great number of these children are no 
longer with us. They have lost their lives to this deadly 
disease in spite of the advances in medicine.
    I have personally watched my son, Michael, who was 
diagnosed at the age of three months, suffer needlessly for the 
past 21 years with neuroblastoma, a cancer of the sympathetic 
nervous system and one of the cancers being investigated in 
this study. Many of you are parents or grandparents of 
beautiful, healthy children. Can you imagine being told your 
baby or grandchild will not live to the age of one? I am sure 
you cannot, and you should not, neither should any of the 
families in Toms River.
    I cannot express to you how important this study is to 
everyone living there or visiting this beautiful town. We have 
been subjected to a public water supply that has been 
contaminated with hundreds of chemicals from two Superfund 
sites for over 30 years. No one in the field of science or 
medicine knows the health ramifications of our children's 
exposures to these chemicals.
    Common sense tells me what the consequences are, by seeing 
the number of children that have cancer and continue to be 
diagnosed. The country--no, the world--is looking at the 
answers that will hopefully come out of this investigation. 
Cutting back on the ATSDR's ability to finish this assessment 
would be criminal. I say criminal because more children will 
die and we will never know if we had it in our power to protect 
them, criminal because no government agency was wiling to 
recognize the problem earlier or put the necessary funding in 
place to find out why and complete all necessary studies.
    So far, we have, one, identified chemicals never found 
before in drinking water; two, identified radiological problems 
that we never thought existed in our town, but also found out 
now exist in 26 other States. These results have the Nation 
changing and improving water quality and safety standards for 
drinking water.
    There are those that would believe this to be waste of time 
and money. Shame on those who voice this opinion. The number of 
years of life lost are too numerous to count. The hundreds of 
millions of dollars spent on trying to save these children's 
lives cannot even be compared to the small amount that is spent 
thus far in this investigation.
    Whatever it takes to provide the funds necessary to find 
the true answers lies in your hands and your hands only. It is 
time to become proactive and not reactive. Children are not the 
only ones being affected, so are the adults. We can only find 
answers through the children, our youngest and most vulnerable 
human beings, our babies, our toddlers, and our teenagers. 
Every year, it becomes necessary for us to justify why we need 
this funding.
    Think of the stress on each of the families trying to get 
through a day with their sick child. Do you think they should 
have to worry about their government not providing the funds to 
finish this study? The answer is no. You are the overseers of 
the EPA and the ATSDR, set up to protect us. The ATSDR was set 
up to assess health hazards from Superfund sites and to help 
prevent and/or reduce further exposures and the illnesses that 
result from these exposures.
    Cutting the budget and funding for this project jeopardizes 
the health of everyone around these sites. The public that 
drinks from water down-gradient from any of these sites are 
most at risk of increased disease, especially the children. For 
each of these children and families too sick, too distraught, 
and too dismayed to be here from towns affected by 
contamination, please find the funding necessary to complete 
this ATSDR project and others that are so vital to all our 
children's health. This must be a continued, bipartisan 
endeavor to ensure the future of our children.
    Thank you for the opportunity.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony and for 
your dedication to, not only your own child, but to all these 
other children and to your community. It must be a tremendous 
burden to have to cope with that. I have three kids of my own. 
Thank God, they are healthy.
    Ms. Gillick. Yes.
    Mr. Walsh. And when you ask that question, how would it 
feel if you heard that statement read to you or made to you, it 
would be a terrible----
    Ms. Gillick. It would be devastating.
    Mr. Walsh [continuing]. Feeling. So while we cannot 
empathize, we certainly can sympathize. This budget request 
came to us--the President has reduced this budget request $10 
million the last several years. We restored the $10 million 
last year.
    Ms. Gillick. Good.
    Mr. Walsh. And I am not sure yet what our allocation will 
be, but obviously, this is a high-priority item, and I cannot 
speak for the whole subcommittee, but I know them all as 
sensitive, caring people, and we will do our best.
    Ms. Gillick. I appreciate it.
    Mr. Walsh. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. I just appreciate 
the witness' testimony and Jim's bringing the witness to us, 
and I echo your sentiments totally.
    Ms. Gillick. Thank you.
    Mr. Walsh. Ms. Meek.
    Mrs. Meek. I am sorry I missed the first part of your 
presentation, but of course, I am child-sensitive, and 
certainly will be appreciative of your request.
    Ms. Gillick. Thank you. I appreciate it. For all the 
children and the families, thank you.
    Mr. Walsh. Thank you very much.
    Ms. Gillick. Thank you for allowing me to be here.
    Mr. Walsh. Thanks for the leadership you provide on the 
estuary research, too. That is very important.
                              ----------                              --
--------

                                           Tuesday, April 11, 2000.

             REGIONAL EMERGENCY SHELTER IN DELTONA, FLORIDA


                                WITNESS

HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Walsh. Welcome. We have your testimony, and if you 
would care to summarize, it would be appreciated.
    Mr. Mica. Yes, I will. Thank you. I will just submit that 
for the record. Mr. Chairman and members of the committee, I 
just want to take one minute and just put a face on this 
request. I represent the area between Orlando and Daytona 
Beach. This is probably one of the fastest growing areas in the 
United States, if not Florida.
    The community center that I am asking your help on would 
also serve as an emergency shelter, and this area has grown so 
rapidly, this city did not exist when I took office in 1993. It 
is now probably in the neighborhood of 70,000. It will soon be 
bigger than Orlando or Daytona Beach in size, to illustrate the 
dramatic growth.
    We have been hit by hurricanes, wildfires--you have seen 
them on television--and tornadoes. I have probably had more 
people die from tornadoes in my district, in that area, than 
combined other areas, plus we have an influx. This is a bit 
inland, about 20 miles inland, but we have no other place for 
people from the coast, from Orlando to Daytona Beach, that has 
grown up and has also developed dramatically, as far as 
emergency shelter.
    So what we are asking is a cooperative effort and not the 
feds to fund the whole project, but a small portion of the 
project through the community development block grant, and the 
State, I believe, will be participating, and the local 
government, as well, but we are just asking for a little 
helping hand. Again, the only portion that would be your 
contribution was towards the emergency shelter.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. What is the request? $1 million?
    Mr. Mica. It is for $1 million, yes, and the project will 
probably be somewhere between $3 million and $5 million, that 
depends, again, on how it is built. But as long as we are 
building it, we would like to build it to serve these emergency 
shelter needs. Again, in this area, we have been hit by just 
about every natural disaster you can imagine, and we are now 
facing----
    Mr. Walsh. That is why I live in New York.
    Mr. Mica. Well----
    [Laughter.]
    Mr. Walsh. And you did, too, once.
    Mr. Mica [continuing]. In your area, but nothing like we 
have had, plus the growth that we have is just unparalleled, 
and it is very hard for these small, developing communities, 
particularly this one, to keep up with it.
    So we would appreciate your consideration of this request.
    Mr. Walsh. Mrs. Meek.
    Mrs. Meek. Mr. Chairman, I just, being a Floridian, he is 
certainly in an area that needs emergency preparedness and 
assistance. And it is growing, Deltona is growing, as you said, 
very rapidly, and it is an area that is not serviced by the big 
emergency shelters that you find in other places, and the 
schools are inadequate as well. I do not mean inadequate, but 
inadequate for shelters.
    Mr. Walsh. Thank you.
    Thank you, John.
    Mr. Mica. Thank you.
    Mr. Walsh. We will do our best.
    Mr. Mica. We appreciate your consideration.
                              ----------                              

                                           Tuesday, April 11, 2000.

               EPA/DOAN BROOK POLLUTION ABATEMENT PROJECT


                                WITNESS

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Walsh. We welcome Mrs. Tubbs to the subcommittee. We 
have your testimony, I believe. Welcome.
    Mrs. Jones of Ohio. Thank you, Chairman Walsh, and to my 
good friend, Ms. Meek from Florida. I am pleased to be here 
this afternoon, and I want to thank you for the opportunity to 
present testimony on behalf of my constituents from the 11th 
Congressional District of Ohio and the Northeast Ohio Regional 
Sewer District.
    I am requesting your favorable consideration of my request 
for $20 million, which is urgently needed. This is a special 
purpose grant funding. These funds are needed to continue the 
massive repair and construction necessary to protect public 
health in the lower Doan Brook watershed.
    First, Mr. Chairman, I would like to introduce Mr. William 
Schatz, who is the general counsel of the Northeast Ohio 
Regional Sewer District. He and his staff stand ready to 
provide technical information for you if you so request. I look 
forward to working with you on this project again this year and 
extend to each of you and your staff an invitation to visit the 
Doan Brook project site.
    Secondly, I want to thank you and all of the members of the 
subcommittee for the funding that you provided us on this 
project last year. The lower Doan Brook area on Cleveland's 
East side historically has been subject to significant flooding 
in wet weather. This persistent flooding presents a public 
health risk, including exposure to cryptosporidium mold known 
to be particularly harmful to infants.
    The areas affected by this problem include low- and 
moderate-income apartments and single-family dwellings adjacent 
to the lower Doan Brook. It also includes Rockefeller Gardens, 
which is an historical park area right in the inner city, and 
the Museums of Art and Natural History and the campuses of the 
University Hospitals System and Case Western Reserve.
    What happens is when there is a wet water runoff, all of 
this water heads down Doan Brook and then heads into Easterly 
Wastewater Treatment Plant. We have just done a study that 
showed the significant amounts of water that are flowing down 
there and our inability to either provide a watershed or to 
provide the appropriate flow to keep these areas from flooding. 
And so this a project that we keep coming back year after year 
because it is such a massive project. We sought an 
appropriation, we got an authorization, we are seeking an 
appropriation over time.
    Mr. Walsh. It is an authorized project then.
    Mrs. Jones of Ohio. Yes. So I really am just coming back on 
behalf of my constituents saying please help us out. And I am 
prepared to answer any general questions. Technical I will have 
to refer.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Not about cryptosporidium mold.
    Mrs. Jones of Ohio. No. I was glad I got that out. 
[Laughter.]
    Mr. Walsh. That is a tough one. I have no questions. This 
is an authorized project. It has been supported by the 
subcommittee in the past, and we will do our best this time, 
pending our allocation.
    Mrs. Jones of Ohio. Understood.
    Mr. Walsh. Mrs. Meek.
    Mrs. Meek. I will support anything that this particular 
member has without hesitation.
    Mr. Walsh. That is a pretty high endorsement. That has been 
the first time she has said that about anyone.
    Mrs. Jones of Ohio. You have to understand we are aligned 
as Delta Signa Theta sorority members.
    Mr. Walsh. I think I remember that.
    Mrs. Jones of Ohio. The women in red, right?
    Mr. Walsh. Right. Right. Okay. No wonder. [Laughter.]
    Well, thank you very much for coming over. We will do our 
best to respond.
    Mrs. Jones of Ohio. Appreciate it. Thank you.
    Mr. Walsh. You are welcome.
    And so with that, we will conclude our hearing and get on 
with our business.
    Thank you so much for sitting through to the end.
    [The following statements were submitted for the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 12, 2000.

                 URBAN RIVERS AWARENESS PROJECT [URAP]

                                WITNESS

PAUL A. HANLE, PRESIDENT AND CEO, ACADEMY OF NATURAL SCIENCES
    Mr. Sununu [presiding]. It is my pleasure to begin the 
hearing of public witnesses. I am acting as chair for now. I am 
Congressman John Sununu. Mr. Hanle, it is a pleasure to have 
you here.
    Mr. Hanle. Thank you. It is a pleasure to be here.
    Mr. Sununu. We are pleased to welcome you as our first 
public witness of the day.
    Mr. Hanle. Thank you very much. I appreciate the 
opportunity, Mr. Chairman, and members of the subcommittee.
    I am the president of the Academy of Natural Sciences. And 
the Academy is located in Philadelphia. It is actually the 
oldest natural history museum operating in the Western 
Hemisphere. We were founded in 1812 and opened to the public in 
1828. Our mission is to expand knowledge of nature through 
discovery and to inspire stewardship of the environment, and we 
do this through a variety of public programs and research 
programs.
    Since 1948, our work is highlighted by the longest-running 
water quality assessment. We started on the Savannah River in 
Georgia assessing the quality of the water there, and now we 
enjoy a reputation as one of the leading basic research 
institutions in water ecosystem studies. These efforts are the 
foundation for an initiative which is supported by the 
Subcommittee in recent years called Urban Rivers Awareness 
Project, and that project is an integrated research and 
education program, which is focusing on urban watersheds and 
particularly in the Middle Atlantic States.
    The primary goal of the program is to help people, 
particularly in urban centers, to understand and recognize that 
they live on a watershed, that water is very important to them, 
and that their actions impact water quality and that they can 
make a difference in regenerating and using this very important 
natural resource. The project was conceived to captivate the 
traditionally hard to engage audiences in urban settings, 
particularly youngsters, around the issue of protecting water, 
nature's greatest resource, in their communities.
    The funds provided by the subcommittee in 1999, and 
complemented, by private support as well, have enabled the 
Academy to develop a private program for scientific research, 
hands-on and virtual educational experiences, as well as an 
exhibit plan to take place at the Academy. This pilot phase was 
originally intended to lay the foundation for the development 
of a permanent watershed exhibition and full-scale educational 
program.
    However, because of the Academy's receipt of Federal and 
private funds in installments, we have been required to adjust 
the planned development of Urban Rivers Awareness. We are going 
to, in the current fiscal year, develop a prototype watershed 
exhibit, evaluate its elements and then develop a full plan for 
the permanent exhibit to come and the permanent educational 
programs that are associated with that as well.
    The Academy is requesting $1.3 million in fiscal year 2001 
to complete the Federal share of Urban Rivers Awareness, a 
total of $2.5 million, and thereby to implement the program, as 
revised, to focus on educational and exhibit experiences, both 
at that Academy and on and along rivers where these educational 
programs take place.
    We understand, also, that the subcommittee has to make 
difficult decisions in order to most effectively allocate 
Federal resources. We hope that the subcommittee will take into 
account the fact that not only is this a valuable program, but 
also that EPA's people, particularly in Region III, as well as 
Headquarters, have continued to support this project and that 
its support fulfills two of the Federal priorities as outlined 
in the Clean Water Action Plan of 1998.
    Once complete, the project will be a spectacular 
presentation about watersheds in the urban setting and water-
related topics as is available anywhere in the country and will 
not only serve as a national resource, but also a model, we 
hope, for going to other institutions around the country.
    So I want to thank you very much, Mr. Chairman, and the 
committee for their ongoing support of the Urban Rivers 
Awareness Program and also, of course, for your support for the 
Academy and again this opportunity to speak with you today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you for your testimony. Just a couple of 
quick questions.
    Mr. Hanle. Yes.
    Mr. Sununu. How large is the museum?
    Mr. Hanle. The museum is, in size, physical size, is about 
250,000 square feet. That compares favorably to other natural 
history museums.
    Mr. Sununu. And what was the amount in proportion of the 
private funds raised to complement the Federal funding level?
    Mr. Hanle. Our goal for the total program, $2.5 million, is 
to bring in $1.8 million in additional private funds, and to 
date, we have brought in several hundred thousand dollars. We 
have not reached the full amount on either side. But we are 
continuing aggressively to do that.
    Mr. Sununu. Thank you.
    Mr. Hanle. Thank you very much. We appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

            AMERICAN COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY


                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR
    Mr. Sununu. I would like to invite Mr. Howard Geller to 
please come forward.
    Mr. Geller. Thank you, Mr. Chairman.
    Mr. Sununu. You are welcome, Mr. Geller.
    Mr. Geller. I am the executive director of the American 
Council for an Energy-Efficient Economy, a nonprofit 
organization based here in Washington promoting energy 
efficiency.
    Mr. Sununu. A-C-E cubed.
    Mr. Geller. A-C-E cubed, correct.
    Mr. Sununu. Welcome.
    Mr. Geller. A number of scientists started the 
organization, so we have got an e-cubed.
    We recommend that the subcommittee fully fund EPA's request 
for $227 million for the Climate Change Technology Programs in 
fiscal year 2001. These programs provide many important 
benefits to the Nation. They save consumers and businesses 
money, and they reduce pollutants. As you would use less 
energy, you burn less fuel and produce less pollutants. These 
programs are voluntary programs, and they are a sensible 
response to the threat of global climate change, saving money 
while cutting pollution.
    Let me give a couple of examples of some of the successes 
that the program is achieving. About 15 percent of commercial 
and public sector building space in the country has now signed 
up for EPA's Energy Star Buildings program. Program 
participants save more than 21 billion kilowatt hours of energy 
in 1999, twice the level of savings as in 1998. The savings are 
growing very rapidly.
    The Energy Star Labeling program has transformed the market 
for personal computers and other types of office equipment. 
Consumers bought more than $100 million Energy Star Products in 
1999. As a result of these purchases, cumulatively, consumers 
are saving about $2.3 billion worth of electricity annually.
    EPA estimates that its Climate Protection Programs led to 
around $400 million in investment in energy-efficient 
technologies in 1999, and over a 10-year period, consumers and 
businesses will cut their energy bills by more than $4 billion 
through the use of these products. This means participants are 
realizing a benefit-cost ratio of about 10 to 1. And for every 
dollar spent by EPA on these programs, consumers have reduced 
their energy bills by about $75.
    These energy efficiency and pollution prevention programs 
are a major component of our Nation's effort to reduce the 
gases that contribute to global climate change. EPA estimates 
that the programs cut greenhouse gas emissions by about 23 
million metric tons of carbon in 1999, a 50-percent increase 
over the reduction to programs achieved in 1998. This is 
equivalent to removing about 18 million cars from the road.
    If the programs are so successful, why is more funding 
needed? Additional funding is needed to expand the programs, to 
reach out to other sectors they are not currently serving, like 
schools, retail buildings, health care and lodging. The 
Commercial Buildings program is mainly serving office buildings 
today. They want to cover other products in the Energy Star 
Products program. They are trying to cover home electronic 
products, transformers and other products that they are not 
currently covering, and they are also trying to reach out 
beyond the building sector. They are mainly focused on the 
building sector today, but there is a lot that could be done to 
cost-effectively cut pollution and improve energy efficiency in 
industries and in transportation. Of course, working on 
transportation is very important not only to save energy and 
money, but also to reduce our oil imports.
    In summary, increasing funding for EPA's Climate Change 
Technology programs will help consumers and businesses save 
billions of dollars, while cost-effectively cutting pollutant 
emissions of all types. Once again, I urge the subcommittee to 
fully fund EPA's Climate Change Technology programs in fiscal 
year 2001.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much.
    Are you indicating that, at least as this program has seen 
things, that those building schools do not have the incentive 
to buy energy-efficient products? Why would they not be making 
those decisions in the construction of the school anyway? They 
are going to have operate it and pay for the energy.
    Mr. Geller. Right. Well, schools and lots of other 
consumers of energy often do not have the information they need 
to make a wise decision. They do not know about the latest 
technologies. Even if they do, they often lack the capital 
necessary. Now, these programs do not provide subsidies. They 
are about providing information and education, increasing 
awareness, and making it very easy for a consumer to identify 
an energy-efficient product by looking for the Energy Star 
label.
    Mr. Sununu. And if the savings are as dramatic as you have 
described, and I have no reason to believe otherwise, would the 
purveyors of these products not have every financial incentive 
to advertise how energy efficient they are in order to gain 
additional market share?
    Mr. Geller. Sure. I think they are out there trying to 
advertise and sell as much as they can. Here, you know, the 
Government is playing a valuable role in being an independent 
source of information, an honest broker, and a credible source 
of information. We get calls all of the time with claims to 
that effect.
    Mr. Sununu. The EPA label somehow makes a difference?
    Mr. Geller. I think it does. And we have actually done a 
survey of households showing that people are aware of it and 
using this information, and it is a good activity for the 
Federal Government.
    Mr. Sununu. Excellent. Thank you very much.
    Mr. Geller. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                        ALLIANCE TO SAVE ENERGY


                                WITNESS

DAVID M. NEMTZOW, PRESIDENT
    Mr. Sununu. Mr. David Nemtzow from the Alliance to Save 
Energy.
    Mr. Nemtzow. Thank you. My name is David Nemtzow and I am 
president of the Alliance to Save Energy. Thank you very much 
for the opportunity to allow the Alliance to testify. The 
esteemed staff director would not let me bring a VCR, and so we 
brought you this poster instead.
    Mr. Sununu. Well, bully for him. [Laughter.]
    Mr. Nemtzow. Thank you. I am here on behalf of the Alliance 
to Save Energy, a bipartisan, nonprofit coalition of business, 
and environmental and consumer leaders to testify in support of 
the Energy Star program. I did not hear all of Mr. Geller's 
testimony, but I suspect we have similar views regarding this 
important program.
    Governor Pataki could not be here in person. I brought his 
likeness with me, and I would like to refer to that later in 
the course of my testimony, if I may.
    Why Energy Star? I do not think I have to tell any member 
of this body, especially one from New England, that OPEC is 
back in the driver's seat and our Nation's demand for energy 
continues to increase, and we have some problems. I am afraid 
that if we cannot control our demand problem, as well as 
dealing with supply issues, these past few months and the past 
winter in New England is going to seem like a mild bump in the 
road compared to what is in front of us. Also, this summer, we 
are afraid about electricity reliability. There have been 
constraints throughout the country. And, again, energy 
efficiency is an important part of the solution to that.
    And, finally, the timing of this hearing is appropriate 
with Earth Day coming up next week. It is the thirtieth 
anniversary of Earth Day, and this year Earth Day will focus on 
clean energy and climate change as one of the most important 
themes for protecting our environment.
    I think you know, Mr. Chairman, that Energy Star fits the 
bill perfectly to deal with these problems of oil security, and 
electric reliability and environmental protection. These 
programs have been around for a while. They are well run. They 
are up and running. It is not a new start-up, and they have 
been proven successful. They are voluntary and market based. 
They are what we call a second generation environmental 
protection. They are more sophisticated than just command and 
control, and they work very closely with business.
    And this program itself is quite well run. I do not know if 
you know the director of it, Dr. Kathleen Hogan, but she runs a 
very good show, and I think she gives this subcommittee and the 
taxpayer a pretty good bang for their buck. That is why this 
program has been endorsed by literally thousands of businesses 
around the country and utilities. I think when you have 
hearings on the Environmental Protection Agency, you will not 
hear often from businesses and utilities about how good a job 
the EPA is doing. I think it is still pretty rare, and this 
program is one of those that they like. And that is why 
governors around the country, starting with Governor Pataki, 
are endorsing this program.
    Governor Pataki actually filmed several 30-second ads, 
which have been broadcast throughout New York State, asking New 
Yorkers to look for the Energy Star label and to work with this 
program. Governor Tommy Thompson in Wisconsin has been 
supportive, and so has Governor Shaheen of New Hampshire. I 
have a copy of a letter that was forwarded to me that Governor 
Shaheen sent to you if I may submit it.
    Supporting this program. And so we know that on a 
bipartisan basis around the country governors and others are 
supporting this, and it is small wonder. If every American 
family chose the Energy Star products that are available--
dishwashers, refrigerators, and heating and cooling units, they 
could save $400 a household. That is pretty compelling for 
anybody, including governors who are trying to help their 
constituents.
    I also have a letter made out to Chairman Walsh and one to 
Ranking Minority Member Mollohan, if I could submit that for 
the record from over 500 Energy Star partners and others. These 
are businesses from around the country asking for a significant 
increase for this important program. We will also sort this out 
by State. We will send one to you and to others and also to the 
Senate side. And these companies strongly support this.
    I would just like to say, and I know how difficult it is 
for the subcommittee, the administration asked for a 
significant increase for this program. The Alliance to Save 
Energy, and these businesses and others strongly support a very 
significant increase--$40 million, in fact. This program has 
had zero growth in the past several years and they need growth.
    With additional funding, such as the $40 million, they will 
get recognition of the label, which was at one in three 
Americans and is now up to one in two Americans. They are now 
working with four retailers: Home Depot, and Sears and others. 
Not just manufacturers and consumers, but also the retailers. 
They can get up to eight retailers to help educate people, and 
they can work on additional building types.
    I heard you ask the question about schools. Schools use $6 
billion of energy. In K through 12 schools alone in this 
country, a billion-and-a-half is wasted. This program is now 
starting with schools. They deserve this increase.
    One final note: half of all the equipment, appliances, and 
buildings that will pollute in 2010 have not been built yet. 
And so the decisions are still in front of us, so we can 
succeed with a significant increase. I think you will get good 
results from this.
    Thank you very much for the opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you.
    Mr. Nemtzow. I have a video of all of Governor Pataki's 
ads.
    Mr. Sununu. I would be happy to take it home and share it 
with my children. [Laughter.]
    Mr. Nemtzow. Maybe I can give them to Mr. Walsh, who might 
be interested.
    Mr. Sununu. Thank you very much.
    Mr. Nemtzow, I will be happy to note that we will include 
these letters in the committee file as a part of these 
proceedings. They will not be included as part of the formal 
record. I am informed that that is the standard procedure.
    Mr. Nemtzow. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

    THE AMERICAN LUNG ASSOCIATION AND THE AMERICAN THORACIC SOCIETY


                                WITNESS

PETER EISCHEN, VOLUNTEER
    Mr. Sununu. I am pleased to call Mr. Peter Eischen of the 
American Lung Association and the American Thoracic Society.
    Mr. Eischen. Good morning.
    Mr. Eischen. Thank you. Mr. Chairman, my name is Peter 
Eischen. I live in Syracuse, New York. I am here today to speak 
on behalf of the American Lung Association and American 
Thoracic Society.
    First of all, Mr. Chairman, I want to thank you. Last year, 
I came before this subcommittee to ask Mr. Walsh for a favor. 
Mr. Walsh said he would do his best, and he did.
    I suffer from a rare pulmonary disease called sarcoidosis. 
Sarcoidosis is a disease where the lung develops noncancerous 
fibrotic growths. Over time, these growths diminish the 
capacity of my lungs to breathe. Scientists do not know what 
causes sarcoidosis, and there is no cure. However, scientists 
do know that the exposure to harmful pollutants in the air 
makes sarcoidosis worse. And quite frankly, I really do not 
need scientists to tell me that. I know when the air is worse. 
When the air quality is red, breathing for me is hard. 
Sometimes it feels like breathing is impossible.
    Exposure to air pollution is not just bad for me. It is bad 
for people with asthma, it is bad for people with emphysema, it 
is bad for people with chronic bronchitis. Basically, air 
pollution is bad for everybody.
    While sarcoidosis may eventually kill me, I am in no hurry 
to go. Keeping the air clean will go a long ways toward keeping 
me alive longer and improving my quality of life.
    Last year, as a favor to me, I asked Mr. Walsh to keep the 
VA-HUD appropriations bill free of any legislative rider that 
would weaken the Clean Air Act, reduce EPA's power to enforce 
the Clean Air Act or delay implementation of standards under 
the Clean Air Act. As you are probably aware of, from time to 
time, members of Congress have inserted legislative riders onto 
VA-HUD appropriations that essentially weaken the public health 
protections for clean air established in the Clean Air Act. 
While those legislative riders may make some people happy, I 
can tell you they are killing me, literally.
    Those legislative riders that weaken the Clean Air Act 
could jeopardize the health of 17 million Americans with 
asthma. They could put the 16 million Americans with COPD at 
risk, too. Eventually, and essentially, legislative riders that 
weaken the Clean Air Act put all Americans at risk.
    I cannot tell you how happy I am that last year the VA-HUD 
bill was free of legislative riders on the Clean Air Act, and I 
thank you for doing everything in your power to keep both last 
year's appropriations bill free of those Clean Air legislative 
riders. It makes my life a little easier and will make my life 
a little longer. So once again, Mr. Chairman, I am asking you 
and the subcommittee to do me a favor and keep the Clean Air 
Act legislative riders from this year's appropriations bill.
    Mr. Chairman, since the subcommittee made good on last 
year's promises to me, I am going to push my luck and ask for a 
second favor. I could use a little more research on 
sarcoidosis. As you know, the VA sponsors a research program. 
The VA research program is pretty active in the area of lung 
disease, but they could use a little more money to expand their 
study of lung diseases. I am not asking for an earmark for 
sarcoidosis research, but I am asking to provide as much money 
for the VA research program as you can. Expanding the VA 
research program will help lead to better treatments and cures 
for all kinds of diseases, including mine, sarcoidosis.
    Mr. Chairman, I want to again thank the subcommittee for 
keeping those legislative riders off the appropriations bill. 
Keeping our air clean will go a long ways towards keeping me 
alive. And with a little luck, and some research progress on 
sarcoidosis and lots of clean air to breathe, I plan on being 
around a good while to thank you for your work in keeping the 
air in Syracuse, New York, and all of America clean.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Eischen. Thank you for your 
testimony and for sharing your personal story with us.
    We are joined by Mr. Mollohan, the ranking member, and I 
will certainly defer to Mollohan for any questions he may have.
    Mr. Mollohan. I appreciate the witness' testimony, Mr. 
Chairman.
    Mr. Sununu. Thank you very much.
    Mr. Eischen. Thank you, Mr. Chairman.
                              ----------                              

                                         Wednesday, April 12, 2000.

         THE ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

RONNY B. LANCASTER, M.B.A., J.D., SENIOR VICE PRESIDENT FOR MANAGEMENT 
    AND POLICY OF THE MOREHOUSE SCHOOL OF MEDICINE AND PRESIDENT OF THE 
    ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS
    Mr. Sununu. Mr. Ronny Lancaster?
    Mr. Lancaster. Good morning, Mr. Chairman.
    Good morning, Mr. Mollohan.
    Mr. Mollohan. Good morning, sir.
    Mr. Sununu. Good morning.
    Mr. Lancaster. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, and thank you for the 
opportunity to testify this morning. I am Ronny Lancaster, 
senior vice president for Management and Policy at the 
Morehouse School of Medicine in Atlanta and President of the 
Association of Minority Health Professions Schools. Mr. 
Chairman, ours is an organization which represents 12 
historically black professional programs which, combined, have 
contributed to the Nation fully half of all of the black 
dentists and physicians, and 60 percent of all black 
pharmacists and 75 percent of all black veterinarians in this 
Nation.
    Mr. Chairman, I am here to testify this morning on behalf 
of or in support of funding for ATSDR, the Agency for Toxic 
Substances and Disease Registry. I am pleased to report to you, 
Mr. Chairman, that I am here not to ask for additional funding, 
but to ask for the support of the subcommittee for continuation 
of funding at the current level. My testimony will be brief, 
Mr. Chairman, but I would like to make just a couple of points 
quickly.
    First of all, just as I mentioned, our institutions have 
trained a disproportionate number of health professionals, 
particularly minority health professionals. And certainly we 
have trained a disproportionate number of health researchers as 
well. For example, of the more than 4,000 individuals receiving 
Ph.D.s in biomedical sciences in the mid-nineties, the U.S. 
Department of Education reports that less than 2 percent of 
those individuals were African-American. And one of our 
institutions, Meharry Medical College, is responsible for 
training approximately a third of all of those. I should add, 
Mr. Chairman, that that number is completely consistent with 
the underrepresentation in other health professions. For 
example, in medicine, less than 3 percent of our Nation's 
physicians are African-American and less than 2 percent are 
subspecialists in medicine.
    Our association has two goals, and that is to, first, 
improve the health status of all Americans, especially African-
Americans and other minorities, and secondly, as I mentioned, 
to address the underrepresentation of minorities in the health 
professions. Mr. Chairman, this is important because, as you 
know, I am sure, the health of minority Americans in this 
country lags significantly behind the health of other 
Americans. As an example, if one were to look at the major 
killers in this country--heart disease, stroke, cancer, 
diabetes, infant mortality and the like African-Americans in 
particularly suffer at somewhere between 1.5 to 2.5 times the 
incidence of those diseases or more, and on average die roughly 
8 years earlier than their white counterparts.
    Addressing the health of minority Americans in this Nation 
and helping to increase or respond to the problem of 
underrepresentation in the health professions is something that 
we think is very important for the Nation and something that is 
an area where we are very appreciative to the Congress for 
their support in these efforts.
    As you know, Mr. Chairman, Congress created ATSDR to 
implement the health-related sections of other laws to protect 
the public from hazardous waste and environmental spills of 
hazardous materials. And the mission of ATSDR is to prevent 
exposure and adverse human health effects and diminished 
quality of life associated with exposure to these hazardous 
substances from various waste sites, unplanned releases and 
other sources of pollution which are present in the 
environment.
    We are pleased to have a cooperative agreement, Mr. 
Chairman, with the Agency for Toxic Substances and Disease 
Registry, which allows us to, through funding from the agency, 
conduct research in a number of health-related areas. 
Specifically, what our institutions do is try to determine what 
the effects of lead, cadmium, mercury, zinc and other toxic 
substances are on various health populations. We try to 
understand, for example, at my institution, exactly how lead is 
transmitted in-utero from mother to child and what the 
associated health consequences are, as well as costs, and most 
importantly how to respond to that problem.
     And so to conclude, Mr. Chairman, our recommendations are 
simply two: first to ask the Congress and to ask the 
subcommittee simply to continue funding ATSDR at the level of 
$70 million in the next fiscal year, which is its current 
funding level now; and, secondly, to continue funding for the 
cooperative agreement, which I have just referred to, at the 
level of $4 million, which will again continue to support our 
institutions conducting this important research.
    That concludes my testimony, Mr. Chairman. Thank you for 
the opportunity to appear this morning. I would be pleased to 
respond to any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Lancaster. What are the 12 
schools in your organization that you represent?
    Mr. Lancaster. I would be pleased, Mr. Chairman, to submit 
for the record so that I do not take the subcommittee's time 
right now.
    Mr. Sununu. And also so as not to miss any. [Laughter.]
    Mr. Lancaster. Thank you, Mr. Chairman. That would get me 
in trouble.
    Mr. Sununu. What is, roughly, the enrollment in the 
combined medical schools?
    Mr. Lancaster. I would say roughly several hundred. The 
four medical schools, Mr. Chairman, specifically are as 
follows: Howard University, located here, which is the oldest 
of our schools. Howard University is the sixteenth medical 
school in the Nation. Next, Meharry Medical College, the two of 
those institutions were founded in the late 1800s. The third 
institution is my institution, the Morehouse School of Medicine 
in Atlanta, which is the only HBCU Medical School or I should 
say the first founded in the 20th Century, and the last is 
Charles Drew in South Central Los Angeles.
    Mr. Sununu. And do all four of those colleges have both 
medical and dental schools?
    Mr. Lancaster. No, Mr. Chairman. Two of the four do, and 
they are the first two that I mentioned--Howard University and 
Meharry.
    Mr. Sununu. And do all 12 of the schools share in the 
cooperative program or is most of the cooperative work 
conducted at 3, 4, 5 or smaller numbers?
    Mr. Lancaster. The answer, Mr. Chairman, is in the middle. 
It is more than 3 or 4, and it is less than the full number. It 
is roughly 8 to 10 of the 12.
    Mr. Sununu. And approximately how many researchers 
participate in the program?
    Mr. Lancaster. I would be pleased to respond to you, Mr. 
Chairman, for the record. I am afraid to hazard a guess.
    Mr. Sununu. As many as $4 million will support.
    Mr. Lancaster. Yes, and we would be pleased, frankly, Mr. 
Chairman, in the future to look for additional support.
    Mr. Sununu. Thank you very much.
    Mr. Lancaster. Thank you.
    Mr. Sununu. Mr. Mollohan, any questions?
    Mr. Mollohan. No. Thank you.
    Mr. Lancaster. Thank you for the opportunity to testify.
    Mr. Sununu. You are welcome.
                              ----------                              

                                         Wednesday, April 12, 2000.

  AMERICAN WATER WORKS ASSOCIATION, ASSOCIATION OF METROPOLITAN WATER 
           AGENCIES, NATIONAL ASSOCIATION OF WATER COMPANIES


                                WITNESS

MICHAEL HOOKER, EXECUTIVE DIRECTOR, ONONDAGA COUNTY WATER AUTHORITY, 
    SYRACUSE, NEW YORK
    Mr. Sununu. Mr. Michael Hooker.
    Good morning.
    Mr. Hooker. Good morning. Thank you very much, Mr. 
Chairman.
    My name is Michael Hooker. I am the executive director with 
the Onondaga County Water Authority in Central New York. That 
is the Syracuse area. I am here today representing the 
Association of Metropolitan Water Industries, the American 
Water Works Association and the National Association of Water 
Companies.
    A written statement has been submitted on behalf of all 
three agencies. Collectively, we have 57,000 members 
representing 4,000 utilities and represent about 80 percent of 
the population of certified drinking water in the United 
States.
    Key components of the written statement address Drinking 
Water State Revolving Fund appropriations; the drinking water 
research; the AWWA Research Foundation set-aside; leaking 
underground storage tanks; Public Water System Supervision 
grants; the EPA's drinking water program; and the Clean Water 
Action Plan.
    In the time remaining, what I would like to do is address 
the State Revolving Fund, the drinking water research end of 
the statement and then the leaking underground storage tanks.
    With respect to the State Revolving Fund, as you may 
recall, the Safe Drinking Water Act of 1996 it authorizes $1 
billion per year for the State Revolving Fund. To date, we have 
not had full funding for that program. While we recognize that 
EPA has increased their request by $5 million over fiscal year 
2000, it still falls $175 million short of a full $1 billion 
that all three associations are recommending.
    To date, since 1996, the shortfall for the funding for the 
State Revolving Fund is in the neighborhood of $3 billion. So 
we are urging that you support full funding for the $1 billion.
    With respect to drinking water research, we urge the 
committee to support the $48 million-plus dollars that has been 
requested by the Administration. The Safe Drinking Water Act 
calls for regulations based on sound science. Research is the 
cornerstone of our sound science and for implementing risk 
management-based regulations. The alternative is to have 
regulations introduced that are not necessarily based on sound 
science and rushed through. And there have been ramifications 
in the past from doing that.
    As an aside to that, I am here to also urge support for the 
AWWA Research Foundation. The set-aside last year was in the 
neighborhood of $6 million. They are asking for $5 million this 
year. The Research Foundation is supported by all of the 
members of these associations. And typically the dollar match 
from the association is $6 to $1. Since 1984, the Research 
Foundation has managed over $165 million in research projects, 
and we are, again, urging you to continue the support for the 
Research Foundation on that.
    The final area I would like to address is leaking 
underground storage tanks, and there is an acronym there I am 
going to stay away from. What has brought this to the forefront 
of importance, although it has been around for a while, is 
MTBE, methyl tertiary butyl ether. USGS records indicate that 
in areas that are using MTBE, approximately 20 percent of the 
groundwater is completely contaminated. So we are interested in 
getting support for that. EPA's request is in the neighborhood 
of $72 million. The associations are urging at least $100 
million. There is a projected 169,000 clean-up sites out there. 
EPA's $72 million would probably address 21,000 of those clean-
up sites. It is something that needs to be brought to the 
forefront, and it needs to be stressed because it is a very 
vital issue for the health and the welfare of the people and in 
support of clean drinking water.
    I want to thank the committee for the time, and I will take 
any questions you have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much, Mr. Hooker. I appreciate 
the discretion in your testimony.
    I have just a couple of quick questions. First, you 
mentioned MTBE and the significance of that problem in a number 
of parts of the country. Has your association or those that you 
represent taken a position on lifting the oxygenate requirement 
which would, I believe grant states the ability to deal with 
this problem or where it has occurred?
    Mr. Lancaster. Yes, we have.
    Mr. Sununu. For or against?
    Mr. Lancaster. We have recommended lifting the requirement.
    Mr. Sununu. Thank you very much. And you mentioned $165 
million in research programs.
    Mr. Lancaster. Right.
    Mr. Sununu. Over how many years was that?
    Mr. Lancaster. Since 1984.
    Mr. Sununu. And of that $165 million, are those exclusively 
federal funds?
    Mr. Lancaster. No. Federal funds have been matched $6 to 
$1. The members of the Foundation have put in $6 for every $1 
that we have received from the Federal Government.
    Mr. Sununu. Thank you for the clarification.
    Mr. Mollohan, any questions?
    Mr. Mollohan. No questions.
    Mr. Sununu. Thank you very much.
    Thank you, Mr. Lancaster.
    Mr. Lancaster. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

           ASSOCIATION OF STATE DRINKING WATER ADMINISTRATORS


                                WITNESS

VANESSA M. LEIBY, EXECUTIVE DIRECTOR
    Mr. Sununu. Welcome, Ms. Leiby, you are representing the 
Association of State Drinking Water Administrators; is that 
correct?
    Ms. Leiby. Yes, I am.
    Good morning, Mr. Chairman, and members of the 
Subcommittee. It is my pleasure to be here and, as you 
indicated, I am representing the Association of State Drinking 
Water Administrators. We represent all 50 States and the six 
territories that implement the Safe Drinking Water Act. I am 
sure you are aware how important the quality and safety of 
drinking water is to every citizen in this country.
    In our written testimony we have provided for the record, 
you will note that we support the President's budget for 
drinking water research and funding for the Office of 
Groundwater and Drinking Water for the work that they have to 
do under the new law.
    We also support full funding for the Safe Drinking Water 
Act, State Revolving Loan Fund of $1 billion and also want to 
urge you and others to work with a water infrastructure caucus, 
which is being formed and will be announced this afternoon, 
that is going to be dealing with options to close the estimated 
$23 billion a year funding gap for water and waste water 
infrastructure in this country.
    We also support the research request of the $5 million for 
AWWARF and the request that National Rural Water and other 
training and technical assistance providers will be requesting 
for supporting State efforts to ensure safe drinking water.
    In the time I have today I would like to focus my comments 
on the critical funding needs of the 56 State and Territorial 
drinking water programs. The drinking water programs have 
historically been funded by Federal PWSS grants with matching 
State funds. Although the statute calls for EPA to fund up to 
75 percent of the full cost of the Federal program, the States 
have actually been funding 65 percent with an EPA match of only 
35 percent. Even with this over-match from the State 
perspective, State drinking water programs have actually never 
been fully funded to address all of the Federal mandates.
    With the reauthorization of the Safe Drinking Water Act in 
1996, the drinking water programs responsibilities were greatly 
expanded to include formation of the new drinking water SRF, 
assessment and protection of sources of drinking water, 
regulation for numerous new contaminants, including arsenic, 
radon, radionuclides, et cetera, and the development of a 
number of new packages dealing with capacity development for 
water systems, consumer confidence reports to let the public 
know about the quality of their water and the sources of their 
water, groundwater protection, and the creation of an 
unregulated contaminant monitoring data base.
    Many of these programs are expected to be fully implemented 
in the next five years. What I would like to share with you as 
part of our testimony but, for you to follow along with me, for 
the next part is really if you look at the bottom part of the 
chart here, you will note is the major programs that we were 
implementing as States prior to the 1996 amendments. Those 
requirements are still in effect and carried over through ad 
infinitum. But what you will note is with the advent of the new 
law we have significant increases in program responsibilities.
    I am not assigning in this chart, per se, a dollar value 
but you can see that we are more than doubling the 
responsibilities and these programs are huge programs that take 
the drinking water programs actually outside of their own 
responsibilities. They are going to be dealing across agencies 
with the Clean Water Act, with the Clean Air Act and, in some 
cases, with deposition. So, we are expanding our reach upstream 
to sources and also downstream to actual operation and 
maintenance of water systems. So, the responsibility is greatly 
increased.
    Unfortunately, the Federal and State funding has not been 
able to keep pace with these new requirements and that is 
indicated in the top chart. In fact, the PWSS grant program has 
not had an increase in four years.
    Although the set-asides are allowed from the drinking water 
SRF, which is indicated in the darker blue, States must match 
those funds dollar-for-dollar, and as you can see from the 
chart, the additional funding has still not been sufficient to 
close what we are estimating to be a $104 million gap that you 
see in the red for fiscal year 2001.
    This analysis was undertaken as a joint project between 
ASDWA and the EPA last year and indicates that the gap will 
grow to $185 million by fiscal year 2005 if action to increase 
funding is not taken.
    Without a significant increase in PWSS funding, State water 
programs will be forced to continue prioritizing 
implementation. They are going to be redirecting critical 
resources from high-priority public health issues to the rule 
of the day and they are ultimately going to fall far short of 
achieving the significant new health provisions envisioned 
under the new law.
    State drinking water programs are committed to achieving 
the goals of the new Act but really are in desperate need of 
sufficient funds to carry out their public health protection 
mission. The tremendous number of new regulations and programs 
place the drinking water programs in an untenable position of 
being unable to meet the expectations of Congress, of EPA and 
of the public because the necessary tools and funding have not 
been provided to cover the cost of the expanded program 
responsibilities.
    States are fast approaching a crossroads in their drinking 
water public health protection responsibility. Many would argue 
that inadequate years of funding and erosion of current levels 
have already placed the program in jeopardy.
    We strongly urge the Subcommittee to increase the PWSS 
grant funding to $190 million for fiscal year 2001 to close the 
documented gap and to ensure success in State efforts to meet 
the public health goals of the new law.
    It will be a travesty, if 5 or 10 years from now, we look 
back and saw that much of the opportunity and the vision of 
this new law was lost or only partially accomplished because we 
did not have the commitment and foresight to provide the funds 
needed to make it a reality.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much.
    Any questions, Mr. Mollohan.
    Mr. Mollohan. No, no questions.
    Mr. Sununu. Thank you very much, Ms. Leiby.
                              ----------                              

                                         Wednesday, April 12, 2000.

                BRINGING RIVERS TO LIFE, AMERICAN RIVERS


                                WITNESS

SCOTT FABER, DIRECTOR, PUBLIC POLICY
    Mr. Sununu. Mr. Scott Faber.
    Mr. Faber. Thank you.
    Mr. Sununu. Welcome, Mr. Faber.
    We are pleased to have you join us.
    Mr. Faber. Thank you, Mr. Sununu.
    My name is Scott Faber and I am Director of Public Policy 
for American Rivers, a national river conservation group, and I 
am also testifying today on behalf of more than 400 river and 
stream groups from around the country, including the West 
Virginia Rivers Coalition and the Cold Water Fisheries 
Coalition from New Hampshire.
    In part, thanks to many of the organizations that you have 
heard from this morning, our rivers are cleaner than they have 
been in hundreds of years, but still one-third of our rivers 
remain too polluted to meet the primary goals of the Clean 
Water Act, primarily because of non-point sources of pollution. 
Let me give you a couple of examples that are close to home.
    In New Hampshire 226 rivers, totalling about 1,700 miles of 
river still remain too polluted to support the goals of the 
Clean Water Act. The primary sources are acid deposition and 
combined sewer overflows. In West Virginia, over 700 rivers or 
river segments are still too impaired, totalling about 5,000 
miles of river to support the primary goals of the Clean Water 
Act; and, again, acid deposition and mine drainage are the 
primary culprits.
    States and local interests are struggling to create 
pollution budgets known as total maximum daily loads and 
implement those budgets but they are failing in many regards 
and let me give you an example. In New Hampshire, although more 
than 200 rivers or river segments are impaired, only two total 
maximum daily loads have been established; and in West 
Virginia, again, over 700 segments impaired, only 32 have been 
established. And in both of those cases, the States are just 
beginning to struggle with how to implement the plans that they 
have developed for those river segments.
    One thing that you could do to help them is to appropriate 
$400 million for EPA's State Program Management Grants. That 
gives State and local interests the tools they need to identify 
these impaired segments, develop plans in cooperation with 
local interests and ultimately implement plans to clean up the 
balance of our polluted rivers and streams.
    I will just mention one other thing which is EPA's fish 
passage work group. One of the great opportunities we have is 
to restore shad runs to the tributaries of the Chesapeake Bay. 
It was once a critically important commercial industry for 
folks which has been decimated, in part, because many of the 
tributaries are blocked by dams or other structures. Those dams 
in most cases don't have to be removed, but merely retrofitted 
to allow shad to reach their native spawning grounds and we 
have asked you to appropriate $800,000 to allow EPA to work 
with State and local interests to identify ways to retrofit 
those structures.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much.
    Any questions, Mr. Mollohan?
    Mr. Mollohan. No, thank you.
    Mr. Sununu. Thank you, Mr. Faber.
                              ----------                              

                                         Wednesday, April 12, 2000.

         BROWNSVILLE PUBLIC UTILITIES BOARD, BROWNSVILLE, TEXAS


                               WITNESSES

HON. SOLOMON P. ORTIZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
SAM PATE, CHAIRMAN, BROWNSVILLE UTILITIES BOARD
    Mr. Sununu. Good morning, Mr. Pate.
    Mr. Pate. Good morning.
    Mr. Sununu. You are with the Brownsville Public Utilities 
Board; is that correct?
    Mr. Pate. That is correct.
    Mr. Sununu. Welcome.
    Mr. Pate. Thank you very much, sir.
    Mr. Ortiz. Hi, good morning, I am Congressman Ortiz. I am 
not going to take much of your time.
    Mr. Sununu. Good morning, sir. I am pleased to recognize 
the Congressman first for any remarks he might have.
    Mr. Ortiz. So good to see you this morning. As you well 
know this Subcommittee has been very generous with meeting some 
of the problems, the needs that we have in the area that I 
represent, South Texas. We have a serious drought problem and, 
Mr. Chairman, the weather patterns have changed completely. We 
either have a drought or a flood and nothing in between, and 
its at the point where farmers are losing a lot of money and 
this Subcommittee has sponsored some studies on building a dam, 
a weir dam to hold the water that is discharged.
    Mr. Garcia is a member of the Board, Mr. Sam Pate is 
Chairman of the Utility Board and I just wanted to be with him 
this morning and thank you for your past generosity. You have 
been very kind to us and we do have a serious, serious problem.
    Mr. Sununu. Thank you, Congressman Ortiz. And, Mr. Pate, 
you are in distinguished company and I am pleased to recognize 
you now for your formal testimony.
    Mr. Pate. I am as surprised as you are. I didn't know that 
the Congressman was going to do this but I appreciate it very 
much having a side-kick here.
    As the Congressman mentioned, I am Chairman of the Public 
Utilities Board in Brownsville and we have desperate conditions 
in the Rio Grande Valley. For years we have worked with the 
State of Texas and the Mexican State of Tamaulipas to solve the 
long-term problem of water for the valley.
    The Rio Grande River is our most reliable source of water. 
Over the past two years you all have provided us with over $4.5 
million to complete environmental studies and design for the 
construction of the Weir Dam. Our request this year is for you 
to set aside $10 million from the BEIF appropriation to fund 
the initial construction phase of the Weir.
    It is very important that you set aside this funding within 
the BEIF program. In our area we have already spent major 
amounts of money for water and wastewater systems, so, we are 
not going to be requesting any more money for this type of 
assistance. This Subcommittee and this Congress will direct the 
funding to be spent to construct this top priority contract. We 
have been dramatically impacted by the NAFTA agreement.
    The Brownsville Weir and Reservoir Project provides the 
only true cost-effective and environmentally feasible means for 
capturing Rio Grande River water that has passed through other 
river water users and flows directly into the Gulf of Mexico. 
Over 32 million gallons of water every day is wasted into the 
Gulf of Mexico.
    The Weir is the most efficient way to conserve water for 
the use of local communities. The State of Texas has issued a 
draft permit to construct the Weir, which has clear guidelines 
to protect the environment and the river. The Weir would 
release adequate water to satisfy all environmental and 
downstream uses. The project uses the existing river channel 
for storage and will be accessible to numerous communities 
within the United States and Mexico.
    The alternative is for Brownsville to construct currently 
authorized off-channel reservoirs which are remote to existing 
water supplies, accessible only to a limited number of 
municipal users, susceptible to excessive evaporation losses 
and potential contamination by saline groundwater and these 
would provide no benefit at all to Mexico.
    This project, the Weir, promotes water conservation at the 
highest level because under the current water management 
conditions a significant portion of the water flowing into the 
lower Rio Grande goes unutilized and flows into the Gulf of 
Mexico, as I described earlier.
    Absent the project, the International Boundary and Water 
Commission must release water from Falcon Reservoir, which is 
up around Laredo, up to 7 days in advance of the anticipated 
downstream diversions and needs. If the released water is not 
diverted due to unexpected reduced demands, mechanical pump 
failures or climatic changes, any uncaptured or unused water 
flows into the Gulf of Mexico. The Weir solves this problem. 
And as stated above, it avoids the environmental and cost 
problems of building an off-site reservoir.
    The project is the ultimate water conservation strategy for 
our region and can conserve more water than any other 
alternative available. Every acre-foot of water conserved by 
the project will result in an unreleased acre-foot of water 
remaining in storage behind Falcon Dam for the benefit of all 
of the other downstream users, municipalities, industries and 
agriculture.
    This project has the strong support of the State of Texas. 
In fact, the Texas Water Development Board has incorporated the 
project as its top priority in the State Water Plan. There is 
also written support from the city of Matamores, Mexico, the 
Mexican State of Tamaulipas, and in addition, the project has 
broad support of lower Rio Grande Valley governments and 
citizens.
    For the record, we have attached a list of the many 
individuals and groups that have expressed for the Brownsville/
Weir Reservoir and Project.
    We can't build the Weir without Federal environmental 
funding assistance. The Brownsville Public Utility has spent $3 
million on hydrology and preliminary environmental studies for 
this project. We found that in order to move this project along 
in a timely manner there must be Congressional direction given 
on the expenditure of the funding in the appropriations bill. 
We believe that the EPA, NADBANK and the Border Environmental 
Cooperative Commission staff agree that a Congressionally 
mandated provision is the most effective approach.
    Thus, we are asking you to earmark $10 million out of the 
BEIF $100 million in funding requested by the Administration 
for the purpose of completing the initial construction phase of 
this $36 million project.
    I thank you very much for allowing me to appear before you 
and the Committee, you all have already helped us a lot in 
assuring the long-term water supply for over 500,000 people in 
the lower River Grande Valley. And we urge you again to assist 
us by providing for the initial construction funding for the 
project.
    This is clearly the type of project that Congress 
anticipated when the Border Environmental Infrastructure Fund 
set aside $700 million in authorization under the North 
American Free Trade Agreement. And I thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Pate.
    The $10 million that is requested, will that cover the full 
construction of the Weir?
    Mr. Pate. Mr. Chairman, that will cover the first phase of 
the construction costs.
    Mr. Sununu. What is the total construction cost?
    Mr. Pate. The total is $36 million.
    Mr. Sununu. Of the communities that will be served by the 
Weir, that will benefit from the construction of the Weir, 
approximately what portion of the water usage would be 
commercial or agriculture and what portion will be residential?
    Mr. Pate. Agriculture uses roughly 85 percent of the water; 
the municipalities use the 15 percent.
    Mr. Sununu. Thank you very much.
    Mr. Mollohan, any questions?
    Mr. Mollohan. Thank you, Mr. Chairman.
    Soloman, welcome to the Committee. We appreciate your being 
here.
    Mr. Ortiz. Thank you.
    Mr. Mollohan. It certainly indicates your interest in this 
project which is important. You are asking for an appropriation 
and you are also asking for it to be designated and I take it 
that is because under this account EPA's position is that 
unless it is defined what it is to be spent for, it could not 
be spent for that under this account; is that correct?
    Mr. Pate. That is correct.
    Mr. Mollohan. You are asking for an appropriation and you 
are asking for a definition of how it is to be used?
    Mr. Pate. Yes, sir.
    Mr. Mollohan. An authorization is what you are really 
asking for?
    Mr. Pate. That is correct.
    Mr. Mollohan. You say Texas strongly supports the project? 
How much money is the State of Texas coming up to support the 
$36 million project?
    Mr. Pate. To this date, there is no monetary commitment 
from the State of Texas.
    Mr. Mollohan. So, they strongly support Federal funding for 
the project? [Laughter.]
    Mr. Pate. That is correct, yes, sir.
    Mr. Mollohan. Thank you.
    Mr. Ortiz. Now, let me say one thing, Mr. Chairman. Alan 
and I are in the same class of 1982.
    Mr. Mollohan. You have got a good Congressman here, I will 
tell you that.
    Mr. Ortiz. You know, most of the agriculture products that 
are exported throughout the United States come from that area. 
This year, alone, they tend to lose $163 million because there 
is no water, no irrigation water. This is a dire need, 
something that we really need and just because we built the 
Weir Dam in that area doesn't mean that the rest of the country 
is not going to benefit from it because they receive what we 
harvest into the rest of the country.
    Thank you for your patience, and thank you for your 
generosity. You all have been of great help to us in the past. 
Now, we are at this stage where we need the $10 million and I 
thank you very much.
    Mr. Sununu. Thank you.
    Mr. Mollohan. I think it would be important to have a total 
financing plan submitted to the Subcommittee.
    Mr. Ortiz. I think that could be worked on and we would 
like for you all to come and visit our area.
    Mr. Pate. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

    THE EL PASO WATER UTILITIES PUBLIC SERVICE BOARD, EL PASO, TEXAS


                               WITNESSES

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
ED ARCHULETA, GENERAL MANAGER, EL PASO WATER UTILITIES
    Mr. Sununu. I am pleased to invite Congressman Reyes and 
Mr. Archuleta of the El Paso Water Utilities Public Service 
Board.
    Congressman, welcome.
    Mr. Reyes. Thank you.
    Mr. Sununu. I am pleased to recognize the Congressman for 
the introduction of our guest.
    Mr. Reyes. Thank you, Mr. Chairman, and members of the 
Subcommittee, I want to introduce to you this morning Mr. Ed 
Archuleta, who is the General Manager of the El Paso Water 
Utilities and I also want to thank the Subcommittee for the 
strong support in the past for our projects out in El Paso. As 
all of you know, from hearing my colleague from the Rio Grande 
Valley, water is an important part of our objective on the 
border. So, with that, I'd like to introduce Mr. Archuleta.
    Mr. Archuleta. Good morning, Mr. Chairman, and members of 
the Committee, I am, indeed, pleased to have Congressman Reyes 
here. He has been an extremely big supporter of all of our 
projects, particularly water, in this area of the border. I am 
here representing the El Paso Water Utilities but beyond that I 
am also representing the New Mexico/Texas Water Commission, 
which is an agency that was established in 1991 involving New 
Mexico and Texas entities, the City of Los Angeles Cruces, the 
City of El Paso and the area of irrigation districts, to try to 
find solutions to water issues in this complex border area 
where we do have the three States, including Chihuahua, and two 
countries, you know, vying under different laws and regulations 
and rules in terms of managing water.
    The El Paso/Ciudad Juarez, Mexico area is over 2 million in 
population and growing very rapidly, as I am sure you are 
aware. What we did starting about three or four years ago--and, 
with the help of this Subcommittee in planning money, and the 
Texas Water Development Board did put in about $1.25 million as 
some money from the Bureau of Reclamation--we began to develop 
a plan to try to use more river water through conversion of 
agriculture water to municipal use in terms of planning 
facilities up and down the river from Elephant Butte Dam in New 
Mexico to the El Paso area. We now have a plan. As a matter of 
fact, this week the draft environmental impact statement is 
being submitted to EPA. The International Boundary and Water 
Commission is the lead Federal agency on this particular plan. 
We hope to have this plan adopted some time, a record of 
decision some time this Fall.
    So, we are here to begin the next phase which leads us into 
design and initial construction of the early phases of this 
project. For El Paso, what it means is a new water plant in our 
upper valley, a new 80 million gallon per day, at least 
ultimate capacity, water treatment plant and a major 
transmission system that will take water across what is called 
Anthony Gap into Northeast El Paso which is the area which is 
the problem aquifer. There is an aquifer called the Hueco 
Bolson that is shared with Mexico. Juarez takes all of their 
water from this particular aquifer for a city of $1.2 million 
people and we take about 40 percent of our water. The rest of 
the water comes from surface water and from another aquifer on 
the other side of the mountain which we share with New Mexico.
    So, what we have done is plan this particular project. It 
is a very large project that we have developed a financing plan 
over a period of about 8 years. We have met with the BECC, with 
the NADBANK, with EPA in Dallas as well as here, in Washington. 
We expect that the State of Texas, through their State 
participation program, along with our revenue bonds and 
hopefully some Federal assistance through the BEIF program will 
be able to eventually construct all of this project over a 
period of, as I mentioned, 8 years.
    This has broad support. This is a high visibility project. 
It is the project that we think will help El Paso meet its 
long-term water supply needs. We are now working with Mexico, 
with Chihuahua. I brought a copy of a newspaper article that 
appeared in ``The El Paso Times'' about three weeks ago where 
it mentions that Juarez could run dry in five years. Because 
the city of Juarez takes all of their water from the Hueco 
Bolson, anything that we can do on our side to take less water 
from that aquifer and more river water and renewable water will 
help in this international type situation.
    So, we are the largest cities, you know, between Juarez and 
El Paso on the U.S./Mexican border. We feel that we have got a 
good plan and as our Congressman indicated we thank the 
Subcommittee for your past assistance and we are asking you 
this year to earmark $9 million to the BEIF funding program so 
that we can continue with the next phase of this project.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Archuleta
    Thank you, Congressman Reyes.
    Mr. Mollohan.
    Mr. Mollohan. No questions.
    Mr. Archuleta. Thank you.
    Mr. Sununu. Thank you, both, very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

         THE FOND du LAC BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

VINCENT MARTINEAU
    Mr. Sununu. Mr. Martineau.
    Good morning.
    Mr. Martineau. Good morning.
    Mr. Sununu. I would be pleased to welcome you.
    Mr. Martineau. Thank you, for your time.
    The Fond du Lac Band supports the $10 million increase in 
the fiscal year 2000 funding for the GAAP program. The GAAP 
program has enabled the Band to hire an environmental 
specialist. Currently each Tribe and region probably receives 
about $75,000 apiece under the GAAP program. However, we do 
realize that this funding falls short of the Band's needs and 
is setting a goal of raising that amount to at least $100,000 
to $110,000 per Tribe so that we can operate effectively and do 
the things that we have set out to do.
    The Band, itself, is proposing two programs and two 
projects to you at this time. And one is an emergency response 
system for our reservation and for that we were looking for 
$85,000. We received $15,000 last year but it fell far short of 
doing what we set out to do.
    Three years ago there was a derailment in the City of 
Superior, Wisconsin. The river that the derailment happened on 
flows directly from the area of our reservation and the St. 
Louis River. A chlorine tank fell off the bridge and landed in 
the water and the vapor, based on the wind direction, made its 
way toward the reservation but in its path went through a large 
portion of the South end of Superior, Wisconsin, which is a 
city of about 40,000. Because of their system, because of the 
fact that they have been trained and the people have been 
educated as to what spills and emergencies should be, that 
place was evacuated.
    The vapor continued further up the river, coming closer to 
the reservation. Another small community of about 300 was 
evacuated. The river bends toward the reservation at that 
point. As the vapor was coming, our county seat was in its 
path. The county seat was evacuated. And there was a deputy 
sheriff who took it on himself to help people evacuate after 
the county seat was evacuated. He went in and out of the vapor 
to get people outdoors, still sitting there. This deputy 
sheriff is now permanently disabled but got a lot of people 
out.
    The only area in its path where there was no response 
system and no warning and no education as to what was going to 
happen was our reservation. Our reservation is comprised of 
around 1,500 to 1,700 Native Americans but also has a 
population of around 2,000 Non-Indians, none of whom were 
geared for this emergency.
    With the $85,000 that we are requesting, we can educate 
that population. We can let them know which way to go, how to 
get out of there, and what directions to take in the event of 
these emergencies. Our reservation comes to the little point of 
Lake Superior; where you see the little point, that is where we 
are at.
    Keynote. All the railroads and all the highways that come 
from West to East and go from East to West come together and 
come through our reservation. So, the odds for catastrophes 
like the chlorine spill are so bound to happen that we feel we 
can't ignore this any longer.
    We are looking for a one-time funding to get this going. We 
think the education factor will kick in and the people will be 
trained and we will be able to move them safely or to do 
anything that any emergency would suggest if we have to.
    The second part of our request has to do with an integrated 
solid waste system. Each year for the last 4 years, the 
reservation has taken it upon itself and its development 
dollars, our revenues, to try to clean up our place. We have 
120 square miles of reservation. We have spent up to $65,000 to 
$100,000 a year to pick up the junk cars, to pick up the 
refrigerators, to even get hundreds of kids out on the roads 
and pick up all the pop cans and all the litter.
    We are at a point now where we have gathered all this waste 
but we don't have any place to put it. We have recycled to 
where we have got all the recycling done but we have all the 
solid waste and nothing in order for a solid waste program. We 
are looking for $425,000 from EPA to do this program, to get us 
set up in a way where we can take care of the solid waste 
problem on our reservation, be done with it, and maintain one 
of the cleanest reservations around. We do have a beautiful 
reservation.
    We are looking at a program where all the pollutants within 
the water systems, all the dumpings that have happened over the 
years can be cleaned. We don't know if the $425,000 will 
address this issue but we are hoping that it can.
    As an instance, about 8 years ago one of our workers 
stumbled onto a swamp area where there is a pothole in the 
swamp and in that pothole we found over 1,000 car batteries. 
When asked what we should do with the batteries, we were told 
that for now the safest place for those batteries to be is in 
that water; at least the swamp will keep the pollutants from 
spreading beyond where it is now.
    But, of course, we have got to do things that, you know, we 
have to go in and get that stuff out. We have to clean these 
waterways. We have to clean all the pollutants and the dumpings 
that have happened because of the papermills, the wood 
conversions, the match factories and all the other factories 
that are on the boundaries of the reservations. The dumpings 
from these places have really dirtied up the place over the 
years. And we are looking at cleaning it for the sake of our 
people, for the sake of the reservation and for the sake of 
everyone who lives there.
    With our band, integrated waste management plan, we will 
develop a long-range management plan that we do not have now. 
We will also develop ordinates. We had no concept of what 
ordinates were relative to solid waste up until we hired our 
environmental specialist. The spring clean-up projects will 
continue and I imagine we will be picking up a large portion of 
that each year, but we will be aggressively working on 
accomplishing all the other goals and objectives which, of 
course, are to develop that plan.
    There again, our reservation has the potential to be one of 
the cleanest, prettiest places in Minnesota, and we are close 
to making it so.
    Thank you very much for your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh [presiding]. Thank you for your testimony, sir.
    Any questions?
    Mr. Mollohan. No, Mr. Chairman.
    Thank you for your testimony. It was very helpful.
                              ----------                              

                                         Wednesday, April 12, 2000.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

ANN McCANNON SOLTIS
    Mr. Walsh. The next witness is Ann McCannon Soltis, Great 
Lakes Indian Fish and Wildlife Commission.
    Ms. Soltis. Thank you.
    My name is Ann McCannon Soltis. I work for the Great Lakes 
Indian Fish and Wildlife Commission, and we are made up of 11 
Chippewa Tribes in Northern Wisconsin, Minnesota, and Michigan.
    You have copies of our written testimony, and so actually 
what I would like to do, as opposed to re-reading what it says 
in our testimony, is I would like to actually show you some of 
the things that we do with EPA funds.
    The Commission receives funding from the Great Lakes 
National Program Office, Coastal Environmental Management 
funds, and Environmental Justice Small Grant funds, and it is 
this last program, the Environmental Justice Small Grants, that 
I would like to talk to you a little bit about today because 
this is some of the work we have done with funding that they 
have provided.
    I just want to give you some maps that we have produced 
with that funding.
    As you probably know, tribal members rely on natural 
resources for subsistence and other purposes, and they do so in 
a way that is maybe a little bit different than non-Indian 
people.
    You may also know that they consume natural resources 
sometimes at a higher rate than non-Indians, and in Northern 
Wisconsin, we have a number of mercury advisories on our lakes 
indicating that the fish may not be safe to eat or may not be 
safe to eat in all quantities.
    So what these maps are, we have developed one map for each 
reservation. I have given you two examples. The maps show all 
the lakes that that reservation spears. So Lac du Flambeau and 
Lac Courte Oreilles are both represented there, and those maps 
show all the lakes that they spear in the spring.
    The map is divided into two parts, as you can see. The top 
part shows a map for use by women planning to have children and 
for children under the age of 15 years because there is 
different mercury advisories for them than for men and for 
women not planning to have children, and that is the bottom 
part of the map.
    So, if I am a tribal spearer and I am getting ready to go 
out and catch walleye, I can look at this top map and say, 
``Well, gosh, I think I ought to go to these blue lakes,'' 
because the blue lakes indicate that the walleye are not 
contaminated with mercury. The red lakes indicate that the 
walleye are contaminated with mercury and may not be safe to 
eat at all size levels.
    So I as a tribal member can go spearing with the knowledge 
that I am going to spear those blue lakes and that is the fish 
that I am going to get for my wife and my children, and then I 
am going to spear maybe some other colored lakes in the bottom 
part of the map, and those are the fish I may eat myself as a 
man, but maybe I will only eat one serving a week from those 
lakes or one serving a month from those lakes, depending 
whether it is a red lake or an orange lake.
    We have tried to make these maps in a very user-friendly 
way so that when a spearer goes to get a license, he can say, 
``Okay, blue lakes, good. I can eat those fish. I can give 
those fish to my wife and my children. Red lakes, I'm going to 
be a little more hesitant about how often I eat those fish.''
    We have several more maps. On the back is some information 
about what is on the map about mercury. I want to emphasize 
that we are not telling tribal members not to eat fish. We are 
saying make informed choices. Know when it is safe to eat the 
fish and when it may not be safe to eat, and just be careful 
when you go out there and know what you are eating.
    All our maps are available on our web site which is 
www.glifc.org. I think what these maps show is that a little 
bit of money from the Environmental Justice Small Grants 
Program can go a long way and really provide some practical and 
necessary information that tribal members can use in a very on-
the-ground kind of way.
    That is all I have unless you have questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. This makes it very clear.
    What is the cause at work here?
    Ms. Soltis. It is mainly due to atmospheric deposition and 
it biocumulates in the walleye which are predators. So they 
tend to be higher than maybe the panfish.
    Mr. Walsh. Any other questions of the witness?
    Mr. Mollohan. That was my exact question.
    The atmospheric deposition from what source?
    Ms. Soltis. They are not entirely sure. There are many 
sources. I mean, we probably get atmospheric deposition from 
nearby sources such as powerplants, but also probably from 
long-range sources, Chicago, St. Louis, Kansas City.
    Our airshed--you can see maps of the airshed where the air 
is 1 day, 3 days, 10 days, and we are well within those 
airsheds.
    Mr. Mollohan. Where are you in relation to the Chicago 
area?
    Ms. Soltis. We are probably 400 miles north. We are in very 
northern Wisconsin.
    Mr. Mollohan. Due north or Canada north?
    Ms. Soltis. Due north and a little bit west.
    Mr. Mollohan. Yes. I would not think deposition in Chicago 
if it were long distance would get to there, but maybe it does. 
I do not know what we have.
    Ms. Soltis. Yes. I mean, we could provide you if you are 
interested with some maps showing the airsheds and the 
directions that the air takes over time, and we would be happy 
to provide some of that information if you would be interested 
in that.
    Mr. Walsh. Thank you very much.
    Ms. Soltis. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                GEOTHERMAL HEAT PUMP CONSORTIUM FUNDING


                                WITNESS

CONN ABNEE, EXECUTIVE DIRECTOR
    Mr. Walsh. We will now go to Mr. Conn Abnee of Geothermal 
Heat Pump Consortium.
    Mr. Abnee. Thank you.
    Mr. Walsh. We believe we have your statement. Please 
proceed.
    Mr. Abnee. Thank you.
    Mr. Chairman and Members of the Subcommittee and staff, 
thank you for the opportunity to testify here today about this 
most worthwhile program. My name is Conn Abnee. I am the 
executive director of the Geothermal Heat Pump Consortium which 
is a private public partnership with EPA, DOE, and 
manufacturers in utilities across this country.
    Geothermal heat pump technology, which is also known as 
geo-exchange, is a renewable technology that uses the constant 
temperature of the earth to both heat and cool buildings and 
provide hot water at a 25-to-40-percent savings compared with 
other systems. It is the world's most efficient way to heat and 
cool homes and buildings.
    To give you an example of how it works, in the winter, the 
geo-exchange system brings the earth's natural warmth to a 
building and transfers it to each room by a heat pump. In the 
summer, they work in reverse by providing air-conditioning and 
absorbing heat from the inside of the building and transferring 
it to the cooler earth.
    As an added benefit, during that cooling season, waste heat 
that is removed from the inside of the building can be used to 
provide virtually all of the domestic hot water for free.
    Since geo-exchange systems burn no fossil fuels to create 
heat, they generate far less carbon dioxide than fossil fuel 
systems. Geo-exchange systems operate with a minimum amount of 
electricity, and according to EPA and DOE, a typical residence 
produces an average of about one pound less emissions per hour 
of use than a conventional heating and air-conditioning system 
that you would find in the home.
    When considering this, if you would consider 1,000 homes 
converted to geo-exchange technology, we in the United States 
could reduce carbon dioxide emissions by 880 million pounds per 
year which is the equivalent of removing over 58,000 
automobiles from our highways or planting 120,000 acres of 
trees.
    Heating and cooling costs typically for a 2,000-square-foot 
home runs less than one dollar per day. The systems can work 
anywhere from a building in midtown Manhattan to a military 
housing project at Fort Polk, Louisiana, to even the State 
Capitol Building in Oklahoma City.
    Presently, there are 550 school installations around the 
country realizing significant savings on their energy bills, 
funds that can be spent for hiring more teachers, providing 
better equipment for our students, which is so critical to our 
future.
    To date, our program has focussed on activities designed to 
strengthen the industry's infrastructure and jumpstart the 
technology into the marketplace.
    Over the past 4 years, our installations around the country 
have increased by more than 20 percent, and our programs have 
reached even a wider audience.
    This year, for example, the Consortium again had joined 
effort with the New York State Energy and Research Development 
Authority to increase the availability to promote geo-exchange 
throughout NYSERDA's program territory, but put into 
perspective, geo-exchange technology still represents less than 
1 percent of all the heating and air-conditioning market. We 
are just scratching the surface. That is why we continue to 
need your help.
    To build our existing infrastructure and conduct a more 
comprehensive program, the Consortium is requesting $2 million 
from the Environmental Protection Agency. Specifically, those 
monies will fund a training and technology transfer program to 
ensure the growth of the infrastructure with designers and 
installers, a design assistance program to help customers 
understand that geo-exchange is the most cost-effective, 
pollution-preventive technology on the market today.
    We will also provide a national information resource center 
for consumers to access and receive information on this very, 
very useful technology of geo-exchange.
    Mr. Chairman, cost and space savings, greater comfort, 
lower maintenance, and equipment life-cycle costs, individual 
zone control and environmental conservation are just a few of 
the benefits that this earth-friendly technology can provide.
    EPA calls geo-exchange system the most environmentally 
friendly and efficient heating and cooling system on the market 
today.
    We can make a difference now, not in the future, but 
presently and cost savings to consumers, cleaner air, and 
reduced dependence on fossil fuels. We sincerely hope that you 
will take into consideration to support our most worthwhile 
program.
    Again, let me express my appreciation for the opportunity 
to testify, and I would be glad to answer any questions that 
you might have.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony.
    Are there any questions of the witness?
    Mr. Mollohan. Mr. Chairman, I just have one question.
    If it is so efficient and the cost savings are as 
advertised in this, $44 for a Minnesota house, I would think 
the marketplace would be very attracted.
    Mr. Abnee. Mr. Mollohan, the problems that we are having is 
the awareness in the issues that we have. A lot of people are 
not aware of this technology. A lot of the decision-makers both 
in the school systems and the marketplace from either the 
residential, commercial, and institutional arena are just not 
aware of the technology, and that is one of the things that we 
are hoping to overcome with our design assistance and our 
outreach activities, as well as our information center, to make 
people more aware of the technology.
    Once they are aware of it, it is like you said. It is 
somewhat of a no-brainer. They will accept the fact that this 
technology will beat any others.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. I would say that a 3,400-square-foot house is a 
pretty big house, but an average-sized house to convert, what 
would be the unit cost?
    Mr. Abnee. What we are looking at, the unit cost is 
somewhere in the neighborhood of about $2,500, $2,700 per ton, 
and a conventional--per ton of capacity, and a 2,000-square-
foot house is what we typically see, and a 2-ton house will 
require about a 3-ton system. So you are looking somewhere in 
the neighborhood of $7,500 to $8,000.
    Now, what we find with this, once we inform the individuals 
of the cost savings that are involved, you have a positive cash 
flow when you consider amortizing that cost over as little as 5 
years, but it is just an awareness issue that we need to 
overcome to show them that the cost savings is there to offset 
any additional cost. That additional cost basically is broken 
down into several segments.
    One is the equipment itself is virtually the same as 
conventional equipment, but you have an earth heat exchanger 
that is buried in the lawn in front of the home or underneath 
the building or wherever you are using it that adds that added 
cost over and above conventional equipment.
    Mr. Mollohan. How deep is the heat exchange?
    Mr. Abnee. Anywhere from 150 to 300 feet vertically. 
However, you can install it horizontally 3\1/2\ to 4 feet if 
the area of earth or your lot size is available. If you have 
adequate access to a pond or a lake, you can actually bury the 
loop in the lake, which reduces the cost substantially.
    Mr. Mollohan. Interesting.
    Mr. Abnee. We have installations in the Chesapeake Bay now. 
We also have those in several other bodies of water.
    Mr. Mollohan. Who are the primary manufacturers?
    Mr. Abnee. We have 11 manufacturers. One is the Trane 
Company, Carrier Corporation, Water Furnace International in 
Fort Wayne, Indiana, Florida Heat Pump in Fort Lauderdale, 
Florida. Those are your major ones. We also have one Hybrid 
Delta in Missouri. So we have adequate manufacturers.
    Mr. Walsh. Thank you.
    Mr. Abnee. Thank you, sir.
                              ----------                              

                                         Wednesday, April 12, 2000.

      THE MICKEY LELAND NATIONAL URBAN AIR TOXICS RESEARCH CENTER


                                WITNESS

RAYMOND J. CAMPION, Ph.D., EXECUTIVE DIRECTOR
    Mr. Walsh. Dr. Raymond Campion of the LeLand Center?
    Mr. Campion. Thank you, Mr. Chairman and Members of the 
subcommittee and staff. Thank you for the opportunity to come 
before you to present our request.
    My name is Dr. Raymond J. Campion, and I am the president 
of Mickey Leland National Urban Air Toxics Research Center.
    The Leland Center was created by the Congress and named in 
honor of the former House Member who was quite active in Clean 
Air Act legislation before his untimely death in 1989.
    The Leland Center has made significant progress in recent 
years carrying out the charge given to us by Congress. The 
Center was set up as a private-public partnership to carry out 
sound peer-reviewed research of human health effects of air 
toxics especially in urban areas.
    Our nine-member board of directors is selected by the 
Speaker of the House, Senate Majority Leader, and the 
President.
    The Federal appropriations that have been made to us are 
accessed through a grant from the Environmental Protection 
Agency. We are seeking an appropriation of $2.5 million in 
fiscal 2001, and the specifics of this request are contained in 
our formal submission to the subcommittee.
    We are indebted to this subcommittee for their help in the 
past, their strong support and encouragement, for without that 
we would not be able to bring the situation to the current 
level of effort.
    Our relationship with EPA has improved in recent years. 
They still indicate, as late as 2 months ago, that without an 
appropriation, they would not continue to fund us.
    The Leland Center's research program is consistent with 
those air toxic health priorities that have been developed by 
EPA and the National Academy of Sciences. Our work on personal 
exposure research has established the center as a leader in 
that field and the results are now considered to be quite an 
important input to the public debate on the air toxics health 
effects.
    The Center has nine active research programs underway which 
cover our signature personal exposure research, our new efforts 
on the health effects of air toxics, and the development of a 
personal monitor for air toxics and particles.
    We have broadened our efforts to secure alternative funding 
from other Government agencies, foundations, and private-sector 
contributors.
    We are hopeful that our new initiatives with the private 
sector will significantly boost that component of our finances 
in the year 2000.
    The Center has also reached out to other research 
organizations to leverage our resources by jointly funding 
research projects. The examples include our partnership with 
the Health Effects Institute, our work with the National Center 
for Health Statistics, and our current discussions with the 
National Institute for Environmental Health Sciences.
    We are still most dependent, however, on the Congressional 
appropriation we are seeking. I will not attempt to discuss the 
specifics of our request unless any of the Members so desire.
    I would like to thank the Subcommittee once again for its 
past support. We reiterate that we are progressing well and 
meeting the responsibilities given to us by Congress.
    I would turn the floor back to the subcommittee for any 
questions you might have. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you, Dr. Campion.
    Any questions for the witness?
    Ms. Kaptur. No questions.
    Thank you. We very much appreciate your attendance this 
morning.
    Mr. Campion. Thank you. It is a pleasure to be here.
    Mr. Walsh. Thank you very much. We appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

             NATIONAL ASSOCIATION OF CONSERVATION DISTRICTS


                                WITNESS

LARRY C. SMITH, CHAIR, WATER RESOURCES COMMITTEE
    Mr. Walsh. Mr. Larry Smith.
    Welcome, Mr. Smith. We have your testimony.
    Mr. Smith. Good morning, Mr. Chairman, Members of the 
Subcommittee and staff. Thank you for the opportunity to appear 
before you.
    It is indeed an honor and a pleasure to be here this 
morning. I am Larry Smith, a nursery and tree farmer from 
Berkeley Springs, West Virginia. I represent the National 
Association of Conservation Districts which comprise 3,000 
conservation districts across this country and 16,000 men and 
women who volunteer and govern these units of local government.
    Conservation districts are where the rubber meets the road, 
where the application of best management practices actually 
takes place. We believe that voluntary and locally led 
approaches to natural resources issues are the best solution.
    You might think it strange that I appear before you this 
morning testifying on EPA's budget, but we have had quite a 
good working relationship with EPA over the past few years.
    Over the past few years, we have combined our delivery 
system, which is conservation districts, conservation agencies, 
USDA, RCA and EPA to get 319 funds on the ground, to actually 
get projects implemented, planned and implemented all across 
the country, and we think we have one of the best delivery 
systems that is out there.
    Our system has been in place for about 60 years, and it is 
trusted by America's farmers and ranchers and land users. As 
long as we are well-equipped and willing to take on any 
additional challenges that come up such as the AFO situation--
but we need the resources to do that. We cannot provide the 
technical assistance leading to the producer without the 
additional technical assistance, and that has to be a big part 
of the program than the AFO situation.
    As outlined in my written testimony, the workload imposed 
by the AFO strategy would increase our staff needs by 
approximately 8,000 full-time equivalents. USDA, State 
agencies, and conservation districts just cannot get a hand on 
the workload that is out there now, much less this additional 
position.
    The actual workload analysis conducted over the past 2 
years has indicated that we need approximately $300 million now 
in additional technical assistance to carry out the resources 
needs that have been identified across the country.
    As I said earlier, we were willing to accept these new 
challenges, but we must be funded to do so as well. We applaud 
Congress' foresight in increasing the Section 319 grants to 
States in 1999, but still feel there is a shortage there. In 
2000, of course, the budget went to $200 million, but we really 
think that $300 million is needed to better accomplish the job.
    In my state, the 319 program provides a technical 
assistance person, and they deal with everything from 
stormwater management to sediment erosion control plans to 
practices on agricultural operations.
    We are just scratching the surface. We definitely need more 
help there. So we would urge you to take a close look at the 
319 program.
    TMDLs are going to impose an additional workload on us to 
help producers meet the production goals that are out there and 
where the 319 funds can be used to help us meet that challenge.
    The State Revolving Loan Fund in West Virginia is also used 
in West Virginia to piggy-back onto other programs that we have 
out there, such as the P.L. 534 small watershed assistance, and 
we piggy-back the funds that are available to producers from 
that and amplify the effects.
    I will stop.
    Mr. Walsh. Do you want to wrap up, or are you all set?
    Mr. Smith. I will take questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. First of all, thank you for coming to testify 
today. I agree with you. I think the conservation districts are 
where the rubber meets the road, and I think you and these 
organizations do a tremendous job in protecting our watersheds, 
the Great Lakes and the smaller lakes, streams, and rivers.
    I would just like to get your comments on the TMDL program 
as it is laid out now. Is it realistic? What is the impact on 
the States? You said it would impact on what you do. Just your 
thoughts generally on the program.
    Mr. Smith. Well, we think that a lot of the data that is 
out there has not actually been arrived at by science-based 
data, but a lot of the assessments that were done for the 303 
delistings were windshield surveys, and we are not quite sure 
that things are in as bad a shape as that list might indicate.
    Mr. Walsh. Do you think the States will be able to respond 
quickly enough to meet the requirements?
    Mr. Smith. I think it is going to be tough. Not without 
additional staff.
    Mr. Walsh. Any impact on you?
    Mr. Smith. It has not hit us in West Virginia too hard yet. 
I chair the National Water Committee, and we have been closely 
monitoring Wyoming. They are doing some of their own 
monitoring. Of course, they are involved in a lawsuit against 
EPA. We are traveling out there next month to see how they are 
working, how they are actually purchasing the equipment and 
doing some monitoring themselves and trying to get these 
streams delisted.
    Mr. Walsh. Thank you.
    Anyone else?
    Ms. Kaptur. Mr. Chairman, I just wanted to say I have the 
greatest respect for the conservation districts and their 
volunteers. I have seen it work in my own region and around the 
country, and you also have a good time while you are doing it. 
You are America's primary conservationists, along with those 
who are involved in production of agriculture.
    My only question relates to the animal feeding operations. 
We have received testimony in other subcommittees that a state 
like Iowa has soils that are 70-percent toxic because of the 
leach eggs relative to animal feeding. I am wondering if you 
could make any comment to the record as to how serious you see 
this problem now and how well you feel we are dealing with it 
through the RCND volunteers who are engaged in Iowa or any 
other State.
    Mr. Smith. I am not really up to speed on Iowa in 
particular, but the producers have the comprehensive nutrient 
management plans. I think you will see less of an application 
or a more balanced application of nutrients, and that is the 
first step in trying to achieve reduction.
    How quickly that is going to work, I do not know.
    Ms. Kaptur. We had a witness in here yesterday, one of our 
Members from Maryland, who said that along the East coast, 
their oyster population has been reduced to 2 percent from what 
it used to be at the beginning of the century. We talked a lot 
about the effluent from the poultry operations in Delaware into 
the Chesapeake Bay, and they have major Chesapeake Bay cleanup 
programs, for example, but I just thought I would ask if you 
had any personal observation.
    Mr. Smith. I certainly would not, and I was raised in the 
shadow of the Bay in Maryland before I transplanted to West 
Virginia a few years ago.
    I think it would be unfair to point the entire finger at 
agriculture. I am sure they have a part, but we have all got to 
work together to solve it. EPA's funding is going to go a long 
way in trying to figure out exactly where everybody is.
    Mr. Walsh. Thank you, sir.
    Mr. Smith. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

             NATIONAL ASSOCIATION OF STATE ENERGY OFFICIALS


                                WITNESS

FREDERICK H. HOOVER, JR.
    Mr. Walsh. The next witness is Mr. Frederick Hoover, Jr., 
of the National Association of State Energy Officials.
    Welcome.
    Mr. Hoover. Thank you, Mr. Chairman and Members of the 
subcommittee. I am here to testify on behalf of the National 
Association of State Energy Officials, NASEO, in support of two 
programs at the Environmental Protection Agency, the Clean Air 
Partnership Fund and the Energy Star Programs.
    My agency is the State energy office for the State of 
Maryland. NASEO represents the State energy offices in the 
States and territories. Agencies work every day on energy and 
environmental issues along with the Federal Government to bring 
balance to the national energy and environmental policy.
    First off, Mr. Chairman, I would like to thank you and the 
Subcommittee on behalf of the States for the $36 million that 
was included in last year's House bill for the Clean Air 
Partnership Fund. While the Fund was not included in the Senate 
bill and did not make it into the conference agreement, we 
appreciate the foresight and leadership that you showed and 
encourage a similar initiative this year.
    NASEO supports full funding of the budget request for the 
Clean Air Partnership of $85 million and at least the 10-
percent increase in the Energy Star Programs at EPA.
    At the State level, the energy and environmental officials 
and the public utility commissioners have been working to 
develop solutions to integrate energy and environmental 
policies.
    Just last month, a meeting was held of these officials here 
in Washington to try and explore opportunities where we can 
work together on multi-pollutant and energy problems. The Clean 
Air Partnership Fund will provide an excellent model to promote 
innovation between State agencies and industry.
    Some of the States in the Northeast where electric utility 
restructuring has already taken place are pursuing such joint 
energy and environmental programs. The Clean Air Partnership 
will further these efforts and allow States to initiate joint 
programs to promote energy policy, goals, and environmental 
quality.
    By leveraging non-Federal resources and competing for 
support from the fund, this will create innovative approaches 
to multi-pollutant reductions, cleaner fuel-burning, and energy 
efficiency. This effort is supported by a strong coalition of 
state and local interest as well as businesses involved in the 
energy and environmental fields.
    On the Energy Star Programs, States have been successful in 
using the Energy Star labels as a way of promoting energy 
efficiency. These efforts have increased the public's awareness 
of the Energy Star label on products, homes, and buildings. 
There are over 1,200 manufacturers and 3,500 different 
products, and this demonstrates the broad appeal of the label. 
This makes efforts by States to promote energy efficiency 
successful without favoring specific manufacturers.
    My own State legislature in Maryland just this week passed 
a series of tax credits for sales tax exemptions for energy-
efficient appliances. The Energy Star label will be an integral 
part of the Maryland program.
    The increase in Energy Star partners from the 2,300 small 
businesses, 300 religious institutions, and 920 builders shows 
its wide appeal. NASEO is pleased to have the opportunity to 
support the Clean Air Partnership Fund and the Energy Star 
Programs, and on behalf of the States, we encourage you to fund 
these activities and I appreciate your time and attention this 
morning.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you.
    Any questions of the witness?
    Ms. Kaptur. No questions. Thank you, Mr. Chairman.
    Mrs. Meek. Welcome.
    Mr. Walsh. Thank you, sir.
                              ----------                              

                                          Wednesday, April 12, 2000

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES


                                WITNESS

THOMAS YUILL, DIRECTOR, INSTITUTE FOR ENVIRONMENTAL STUDIES, UNIVERSITY 
    OF WISCONSIN-MADISON
    Mr. Walsh. Our next witness is Dr. Thomas Yuill, National 
Association of State Universities and Land-Grant Colleges.
    Welcome.
    Mr. Yuill. Good morning, Mr. Chairman, Committee Members, 
and staff. I want to thank you for this opportunity to be able 
to provide testimony on appropriations for fiscal year 2001 for 
the Environmental Protection Agency, and I want to commend you 
and thank you for your support of strong environmental science 
in efforts to improve the capacity for environmental science in 
our country.
    I am Dr. Tom Yuill, director of the Institute for 
Environmental Studies at the University of Wisconsin in 
Madison. I am providing this statement for the National 
Association of State Universities and Land-Grant Colleges, 
NASULGC.
    NASULGC is the Nation's oldest higher-education 
association. Currently, the association has over 200 member 
universities located in all 50 states, with a total of 3 
million students.
    I currently chair the NASULGC EPA Partnership Task Force, 
the goal of which is to bring to bear the best university 
science and scientists on the critical environmental problems 
that the agency has to deal with.
    We believe that environmental public policy should be based 
on the best available science. I will focus most of my comments 
on EPA's Office of Research and Development, ORD, and 
specifically its Science To Achieve Results, or STAR program. 
This is a different STAR within EPA than we just heard about 
with the Energy Star Program.
    NASULGC recommends $120 million for competitively awarded 
extramural research grants and $15 million for 300 graduate 
fellowships. We suggest an increase over the President's 
budget, which recommends $100 million and $10 million 
respectively.
    We believe that the relatively small amount that the agency 
invests in the STAR competitive grants and scholarships program 
within its $7.2-billion-requested budget is one of the most 
important uses of its resources. It is the high-profile 
regulatory actions that make the headlines, but they are or 
ought to be based on decisions that rest in the agency science.
    Without sound science, the agency will not be able to 
correctly identify and develop sound management and mitigation 
strategies regarding emerging environmental problems nor deal 
effectively with existing ones.
    STAR is now in its sixth year of its enhanced program of 
providing rigorous peer-reviewed competitive grants to 
university scientists and those from non-profit organizations.
    The fellowships go to the best and brightest minds in 
environmental science in graduate schools around the country. 
STAR is an integral part of the agency's research. This is not 
a stand-alone sort of foreign body within EPA, but rather 
supports the agency's strategic plan as well as its regional 
high-priority topic-specific initiatives.
    Today, there are between 550 and 600 active EPA grants in 
49 states, Washington, D.C., Puerto Rico, and Guam. ORD awards 
currently about 100 new graduate fellowships each year.
    I would submit that the evidence clearly indicates the STAR 
program has been a resounding success not only in terms of the 
response from the academic community, but I cannot emphasize 
enough because it assures the highest-quality science through a 
rigorous peer-review process. In fact, this rigorous process, 
we think, has been significantly improved, and it is based on 
the NSF peer-review model.
    So we urge EPA and this Subcommittee to expand the STAR 
program to $120 million for grants and $15 million for 
fellowships. Because less than 10 percent of applications are 
approved and funded, the agency is foregoing the number of 
important high-priority research projects simply because there 
is not enough money to go around.
    Similarly, the competition for the fellowships is extremely 
keen, and we received, after submitting our written testimony, 
a letter co-signed by the scientists who are involved in peer-
reviewing the fellowship applications pleading with 
Administrator Browner to increase in their own budget the 
amount that would be destined for the fellowships because there 
are so many good potential students out there, and this, after 
all, is the leadership for sound environmental science and 
policy in the future.
    I thank you very much for your attention, and I would be 
happy to yield to any questions that I can.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your testimony, sir.
    Any questions of our witness?
    Ms. Kaptur. I am a graduate of the University of Wisconsin.
    Mr. Yuill. I knew you looked intelligent.
    Ms. Kaptur. And you are a world-class university.
    Mr. Yuill. Well, thank you very much.
    Ms. Kaptur. And it is a great tradition at the University. 
Its local tradition is just magnificent. So we thank you for 
appearing on behalf of the land-grand colleges across our 
country.
    Mr. Yuill. Well, thank you very much, and I hope you will 
stop in and see me the next time you are in town.
    Mrs. Meek. What participation do you have with some of the 
African-American land-grant institutions that have long been 
involved in agriculture?
    Mr. Yuill. That is an area where I think we have made some 
significant progress with our task force over the last 4 to 5 
years. NASULGC, as you know, Mrs. Meek, includes the 
historically black universities.
    Mrs. Meek. Yes.
    Mr. Yuill. They play an active role in our task force, and 
we have helped EPA connect with them in trying to include 
scientists on review panels and to encourage scientists at 
those institutions to submit proposals.
    Mrs. Meek. Has there been much research from those 
institutions?
    Mr. Yuill. Unfortunately, there have not been very many 
proposals submitted from those institutions, and we are trying 
to help make that connection and get them in a position where 
they would be very competitive. These are extraordinarily 
competitive grants, with less than 10 percent being funded, but 
the scientists--and there are many good ones--need to know 
about the opportunity and then be able to shape their proposals 
so that they will be competitive. We are actively working with 
EPA to do that.
    Mrs. Meek. What percentage of your grantees are in those 
types of institutions?
    Mr. Yuill. Well, right now for the STAR program, I think I 
regret to say I am not aware of any, and that is something we 
are trying to work so that good proposals will be submitted.
    It is something that particularly in the environmental area 
and as especially as it relates to agricultural, the 
historically black institutions are becoming increasingly 
active, but they are still fairly new to the game compared to 
some of the older institutions, like my own. So I think it is a 
matter of being more proactive, and we are doing that, but it 
has not begun to pay off yet. But we are going to keep trying.
    Mrs. Meek. And it is also a matter of capacity-building on 
the part of your agency, of your group of this institution.
    Mr. Yuill. Yes, and that is what we are actively trying to 
do, doing workshops on grant preparation, particularly for the 
young scientists that have come into those institutions, 
because they are the ones that we think we really need to focus 
on, not the old folks like me.
    Mrs. Meek. Yes, because George Washington Carver came out 
of one of those institutions. So it is very important that you 
develop that kind of expertise to deal with those.
    Would you please give me some indication as soon as you can 
as to what extent your group has gone out for this kind of 
access for minority institutions?
    Mr. Yuill. Yes, ma'am. I certainly would be very happy to 
do that. We have got some specific things I can provide you.
    Mrs. Meek. Thank you, sir.
    Mr. Yuill. I think you will find it encouraging, but you 
will tell us it is not good enough and we know that.
    Mrs. Meek. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, sir.
    Mr. Yuill. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                    NATIONAL RURAL WATER ASSOCIATION


                                WITNESS

JOHN O'CONNELL, THE VILLAGE OF WEEDSPORT, NEW YORK RURAL WATER 
    ASSOCIATION
    Mr. Walsh. Our next witness is Mr. John O'Connell, National 
Rural Water Association. John is especially welcome since he is 
a constituent and neighbor.
    Good to see you, John. Welcome.
    Mr. O'Connell. Thank you.
    Good morning, Congressman Walsh and Members of the 
subcommittee.
    My name is John O'Connell. I am the Superintendent of 
Public Works for the Village of Weedsport. It is a small New 
York municipality serving about 750 homes.
    You will be pleased to know that Weedsport drinking water 
reservoir will be online next week. The entire village is 
grateful for your assistance with HUD, and you have an open 
invitation to come see our new reservoir with a plaque 
acknowledging your help.
    The focus of my remarks today is to tell you what is 
working within EPA's budget to improve and protect drinking 
water and wastewater quality in rural communities.
    In the world of Ronald Reagan, data is a plural anecdote. 
So we provide the committee with an anecdote from rural New 
York that captures what is happening across the country.
    The Village of Cato is a typical rural community consisting 
of 230 homes, a part-time mayor, a village budget of $300,000 
and two full-time employees. Last year, the EPA mandated that 
Cato publish something called a consumer confidence report. 
This lengthy confusing report is detailed in 26 pages of the 
Federal Register.
    Over 50,000 small communities across the country, just like 
Cato, had to comply with the rule. On behalf of those 
communities, we feel that are two ways to implement the rule, 
and one is better than the other.
    First is the rural water grass roots way using funds 
provided by this community, the New York Rural Water assisted 
as associated helping over 500 communities publish their 
consumer conference report. For about half of the 500, we held 
regional one-day training sessions that towns could bring their 
required data to our sessions and using our staff, our 
computers, and simplified template of the EPA's requirement and 
a little magic, that towns could leave at the end of the day 
and the report and the knowledge to do the report on their own 
next year.
    The second half of the 500 communities needed more 
individual attention because their staff was not able to leave 
their jobs for a day or they were too small to have staff. Bear 
in mind, Congressmen, that many of these towns do not have 
computers, have never heard of the consumer conference report, 
and have priorities of their own. This was the case of CATO. 
Our circuit rider technician, funded by this subcommittee, 
traveled to Cato using his expertise, a laptop, talked the 
village clerk and water operator through the process so they 
could publish the report and comply with the rule.
    Across the country, rural water circuit riders assisted 
tens of thousands of small communities in a similar fashion. 
The result was the compliance rate for a rule higher than 
anyone anticipated.
    The second way to implant this rule is simply send a letter 
to all systems informing them of the rule and giving them an 
arbitrary compliance date, and following up with another one 
from EPA saying that you were in violation of the CCR rule, 
your system could be subject to Federal formal enforcement 
actions which carry potential penalties up to $25,000 a day.
    This so-called consumer conference rule is just one of the 
many EPA has promulgated since I was here last year. Some are 
over 100 Federal Register pages and long.
    Some towns depend on rural assistance for help with the 
EPA's compliance rule. What is working in small towns is 
providing a common-sense assistance in a form that they can 
understand and afford.
    I would conclude by emphasizing that every small community 
leader wants to provide safe water and meet all drinking water 
standards. After all, our families drink the water every day.
    Mr. Chairman, I will close with a request that the 
subcommittee include $8.8 million in the EPA budget for rural 
water technical assistance and ground water production.
    Thank you for your past support and the opportunity to 
appear in front of you to day.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you, John. It is nice to have you with us 
today.
    Mr. O'Connell. You, too. Thanks.
    Mr. Walsh. Obviously, we have worked together on a number 
of projects, not just with you, but with the Rural Water 
Association.
    Mr. O'Connell. Yes.
    Mr. Walsh. Communities throughout my district in upstate 
New York and throughout the State have benefited from the work 
that you do, helping them not only to win their way through 
Federal Government requirements, but just to help communities 
to finance their own public water supplies which is essential.
    We have talked a number of times in this subcommittee about 
the basic needs. Certainly, a good reliable supply of clean 
water is essential to any community. Your organization has 
heard well as is shown in funding from the subcommittee. I 
suspect it will again.
    Mr. O'Connell. Thank you very much.
    Mr. Walsh. Any questions or comments?
    Ms. Kaptur. No. It still continues to amaze me about the 
water needs across this country, and thank you for your work.
    Mr. O'Connell. Well, there are 44 States involved in this 
organization. Another one that just came on board was Alaska, 
and Hawaii is now considering to be included.
    Mr. Walsh. How about Florida and Ohio?
    Mr. O'Connell. Both of them are very well represented.
    Mrs. Meek. Thank you.
    Mr. O'Connell. Thank you.
    Mr. Walsh. Michigan, too?
    Mr. O'Connell. Michigan, too.
    Mr. Walsh. Good. Thank you.
    Speaking of Michigan, Mr. Knollenberg is going to take the 
chair. I have some other commitments. So thank you very much 
for doing that, Joe. Thank you, ladies.
                              ----------                              

                                         Wednesday, April 12, 2000.

                NATIONAL UTILITY CONTRACTORS ASSOCIATION


                                WITNESS

ANGELO Di PAOLO, PRESIDENT
    Mr. Knollenberg [presiding]. Mr. Di Paolo. The time is 
yours, and obviously, if you do not get your entire commentary 
in, your entire statement will be included in the record.
    You are recognized.
    Mr. Di Paolo. Mr. Chairman and honorable Members of the 
Subcommittee, my name is Angelo Di Paolo. I am the owner of Di 
Paolo Company, a utility and highway construction company in 
Glenview, Illinois, a suburb of Chicago.
    I am delighted to participate in this hearing on behalf of 
the National Utility Contractors Association known as NUCA.
    NUCA is a family of about 2,000 companies from across the 
Nation that build, repair, and maintain water, wastewater, gas, 
electrical, and communications systems, and manufacture and 
supply the necessary materials and services.
    My family emigrated to the United States in 1956. I cried 
and begged to return to Italy all the way here, while my 
grandmother diligently reassured me that everything would 
change for the better in America, the land of opportunity.
    It was not until I became a small business owner that I 
fully understood my grandmother's abundant wisdom. My 
grandmother also taught me the importance of speaking one's 
mind and backing up those words with actions.
    NUCA's efforts year after year to ensure appropriate 
funding for the Clean Water State Revolving Loan Fund for 
wastewater infrastructure is a model of my grandmother's 
diligence. We are hopeful to once again convince you to reject 
the President's proposal to cut the SRF, a program vital to our 
Nation's public health, environment, and economic stability.
    I suspect that I am largely preaching to the choir today. 
This time last year, one of my NUCA colleagues appeared before 
you to ask you to reject President Clinton's low-ball request 
for the Clean Water SRF. Just as he did for fiscal 2000, 
President Clinton played the budget game and requested only 
$800 million in funding for the SRF for fiscal year 2001.
    Based on previous experience, Mr. Clinton knows this 
subcommittee recognizes the importance of the wastewater 
infrastructure program. After all, the research by the U.S. 
Environmental Protection Agency and various independent studies 
conservatively estimated that there are more than $300 billion 
in wastewater infrastructure needs nationwide over the next 20 
years.
    We hope the President does not lose his bet that you will 
appropriate available funds. For the last 2 years, Congress has 
appropriated $1.35 billion for the program. NUCA respectfully 
requests that you appropriate, at a minimum, level funding for 
the program. We must stress, however, that $1.35 billion is not 
enough to meet the ever-increasing wastewater infrastructure 
needs and to protect the health of the citizens currently 
playing and working in our contaminated lakes, rivers, and 
streams.
    As a utility contractor, I have a unique window into the 
maze of an underground infrastructure, including wastewater 
infrastructure. I must say, the view is not pretty. As the 
EPA's 1996 Clean Water Needs Survey and 1999 EPA Needs Gap 
Analysis demonstrate, we as a nation have knowingly failed to 
maintain vital wastewater.
    Mr. Knollenberg. Mr. Di Paolo, may I interrupt you for just 
one second? You are about halfway through your testimony.
    Mr. Di Paolo. Just about, yes.
    Mr. Knollenberg. Your time is up.
    Mr. Di Paolo. Oh.
    Mr. Knollenberg. Is there something I could suggest? Could 
you summarize within a minute? If not, we will accept 
everything that you have there for the record, but in terms of 
time in order to be fair to others, we need to move forward. So 
can you sum up in a minute?
    Mr. Di Paolo. Yes.
    Mr. Knollenberg. Would you?
    Mr. Di Paolo. I will try.
    Mr. Knollenberg. Thank you.
    Mr. Di Paolo. Well, basically, there are much needed funds 
so there are so many municipalities that they do not have 
sewers or water. So we have come here for funding of the water 
programs.
    Our work helps the economy in so many ways. It cleans the 
water, cleans the lakes, and also provides jobs for many, many 
people. People that can afford it, buy houses. It goes on and 
on.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. I think that last statement was probably 
sincere and the most eloquent, and we appreciate you being here 
today and will include everything that you have in your 
testimony.
    Mr. Di Paolo. Thank you very much.
    Mr. Knollenberg. Thank you very much, sir.
    Any questions?
    Ms. Kaptur. No. Thank you.
    Mr. Knollenberg. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

TERRY WILLIAMS
    Mr. Knollenberg. Mr. Billy Frank with the Northwest Indian 
Fisheries Commission.
    I have been advised that Mr. Terry Williams will be making 
the presentation. Mr. Williams, I apologize for the 
misintroduction.
    Welcome.
    Mr. Williams. My name is Terry Williams. I am here for the 
Northwest Indian Fisheries Commission. To the Members of the 
Committee, we appreciate this time you have offered us. I will 
not read the testimony, but just explain to you briefly what is 
in the writing that we have passed onto you.
    Mr. Knollenberg. Very well.
    Mr. Williams. Just briefly, our 26-member tribes of this 
program in the Northwest have been supported by this Committee 
for close to 10 years now, and what you have been supporting us 
in is a coordinated tribal water quality program. We have been 
working with EPA through their different programs. In this 
particular case, we are looking for a requested amount of 
$700,000 to continue working through the EPA 104(b)(3) program.
    Basically, what that means to our member tribes is to be 
able to develop an action plan and continuing working on the 
plans that we have developed, working towards protection of our 
rights and our obligations under our treaties and the 
Government through the different types of programs that EPA 
has.
    Part of this is looking at the trust obligation dealing 
with health issues to our tribes' members, of our tribes, and 
to the environment that supports our natural resources. In 
particular, we have been dealing most predominantly recently 
with salmon which now are listed under the Endangered Species 
Act and creating a number of other problems as you probably 
know.
    We have to deal with numerous different jurisdictions from 
cities to counties to State and Federal agencies as well as 
intertribal activities. So the coordination is valuable to us 
and to be able to not only have a communication link between 
all of these different levels of Government, but between our 
member tribes and to look at how we stabilize our programs and 
bring in comprehensive information that lead us to better water 
quality.
    We have been at this for a number of years, and I think we 
have turned in numerous reports to you and will continue to 
develop these comprehensive reports to show our level of 
accountability and the gains that we have made. We are very 
hopeful that in the near future, the type of reporting that we 
are going to provide will give you not only the information on 
what progress we have been making from these funds, but from 
other funds that we can access by having these funds available 
to us.
    Many times, we use one set of funds to attract other types 
of funding. We do appreciate the support that you have given us 
over the years and hope that this request for $700,000 would be 
something that we could continue to enjoy and continue the work 
that we have started.
    Mr. Knollenberg. Very good.
    Mr. Williams. And we appreciate your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. You are very welcome.
    Is this a multi-State effort?
    Mr. Williams. No. It is within the State of Washington.
    Mr. Knollenberg. Any questions?
    Ms. Kaptur. Mr. Chairman, I just wanted to ask the witness 
if he would be kind enough to tell us how are we doing in terms 
of the restoration of fish species out in your region of the 
country.
    Mr. Williams. Well, right now, I would say it is one of the 
most comprehensive approaches that we have seen in decades in 
terms of trying to gain ground on salmon. We are developing a 
coordinated process with the Federal and State agencies 
predominantly, but in some cases, I have also coordinated with 
counties and cities: in one area in particular, the Tri-County 
area, called Pierce King. We have three counties, five tribes, 
and about 100 cities developing a plan that would set up land-
use regulations and restoration processes.
    It is hard to say how much we have gained because most of 
the activities for the last 2 years have been more process-
oriented and trying to coordinate funding mechanisms to support 
the activities that we are going to do, but at the moment, I 
think currently it looks hopeful and I think we should be 
seeing some successes.
    Ms. Kaptur. My impression is the salmon population 
continues to decline, does it not?
    Mr. Williams. That is very correct, yes.
    Ms. Kaptur. Do you think that that is primarily due to 
over-fishing, to the incursions of development or changes in 
water quality? To what do you attribute that decline?
    Mr. Williams. Actually, all of those.
    One of my other positions I sit on is the Pacific Salmon 
Commission under the Treaty between the United States and 
Canada. In 1999, we negotiated a new fishing regime between the 
two countries that severely restricts fishing. I think over-
fishing is not a problem anymore. Both in Canada and in the 
United States, fishing has been reduced by at least 80, 90 
percent, while stocks are being replenished fairly well.
    In fact, with our tribal communities and our fishing, 
amongst our members, we are about at an 80-percent unemployment 
rate right now. We are concentrated more on in-river conditions 
and estuary green waters where we can make a difference. 
Monitoring ocean conditions, knowing that we have reduced 
survival in the ocean right now, but the reality is there is 
not much we can do with things like El Nino. So we have to look 
to see where we can compensate in river protection and 
restoration.
    Ms. Kaptur. Thank you very much.
    Mr. Knollenberg. Mrs. Meek, any questions?
    Mrs. Meek. Thank you for coming.
    Mr. Knollenberg. Thank you, Mr. Williams.
                              ----------                              

                                         Wednesday, April 12, 2000.

                   NATIONAL TREASURY EMPLOYEES UNION


                                WITNESS

COLLEEN M. KELLEY, NATIONAL PRESIDENT
    Mr. Knollenberg. Ms. Colleen Kelley.
    Your entire statement will be inserted in the record.
    Ms. Kelley. Thank you.
    Mr. Knollenberg and distinguished Members of the 
Subcommittee, my name is Colleen Kelley, and I am the National 
President of the National Treasury Employees Union. We 
represent over 155,000 Federal employees, including many who 
work at the Environmental Protection Agency, and that is why I 
am here today.
    The actions of this Subcommittee directly affect the lives 
of all Americans, of course, and certainly the lives of all 
those employees at the EPA. While we all agree that we owe it 
to the future generations of Americans to leave them with a 
clean environment, the budget that is provided to EPA to do 
that work has a severe impact on their ability to do so.
    We need to continue to foster science-based innovation and 
policy that protects the health of the public and of our 
environment, and one of the best ways we can do this is to 
support a strong budget for the EPA.
    The scientists and analysts at the EPA are the ones who 
have years of experience in these critical areas, and they are 
the ones in the best position to foster these environment 
programs.
    I am very pleased with the President's request in his 
budget for an 11-percent increase in the funding for EPA and 
for their core operating programs. I believe this is a good 
first step, but it should be seen as a floor, not a ceiling, to 
what EPA needs to operate.
    The budget proposal you have before you will allow the EPA 
to continue its work with State, localities and municipalities 
in air and water and all of the things impacting the 
environment, but all of these programs need additional staff in 
order to address the increasing demands of protecting the 
American public.
    NTEU supports the request for $68 million targeted at 
protecting the health of our children. The EPA has some of the 
best trained scientists who are sophisticated in research and 
techniques in order to determine the effects of lead and other 
toxins on children. They are also working on issues surrounding 
children with asthma and what air pollution does to those 
children.
    The budget also provides $784 million for the clean water 
action plan, and this funding will allow EPA to continue the 
work that they do through all the local communities and States 
across the country.
    The Super Fund proposal is for $1.45 billion, and NTEU 
supports this also because, of course, it provides a program to 
continue the cleanup of the sites that are the most polluted 
with toxic waste.
    Because of the work of EPA analysts and lawyers, polluters 
have been forced to pay for their neglect of our environment, 
and communities have been better able to develop more cost-
effective means to clean up those sites.
    The budget also invests $92 million in cleaning up the 
less-contaminated, but still highly toxic brownfield sites 
which would help communities to clean up these lands, put them 
back into better productive economic use, and also create more 
jobs.
    The result of the EPA's work speaks for itself, and we are 
very supportive of the President's budget, but it also moves in 
a new direction for EPA, one that would provide $30 million for 
information integration initiatives. This initiative will 
expand the public's right to know through the development of an 
information network with the States to ensure that key 
environmental information will be made public in a timely 
manner through the internet and through other means. This will 
help the localities to help their decision-making, will reduce 
the burden of paperwork on the regulated community and the 
States, and it will also guarantee that the tax-paying public 
has reliable, high-quality information about what threats to 
the environment exist in their communities and what steps were 
being taken to address these threats.
    In conclusion, the work performed by the men and women if 
the EPA is often taken for granted. Yet, thanks to the 
persistent science-based work that they do at the EPA, we are 
reducing air pollution. We are improving the quality of the 
drinking water systems across the country, and we are allowing 
Americans to live longer and healthier lives.
    EPA employees are working in States and local communities 
to build on initiatives that get results and to show those that 
have failed, and while we should continue to support the 
technological advances in reducing pollution and cleaning up 
the environment, technology alone cannot clean up every lake, 
every Super Fund site, or every particle of toxic matter in our 
air.
    Technology needs to be supported by sound science. Science-
based regulations need to be implemented and overseen and 
enforced by knowledgeable scientists, those at the EPA. We know 
there are better ways of doing things, more cost-effective and 
innovative ways, and EPA needs a budget to support that 
important work.
    I would like to thank you for the opportunity to speak with 
the Subcommittee today on this important issue.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Knollenberg. Ms. Kelley, thank you very much. Your 
testimony was well presented.
    I like what you said at the end in terms of sound science. 
I presume that peer-review is a part of it, too.
    Ms. Kelley. It is.
    Mr. Knollenberg. Thank you.
    Any members of the panel have a question?
    Ms. Kaptur. No.
    Mr. Knollenberg. Mr. Frelinghuysen has joined us now, too.
    Mrs. Meek. We are happy to see you here. I sit on the 
Treasury Postal Subcommittee on Appropriations, and I am glad 
to hear you stand up for EPA.
    Ms. Kelley. Absolutely. Thank you. Glad to be here.
    Mr. Knollenberg. Thank you very much.
    Ms. Kelley. Okay, thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                 PASSAIC VALLEY SEWERAGE COMMISSIONERS


                                WITNESS

ROBERT J. DAVENPORT, EXECUTIVE DIRECTOR
    Mr. Knollenberg. Mr. Robert Davenport.
    Your entire testimony will be included in the record. You 
are free to begin.
    Mr. Davenport. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and Members of the Committee. My 
name is Robert Davenport. I am executive director of the 
Passaic Valley Sewerage Commission in Newark, New Jersey, and I 
would like to thank you for this opportunity to present 
testimony.
    PVSC owns and operates one of the largest wastewater 
treatment plants in the Nation. We treat wastewater from 1.3 
million people in 47 towns and cities in New Jersey and from 
over 300 large industries in Northern New Jersey.
    When I addressed this distinguished committee last year, 
our Passaic River/Newark Bay Restoration Program was just 
getting started. This year, I would like to thank you for your 
past support and update you on the progress and the 
achievements of the program we have made in the last year. Your 
funding assistance of $5 million combined with State and local 
funding made possible construction of the first phase of our 
high-priority combined sewage overflow protection project.
    The traditional solution for reducing CSOs is to separate 
the stormwater from the sanitary sewers. The estimated cost of 
this traditional solution is well over $5 billion. This has 
never been, and probably never will be, a feasible solution for 
these four cities that we represent.
    For the last 30 years, New Jersey has been struggling to 
find a solution that is both economically viable, 
environmentally acceptable for the problem of CSOs. PVSC found 
just a solution. The program calls for the implementation of 
plant-wide improvements to increase the treatment capacity of 
the plants wet weather flow from 358 million gallons per day to 
over 700 million gallons a day.
    Combined sewer discharges will be reduced by 332 million 
gallons per day to obtain 106-percent of EPA's long-term 
control requirements for wet weather flow pollutants removal.
    The program will result in the removal of 4,000 pounds per 
year of organic compounds, 90,000 pounds per year of toxic 
heavy metals, 12 million pounds of conventional pollutants 
which are now discharged into the Passaic River and Newark Bay 
during wet weather.
    The real key to improving the water quality of the Passaic 
River and Newark Bay is to reduce the combined sewer overflows. 
PVSC's solution will cost $82 million compared to the 
traditional solutions which cost over $5 billion.
    The State of New Jersey awarded PVSC $15 million for the 
engineering design for the plant improvements needed to 
implement the program. The construction of three projects to be 
funded by funds appropriated by your committee for the fiscal 
year 1999 and fiscal year 2000 appropriations bill is eminent. 
Local funds have been used to provide the match for the special 
appropriations grant.
    In an effort to accelerate the program, PVSC has obtained a 
$25-million State-revolving fund loan to finance the 
construction of a major component of the plan. The first phase 
of these projects are now underway.
    In spite of all the progress we have made, Passaic Valley 
has exhausted its ability to fund additional work without 
continued Federal assistance. We are respectfully requesting 
$12.3 million in Federal funds for this year to complete 
construction of the first phase of plant improvements. The 
completion of this phase will get us halfway to our goal of 
doubling our wet weather flow.
    Once again, Mr. Chairman, I would like to thank you and the 
committee for your continued support for the Passaic River/
Newark Bay Restoration Program. This program will restore the 
Passaic River and Newark Bay as a recreational and economic 
resource for the region with direct environmental benefits for 
the $17 million people living in the New Jersey/New York area.
    Mr. Chairman, I again thank you very much. I appreciate it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you.
    I recognize Mr. Frelinghuysen. Do you have a question?
    Mr. Frelinghuysen. Well, Mr. Chairman, Mr. Davenport has a 
good tutor and assistant, former Congressman Bob Rowe.
    This is one of the dirtiest rivers in the country, and the 
Passaic Valley Sewerage Authority is right on target in terms 
of not only using State resources, but partnering with our 
resources that this committee has provided for the last couple 
of years. Our entire congressional delegation is behind this 
request. They are doing a fantastic job. It is a monumental 
job, but it is good to know that we are working together with 
the State of New Jersey. So we are not doing this alone. It is 
a fantastic investment, and it is a pleasure to see you, Mr. 
Davenport.
    Congressman Rowe, whenever you are involved with something, 
it moves, but it is a huge benefit for Newark Bay and for the 
communities along the Passaic River. It is fantastic.
    Thank you.
    Mr. Knollenberg. Thank you.
    Any other Member?
    Ms. Kaptur. I have a very naive question to ask. Why wasn't 
this done before? We only started in the last 2 years. We have 
had legislation for sewerage cleanup on the books for two 
decades now.
    Mr. Davenport. It was because the conventional fix, as I 
said, would cost about $5 billion. Like Patterson and Newark, 
and Jersey City, they were in no position to even think of 
putting in that kind of money. Actually, they are getting to 
the point where they are going to have to do it because EPA is 
demanding that these things be done, but we are going to take 
care of a large segment of it with this $82-millon project.
    In fact, we get 106 percent of the pollutants that EPA 
wants us to remove with this project.
    Mr. Rowe. May I comment?
    Mr. Knollenberg. Absolutely, Mr. Rowe.
    Mr. Rowe. I think what is important is that over the years 
when we worked on the clean water bill, they have done and used 
every element that has been available to them.
    The one area we were never able to get into the 
legislation, you will recall, was the elimination of the 
combined sewers because that would run to hundreds of billions 
of dollars.
    This is an extremely unique situation where they are able 
to modify the existing plant. It has been rebuilt over the 
years--to modify this plant and double the capacity, which 
means they will be able to treat about 300 million gallons more 
of polluted runoff water. It is really a tremendous program.
    Ms. Kaptur. What do you do with your organics? What would 
your plant produce? You talked about removal of organics and 
toxins. Do you pasteurize those and put them back in the 
fields?
    Mr. Davenport. Yes. We use them for strip mines, refilling 
the areas that were taken out, land application and also for 
landfill that we cover on dump sites. It is all beneficial use 
of the product.
    Ms. Kaptur. I just want to say we thank you, Mr. Davenport, 
very much, and we really welcome our beloved colleague here, 
Bob Rowe. Good to see you.
    Mr. Rowe. Thank you very much.
    Mr. Knollenberg. Thank you.
    It is always a pleasure to have a former Member come back. 
Good to see you. Thank you very much.
    Mr. Rowe. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

         POLYISOCYANURATE INSULATION MANUFACTURERS ASSOCIATION


                                WITNESS

JARED O. BLUM, PRESIDENT
    Mr. Knollenberg. Mr. Blum.
    Mr. Blum, you will be recognized, and your entire 
commentary will be included for the record. You are welcome to 
proceed.
    Mr. Blum. Thank you, Mr. Chairman and Members of the 
subcommittee. My name is Jared Blum. I am president of a group 
called Polyisocyanurate Insulation Manufacturers Association. 
Mercifully, we call ourselves PIMA. I am here on behalf of the 
funding for the Energy Star Programs and Environmental 
Protection Agency.
    Basically, PIMA's product, polyiso, is used in 
approximately 60 percent of all commercial buildings in this 
country and about 40 percent of all residential. In addition to 
traditional trade association activities, we run a large number 
of seminars, award-winning seminars on energy efficiency around 
the country for architects and specifiers.
    The voluntary Energy Star programs are innovative and 
effective programs that have been established to address 
critical environmental problems. Under these programs, EPA acts 
as a catalyst and facilitator to encourage builders to engage 
in market transformation activities. This is preferable to the 
traditional command and control activities by the Agency, and I 
think they ought to be applauded for that initiative. My 
testimony is going to focus quite briefly on the Energy Star 
Homes and the Energy Star Insulation programs.
    EPA launched the Energy Star Homes programs in 1995. 
Household energy use is a major source of U.S. carbon dioxide 
emissions accounting for approximately 20 percent of all total 
emissions. The Energy Star Homes program reduces energy use and 
prevents pollution by encouraging builders and developers to 
construct energy-efficient homes. Energy improvements result 
from the use of improved insulation, tighter ducts, high-
efficiency heating and air conditioning and high-performance 
windows.
    Builders who participate in the program as partners are 
provided with technical support, fact sheets on technology, 
sales training, information on mortgage products and the use of 
Energy Star logo and promotional materials. I should note that 
this program over the years has received bipartisan support and 
at the State level as well. Governor Pataki has been involved 
in an Energy Star Logo Promotion program. And a little bit 
different twist, Governor Engler, of your home State, 
Congressman Knollenberg, has, in fact, endorsed the concept of 
giving market incentives to energy-efficient builders. He just 
gave, what is called the Five Star Home program, five builders 
in your State a cash grant for energy-efficient construction.
    Builders participate not only because of the services 
provided by EPA, but because EPA is working to create a market 
for these energy-efficient homes. So builders are willing to 
undertake some additional effort and risk to distinguish their 
products.
    Energy Star Homes are new homes that use at least 30-
percent less energy than required by a national model energy 
code, while maintaining or improving indoor air quality. The 
current goal of the Energy Star Homes program is to increase 
the market share for Energy Star Homes to 10 percent of new 
home construction by 2002, and hopefully this is pretty 
ambitious. By 2022, 95 percent of all homes constructed will be 
meeting this goal.
    This will have obviously significant economic environmental 
benefits:
    One, annual energy savings will be $62 million by 2005, and 
$2.8 billion by 2022. Also, by the year 2022, annual carbon 
reductions will be over 4 million metric tons.
    To touch very briefly on Energy Star Insulation program, 
the EPA also is encouraging consumers who go to Home Depot and 
other retailers to look for high-efficiency insulation 
products, educating consumers on what products to buy and also 
educating them about the climate conditions in which they may, 
in fact, reside so they make proper decisions.
    In closing, members of the Subcommittee, what we are really 
looking for is continued support for a program that has shown 
benefits. It is still almost in its starting stages, but the 
good news is, if we do things right, as the market is 
transformed, we will become less dependent on the EPA's 
efforts, and the Agency will be able to reduce its support for 
those products and reallocate resources to other programs. In 
short, you will not see me back here again after a couple of 
years more if this program works the way it is supposed to 
work.
    Thank you very much for your time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Well, thank you very much. I just have a 
couple of quick questions.
    Mr. Blum. Sure.
    Mr. Knollenberg. You mentioned that at present time there 
are what percentage again of the homes that are being built at 
this time?
    Mr. Blum. Their goal is 10 percent, Congressman. They are a 
little below that goal. I think the numbers they had up until 
the last year was about 750 homes, which was below that goal. 
But they are believing that they will have at least 10 percent 
of them by the year 2002.
    Mr. Knollenberg. Now that is all homes. How about 
manufactured homes, what is the percentage there?
    Mr. Blum. Manufacturers have not been participating in this 
up until now. My understanding, from talking to people at EPA, 
manufactured homes, which is a large percentage and 
increasingly a large percentage, will be participating I think 
next year.
    Mr. Knollenberg. Would that percentage not be higher if 
they were going to participate?
    Mr. Blum. I would think so. I would hope so.
    Mr. Knollenberg. Any questions for the gentleman?
    Ms. Kaptur. I just want to welcome him and thank you very 
much for your testimony this morning.
    Mr. Knollenberg. Thank you so much.
    Mr. Blum. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

        RESOURCES RECOVERY, INC., RICHARD OAKS FOUNDATION, INC.


                                WITNESS

DUDLEY L. WILLIS
    Mr. Knollenberg. I am going to call on Mr. Dudley Willis.
    Good morning, Mr. Willis.
    Mr. Willis. Hello. How are you?
    Mr. Knollenberg. Good.
    Your entire comments will be included for the record.
    Mr. Willis. Very well. I am Dudley L. Willis of Resources 
Recovery, Incorporated, of Newark, Delaware. I am arguing for 
changes to sanitary sewer design rules, which have been 
obsolete for many years and are costing our country billions of 
dollars each year.
    Support of my idea: Tetra Tech, Incorporated, a highly 
reputable engineering firm, has done an engineering study of 
it, and it is in the back of this book. The whole study is in 
the back of this book. The whole first part of the book is my 
ideas. The second part is Tetra Tech's report. The report 
provides an analysis of historical data, a description of 
current criteria, compelling justifications for the proposed 
alternatives and design criteria.
    The need for a complete overhaul of the sewer system design 
criteria is quite obvious. It is strongly recommended that 
nationwide design criteria be established and taught in our 
educational system and accepted by governing agencies.
    Jerry Hamiowitz, a P.E., a prominent engineer, in his e-
mail letter to Tetra Tech, stated: ``We are still using 
standards written for vitrified clay pipe and hand rodding 
equipment. The best justification I know is that complying is 
easier than overcoming bureaucratic inertia. Someone has to 
educate the Government into accepting the most cost-effective 
technology.''
    Following this, the report states: ``Mr. Hamiowitz's 
message points out the known fact that the code provisions 
throughout the United States are obsolete and inadequate and 
need to be updated.''
    Apparently, a demonstration project is required to move 
officials to make proposed changes in the regulations. And 
until the regulations are changed, no one is willing to risk 
the almost inevitable costly court challenges.
    My ideas are expressed in this booklet, ``The Obsolescence 
of Civil Engineering--Especially Sanitary Sewers.'' The largest 
savings can be achieved by: Reduction of sewer slopes, as 
sanitary sewers no longer carry one-inch stones as the Roman's 
did. Number two, eliminating manholes as they serve no purpose.
    The current rules date from the Chinese and Treasury 
Department Romans and were put into scientific research and 
publications by the English, the French and Brooklyn, New York, 
approximately 150 years ago so as to fit into the Scientific 
Age.
    Sixty years ago, they were put into standards by the 10 
States at the head of the Mississippi River. These are now 
``Biblical,'' so that small changes can no longer be made 
unless made by someone with a huge economic interest.
    Several months ago I met with six of the EPA's top sewer 
men in Washington. After presenting the arguments expressed in 
my book, they said that while they agreed with the all of them, 
the arguments would probably go nowhere, as they had tried the 
same thing approximately 25 or 30 years ago and offered 50 
percent of the savings to any contractor who changed the rules. 
But they did not have any takers for 3 or 4 years, so they 
dropped the program.
    Mr. Knollenberg. Mr. Wilson, could I have you conclude in a 
minute? Can you summarize in about one minute? That is your 
time limit.
    Mr. Willis. The Government-sponsored demonstration project 
is the most cost-effective approach for leading necessary 
changes to new technology. Previous efforts have proven that 
any individual entity or client, willing to employ innovative 
changes to entrenched rules, cannot alone gain regulatory 
agency approval without having to go through court, as this is 
much too expensive.
    Changes to the classic design philosophy require a period 
of 50 to 100 years and much too slow to serve the public need. 
Changes must be adapted more rapidly. I am 80 years old, and I 
have been at this for almost 40 years and have not yet been 
able to succeed in it.
    In support of my idea, seven deans and department chairmen 
at the University of Delaware have agreed to work with me on a 
demonstration project. Hundreds of people have heard my talks 
and encouraged me. The Tetra Tech-incorporated study states it 
is impossible to change ``Biblical'' rules at a reasonable 
cost. And since I know the difficulties in changing, I have 
retained the legal firm of Manko, Gold & Katcher to represent 
me if the matters can be brought to court.
    My need is for a large enough project to produce savings 
big enough to attract nationwide attention. This can be done 
by: One, a 50-percent demonstration project grant to a public 
or private builder to follow my recommendations. That would 
cost about $6 million, and the University of Delaware would be 
in charge of it.
    Number two, a grant of $1 million to the University of 
Delaware to set up a special professor, his staff and overhead 
for 2 years.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Willis, thank you very much. This is a 
brand-new request, is it not?
    Mr. Willis. Yes, it is.
    Mr. Knollenberg. I have no questions personally. Does any 
member of the panel have a question?
    Mrs. Meek. Ms. Kaptur, go ahead.
    Ms. Kaptur. I just wanted to say, Mr. Willis, I am reading 
your book. This is fascinating.
    Mrs. Meek. It sure is.
    Mr. Willis. Thank you.
    Ms. Kaptur. I wondered if you could supply for the record, 
perhaps, a letter from the University of Delaware or the 
departments that are willing to cooperate with you.
    Mr. Willis. They just agreed about 2 weeks ago, and the 
chairman said it had to go up through the president, so I would 
not have it in time for this, but I will get it to you.
    Ms. Kaptur. All right. Thank you for your persistence. I 
can tell you, as a sitting regional planner, the hardest thing 
to do is to change tradition and the way things have always 
been done. I will read your book.
    Mr. Willis. Well, I have done it six times at least through 
the EPA, demonstration projects, and it has always been very 
costly and very difficult.
    Mr. Knollenberg. Thank you for your time, sir. We 
appreciate your testimony, and we appreciate your being here 
today.
    Mr. Willis. Thank you very much.
    Mrs. Meek. Thank you. Mr. Willis, I want to applaud you on 
your creativity and the way you have come up with some 
ingenious ways of solving problems. I am just hoping that 
somewhere, maybe here, that you can find someone who will 
listen to this kind of design. I really do.
    Mr. Willis. I hope so. I have tried many places up here.
    Mrs. Meek. Well, with your perseverance, I know you will 
not give up.
    Mr. Willis. Well, I am going to keep at it a while. Thank 
you much.
    Mr. Knollenberg. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

       THE ENVIRONMENTAL INSTITUTE OF WESTERN MICHIGAN UNIVERSITY


                                WITNESS

CHARLES F. IDE, Ph.D., DIRECTOR
    Mr. Knollenberg. Dr. Charles Ide is here from the Western 
Michigan University. We are looking forward to your testimony. 
We welcome you.
    Mr. Ide. Thank you. Good morning. I am Charles Ide, 
director of the Environmental Institute at Western University 
Michigan in Kalamazoo, Michigan. It is an honor to be here 
today to discuss extremely important environmental issues that 
are shaping both the quality of life and economic development 
in Southwestern Michigan.
    I would like to begin by thanking the Members of the 
Subcommittee for their bipartisan support for this initiative. 
I would specifically like to thank you, Representative 
Knollenberg, for working with your Michigan colleagues, 
Representatives Upton and Kilpatrick, in developing support for 
this project.
    The State of Michigan's economic base is characterized both 
by heavy industrial and agricultural activities. For years, 
these activities have placed a legacy of environmental 
contaminants in the forests, farmlands, waterways and lakes 
that give Michigan its reputation as a beautiful place to live 
and recreate. This is certainly the case in the Kalamazoo River 
watershed, which has been designated as a Great Lakes area of 
concern and a Superfund site because of its degraded 
environmental quality.
    Wildlife such as fish, ducks, turtles and eagles sampled 
along the river showed high levels of PCBs and other 
contaminants. Minks showed the highest whole-body PCB 
concentrations of any mink tested in the United States. In 
addition, recent epidemiology studies indicate that although 
fish advisories have been in effect for some time, a 
substantial number of humans, mostly economically 
disadvantaged, eat fish from the river and show elevated levels 
of contaminants in their blood.
    A variety of other contaminants are also present in river 
sediments, including methyl mercury and pesticide residues. 
Several tributaries are contaminated with heavy metals and 
industrial hydrocarbons. Much of the watershed is also impacted 
by nonpoint-source pollution caused by agricultural and urban 
runoff and unsound land-use practices.
    Due to our recognition of the limitations of Superfund and 
the need to respond to community requests for a comprehensive 
assessment of potential future uses of the entire Kalamazoo 
River watershed, the Environmental Institute is serving as a 
catalyst for the development of a universal plan for the 
watershed.
    Working with leaders from a diverse cross-section of 
community stakeholders and environmental professionals, we are 
gathering data related to agriculture, recreation, economic 
development, human health, ecological impacts and other land-
use issues encompassing the watershed. The research produces 
neutral third-party data that extend and augment State and 
Federal studies. Duplication of resources is avoided at all 
levels. The work is being carried out in conjunction with the 
City of Kalamazoo's efforts to restore contaminated river 
properties for revitalization of the city's waterfront as a 
shopping and tourist attraction. The Environmental Institute 
will develop options to shape present and future activities 
that will assure a sustainable watershed resource for future 
generations.
    In addition, the research activities included in this 
initiative will provide for the development of new 
environmental technologies which can be transferred to the 
private sector to serve as a base for high-tech economic 
development in the region. These new technologies include 
biotech-based molecular tools for reliable and inexpensive 
ecosystem and human health risk assessment and new tools for 
cleaning up contaminated soils and sediments. These new tools 
will assure that contaminants are actually degraded and not 
merely moved to a new location to become someone else's 
problem.
    All data, including historical data and data provided by 
Government agencies and Government contractors, will be placed 
in a database accessible on the World Wide Web. This will allow 
for electronic layering of many types of data onto maps of the 
watershed that can be used by academics, the public and 
environmental policy makers.
    The University is also facilitating communication and joint 
decision making across the many jurisdictions that regulate 
economic activities and the quality of life related to the 
watershed. This collaborative venture will serve as a model for 
the more than 700 comparable Superfund and related sites 
nationwide and other sites worldwide.
    Given the magnitude of the Kalamazoo River Watershed 
Initiative and its potential to develop solutions for 
environmental problems that can be utilized in similar sites 
across the country, I respectfully request that you and members 
of the Subcommittee provide $3 million through the 
Environmental Protection Agency in fiscal year 2001 to Western 
Michigan University for the continued development of the 
Kalamazoo River Watershed Initiative.
    Thank you, Mr. Knollenberg, for the opportunity to appear 
before the Subcommittee and for the Committee's consideration 
of this request.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you, Dr. Ide. And I appreciate your 
coming here today, and I appreciate your thoughtfulness. I 
speak for myself on this, but I believe that it is reflected in 
this Committee that we do support what is taking place there. 
The entire Committee feels that, and this model you talk about 
which is forthcoming, hopefully, that would be used as a model 
for what could be done around the country.
    I think you are, also, trying to coordinate a variety of 
resources, including State and Local funds into this project.
    Mr. Ide. Right.
    Mr. Knollenberg. I welcome you. It is good to see somebody 
from Southwest Michigan, from Western Michigan University.
    Does any member of the panel have any questions for Dr. 
Ide?
    Mrs. Meek. Just welcome.
    Mr. Ide. Thank you.
    Mr. Knollenberg. Thank you very kindly.
    Mr. Ide. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

          INTEGRATED PETROLEUM ENVIRONMENTAL CONSORTIUM [IPEC]


                                WITNESS

KERRY L. SUBLETTE, SARKEYS PROFESSOR OF ENVIRONMENTAL ENGINEERING, 
    UNIVERSITY OF TULSA, AND DIRECTOR, INTEGRATED PETROLEUM 
    ENVIRONMENTAL CONSORTIUM
    Mr. Knollenberg. Dr. Sublette. Good morning.
    Mr. Sublette. Good morning.
    Mr. Knollenberg. University of Tulsa. We welcome you. We 
will include all of your testimony in the record, and you are 
welcome to begin.
    Mr. Sublette. Thank you, sir. My name is Kerry Sublette. I 
am from the University of Tulsa. I am also here as director of 
the Integrated Petroleum Environmental Consortium, known by the 
acronym IPEC. I want to thank you for the opportunity of 
appearing before you today, and I would like to first take this 
opportunity to thank the subcommittee for past funding of IPEC 
in appropriations for the Environmental Protection Agency.
    You may recall our consortium consists of the University of 
Tulsa, the University of Oklahoma, Oklahoma State University 
and the University of Arkansas. Specifically, the funding you 
provided was used to develop and is continually being used to 
develop cost-effective environmental technology and technology 
transfers specifically for the domestic petroleum industry.
    I am pleased to report that as envisioned and proposed by 
the Consortium, we have also received State-level matching 
funds from the States of Oklahoma and Arkansas, as much as 
$375,000 per year, creating a true Federal and State 
partnership.
    Since finalizing our first grant with the EPA in September 
of 1998, we have funded, so far, 12 technology development 
projects that promised to help ease the regulatory burden on 
the domestic petroleum industry by providing much-needed cost-
effective technology. These projects were first reviewed and 
approved by our Industrial Advisory Board, which is dominated 
by independent producers, as relevant to our mission, and 
finally reviewed and approved by our Science Advisory Committee 
on the basis of scientific quality. This Committee is endorsed 
by the EPA.
    Mr. Chairman, I am happy to report that these 12 projects, 
we have provided thus far just over $1 million in funding for 
these projects. However, another $980,000 in funding for these 
same projects has been secured by the investigators themselves 
as matching funds from the industry and industry organizations. 
This is over and above the state-level matching funds that I 
mentioned earlier.
    When IPEC first came to Congress for funding for IPEC, we 
pledged to work for a one-to-one match of Federal dollars. As 
you can see, sir, we are living up to that promise. In fact, we 
are more than living up to that promise. So IPEC is a true 
public-private partnership.
    Mr. Chairman, we ask for continued support from the 
Subcommittee for IPEC, as we seek an appropriation this year of 
$4 million. This appropriation will allow us to continue the 
work that we have begun, as well as to allow us to launch two 
new technology transfer initiatives. The Petroleum Extension 
Agent pilot program and the Train the Trainer program.
    The Petroleum Extension Agent program will use retired 
petroleum professionals as extension agents in a specific 
outreach effort to the smallest of the independent producers, 
those without any in-house expertise, to advise them on the 
latest production techniques, to minimize cost, how to prevent 
spills and the accompanying clean-up costs, and how to comply 
with State and Federal regulations.
    In the Train the Trainer program, we will work with Native 
American tribal organizations to provide in-depth training and 
environmental know-how related to oil and gas environmental 
problems.
    Mr. Chairman, on the surface, it might strike some as odd 
that I would appear before you today asking for your continued 
help for the domestic petroleum industry, considering the 
recent cost increases in cost to consumers of gasoline and home 
heating oil. But, Mr. Chairman, this is simply the law of 
supply and demand. OPEC, not be confused with IPEC, OPEC has 
been limiting supply, and we demand. Once again, America has 
been held hostage to marketing whims of foreign producers, and 
we have been left in no position to respond.
    Some may be willing to entrust the health of the U.S. 
economy to windmills and solar-powered cars, but over the near 
term, it is going to be a stable and a profitable domestic oil 
and gas industry that is the Nation's best defense against OPEC 
market manipulations.
    This current upswing in crude oil prices may stimulate the 
industry somewhat. However, the record low prices that preceded 
this current increase have left many companies in the financial 
position to make it impossible launch any new expiration 
initiatives. At the same time, OPEC has now opened the spigot a 
little more and prices have already started back down.
    Mr. Chairman, over half of U.S. domestic production is 
carried out by independent producers who are producing from the 
mature fields left behind by the majors. This is some of the 
most costly oil in the world to produce. IPEC is working to 
strengthen the domestic petroleum industry and reduce the 
impact of market volatility by helping to provide cost-
effective environmental technologies. We ask for your continued 
support of this worthwhile effort.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very kindly.
    What was the appropriation last year?
    Mr. Sublette. $750,000.
    Mr. Knollenberg. And this year it is going to be?
    Mr. Sublette. Well, we asked for $2 million last year, and 
we got $750,000. The previous fiscal year we got $1.5 million. 
And we are asking for this increase specifically not only to 
continue the work that we are doing, but to launch these two 
technology transfer initiatives, which I might say these 
concepts come directly from the industry itself as what they 
most need in terms of technology transfer.
    Mr. Knollenberg. Does Oklahoma and Arkansas have some of 
the highest number of independents, small mom-and-pop-type 
operations?
    Mr. Sublette. Yes, sir. In fact, EPA Region 6 probably 
contains well over 70 percent of the domestic oil production in 
the country, and most of those, probably about 50 percent, 
comes from marginal wells. These are wells that produce only 
two or three barrels of oil a day. And certainly----
    Mr. Knollenberg. Those are truly ``mom-and-pops.''
    Mr. Sublette. Those are truly ``mom and pop'' operations.
    Mr. Knollenberg. Does the panel have any questions for the 
doctor?
    Ms. Kaptur. No questions.
    Mrs. Meek. No questions.
    Mr. Knollenberg. We much appreciate your being here today.
    Mr. Sublette. Thank you very much.
    Mr. Knollenberg. Your testimony was very concise, and it 
flowed very well. We appreciate that. Thank you.
    Mr. Sublette. Thank you.
                              ----------                              

           *       *       *       *       *       *       *


                                         Wednesday, April 12, 2000.

  STATE AND TERRITORIAL AIR POLLUTION PROGRAM ADMINISTRATORS AND THE 
          ASSOCIATION OF LOCAL AIR POLLUTION CONTROL OFFICIALS


                                WITNESS

 S. WILLIAM BECKER, EXECUTIVE DIRECTOR
    Mr. Knollenberg. Mr. William Becker. The Subcommittee 
welcomes you and looks forward to your testimony. Anything not 
included in the oral portion of your testimony will be 
submitted for the record.
    Mr. Becker. Sure.
    Mr. Knollenberg. Thank you. You are recognized. Thank you.
    Mr. Becker. Thanks very much for this opportunity to 
testify. My name is Bill Becker. I am the Executive Director of 
two national associations representing the 55 State and over 
165 local air pollution control agencies across the country. 
Our job, under the Clean Air Act, is to be the primary 
implementers of the law, and we take that job very seriously.
    We are very concerned that the President's budget request 
for fiscal year 2000 is merely level funding. We are worried 
that it will not address the significant increases in 
responsibilities that we have had over the past several years, 
and we are fearful that it is going to impede our ability to 
protect public health and welfare and possibly lead to 
increases in severe respiratory illness, cancer, and even 
premature death.
    Since 1995, Federal grants, on which State and local air 
pollution agencies rely on for about one-third of their air 
pollution budgets, have decreased by $25 million, and this is 
exacerbated by the fact that EPA is beginning to fund more of 
their activities on the backs of our Federal grants to State 
and local agencies.
    Let me give you three quick examples: EPA is funding $4 
million in training out of State and local air pollution 
grants, and yet this is a Federal responsibility. They are 
funding $675,000 for an emissions inventory project that should 
rightfully be the responsibility of EPA. And they are funding 
$300,000 for a heavy-duty truck and bus idling study, which we 
think is important, but not at the expense of State and local 
limited grants.
    A couple of years ago, our association conducted a very 
intensive study with EPA, and found that in order to comply 
with our responsibilities under the Clean Air Act, we needed 
$100-million increase in State and local grants. I am not here 
today asking for $100 million increase on behalf of all of the 
State and local agencies, but it would be helpful for public 
health and welfare purposes if we received some increase.
    Let me give you an example of what even a $10-million 
increase would do to State and local agencies. If we spent $10 
million merely on air toxics, just on toxic air pollution, we 
would use it to expand the monitoring network that is needed to 
decide whether or not there is even a problem. We could help 
implement the toxics control programs at smaller facilities, 
which now are not subject to permit fees, and yet are a very 
significant part of our responsibilities. And there is a 
provision under the Clean Air Act that requires EPA to 
implement technology-based requirements. If they do not meet 
those requirements, State and local agencies are required by 
law to write the requirements themselves, and yet the Congress 
has given us no money to do so. So whatever you could do, we 
would make good use of it.
    A couple of final points: We very much support the Clean 
Air Partnership Fund. I know that this Committee last year 
supported that fund at lesser amounts than what the President 
requested, and we think it is not only important for State and 
local agencies, but it is important for efficiency and for 
administrative expedience. We do not think the funding of that 
Clean Air Partnership Fund should be in lieu of funding State 
and local air grants. We think it should be in addition to 
that.
    So let me just summarize and say level funding, we fear, is 
going to hurt our ability to provide clean and healthful air 
that the 1990 amendments to the Clean Air Act required of us. 
We would use the first $10 million to help address toxic air 
pollution, which in every one of your States is a significant 
problem.
    Thanks very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much, Mr. Becker.
    Any questions for Mr. Becker? If there are none, we thank 
you again very kindly, and this Committee will be adjourned 
until 1 o'clock. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                   AMERICAN SOCIETY FOR MICROBIOLOGY


                                WITNESS

JAMES TIEDJE
    Mr. Walsh. The Subcommittee will come to order.
    Today, this afternoon's hearings will continue with what we 
refer to as public witnesses, and our next witness is Dr. James 
Tiedje of the American Society for Microbiology. Welcome. Other 
members may or may not come as we go on. We have your 
testimony, and if you would care to summarize, that would be 
appreciated.
    Mr. Tiedje. Okay. Thank you, Mr. Chairman. My testimony is 
presented on behalf of the American Society of Microbiology, 
which is the largest life science organization in the world 
with over 42,000 members. The ASM appreciates the opportunity 
to provide the following recommendations on funding for EPA and 
NSF.
    The ASM, as a member of the Coalition for National Science 
Funding, endorses the coalition's recommendation to provide NSF 
with at least the 17.3 percent increase proposed by the 
administration for fiscal year 2001. The ASM also urges 
Congress to sustain the expansion of the NSF budget over the 
next 5 years in order to reach the agency's goal of a $10 
billion budget.
    The NSF is the premier basic science agency in the United 
States and has effectively stimulated and supported the best 
scientific talent in the country, which has led to cutting-edge 
research discoveries. The NSF budget, however, has not grown 
commensurate with its record of achievement and its broad and 
unique responsibilities to support science, mathematics, and 
engineering research.
    This year, the Administration has recognized this 
deficiency by proposing a substantial increase that will 
restore the balance among scientific fields. The NSF must 
ensure that the entire spectrum of research fields receive 
strong Federal support and that the American human resources in 
science and technology are replenished. Strong links between 
research and education are essential to a healthy research 
enterprise, an educated public, and a well-trained workforce.
    I represent the microorganisms that surround us and affect 
our lives in many ways. In fact, most of us here today will 
ingest at least a million microbes before the day is over.
    Mr. Walsh. That is a comforting thought. [Laughter.]
    Mr. Tiedje. Yes. The microbes play key roles in processing 
our waste, recycling the nutrients that support our 
agriculture, forests, fisheries, yield new pharmaceuticals, 
provide key tools for biotechnology, affect the quality of our 
food and water, control some pests, and, of course, a few of 
them cause disease.
    The NSF is to be complimented for recognizing a few years 
ago the important role microorganisms play in our well-being 
and in the opportunities for basic science advances through its 
Microbial Biology Initiative. This led to such new programs as 
the LExEN program, Microbial Observatories, and the first 
Biocomplexity Program. ASM applauds these initiatives. 
Microorganisms do represent very different types of research 
challenges and opportunities than those for higher organisms.
    For the fiscal year 2001 budget, ASM endorses NSF efforts 
to expand research in utilizing microbial genomic information, 
the expanded Biocomplexity Initiative, and stimulating work in 
microbial informatics, which will more efficiently utilize 
information from genomics, biocomplexity, and the proposed NEON 
program.
    The EPA funds important basic research activities in 
focused areas related to the Agency's mission of protecting the 
environment. Research on environmental microbiology is 
essential to maintaining air, water, and soil quality, for 
assuring the safety of water supplies, for providing safe means 
of waste disposal, and for cleanup of environmental 
contaminants. The ASM believes that sound public policy for 
environmental protection depends on adequately funded programs 
of intramural and extramural research based on a system of peer 
review.
    ASM wishes to comment on three programs: first, EPA's 
Science to Achieve Results, the STAR Program, which is a 
mission-driven program, important for basic research; also, on 
ASM's program for safe drinking water; and, finally, on EPA's 
STAR Graduate Fellowship Program, which has attracted excellent 
people to environmental research.
    So, Mr. Chairman, on behalf of the American Society for 
Microbiology, I thank you for the opportunity to testify, and I 
would be happy to answer questions now or later in writing.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. If you could just explain which microbes I take 
in that are beneficial and which aren't, I would be good for 
the day.
    Mr. Tiedje. Most that you take in are beneficial, or at 
least inconsequential, the ones that survive in water and on 
foods.
    Mr. Walsh. Thank you very much for your testimony. We will 
do our very best for the National Science Foundation. There is 
great support for NSF within this room. You are not alone.
    Mr. Tiedje. Good.
                              ----------                              

                                         Wednesday, April 12, 2000.

             AMERICAN ASSOCIATION OF ENGINEERING SOCIETIES


                                WITNESS

BASIL DOUMAS
    Mr. Walsh. Our next witness is Dr. Basil Doumas, 
representing the American Association of Engineering Societies. 
Welcome, sir.
    Mr. Doumas. Thank you. Mr. Chairman and members of the 
Subcommittee, my name is Basil Doumas, and I am testifying this 
afternoon on behalf of the American Association of Engineering 
Societies. I am pleased to appear before you today to present 
the views of AAES on the fiscal year 2001 budget request for 
the National Science Foundation.
    Federal investments in science and engineering research 
have produced vast benefits for the Nation's productivity and 
living standards. Many of the advances in the information 
technology and biomedical sector have their roots in NSF-
supported research. While a relatively small agency, the 
National Science Foundation has a disproportionately large 
positive impact on the economic prosperity and quality of life 
of all Americans.
    Alan Greenspan, Chairman of the Federal Reserve, recently 
recognized this when he commented that, ``Something special has 
happened to the American economy in recent years . . . a 
remarkable run of economic growth that appears to have its 
roots in ongoing advances in technology.''
    The remarkable economic run that Mr. Greenspan attributes 
to technological innovation has led directly to increased 
revenue for the Federal Government in the form of increased 
income and payroll taxes. This has allowed for budget surpluses 
that were unimaginable just 5 years ago. These budget surpluses 
have given Congress the ability to pay down the publicly held 
debt and debate initiatives such as a prescription drug benefit 
in Medicare.
    Without investments in basic research 10, 15, 20 years ago, 
today's surplus would still be a fantasy. Not only has NSF had 
a positive impact on the economic welfare of the Nation, but it 
has had a positive impact on the quality of life of all 
Americans. Innovations such as Dopplar radar, magnetic 
resonance imaging, and the Internet have all greatly improved 
the quality of life of all Americans. All of those innovations 
had the support of NSF.
    Mr. Chairman, AAES supports the administration's fiscal 
year 2001 request of $4.57 billion for NSF, a 17 percent 
increase over fiscal year 2000. We particularly support the 
$3.5 billion request for the research activities of NSF, a 19 
percent increase over last year's appropriated level. The 
proposed increases for NSF are reasonable and would be an 
important first step in bringing NSF and NIH into parity. NSF 
is responsible for strengthening and advancing science and 
engineer research and education across all disciplines. It has 
been recognized as a model for other Federal agencies in its 
support for merit-based, peer-reviewed grants.
    In addition to the research activities, NSF also plays a 
major role in developing the science and engineering workforce 
for the future and helping to educate the public about science 
and technology. These are critical activities if our Nation is 
to continue to generate the discoveries that improve our lives, 
produce the world's best scientists and engineers, and prepare 
our citizens to participate fully in a technological society.
    NSF grants not only support the researcher of today, but 
they allow the researcher of tomorrow to continue pursuing his 
or her education. Without this support, our universities would 
lose their positions as the world's premier research 
institutions.
    Thank you for this opportunity. I would be happy to answer 
any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you, sir, for your very brief but thorough 
support of the request for the National Science Foundation. You 
will be happy to know, I think, we just earlier in the day met 
with Alfred Berkley, who is the President of the NASDAQ market, 
and he expressed very strongly the desire of his organization 
and many of the member companies, including the leading 
technology companies in the country, who are saying exactly the 
same thing that the scientists are saying. So that is a very 
clear message coming out on the need to invest in science.
    Mr. Doumas. Thank you very much.
    Mr. Walsh. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                  AMERICAN ANTHROPOLOGICAL ASSOCIATION


                                WITNESS

MARY MARGARET OVERBEY
    Mr. Walsh. Our next witness is Dr. Mary Margaret Overbey, 
representing the American Anthropological Association. Welcome.
    Ms. Overbey. Thank you. Nice to meet you.
    Mr. Walsh. Nice to meet you, too.
    Ms. Overbey. Mr. Chairman, we want to request $4.572 
billion for NSF in fiscal year 2001. That is a 17.3 percent 
increase over last year.
    We also want to thank you, Mr. Chairman, and members of the 
Committee for your past strong support for NSF. We are 
particularly pleased to support NSF's proposed increase in 
funds to strengthen core disciplinary research. It is within 
the disciplines that most of the advances and new discoveries 
are being made. And as we will see, there are some new 
discoveries in anthropology that have resulted from NSF 
funding. We also support NSF's proposed initiatives.
    I just want to present briefly four examples of 
anthropological research funded by NSF.
    Just last month, the discovery of the smallest primate ever 
found, live or extinct, and the earliest known ancestor of 
monkeys, apes, and humans in China made front-page news across 
the country. NSF supported the research of Christopher Beard 
and his colleagues that led to these finds. The extraordinary 
findings are essentially two: firstly, following on an earlier 
discovery of jaw and teeth bones of a new species called 
Eosimias, Beard and his colleagues found the associated foot 
and ankle bones that clearly indicate that the Eosimias was an 
early higher primate, an anthropoid. Unlike lower primates like 
lemurs and tarsiers that hang from trees and swing from branch 
to branch, Eosimias was quadrupedal and able to walk on all 
fours along tree branches.
    Importantly, the fossils of Eosimias are dated to 45 
million years ago. That is two-thirds of the way back to the 
dinosaurs and much earlier a date for higher primates than has 
ever been thought of before.
    The other thing, Eosimias is very small, only three ounces, 
so about the size of a shrew that you could hold in your hand.
    Secondly, Beard and his colleagues discovered fossil foot 
bones from two even smaller primates that coexisted with 
Eosimias. The smallest of these only weigh one-third of an 
ounce, making it the smallest primate ever found, alive or 
extinct. The other was only half an ounce.
    NSF funding was also central to the research of Tim White 
and his colleagues in Ethiopia where they found a new hominid 
species Australopithecus garhi. This species of 
Australopithecus dates to 2.5 million years ago, and, 
importantly, a yard away from the hominid remains, they found 
butchered bones of antelope and large animals. And it was clear 
from the marks on the bones and the broken ends of the bones 
that stone tools were made to scrape the meat off the bones and 
also extract the marrow from the bones. And the marrow is a 
good source of protein.
    An example of research a little closer to home and time is 
Michael Paolisso and his associates at the University of 
Maryland who are studying the views of fishermen, watermen, 
environmentalists, developers, and policymakers on the 
Chesapeake, both the environment of the Chesapeake and the 
pollution of the Chesapeake. What they are doing is looking at 
identifying the cultural beliefs and values of these different 
groups of people about the Chesapeake. Although this project is 
ongoing right now, they already have some findings that they 
are reporting, and they have found that each of these groups, 
even though they are kind of cast as having different 
perspectives on the Chesapeake, sees themselves as protecting 
the environment. He has found that actually farmers and 
environmentalists, who see themselves as on opposite sides of 
the fence on the Chesapeake, have similar values and views on 
protecting the Chesapeake. So, therefore, they are natural 
allies, although they don't even recognize it.
    So what Paolisso and his colleagues are doing is trying to 
identify common concerns in order to build consensus among 
these different groups on how to deal with the Chesapeake.
    Finally, I would like to mention the forward-looking work 
of Mark Aldenderfer, an archaeologist. He is trying to develop 
new means of doing archaeology to make it more technologically 
advanced. Archaeology is still being done by paperwork. There 
is a lot of survey and even excavation that is recorded by 
paperwork. What he is doing is digitalizing this so that you 
are using Geographical Information Systems, pen computers, and 
digital cameras to record from the moment of the first survey 
and taking it down to the final analysis and trying to archive 
this to make this available to other researchers and the 
public.
    So, Mr. Chairman, I want to thank you for this opportunity 
and also thank you for your support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. You are welcome. Thank you for your testimony.
    Ms. Overbey. Sure.
                              ----------                              

                                         Wednesday, April 12, 2000.

  AMERICAN CHEMICAL SOCIETY, AMERICAN MATHEMATICAL SOCIETY, AMERICAN 
 PHYSICAL SOCIETY & FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL 
                                BIOLOGY


                               WITNESSES

DARYLE H. BUSCH, PRESIDENT, AMERICAN CHEMICAL SOCIETY
DAVID G. KAUFMAN, PRESIDENT, FEDERATION OF AMERICAN SOCIETIES FOR 
    EXPERIMENTAL BIOLOGY
ROBERT C. RICHARDSON, CHAIRMAN, PHYSICS POLICY COMMITTEE, AMERICAN 
    PHYSICAL SOCIETY
FELIX BROWDER, PRESIDENT, AMERICAN MATHEMATICAL SOCIETY
    Mr. Walsh. We have a group of witnesses coming together, 
and they include Dr. Daryle H. Busch, Dr. David Kaufman, Dr. 
Felix Browder, and Dr. Robert C. Richardson. Gentlemen, please 
come forward.
    Our understanding is that you will have 12 minutes to 
explain the laws of physics to us. [Laughter.]
    Mr. Busch. That is right.
    Mr. Walsh. Welcome.
    Mr. Busch. Mr. Chairman, thank you for granting us this 
opportunity to testify.
    Mr. Walsh. You are more than welcome.
    Mr. Busch. I am Daryle Busch, president of the American 
Chemical Society and Roy A. Roberts Professor of Chemistry at 
the University of Kansas.
    I would like to introduce the three distinguished 
colleagues who are joining me today. To my immediate right is 
Dr. David G. Kaufman, President of the Federation of American 
Societies for Experimental Biology, Professor of pathology and 
laboratory medicine at the University of North Carolina. Seated 
next to him is Dr. Robert C. Richardson, Chairman of the 
Physics Policy Committee of the American Physical Society, 
Vice-provost for research and F.R. Newman Professor of Physics 
at Cornell University, and the 1996 recipient of the Nobel 
Prize in Physics.
    Mr. Walsh. We are honored to have you, sir.
    Mr. Richardson. Thank you.
    Mr. Busch. At the far right is Dr. Felix Browder, president 
of the American Mathematical Society, university professor of 
mathematics at Rutgers University, and the recipient of the 
1999 National Medal of Science.
    Mr. Walsh. Congratulations.
    Mr. Busch. Let me begin by expressing strong appreciation 
for this Subcommittee's work to increase the funding for the 
National Science Foundation in recent years. We realize those 
decisions require the Committee to make some hard choices. We 
are confident they were wise choices.
    The basic research supported by the NSF--investing in the 
NSF produces very high returns. We have seen firsthand how NSF-
sponsored research has helped spawn numerous technologies over 
its 50-year history, including, as mentioned earlier, MRIs, 
lasers, the Internet. Moreover, economists have concluded that 
today's unprecedented growth in GDP with low unemployment and 
low inflation would have been impossible without the 
substantial investments in basic research made during the past 
decades.
    Yet despite the high return on basic research investments, 
at least 30 percent by conservative economic estimates, 
industrial leaders tell us that our Nation underinvests in 
fundamental science. These same leaders say that American 
industry, competing in the global marketplace, cannot make the 
necessary commitments to long-term research. They say that must 
be primarily a public responsibility. And we concur. Without 
it, as former Presidential Science Advisor Dr. Allan Bromley 
noted in a Washington Post op-ed, the economy of tomorrow will 
falter and the projected Federal surplus will cease to 
materialize.
    This year, Congress has an extraordinary opportunity to 
address our underinvestment in basic research. Our economy is 
strong. Federal revenues remain high. We have begun to pay down 
the national debt. We believe the $4.5 billion request for NSF, 
a 17 percent increase over current levels, is long overdue, and 
we strongly urge the Subcommittee to support such an increase.
    We also believe that this year's budget should be a down 
payment on a 5-year growth plan that would double NSF funding 
by 2005.
    That basic research generates new knowledge that underlies 
technological advances in the private sector. It helps train 
the next generation of scientists, engineers, and 
mathematicians, and it provides the foundation for R&D programs 
of key mission agencies, like NIH, DOE, NASA, and DOD. Finally, 
although NSF accounts for only 4 percent of the total Federal 
R&D budget, the Foundation is the prime source of funding for 
non-medical basic research at colleges and universities.
    I could extol the virtues of NSF much longer, but I know 
that my colleagues have their own thoughts to add. Let me turn 
the microphone over to Dr. David Kaufman.
    Mr. Kaufman. Thank you, Daryle.
    Mr. Chairman, Representative Price, it is a great time to 
be a scientist. New tools and technologies have enabled us to 
perform research more rapidly and more effectively than ever 
before. There have been startling and revolutionary discoveries 
occurring at an ever-accelerating rate. Electronic 
communications enable us to work with colleagues halfway around 
the world as if they were next door. Where would we be in a 
global economy or in science without the World Wide Web, which 
is the creation of physicists and mathematicians and engineers?
    This leads directly to one of our primary points--the 
interdependence of the sciences. This is one of the reasons why 
the four of us sit here together. Discoveries in physics affect 
biology; breakthroughs in materials research profoundly affect 
medicine; new mathematical approaches facilitate all the 
sciences and engineering; and advances in biology contribute to 
chemistry and physics. Engineering and computer science provide 
critical tools which all of us depend on in our laboratories. 
We are all in this wonderful enterprise together.
    As a biologist, I stand firmly behind the goal of broad 
funding of these disciplines. I believe that we will only 
realize progress in biological research if there is a steady 
flow of new insights from these other fields. Medicine has 
always drawn on research in other fields, but its reliance on 
them is greater than ever.
    I will expand with just one example: magnetic resonance 
imaging, or MRI. I am a practicing physician as well as a 
researcher. I regard MRI as one of the most important medical 
advances of our time. This diagnostic tool came from physics 
and from chemistry and from computer science and mathematics. 
Such non-invasive techniques enable physicians to make precise 
diagnoses of tumors and other conditions without performing 
costly and life-threatening, potentially life-threatening 
operations. Today, researchers are utilizing similar 
technologies, working on powerful imaging tools that will help 
us unlock the secrets of the brain.
    Let me conclude with my observations. First, NSF is the 
only Federal agency whose sole mandate is to support basic 
research and science education across all disciplines. Second, 
the structure of NSF fosters interdisciplinary research. And, 
third, NSF spans the intersections of fields where much of the 
most exciting research gets done.
    Now I will turn it over to Bob Richardson to continue the 
testimony.
    Mr. Richardson. Thank you, Dave.
    Mr. Chairman, Mr. Price, thank you for the opportunity to 
appear before you today in support of the National Science 
Foundation's fiscal year 2001 budget. As my colleagues have 
stated, and as the Federal Reserve Chairman Alan Greenspan has 
noted on several occasions recently, and as also referred to in 
other testimony today, technology has been the prime driver of 
the Nation's economy during the extraordinary growth of the 
1990s. Whether we will be able to sustain the momentum in the 
new millennium depends upon the wisdom we bring to our science 
investments today.
    In submitting his budget request to Congress in February, 
as Daryle noted, President Clinton highlighted the NSF's 
premier science research and education record with his call for 
an increase of nearly 20 percent in this 50th anniversary year. 
His request also calls for balancing the increase between 
focused research initiatives in nanoscience, information 
technology, biocomplexity, and science education, on the one 
hand, and core programs in research in the traditional 
disciplines, on the other. We urge you to adopt a similar 
approach in your subcommittee markup.
    Science has come a long way since 1950, when the NSF began 
its work. The boundaries between the traditional disciplines 
have become increasingly blurred, and the advances in the 
different disciplines have become increasingly interdependent. 
The scientific frontier no longer seems to fit conveniently 
into one discipline or another. For this reason, we strongly 
support initiatives that cut across disciplines, such as those 
identified this year in the NSF budget.
    There is little doubt that nanoscience is going to be 
critical for us to be able to continue the road map the 
electronics industry laid out called Moore's Law, the plan that 
has been successful over the past 25 years of doubling computer 
power roughly every 2 years. And nanoscience is central to 
being able to make even smaller elements continue on that path.
    Similarly, information technology is the clear promoter of 
today's economy and will be at the cutting edge of research in 
decades to come. So, too, will our study of complex systems. 
And as our Nation becomes ever more reliant on science and 
technology, we must hone our teaching methods in our schools 
and universities, the workforce for the 21st century. 
Therefore, we strongly support the thrust of the initiatives 
identified in the request.
    Still, we note that today's science frontier will be 
tomorrow's science establishment. There will always be a new 
frontier, but we do not know where it will be. Therefore, we 
strongly support the NSF's request for corresponding increases 
in the research programs in the core disciplines. Only by 
maintaining a wide base of scientific knowledge can we prepared 
ourselves to tackle the new frontiers, wherever they may 
appear.
    Balancing clearly identifiable near-term goals with less 
discernible but no less important long-term needs is a delicate 
task. Still, we believe that this Committee has the ability to 
do just that. Mr. Chairman, we hope that our testimony today 
provides you and your Committee Members with some guidance and 
perspective from science practitioners who have joined together 
with a unified message. My colleague Dr. Felix Browder will 
conclude our joint testimony.
    Mr. Browder. Thank you very much, Bob.
    Mr. Chairman, Mr. Price, as my colleagues have stressed, 
our Nation benefits tremendously from research supported by the 
National Science Foundation. Fundamental knowledge gained from 
this research often forms the basis for the development of new 
technologies: in medicine, the environment, telecommunications, 
defense, and agriculture, to name just a few areas. I will cite 
several interesting examples.
    Let us look at medicine first. The NSF currently supports 
researchers who are developing methods that will facilitate 
real-time magnetic resonance imaging data processing so that 
three-dimensional brain images can be produced in minutes. 
Currently, because of the massive amounts of data generated 
from MRI brain scans, hours, even days, are needed to process 
this data.
    Another NSF-supported research group has developed a method 
to detect precancerous cells. This method, based on fluorescent 
spectroscopy, applied in clinical trials, has drastically 
improved efficacy in detection of early stage cervical cancer 
as compared to existing methods.
    In the environmental area, discovering cheaper and more 
benign solvents to replace toxic volatile organic solvents for 
polymer synthesis is a critical problem. NSF-supported research 
has led to an environmentally benign method of polymer 
synthesis. Using liquid carbon dioxide, several chemical 
companies are now supporting the development of products for 
commercial use based on this research.
    As a mathematician, I would be remiss if I didn't point out 
that scientific discoveries often depend on complex 
mathematical modeling and computational algorithms. NSF 
supports research in mathematics that is related to many 
scientific problem areas. As a very important example, enormous 
data sets are being generated in all areas of science--
physical, engineering, and biological--and must be analyzed.
    This poses difficult mathematical problems since all data 
sets do not have similar characteristics, nor are they used 
always in the same way. Data sets needing real-time analysis as 
in the control of aircraft pose an even more difficult 
mathematical challenge.
    These are just a few of the areas where NSF-supported 
research is making significant contributions to our society. 
Let me conclude with a few other observations about the nature 
of NSF's operation.
    The NSF is widely regarded as a sound steward of the 
taxpayers' investment. The NSF is one of the most efficient of 
all Federal agencies, by almost any measure. It spends only 
about 5 percent of its budget on administration and management. 
Moreover, NSF awards funds to researchers only after a rigorous 
merit-review process using expert peers. Although NSF funds 
about 20,000 grants in any given year, it is forced to turn 
down approximately two-thirds of all new proposals each year.
    Not only will increased funding allow NSF to fund more 
outstanding proposals, it will allow NSF to increase the size 
and duration of its grants--a longstanding goal of the 
Foundation--without limiting the number of new grants. Reducing 
the time researchers spend writing proposals will free up more 
time for research and increase the overall return per dollar 
invested. Longer grants should also encourage more high-risk 
and potentially high-payoff research.
    Mr. Chairman, it is hard to overstate how central NSF is to 
basic scientific, engineering, and mathematical discoveries. 
NSF provides the cornerstone of new knowledge across scientific 
disciplines. As such, it plays a key role in maintaining the 
Nation's scientific and economic leadership. Put most simply, 
NSF is a true and superior investment in our Nation's future. 
Thank you for your attention to myself and all my colleagues.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you all very much for this unique 
interdisciplinary presentation. We are already witnessing the 
benefits of it. You saved us 2 minutes. [Laughter.]
    Mr. Walsh. Mr. Price, do you have any questions?
    Mr. Price. Let me just express my appreciation. I am struck 
by your figure. Dr. Busch quoted that the NSF accounts for only 
4 percent of the total Federal R&D budget, but yet is the prime 
source of funding for non-medical basic research at colleges 
and universities.
    Mr. Busch. Yes.
    Mr. Price. That is a striking figure, and I think it 
underscores the importance of this committee's decision about 
funding these NSF accounts. I appreciate this joint 
presentation. It is very convincing, and we will do our best.
    Mr. Walsh. Thank you all.
    Mr. Busch. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     AMERICAN PSYCHOLOGICAL SOCIETY


                                WITNESS

ALAN G. KRAUT, PH.D., EXECUTIVE DIRECTOR
    Mr. Walsh. Our next witness is Dr. Alan Kraut, representing 
the American Psychological Society. Welcome.
    Mr. Kraut. I want to thank you for this opportunity to 
testify on NSF today, particularly on behalf of its basic 
behavioral and social science research programs. Our 
recommendations are detailed in my testimony. I am just going 
to summarize.
    I want to add my voice to the others. As a member of the 
Coalition for National Science Funding, the American 
Psychological Society asks the Committee to appropriate the 
full budget proposal of $4.572 billion for the National Science 
Foundation. As you know, the budget bill that passed the House 
included a substantial increase in function 250 for science, 
and it contains exceptionally strong statements about the value 
of NSF and basic research. We hope you will be guided by this 
as you set NSF appropriations.
    Within NSF, we recommend full funding for the social, 
behavioral, and economic sciences directorate. We are extremely 
encouraged by this $20 million proposed increase. The Committee 
has a history of strong support for behavioral and social 
science research at NSF dating back to the establishment of a 
separate directorate for these sciences and to the 
establishment and funding of NSF's human capital initiative.
    The current request would give a much needed boost to 
behavioral science research in a number of exciting areas, and 
I assure you that the field is more than ready to absorb it. 
Almost $14 million of this increase is for behavioral and 
cognitive sciences. This will fund an important cognitive 
neuroscience initiative aimed at understand the human capacity 
for thought, language, and learning. And it will provide the 
underpinnings for applications as diverse as teaching children 
to read or developing a computer that can talk.
    Understanding how children and adults learn, how social and 
physical environments interact with learning, how motivation 
and personal experience guide the capacity to learn, and how to 
best prepare our citizens for the future workplace require the 
kind of solid foundation in behavioral and cognitive sciences 
that this increase will support.
    We also believe that NSF's behavioral and social science 
research program must include increased support for young 
investigators. We ask that you encourage NSF to develop a 
program of small grants similar to what several NIH institutes 
are using to increase the supply of young investigators there.
    Finally, we applaud NSF's leadership in making public 
understanding of science one of its priorities. It is a goal we 
share. In fact, the American Psychological Society will launch 
a new publication this year called ``Psychological Science in 
the Public Interest,'' and its aim is to provide objective 
scientific information about questions that many in the public 
are asking these days. Does classroom size really matter? Do 
herbal remedies improve memory or intelligence? Does SAT 
coaching work? Do popular psychological tests, such as the 
well-known Rorschach or the MMPI, actually tell us anything?
    To ensure that these reports will reach the widest possible 
audience, we are working with Scientific American and other 
periodicals to develop articles for the magazines that will be 
based on the studies first published in ``Psychological Science 
in the Public Interest.''
    We believe NSF's public education efforts would be enhanced 
by focusing on examples from behavioral and social science 
research. These sciences have unique potential to increase 
science literacy because of their intrinsic relevance to 
everyday life. So, in addition to promoting an important 
understanding of questions of physics and math, NSF could also 
be promoting an understanding of how science takes place by 
using examples of how we study memory or how surveys work. We 
ask you to encourage NSF to use this approach.
    As I noted earlier, this Committee has made an enormous 
difference in the vitality of our Nation's basic behavioral 
science research activities. You deserve much of the credit for 
enabling the explosion of new knowledge and discoveries in 
these areas. We are grateful for your continued support, and we 
ask that you fully fund NSF's budget to sustain this momentum.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your testimony, and thank you for 
the important contribution that you make to the human species. 
I think that what we do, the work that we do with the mind and 
our abilities, our psychological, philosophical capacities is 
profoundly important.
    Mr. Kraut. Thank you.
    Mr. Walsh. With technology improving the quality of life, 
those who are going to benefit need to be able to have a 
quality of life that can't be induced by technology.
    Mr. Kraut. Yes, I agree. I want you to know, back in your 
own neck of the woods, Syracuse University has one of the most 
prominent psychology programs in the country on just this kind 
of issue.
    Mr. Walsh. I am sure the Chancellor is proud to hear that.
    Thank you very much. Any other questions of the witness? 
Mr. Price?
    Mr. Price. No, but I do appreciate your testimony.
    Mrs. Meek. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                AMERICAN SOCIETY OF PLANT PHYSIOLOGISTS


                                WITNESS

JAMES SIEDOW, CHAIR, COMMITTEE ON PUBLIC AFFAIRS
    Mr. Walsh. Our next witness is Dr. James Siedow, and Mr. 
Siedow is representing the American Society of Plant 
Physiologists.
    Mr. Siedow. Mr. Chairman, Mr. Price, Mrs. Meek, thank you 
very much. My name is James Siedow. I am a professor of biology 
at Duke University, and I thank you for the opportunity to 
present this testimony on behalf of the American Society of 
Plant Physiologists, which I have served as president and now 
serve as Chair of its Committee on Public Affairs.
    Basic plant research supported by the National Science 
Foundation has led to many benefits for all Americans. In all 
major sectors of the U.S. economy, including food, energy, 
clothing, housing, recreation, and health, plants and plant 
products represent a primary component. For example, plants are 
the first step in every food chain. Increased knowledge of 
plants made possible through basic research has helped give 
Americans the best and most affordable food supply in the 
world. Savings on food is particularly valuable to lower- and 
moderate-income Americans who benefit from the investment in 
basic plant research made by this Committee. Our neighbors in 
Europe must pay grocery bills that are 50 percent more of their 
disposable income than families pay here, and in developing 
nations such as India, the average consumer spends nearly 5 
times more than we do for food.
    As you know, questions have been raised recently as to what 
the U.S. is doing to reduce its dependence on foreign oil. In 
your support of basic plant research, members of this Committee 
are addressing this problem. We see plant research bringing 
continued efficiencies to the production of biofuels.
    A Department of Energy official has testified in the Senate 
that biofuels provide our best check against the next world oil 
price shock. Knowledge of plant genomes and related plant 
genetic research can help make domestically produced biofuels 
directly competitive in price with petroleum. Increased use of 
more efficiently produced plant-based biofuels will also reduce 
the net emission of greenhouse gases into the atmosphere.
    In addition, our increased knowledge of plants is leading 
to production on American farmers of high-value, plant-based 
compounds that are superior to comparable petroleum-based 
products.
    The support of this Committee for both genomic and non-
genomic plant research supported by the NSF helps plant 
scientists make the basic research breakthroughs needed to 
address the enormous nutrition, energy, and health needs of 
this Nation and the world.
    On the issue of genetic modification of foods, there are 
activists who take positions that come across sounding anti-
biotechnology or anti-globalist or anti-corporation or, in the 
case of foreign protectionism, anti-American farmer. This 
collection of interest has raised a number of scientifically 
questionable claims against the products of food biotechnology. 
However, we are not aware of any peer-reviewed research article 
or confirmed instance of injury that substantiates there being 
a problem with genetically modified foods. Instead, we hear 
conjecture and the use of terms like ``Frankenfoods'' that are 
clearly designed to scare the layman.
    On April 5th, the National Research Council of the National 
Academy of Sciences issued a report on genetically modified 
pest-protected plants. The Committee that wrote the report 
emphasized it was not aware of any evidence suggesting foods on 
the market today are unsafe to eat as a result of genetic 
modification. NSF Director Rita Colwell responded to a question 
regarding genetically modified foods at this Committee's 
hearing on April 4th. As Dr. Colwell explained, genetic 
modification of foods has gone on for many years using 
traditional breeding. Biotechnology simply gives us a more 
precise and effective method of genetically modified foods to 
produce desirable traits.
    Recently, I coauthored a peer-reviewed issue paper, 
``Applications of Biotechnology to Crops: Benefits and Risks,'' 
with Gabrielle Persley of the World Bank at the request of the 
Council for Agricultural Science and Technology, a nonprofit 
organization of 38 science societies and related organizations. 
I also conduct research using tools of modern plant 
biotechnology. I personally find the biased terminology and 
misleading claims used by anti-biotechnology groups unfortunate 
for Americans and for the hundreds of millions of 
undernourished people worldwide for whom plant biotechnology 
offers the promise of safer, more nutritious, and more abundant 
foods.
    Thank you, Mr. Chairman, for the opportunity to address the 
Committee. We deeply appreciate the strong commitment of the 
Committee to research sponsored by the National Science 
Foundation.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your testimony. As someone who 
distributed wharf wheat, corn, and rice varieties around Asia 
in the early 1970s as a Peace Corps volunteer, I agree with 
you.
    Mr. Siedow. Thank you very much.
    Mr. Walsh. Mr. Price, Mrs. Meek, any questions or comments?
    Mr. Price. Thank you for being here. I appreciate you as an 
academic leader in my district and at Duke University and also 
this national role that you have assumed. We particularly 
appreciate your words on this research area, which does have 
some controversy attached to it and is much in need of public 
enlightenment.
    Mr. Siedow. Thank you, Congressman Price. We miss you at 
Duke, but we know you are doing a great job up here.
    Mrs. Meek. Welcome, Mr. Siedow.
    Mr. Siedow. Thank you.
    Mr. Walsh. Thank you, sir.
                              ----------                              

                                         Wednesday, April 12, 2000.

                  ASSOCIATION OF AMERICAN UNIVERSITIES


                                WITNESS

KENNETH A. SHAW, CHANCELLOR AND PRESIDENT, SYRACUSE UNIVERSITY
    Mr. Walsh. Our next witness is an old friend, Syracuse 
University's chancellor, Kenneth Shaw, and he is representing 
the Association of American Universities.
    Welcome, Buzz.
    Mr. Shaw. Thank you, Chairman Walsh. It is my pleasure. 
Representative Price, Representative Meek.
    As was indicated, I am Kenneth Shaw. At least one of you 
knows who that is. I am chancellor and president of Syracuse 
University, and I speak on behalf of the Association of 
American Universities, which includes 61 of North America's 
most prominent research universities, and I speak also for the 
National Association of State Universities and Land Grant 
Colleges and the American Council on Education. These three 
associations combined perform the National Science Foundation-
funded research and education projects that occur.
    I will also talk briefly about the important role that NASA 
plays in supporting academic research, and I will talk briefly, 
one, because I took seriously the discussion about microbes and 
I would like to get out and breathe some of that good bus air 
and get back to good health, but also I will talk briefly 
because I know that I am talking to the Committee and they are 
knowledgeable and I don't need to repeat some of the things 
that have been said already.
    While policymakers might disagree over precisely the right 
mix of fiscal and monetary policy to ensure a continuation of 
this prosperity, many now recognize that continued investment 
in basic scientific research and in the people who do this 
research is essential. Basic research in each field of science 
expands the knowledge base and increasingly creates new 
opportunities and raises new questions that require 
interdisciplinary research. So a thriving research base in many 
scientific disciplines is important to the vitality of them 
all.
    Research advances in the physical sciences, in mathematics, 
and engineering are increasingly interdependent, and you heard 
that from the four scientists that preceded me how 
interdependent all this is. And there is also a growing 
interdependence between these disciplines and biological and 
medical sciences. Medical technologies, as you have heard, such 
as magnetic resonance imagery, ultrasound, genomic mapping, 
could not have occurred without underlying knowledge in 
biology, physics, mathematics, chemistry, and engineering. That 
is the core.
    Clearly, significant medical advances in our lifetime will 
depend on advances in other sciences, and for these reasons and 
more, the academic and scientific community enthusiastically 
supports the administration's fiscal year 2001 request for NSF.
    As you have also heard today, NSF runs a lean shop with 
about 95 percent of its budget actually going for projects, and 
it plays a crucial role for those of us in higher education as 
it accounts for approximately 20 percent of all the Federal 
support that we receive for basic research at our academic 
institutions.
    You have also heard that thousands of research projects are 
funded each year to more than 2,000 colleges and universities 
and other research and/or educational organizations in all 
parts of the United States.
    At Syracuse, NSF funding has supported the development of a 
new laser technique for studying molecular bonding and 
vibration. The technique has given rise to a commercial 
instrument used to determine the purity of complex 
pharmaceutical compounds, thereby ensuring the public safety, 
and each of us can give those kinds of examples. And these 
projects and many, many others at research universities across 
the country add great value not only to our country and its 
economic development and quality of life, but value to our 
teaching and learning mission.
    The NSF and other supporting organizations have helped to 
make the U.S. system of higher education all the great public 
and private institutions we sometimes take for granted the 
finest in the world.
    Let me make a quick comment about NASA. For the first time 
in a number of years, NASA's budget request reflects an 
increase. We are happy with this. We applaud this recognition 
of NASA's contribution to science and society and urge that 
increases be fully funded at the level recommended.
    Thank you again, Mr. Chairman, for your hospitality for 
allowing me to speak to you, and I would be happy to answer any 
questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much, for testimony and your 
advocacy for the Association and for the National Science 
Foundation and NASA. As you commented on, you are speaking to a 
Subcommittee committed to the sciences and research.
    Mr. Shaw. That is true.
    Mr. Walsh. And we are working through our budget as we 
speak. Hopefully things are improving as we speak. But I would 
also like to thank you for the wonderful leadership that you 
provide to our hometown university and to our community. There 
doesn't seem to be any line between the university and the 
community as there are in so many, and it is the leadership 
that you have provided, reaching out to the business community 
through the academic community that has made it a better 
hometown for all of us. So thank you for that.
    Mr. Shaw. Very nice of you to say, and I have to respond in 
kind because, frankly, the leadership you have shown in the 
community has really made a difference, and it has made my job 
that much easier.
    Mr. Walsh. Thank you.
    Mrs. Meek, do you have any comments or questions?
    Mrs. Meek. Thank you for coming.
    Mr. Walsh. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

  AUDUBON BIOMEDICAL SCIENCE AND TECHNOLOGY PARK, COLUMBIA UNIVERSITY 
                        HEALTH SCIENCES DIVISION


                                WITNESS

MITCH GIPSON, EXECUTIVE DIRECTOR
    Mr. Walsh. Our next witness is Mr. Mitch Gipson, Columbia 
University Health Sciences Division. Welcome.
    Mr. Gipson. Thank you, Chairman Walsh, for the opportunity 
to present public witness testimony on behalf of Columbia 
University's Audubon Biomedical Science and Technology Park to 
the Subcommittee. I am Mitch Gipson, executive director of 
Audubon, and I appreciate the opportunity to appear before you 
today.
    This Subcommittee has supported Audubon in the past, and I 
would like to update you on the progress we have made to date 
and to discuss our fiscal year 2001 request.
    Columbia University is developing one of the first 
scientific research parks dedicated to biomedical research and 
the development of a new biotechnology industry. The Audubon 
Biomedical Science and Technology Park, located on the Health 
Sciences Campus of Columbia Presbyterian Medical Center in New 
York City, is the first research park in New York City and one 
of the few in the Nation devoted specifically to housing both 
academic and commercial applications such as pioneering new 
medical technologies, pharmaceuticals, and diagnostics.
    Development of Audubon Park is supported by a partnership 
among Columbia University, New York City, New York State, and 
the Federal Government. The past support of this Subcommittee 
has been critical in assuring the success of Audubon.
    Audubon houses New York City's only biotechnology business 
incubator, the Mary Woodward Lasker Research Facility, which is 
home to 15 companies. It also houses the Russ Berrie Medical 
Sciences Division which houses research programs in genetics, 
cancer, diabetes, and other disciplines.
    The Audubon Research Park is a vital economic development 
engine for New York City. Located in an economically distressed 
area of Manhattan, it has been a major factor in developing new 
jobs and stimulating business development in Washington Heights 
and Harlem. Continued development is essential for stimulating 
the biotechnology industry in New York. The commercial 
biotechnology incubator has jobs for 250 people employed by the 
biotech companies and in the retail businesses surrounding the 
facility. The majority of these employees are New York City 
residents. Many are from the community.
    The second facility will employ approximately 400 people. 
The entire project will create about 2,500 jobs. Anticipated 
jobs include positions such as retail workers, clerical and 
administrative staff, technical assistants, laboratory 
researchers, and scientists.
    Audubon will provide a center for enabling American 
biomedical science to generate new business in advanced 
pharmaceutical and medical technologies, two cornerstones upon 
which the American economy can hold its own and grow in an 
increasingly competitive international business setting.
    By helping to build the research and development base that 
provides a scientific and technological foundation for American 
business, Audubon will create new American jobs. In addition to 
this important economic stimulus, the health benefits from new 
discoveries in the park will flow directly to the surrounding 
community, which is characterized by high rates of illness 
associated with poverty, inadequate health care, and urban 
distress.
    As your Subcommittee works to establish its funding 
priorities for fiscal year 2001, I respectfully request that $5 
million be dedicated from the Department of Housing and Urban 
Development's Economic Development Initiative for Audubon.
    In addition to seeking Federal support for this initiative, 
Columbia is also pursuing private foundation and corporate 
support. The estimated cost of the Audubon project is 
approximately $300 million. To date, $112 million in non-
Federal support has been received, including funds from the 
State of New York, private gifts, and Columbia's own resources.
    Thank you again, Chairman Walsh, for the opportunity to 
appear before you today. I would be happy to answer any 
questions you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you, Mr. Gipson.
    Any questions or comments? Mrs. Meek.
    Mrs. Meek. I would like to know, Doctor, something about 
the diversity at your technology park.
    Mr. Gipson. We get most of our employees from New York 
City, and the people who work in the building basically reflect 
what you see on the streets of New York City. You would not see 
any significant difference.
    Mrs. Meek. Yes. Did the Subcommittee fund you last year?
    Mr. Gipson. Yes, I believe so.
    Mrs. Meek. What amount?
    Mr. Gipson. I am sorry, fiscal year 1999, $1.4 million.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Sununu, any questions?
    Mr. Sununu. No. Thank you.
    Mr. Walsh. Thank you, sir.
    Mr. Gipson. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     COMPUTING RESEARCH ASSOCIATION


                                WITNESS

DANIEL A. REED, PROFESSOR AND CHAIR, DEPARTMENT OF COMPUTER SCIENCE, 
    UNIVERSITY OF ILLINOIS
    Mr. Walsh. Mr. Sununu will now take the chair, and I thank 
him very much for doing that. Our next witness is Daniel Reed 
of the Computing Research Association.
    Mr. Sununu [presiding]. Welcome, Mr. Reed. I am pleased to 
recognize you.
    Mr. Reed. Thank you, Mr. Chairman, Mrs. Meek.
    Thank you very much for granting me this opportunity to 
comment on fiscal year 2001 appropriations for the National 
Science Foundation. I am Dan Reed, Director of the National 
Computational Science Alliance, which is one of two NSF 
partnerships for advanced computational infrastructure. I am 
also Chair of the Department of Computer Science at the 
University of Illinois, Urbana-Champaign. I am also a member of 
the Board of Directors of Computing Research Association, on 
whose behalf I am testifying today. CRA is an alliance of about 
180 academic, industrial, and other organizations involved in 
computing research.
    I would like to begin by thanking you and members of the 
Subcommittee for your strong support for the National Science 
Foundation over the years, especially for the high level of 
appropriations provided last year in the fiscal year 2000 
spending bill. We urge you to again fully support the NSF's 
budget request in fiscal year 2001. We believe it is critically 
important to fully fund this budget because it includes 
significant new funding for core disciplinary research in 
addition to support for focused research initiatives.
    As you know, the NSF is requesting second-year funding for 
the information technology research initiative. This supports 
IT research, applications, infrastructure, and education, 
including continued acquisition of the terra scale computing 
systems used by the academic research community.
    Let me provide a brief status report on the ITR initiative 
to illustrate the enormous potential of this program.
    In its first year, the $90 million to be spent by the ITR 
supported two competitions: one for individual investigator 
grants, one for larger research grants. In the competition for 
smaller grants, the NSF received about 2,400 pre-proposals, of 
which about 1,300 were developed into full proposals and are 
competing for only 130 awards.
    In the large grants category, the NSF received more than 
900 pre-proposals totaling about $2.5 billion, but will only 
make about 35 awards totaling about $63 million. Pretty 
clearly, the information technology research community has been 
overwhelmingly positive in its response to this initiative.
    I would like to make four points about why we believe it is 
critical that the ITR initiative be funded in its second year.
    First, advances in IT have broad impact throughout many 
fields of national importance. Those range from health care and 
education, national security, as well as commerce and even 
entertainment. Few aspects of our daily lives have been 
untouched by the advances in IT, but these are made possible by 
sustained Federal investment in long-term fundamental research.
    As I am sure you also know, information technology is 
critically important to the U.S. economy. Long-term investments 
by Federal research agencies are what stimulate the advances 
that lead to new IT products and services and have even spawned 
whole new industries.
    Third, the NSF's ITR initiative will address fundamental 
challenges in IT research. Anyone who uses a computer can 
recognize the vast potential for making it better and easier to 
use. We need computer systems that are more reliable, software 
that is easier and more natural to use, not to mention being 
less expensive to develop.
    We also have to learn how to scale our networks to 
accommodate millions of new users and billions of new devices, 
while still facilitating privacy and security. Accomplishing 
these objectives will require fundamental research and 
breakthroughs, the kind that NSF supports.
    Fourth, and finally, in the spirit of what was discussed 
earlier, the NSF plays a critical role in providing networking 
and computational infrastructure for university-based research 
initiatives. At the moment, there is a huge unmet demand for 
high performance computing capability to support basic 
research. Full funding for new, more powerful terra scale 
computing systems will enable new scientific insights and 
breakthroughs.
    In conclusion, let me thank you for the Subcommittee's 
longstanding support for the NSF and again urge you to fully 
fund the NSF budget request.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Reed. In your testimony, you 
mentioned the value to consumers of having software that's less 
costly and easier to use. Don't you think there is a pretty 
significant market incentive out there for every software 
company that is trying to offer a product to achieve those 
goals?
    Mr. Reed. There certainly are market incentives to do that. 
If you look at the development they are doing and the 
technologies they are leveraging, you can trace an 
uninterrupted path back to basic research that was funded in 
the academic community 25 or even 30 years ago. So that 
pipeline of information research is what feeds those companies. 
What is important is that we keep that pipeline alive, because 
that is what will enable new breakthroughs and new products 10 
or 15 years down the road.
    Mr. Sununu. Thank you, Mr. Reed
    Any questions, Mrs. Meek?
    Mrs. Meek. No. Thank you, sir.
    Mr. Reed. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS


                                WITNESS

ALFRED BLUMSTEIN, PH.D. AND J. ERIK JONSSON PROFESSOR OF URBAN SYSTEMS 
    AND OPERATIONS RESEARCH, CARNEGIE MELLON UNIVERSITY
    Mr. Sununu. Dr. Alfred Blumstein, welcome.
    Mr. Blumstein. Thank you.
    Mr. Sununu. Good afternoon and welcome.
    Mr. Blumstein. Thank you very much, Mr. Chairman, Mrs. 
Meek.
    I am Alfred Blumstein. University Professor and J. Erik 
Jonsson Professor of Urban Systems & Operations Research at 
Carnegie Mellon. My background is in engineering, but I got 
recruited about 30 years ago to lead a task force on science 
and technology for the President's Crime Commission, and came 
to recognize that research in the social sciences is really a 
very fundamental issue and a very fundamental need for the 
nation, and that is increasingly so as technology starts 
intruding in various ways.
    I am the current President of COSSA, the Consortium of 
Social Science Organizations, which represents over 105 
professional associations, scientific societies, universities, 
research institutes concerned with the social sciences, so I 
very much appreciate both the need and the demand in that area.
    First I want to express our appreciation for the past 
support of this Committee for the social sciences and for NSF 
generally, and express our strong enthusiasm for both the 
increase in the NSF budget of 17 percent and the important 
recognition by the administration that the social sciences part 
needs a 20 percent increase. It is a reflection of the fact 
that increasingly the problems of the nation are being seen as 
societal problems and problems that social sciences can 
contribute to, so that this represents a major need, and that 
there is a high leverage, through the support of the research, 
which can only get at a piece of the problem, but through NSF 
we get at the fundamental pieces that will have much higher 
leverage in the action agencies as they increasingly take on 
the societal issues associated with this.
    One of the other activities I engage in is as Director of 
the National Consortium on Violence Research, a very important 
program that is supported by the National Science Foundation. 
It was initiated five years ago, and we have been pursuing both 
the issue of research on the problem of violence, which is 
clearly one of the areas that the nation's citizens care most 
about, but also we have created our consortium as a virtual 
consortium, involving at this point about 75 members across 40 
institutions in about 30 states to carry out this research 
program in an interdisciplinary way, in ways that just go 
beyond what can be done with one professor and three graduate 
students. And so it becomes a very important recognition of the 
directions in which social science generally is going to move 
in ways that the physical sciences have moved to deal with 
problems of scale at a national level. We think this is 
important both substantively as well as a window on the future 
for the methods of dealing with the large-scale problems that 
we have to deal with.
    I want to emphasize that COSSA is very much supportive of 
the budget proposal. I think we see enormous roles for this 
research in shaping the economy, in helping to improve the 
wisdom in our variety of social institutions, and to maintain 
the leadership of the nation, both technologically, as well as 
in the area of social science and dealing with social problems. 
We think that NSF certainly deserves the birthday present on 
its 50th anniversary, at least the increase that is being 
recommended, and we want to strongly endorse that increase. 
Thank you very much. I have submitted the testimony for the 
record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you for your testimony, doctor, and I 
would point out that you are the first to use the birthday 
argument for additional funding, but as you well know, every 
argument does help your case.
    Any questions, Mrs. Meek?
    Mrs. Meek. No, thank you, sir.
    Mr. Blumstein. Thank you. Thank you for the opportunity.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     AMERICAN GEOLOGICAL INSTITUTE


                                WITNESS

DAVID APPLEGATE, DIRECTOR OF GOVERNMENT AFFAIRS, AMERICAN GEOLOGICAL 
    INSTITUTE
    Mr. Sununu. Dr. David Applegate of the Geological 
Institute. Good afternoon, Doctor.
    Mr. Applegate. Good afternoon. Thank you for this 
opportunity to testify in support of the fiscal year 2001 
appropriations for the National Science Foundation. I will be 
coming at it from an earth science perspective.
    I am here to represent the American Geological Institute. 
We are a federation of 35 geoscientific societies, who 
represent more than 100,000 geologists, geophysicists and other 
scientists.
    I thank the Subcommittee for its leadership in expanding 
the federal investment in fundamental research with NSF in 
recent years. That leadership will be even more critical this 
year. AGI urges the Subcommittee to fully fund the $4.6 billion 
NSF budget request. This increase represents an important 
investment in the future of our nation and our planet at a time 
when we can ill afford not to make such investments.
    The NSF Geosciences Directorate is the principal source of 
federal support for academic earth scientists, who are seeking 
insight into earth processes that ultimately sustain and 
transform life on our planet. AGI urges the Subcommittee to 
fully fund this directorate's budget request of $583 million, 
and particularly the $118 million request for the Earth 
Sciences Division.
    Geoscience research plays an increasingly important role in 
an ever-growing range of scientific and societal problems, and 
federal investments in geoscience research need to keep pace. 
Global climate change, natural disasters, energy resources and 
water quality are issues that get reported daily by the news 
media and have a geoscience component to them. Natural hazards 
reduction is one example of a national priority issue in which 
geoscience research and information enhance society's ability 
to make wise policy decisions.
    In the past decade earthquakes and floods have resulted in 
tens of billions of dollars in emergency supplemental 
appropriations and considerably larger private losses. By 
improving our understanding of these events, federal 
investments in R&D and geologic hazards will be repaid many 
times over by reduced life, loss of life and property damage, 
reduced loss of tax revenues and reduced expenditure for 
federal disaster relief funds.
    The recent House Science Policy Study argued that helping 
society make better decisions, enjoy national security, 
economic growth and human health as the key rationales for 
federal investment in scientific research. The study referred 
specifically to environmental issues.
    Well-informed decision-making in this area must rest upon 
improved understanding of how the earth and its systems 
function. It is clear from the NSF budget request that 
environmental research is and will be a high priority at the 
Foundation. In that area, scientists hold the record book of 
environmental change over time, from the fossil records, to 
lake and ocean sediments, to polar and high-altitude ice cores, 
earth science research provides crucial information on the 
evolution of the earth. If we want to improve our ability to 
predict environmental change, then we must understand present 
processes within the context of frequency rates and magnitude 
of change brought on by those processes in the past.
    I also urge the Subcommittee to support the NSF major 
research equipment budget request of $17.4 million for a new 
geoscience initiative called Earthscope. Taking advantage of 
new technology and sensors and data distribution, this four-
pronged initiative will systematically survey the structure of 
the earth's crust beneath North America. The fiscal year 2001 
request includes support for the first two components, a dense 
array of digital seismometers that will be deployed in stages 
around the country, and a 4-kilometer deep bore hole through 
the San Andreas Fault, housing a variety of instruments that 
can continuously monitor the conditions within the fault zone. 
All data from this project will be available in real time to 
both scientists and students, providing a tremendous 
opportunity for both research and learning about the earth.
    Our citizens need a basic understanding of our planet in 
order to make informed decisions about the delicate balance 
between obtaining the resources we need and protecting the 
environment, and for that reason I also urge the Subcommittee 
to fully support the NSF Education and Human Resources 
Directorate, which plays a critical role in improving the 
nation's scientific literacy.
    I appreciate this opportunity to testify. I am pleased to 
answer any questions. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much, Doctor.
    How many seismometers in this array?
    Mr. Applegate. The array is going to be deployed in sort of 
a moving fashion, so we are talking in the thousands of 
devices.
    Mr. Sununu. Thousands of devices?
    Mr. Applegate. Right.
    Mr. Sununu. Whose project is this?
    Mr. Applegate. This is going to be done by a broad 
consortium of many universities, as well as working with state 
geological surveys. One of the biggest challenges first is 
going to be getting these things placed, and so it is going to 
be important to work with local government. The state surveys 
we hope are going to be----
    Mr. Sununu. What portion of the $17 million capital budget 
does that consume?
    Mr. Applegate. The $17 million, that is the first phase. 
Overall, this is going to be a 10-year project.
    Mr. Sununu. Do you know what the total cost of the project 
is?
    Mr. Applegate. Total cost is approaching $100 million over 
10 years. The other two components are going to be a plate 
boundary observatory, basically using new GPS technology, so we 
can actually see the plate deforming in California, Washington, 
Oregon, and finally using satellite data to be able to watch in 
the aftermath earthquakes, actually see where the shifts take 
place. Ultimately that will be useful in terms of determining 
where it is dangerous to have populations.
    Mr. Sununu. Is the idea of putting a bore hole in the San 
Andreas Fault novel? This has not been done before?
    Mr. Applegate. It has been done in the area with basically 
shallower bore holes, and never using the kind of horizontal 
drilling technology that has now become commonplace in 
industry, but it is not being used in academia, actually coming 
down and being able to go across the whole fault zone.
    Mr. Sununu. So it is 4 kilometers deep or 4 kilometers 
long?
    Mr. Applegate. 4 kilometers long. The depth is most of 
that.
    Mr. Sununu. Any questions, Mrs. Meek?
    Mrs. Meek. No, thank you.
    Mr. Sununu. Thank you very much.
    Mr. Applegate. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                        JACKSON STATE UNIVERSITY


                                WITNESS

FELIX OKOJIE, INTERIM VICE PRESIDENT OF RESEARCH AND DEVELOPMENT AT 
    JACKSON STATE UNIVERSITY
    Mr. Sununu. Dr. Felix Okojie of Jackson State University.
    Thank you very much. Welcome.
    Mr. Okojie. Thank you.
    Mr. Sununu. I am pleased to have you before the Committee.
    Mr. Okojie. Thank you, Mr. Chairman. Thank you, Mrs. Meek. 
My name is Felix Okojie. I am the interim Vice President for 
Research and Development and Professor of Education at Jackson 
State University. Accompanying me is Dr. Alferdteen Harrison, 
the director of Margaret Walker National Research Center.
    Let me thank the Committee for allowing us to appear before 
you today as you consider funding priorities relevant to the 
Subcommittee.
    In the few minutes that we have, I would like to highlight 
some of the accomplishments of Jackson State as well as the 
specific area that we are seeking funding for. A more detailed 
discussion of these activities has been submitted for the 
record.
    Let me first say that Jackson State, as an Historically 
Black College or University, is fully in support of NAFEO. 
NAFEO will testify right after me in terms of your fiscal year 
2001 budget request.
    Now, turning specifically to the issues of concern to 
Jackson State, I am here today to seek funding for the 
expansion of the Margaret Walker Alexander National Research 
Center for the Study of the 20th Century African American. We 
have a center that has a significant impact to the diaspora of 
African American, as well as the work that is going on in the 
area community development, particularly in this area of 
Jackson, Mississippi.
    This center currently is having some very debt issues to 
deal with, particularly in terms of the infrastructure. We have 
Margaret Walker Alexander. Walker is a nationally known poet, 
novelist, who has written works such as ``The Jubilee for My 
People'', and the Center houses most of her papers. We have a 
center that is very much attuned to the development in the 
community, and a center that lends a significant level of 
support in providing strategic direction for community 
development within the geographic area that Jackson State is 
on.
    We also have a center not having all of the resources that 
is needed to not only look at the built environment, do the 
issues of historic preservation, look at issues of providing 
technical assistance to communities, the new renovations for 
community development because of the infrastructure problems. 
We have this center that has a wealth of resources that we 
would like to share with the community as we support all of the 
funds this committee has given for community development.
    We are requesting about $3 million through the community 
developmental grant to help us support this center, 
particularly in the area of renovation and restoration, as well 
as programmatic activities for the center.
    Let me also say that the work that this center is doing 
within the context of the support and the monies that have been 
earmarked to community development block grant is very 
significant. We see this center as a catalyst and as a way to 
move our communities forward by engaging all of the people by 
bringing together all of the intellectual capital to look at 
some of the problems and issues facing our community. And this 
center serves as a catalyst and as a major resource for our 
community in meeting some of those needs.
    That is part of the primary reason we are here today, Mr. 
Chairman, to seek again some funding to help continue the 
efforts and the work of this center, and to make sure that this 
center does not fall from the current status, that we finally 
see that is a local, regional and national resource, that in 
the long run we will have to spend a significant amount of 
money to bring it to the level that it will help all of the 
communities that it serves.
    I would like to thank members of this committee for the 
opportunity to testify before you, and we will take any 
questions at this time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much for your testimony.
    Mrs. Meek.
    Mrs. Meek. Yes. Thank you, Professor. Did the Subcommittee 
fund you last fiscal year?
    Mr. Okojie. No, ma'am. We were not funded last fiscal year.
    Mr. Sununu. Would you excuse me, if I may? Did you make a 
request last year?
    Mr. Okojie. No, we did not make a specific request last 
year. This is our first request, but we have received some 
funding from other agencies like NEA.
    Mrs. Meek. I read through your testimony, and I am trying 
to get a good handle on what you are asking for. You ask for 
funding for the Alexander National Research Center?
    Mr. Okojie. Yes.
    Mrs. Meek. And number one, what will you do with the 
funding you receive?
    Mr. Okojie. Okay. One, is right now we have a lot of 
leakages in the buildings, because the fourth floor of the 
building has not been restored.
    Mrs. Meek. Renovation.
    Mr. Okojie. Renovation is one of them. The second area that 
the funding will help us in would be in the area of putting all 
of the Margaret Walker papers in each----
    Mrs. Meek. Archives?
    Mr. Okojie. Yes, archives. And the third area is to make 
sure that we have enough human resources within the center to 
do the community outreach for the center.
    Mrs. Meek. So community resource center.
    Mr. Okojie. Yes, community resource center.
    Mrs. Meek. And how much are you asking for?
    Mr. Okojie. $3 million.
    Mrs. Meek. Now, does Congressman Bennie Thompson know about 
your efforts?
    Mr. Okojie. Yes, ma'am.
    Mrs. Meek. Thank you, Mr. Chairman. Those are the questions 
I had.
    Mr. Sununu. Thank you very much, Mrs. Meek.
    Is Jackson in Mr. Thompson's district?
    Mr. Okojie. No, it is actually in Congressman Shows' 
district.
    Mr. Sununu. Oh, really?
    Mr. Okojie. Yes.
    Mr. Sununu. For the entire city?
    Mr. Okojie. Yes, but Thompson is a graduate of Jackson 
State, so he is naturally very interested in Jackson, as are 
the other congressional delegates.
    Mr. Sununu. Thank you. Thank you, Doctor.
    Mr. Okojie. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

     NATIONAL ASSOCIATION FOR EQUAL OPPORTUNITY IN HIGHER EDUCATION


                                WITNESS

HENRY PONDER, CEO AND PRESIDENT
    Mr. Sununu. Dr. Henry Ponder. Good afternoon and welcome, 
Doctor.
    Mr. Ponder. Good afternoon.
    Mr. Sununu. We are pleased to have you here.
    Mr. Ponder. Thank you. Mr. Chairman, and distinguished 
members of the Subcommittee, I am Henry Ponder, Chief Executive 
Officer and President of the National Association for Equal 
Opportunity in Higher Education. I want to thank you for 
allowing me to appear before you today, as you consider funding 
priorities relevant to the fiscal year 2001 VA-HUD-Independent 
Agencies Appropriations Bill.
    I certainly want to say thanks to Representative Meeks. It 
is always good to see you. Every time I see you, something good 
happens to me, and I hope that just keeps on.
    [Laughter.]
    Mr. Ponder. I certainly want to say thank you for your 
strong support of higher education. We appreciate that very 
much.
    NAFEO is the national umbrella organization representing 
the nation's 118 predominantly and Historically Black Colleges 
and Universities. NAFEO Institutions historically are 
responsible for educating the vast majority of African 
Americans. Today while NAFEO institutions enroll approximately 
18 percent of all African American college students, they 
confer about 40 percent of all bachelors degrees awarded to 
African Americans nationally. In some disciplines, such as 
engineering and teacher education, the number is significantly 
higher.
    For fiscal year 2001 NAFEO made significant efforts to work 
with the Administration early in the process, so as to get many 
of our recommendations included in the President's budget. 
While there were significant increases, NAFEO supports 
additional funding in areas directly affecting higher 
education. An extensive table has been submitted with the 
written testimony, but NAFEO supports increases in the HUD/HBCU 
initiative, NSF's LSAMP Program, the Minority Graduate 
Education Program, Engineering Research Centers Program, and 
the Major Research Instrumentation/Facilities Program. 
Additionally, NAFEO supports increases for the NASA Minority 
University Research and Education Program.
    The main initiative for which NAFEO is seeking increased 
funding is the HBCU-UP Program. NAFEO is very concerned about 
the under-representation of African Americans in science, 
engineering and mathematics fields, which is a serious problem 
that affects our ability to compete in the nation's scientific 
and technological workplace. This situation results in the loss 
of opportunity for a large segment of society. As a result, 
throughout the U.S., sweeping changes in social policy designed 
to increase the self-reliance and self-proficiency of citizens 
from disadvantaged backgrounds are taking place. In order to 
insure access to employment opportunities in the emergent field 
of higher technology and other scientific areas, it is 
essential that vigorous efforts be undertaken to increase the 
number of African Americans with degrees in mathematics, the 
sciences and engineering. HBCUs have and should continue to 
play a critical role in addressing this problem because of 
their strong track record in annually producing a 
disproportionately large number of minority undergraduates with 
degrees in these fields. Although relatively small in number 
and with modest endowments, HBCUs are playing a major role in 
closing that gap.
    As previously stated, our institutions confer about 40 
percent of all baccalaureate degrees awarded to African 
Americans. However, of the nearly 23,500 degrees conferred to 
African Americans by HBCUs in 1994, only 690 were in 
engineering or 2.9 percent. By comparison, 1.16 million 
baccalaureate degrees were conferred by all institutions of 
higher education in the United States in 1994. Of these, 62,220 
were in the field of engineering, a 5.3 percent total. These 
trends of the undergraduate level have a direct impact on the 
ability of African Americans to succeed at the graduate level.
    In fiscal year 1998, Congress recognized the importance of 
insuring strong programs in science, mathematics and 
engineering at HBCUs by creating the Historically Black 
Colleges and Universities Undergraduate Program, HBCU-UP 
program.
    The Administration's budget request includes $11 million 
for this program, which is a 1 million increase above last 
year's funding level. NAFEO is requesting $20 million in 
funding, a $10 million increase for this initiative. The 
funding will continue efforts made in fiscal years 1998 through 
2000, to enhance undergraduate education of under-represented 
populations in science, mathematics and engineering. Of the 
total $20 million, $10 million would be provided by the 
Education and Human Resources Directorate, with the remaining 
$10 million to be divided by each of the other program 
directorates at $1.66 million each.
    This level of funding would address the basic investment 
deficits that HBCUs face today; faculty research grants, 
research experiences for undergraduates, and scientific 
implementation. Additionally, because of the need to strengthen 
the linkages between research and teaching as part of this 
program NSF's 6 science program directors should be expected to 
collectively match the funds provided by the EHR directly on a 
dollar-for-dollar basis. Funds could be used for direct faculty 
support, academic instruction in science and engineering 
disciplines, research experiences for undergraduates or 
scientific instrumentation. None of these funds could be used 
for facilities construction or renovation.
    Providing this support to historically black colleges and 
universities will enhance substantially national efforts to 
meet the stated goal of expanding the number of under-
represented minority students in the science, mathematics and 
engineering fields.
    This concludes my testimony, Mr. Chairman, and I would be 
happy to answer any of your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Doctor.
    I have no questions. Mrs. Meek.
    Mrs. Meek. Doctor Ponder, at the end of your statement, and 
I am quoting you now, it says, ``In fiscal year 1998 Congress 
recognized the importance of ensuring strong programs in 
science, mathematics and engineering at HBCUs by creating the 
historically black colleges and universities undergraduate 
programs. However, the National Science Foundation, NSF, in its 
fiscal year 1998 current plan has misinterpreted Congressional 
intent. NSF has interpreted the program award as a three-year 
award, not the single year award envisioned by the Committee in 
fiscal year 1998.''
    Would you talk about that, clarify that?
    Mr. Ponder. Well, the feeling that what was appropriated 
was for one year. Then, the agency interpreted it to be three 
years. So, just take the amount of money they gave, we thought 
that was a one-year deal and they decided that it was going to 
be over a period of three years, which reduces the amount of 
money and the effect that each one could have on the things 
they were trying to do.
    What we would like to do is to see it become a one-year 
grant and that is what we are asking for this time, to make it 
specific that that is what it is.
    Mrs. Meek. You are sure?
    Mr. Ponder. Yes.
    Mrs. Meek. Was it in the language that it would be a one-
year program?
    Mr. Ponder. We thought it was in the language, yes.
    Mrs. Meek. I see, all right.
    Mr. Ponder. We interpreted it as being in the language, let 
me put it that way.
    Mrs. Meek. Thank you, Doctor.
    Mr. Sununu. Thank you very much for your testimony.
    Mr. Ponder. Thank you.
    Mrs. Meek. I will try and follow-up on that, Dr. Ponder.
    Mr. Ponder. Thank you very much. I appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

   THE FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES


                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR
    Mr. Sununu. Dr. David Johnson.
    Welcome, Doctor.
    Mr. Johnson. Thank you.
    Mr. Sununu. A procession of doctors.
    Mr. Johnson. Yes.
    Mr. Sununu. It is nice to know you are all well 
credentialed.
    Welcome. I am pleased to have you before this Subcommittee.
    Mr. Johnson. Thank you.
    Mr. Chairman, Mrs. Meek, I am speaking today on behalf of 
the 19 scientific societies and 150 graduate departments that 
make up the Federation of Behavioral, Psychological and 
Cognitive Sciences. The Federation joins other organizations in 
the Coalition for National Science Funding to urge that you 
fund NSF at least at the level requested by the President. NSF 
supported research provides the basic discoveries that underpin 
advances in the health sciences, as well as the technical 
advances that are now propelling our economy.
    But years of essentially flat funding for NSF have opened 
holes in the research infrastructure. Too few young people are 
choosing careers in mathematics, for example. But mathematics 
is an indispensable tool for all the sciences. There is enough 
basic research in the pipeline for one more leap in computer 
speed. The basic science for the leap after next has not been 
done. And there are other gaps it is becoming increasingly 
necessary to address.
    But I also want to emphasize that there are sciences that 
haven't experienced the luxury of an infrastructure, let alone 
its deterioration. Last year, for the first time the social, 
behavioral and economic sciences directorate sponsored a 
program to build infrastructure in the behavioral and social 
sciences. The program was funded at $3 million, there were 102 
applications for that $3 million. With co-funding from several 
other programs about 6 grants were given. The grant pressure 
clearly indicates the need for this program.
    In fact, the applications were of such high quality that 
NSF officers attempted to convince private foundations to fund 
28 more of the proposals. Unfortunately, few foundations have 
scientific infrastructure building as a priority.
    The number of high-quality applications received make it 
clear that these sciences are ready to use recent advances in 
information storage, retrieval, manipulation, and communication 
to improve the efficiency of their research. A budget of $20 
million would be sufficient to fund the best of the proposals 
and we are asking that you consider adding that amount to the 
social, behavioral and economic sciences directorate research 
budget to enable the building of an infrastructure for these 
sciences.
    Let me end with an example of infrastructure funded in the 
program's first competition. There are rapid advances in 
understanding the workings of the human brain, thanks to 
functional magnetic resonance imaging. But the cost of a single 
session with an FMRI machine can run as high as $5,000. Few 
researchers have funds for such costly work. One of the grants 
that has been funded would allow collection of all the neural 
images appearing in 8 of the leading neuroscience journals and 
make them available for further analysis by researchers lacking 
access to FMRI machines.
    This data base would become a valuable resource for all 
neuroscientists. And it would become a tool for teaching 
neuroscience to a new generation of scientists. I hope that you 
will consider the lasting value of investments like this in 
infrastructure and provide sufficient funds to make a complete 
infrastructure a reality.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you for your testimony, Doctor.
    Mr. Goode, welcome. Do you have any questions for Dr. 
Johnson?
    Mr. Goode. No. Thank you.
    Mr. Sununu. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                   JOINT POLICY BOARD FOR MATHEMATICS


                                WITNESS

 PROFESSOR DANIEL L. GOROFF, PH.D., PROFESSOR OF MATHEMATICS AND 
    ASSOCIATE DIRECTOR OF THE DEREK BOK CENTER FOR TEACHING AND 
    LEARNING, HARVARD UNIVERSITY; DIRECTOR, JOINT POLICY BOARD OF 
    MATHEMATICS
    Mr. Sununu. Professor Daniel Goroff.
    Welcome. You owe me an article. I am pleased to have you 
here before the Committee. Pleased to see you again and I 
invite your testimony.
    Mr. Goroff. Thank you very much, and good afternoon, Mr. 
Chairman, and Mr. Goode.
    Thank you very much for the pleasure of addressing this 
Committee about your support for the National Science 
Foundation. Now, all of us who like research also have to like 
surprises. And I am here as a mathematician and as Director of 
the Joint Policy Board for Mathematics. But my first surprise 
is that rather than speaking directly about support for my 
discipline, I want to emphasize the importance of Federal 
spending on research and education across-the-sciences in 
general. Each dollar that this Committee allocates to 
fundamental science is a fantastic investment. Everyone from 
expert economists to every-day investors and CEOs to 
technicians, historians, school children, all of them can tell 
you with compelling evidence about the great importance of your 
science appropriations.
    What I can tell you that others may not think of is every 
single dollar you allocate to science is also fantastic for 
mathematics, regardless of how many pennies eventually find 
their way into mathematics departments. For example, science 
provides mathematicians with a continuing supply of the 
beautiful and challenging new problems whose patterns we become 
obsessed with. And science furnishes a continuing supply of 
people who will use and sometimes even credit the theorems and 
discoveries of mathematicians.
    Also, science motivates a continuing supply of students at 
all levels with whom we can share the mathematics that we love 
and that they need.
    The intimate connections, for example, between genomics, 
nanotechnology, information technology, on the one hand, and 
the mathematics of knot theory and operator theory and number 
theory on the other, are delightful surprises that could not 
have been predicted or directed. That is why in addition to 
supporting initiatives like these in the fiscal year 01 budget, 
mathematicians also join with other scientists in expressing 
special enthusiasm for the increases in core funding included 
as part of NSF's plans this year.
    We have confidence in NSF's mechanisms that they can 
rebalance the research portfolio with these funds, these core 
funds in much needed ways. The fact that the base level of 
funding is relatively low in careers like mathematics has two 
implications. First of all, unusually large percentage 
increases still only correspond to modest amounts of dollars. 
And, second, even modest new funding, tens of millions in the 
case of mathematics, will have immediate, dramatic and 
measurable benefits. More than large new projects or 
laboratories, we need to devote ourselves to rebuilding basic 
infrastructure. Mathematics is a field where peer-reviewed, 
investigator-initiated and curiosity-driven research works 
especially well and has a remarkable track record of producing 
highly valuable results.
    The core funding in the fiscal year 2001 budget will help 
tend to the health and vigor of fundamental disciplines like 
mathematics and this is a public sector responsibility. 
Mathematical ideas and people perform valuable services 
throughout the economy, of course, yet, few private firms can 
afford to invest much in research whose benefits, though great 
in total, may be distributed too widely in space and time to be 
adequately rewarded by market mechanisms.
    Parents today do realize the importance of mathematics and 
science and they devote much energy and attention to improving 
education in these fields. The phrase, ``Do the math,'' has 
come to mean to figure it out in almost any situation.
    And in particular, I think these fields can also teach 
society some much needed lessons about how to agree and 
disagree constructively. I really love the fact that 
mathematics departments are among the only places on earth 
where you can routinely come in, in the morning, and find 
clusters of people at a chalkboard, often from very different 
backgrounds, really arguing with one another, passionately but 
respectfully, and so on. You come back at the end of the day 
and one person has convinced the other, they both agree on 
this, and the person--they are both very glad about this, and 
the person who turned out not to be correct is especially happy 
because they were surprised and they really learned something. 
Moreover, they are both really very eager to go at it again the 
next day.
    So, this is really how we make progress that you can count 
on day after day and discovery after discovery and benefit 
after benefit and I hope that you won't be too surprised when I 
conclude in urging you to, ``Do the math,'' and figure out how 
to provide strong support not just for mathematics but for all 
of science.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much, Professor.
    I was having lunch with three mathematicians on Monday and 
I don't get to say that very often but I did. They raised an 
interesting example that perhaps you can talk a little bit 
about. They pointed out that at the time when it represented a 
leading edge of investment, perhaps by the Federal Government, 
number theory was considered obtuse and irrelevant and useless 
but that in point of fact, today--and I don't know when much of 
this investment was going on, probably around the time of the 
World War II--but today, it really underpins much of the work 
that is being done in encryption work and not just esoteric 
encryption work but commercial and national defense-related 
cryptography.
    Could you talk a little bit about that example and offer 
one or two others, to the extent that you are aware, where a 
Federal investment or research support in an area that was 
considered to be of purely academic interest turned out to have 
a great, lasting or long-term impact on our economy or our 
society?
    Mr. Goroff. Sure. I would be very glad to give a few 
examples. Number theory is a great one because certainly when I 
was a graduate student and for many years before people had 
written about how this was supposed to be the purest of the 
pure in mathematics and have no possible relationship to 
anything practical.
    Now, the world's largest employer of mathematicians by a 
factor of 10 is the National Security Agency. There are also 
quite a few industries that have been built up around the codes 
and the procedures, the number theory, the distribution of 
prime numbers turns out to be absolutely critical in the way 
that we code up all of the information that gets sent around on 
the Internet and through many other means as well.
    So, this turns out to be very, very useful in the long run 
and we can't produce enough number theorists who are American 
citizens and who are then able to work on the kind of security 
issues that face us as a society.
    Another example, when I was a graduate student I remember 
knot theory as being a kind of a curious, just example that you 
could put before the students in algebra topology, in studying 
knots. Well, it turns out that when you are doing the human 
genome project, it is not just knowing sequences in the genome 
that is really important but it is knowing how they arrange 
themselves as a string in space and knot theory turns out to be 
exactly what is needed there and suddenly all of the 
bioinformatics people and so on in addition to using all the 
massive data bases kinds of mathematical techniques are also 
learning knot theory.
    Nanotechnology is all about quantum mechanics. This is 
infinite dimensional operators in a Hilbert space and so on, 
but quantum mechanics is just so bizarre that we have very 
little intuition to go on, and all you have is the mathematics. 
And, so, in all of these cases, the investments that were made, 
often quite a long time ago but sometimes this work is 
continuing, you know, from day-to-day in front of those 
blackboards that I was talking about, turns out to be 
absolutely crucial in ways that couldn't have been predicted 
and couldn't have been handled by the market.
    Mr. Sununu. Thank you.
    Mr. Goode.
    Mr. Goode. No questions, thank you.
    Mr. Sununu. Thank you very much.
    Mr. Goroff. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

             THE JOINT STEERING COMMITTEE FOR PUBLIC POLICY


                                WITNESS

 PROFESSOR KEN A. DILL, PROFESSOR, UNIVERSITY OF CALIFORNIA, SAN 
    FRANCISCO MEDICAL CENTER
    Mr. Sununu. Professor Ken Dill.
    You are representing the Joint Steering Committee for 
Public Policy; is that correct?
    Mr. Dill. Yes, that is correct.
    Mr. Sununu. It sounds like an enormously broad and 
important position.
    My guess is you are here to talk about something a little 
bit more narrowly focused.
    Mr. Dill. Yes.
    Mr. Sununu. Welcome to the Committee and we are pleased to 
recognize you.
    Mr. Dill. Thank you, Mr. Sununu, Mr. Goode, for hearing my 
testimony.
    I would like to actually depart by beginning already by 
saying something about knot theory. And that is a fact, I am a 
biologist. We are doing, trying to fold up proteins and we 
have, in fact, used knot theory just exactly as you heard a 
second ago. I am Ken Dill and Professor at the UC San Francisco 
Medical Center. My research is in computational biology. As I 
just mentioned, we use computers to understand biological 
molecules like proteins and the aim of our work is much better 
and faster design of drugs for all diseases.
    I am representing the Joint Steering Committee for Public 
Policy, as you mentioned. It is an organization of 20,000 
biomedical research scientists and four different societies. I 
am here to urge you to support the proposed 17 percent increase 
to the budget of the NSF and my hope is that the budget will be 
doubling over the next 5 years.
    There are many good reasons to support basic science. One 
reason is the economy. Yesterday's investments in basic science 
have given us today's dot-coms and biotechs. But I want to 
focus on the importance of basic science and biomedicine and to 
the health and well-being of the American public.
    We are in the midst of a revolution in biomedical science, 
perhaps one of the greatest scientific revolutions in history, 
but the revolution has barely begun. We don't know most of the 
principles yet. Strong Federal support of the biomedical 
sciences without equally strong Federal support of the 
underpinning sciences, chemistry, physics, mathematics and 
computer science, is like building a freight train without a 
track. It is now time to support the building of new track and 
this requires new dollars at NSF.
    Biomedicine owes a lot to the underpinning sciences. 
Physicists and chemists were among the founders of molecular 
biology. The physical sciences have contributed magnetic 
resonance imaging, CAT scans, cancer radiation therapies, laser 
eye surgery, and new biomaterials.
    But it goes much deeper. ``Time'' Magazine's Millennium 
issue featured Albert Einstein as the Man of the Century, 
highlighting the importance of basic science in our lives. 
``Time'' noted that the discovery of penicillin saved more 
lives than were lost in all the wars of the century. ``Time'' 
went on to say that this century's greater biological 
breakthrough is even more basic: It was the discovery of the 
DNA double helix.
    But Watson and Crick could never have discovered the double 
helix and Linus Pauling could never have discovered the 
structures of proteins and modern drug design would be 
impossible without two discoveries from physicists: X-ray 
crystallography and nuclear magnetic resonance spectroscopy, 
tools that virtually underpin all we know now about the 
molecular basis of disease.
    Despite the importance of the physical sciences to biology, 
the underpinning sciences are under-funded in the United 
States. In the appendix to this testimony and partly in 
response to a question you just raised a second ago, I list 17 
Nobel Prize caliber innovations in the physical sciences that 
at the time were not thought to have any relevance to 
biomedical science and, in fact, now underpin the whole system.
    All of these were developed outside the U.S. or outside the 
NIH/NSF funding system. Why weren't they done here? In my 
opinion, they were too risky, too long-term or too physical for 
NIH or they were too biological or too expensive for NSF. This 
large, important research area often falls between the cracks 
of U.S. research funding.
    We need more cynctomtron beam lines, we need a thousand-
fold more computer power for computational biology, we need 
mathematical optimization methods in biology, we need chemical 
physicists working on biomolecules, we need a high-throughput 
structural biology to convert the human genome sequence into 
understanding and new drug molecules. We need the help from 
NSF, we need more and larger investigator-initiated grants at 
NSF, and we need more funding in areas that fall between the 
missions of NIH and NSF.
    In summary, my message is that we need strong underpinning 
sciences if we hope to see the full biomedical science 
revolution. Many of biology's deepest problems are currently 
problems of basic chemistry, physics, math and computer 
science. I ask for your support for a 17 percent increase for 
NSF now and doubling over the next 5 years. Supporting the 
underpinning sciences at NSF would be a wise investment for 
both the U.S. economy and as a leveraged and long-term 
investment in the health and well-being of our people.
    And I am happy to answer questions. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much, Professor.
    I would hope that at least part of the reason for some of 
these inventions and innovations being developed outside the 
United States is because we don't have all the smart people 
living here.
    Mr. Dill. Right.
    Mr. Sununu. But your point is well taken.
    Any questions, Mr. Goode?
    Mr. Goode. No questions.
    Mr. Sununu. Thank you very much.
    Mr. Dill. Thanks.
                              ----------                              

                                         Wednesday, April 12, 2000.

               THE MARINE CONSERVATION BIOLOGY INSTITUTE


                                WITNESS

AMY MATHEWS-AMOS, PROGRAM DIRECTOR
    Mr. Sununu. Ms. Amy Mathews-Amos of MCBI.
    Good afternoon and welcome. We are pleased to recognize 
you.
    Ms. Mathews-Amos. Thank you.
    Thank you for this opportunity to testify today on 
Appropriations for the National Science Foundation in fiscal 
year 2001. My name is Amy Mathews-Amos, and I am Program 
Director for Marine Conservation Biology Institute, a nonprofit 
organization dedicated to advancing the emerging science of 
marine conservation biology.
    Marine conservation biology is the multi-disciplinary 
science of protecting, restoring and sustainable using life in 
the sea. While the basic research NSF traditionally has 
supported is a critical component of conservation biology, 
NSF's new emphasis on interdisciplinary environmental research 
makes its work even more critical for addressing the world's 
growing conservation problems. MCBI urges you to fully fund NSF 
at the Administration's requested amount.
    For more than a half a century NSF has been the premier 
Federal agency supporting scientific research. In the past, it 
focused almost exclusively on basic research within single 
disciplines, providing the building blocks of knowledge 
ultimately used by society to create goods and services and 
address societal problems, including environmental problems. 
Over time, NSF has expanded its role somewhat, coordinating 
with other Federal agencies to examine complex 
interdisciplinary issues such as global climate change and 
harmful algal blooms.
    Now, with the completion of the National Science Board's 
report, Environmental Science and Engineering For the 21st 
Century: The Role of the National Science Foundation, there is 
recognition that environmental research assessment and 
education should be one of NSF's highest priorities with much 
greater investment of resources.
    MCBI fully supports the National Science Board's 
recommendations to substantially increase NSF's investment in 
environmental research, education and assessment, including 
increases in interdisciplinary research. As environmental 
degradation in the marine realm has become increasingly 
apparent in the last two decades, it has become painfully 
obvious that our ignorance of marine ecosystems is a major 
liability.
    As a young, multi-disciplinary science, marine conservation 
biology does not fall easily within the traditional boundaries 
of biological oceanography, ecology or other related fields and 
its relevance to real world problems makes it more applied than 
research that traditionally has been funded with NSF, making it 
difficult for these projects to compete for funding. Sadly, 
many conservation biology questions are not being addressed by 
other agencies either.
    Management agencies often focus their limited research 
dollars on specific legislative mandates. For example, much of 
the biological research at the National Marine Fisheries 
Service focuses narrowly on assessing fish stocks one-by-one. 
This leaves out a wide range of conservation science questions 
and illustrates how current science programs can fail us.
    More than one-third of the U.S. fish stocks for which data 
are known are over-fished. While there are many reasons for 
this decline, the current approach to fisheries biology clearly 
is far too narrow to be adequate.
    We are hopeful that NSF's new focus on interdisciplinary 
environmental research in coordination with other Federal 
agencies will address these past problems. We understand that 
the biocomplexity initiative is a first step in fulfilling the 
vision outlined in the National Science Board report. This 
important initiative provides new funds for highly 
interdisciplinary research focused on understanding natural 
systems and their interactions with human systems. But 
increasing funding opportunities for other types of 
environmental research beyond the biocomplexity initiative is 
an equally important first step.
    We also agree with the National Science Board that an 
effective organizational structure is needed to ensure that 
NSF's environmental portfolio is interdisciplinary, highly 
visible, well-integrated and sustained over time with a high-
visibility, NSF-wide focal point with its own budget authority.
    Other groups, including the President's Committee of 
Advisors on Science and Technology, and many of your colleagues 
here, in the House of Representatives, have stressed the need 
for an effective organizational approach as well. We understand 
that NSF currently is examining implementation issues through a 
new internal task force and external advisory committee.
    We look forward to seeing how NSF addresses these important 
issues in the coming year and begins to carry out other 
recommendations in the Science Board report, as well.
    The changes at NSF are timely, as harm to the world's 
environment is the greatest threat America faces as we enter 
the 21st Century. Environmental threats are no longer localized 
but are global, increasing their scale and complexity. Solving 
these complex problems requires a new approach to environmental 
science and the resources and expertise of NSF. MCBI urges you 
to support full funding for NSF in 2001 as a critical first 
step in realizing NSF's potential in environmental research.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you. What is the difference between 
marine biology and marine conservation biology?
    Ms. Mathews-Amos. Marine biology tends to be the more 
traditional discipline which focuses on some very basic 
questions about life in the sea. Marine conservation biology 
tends to be somewhat more applied and it pulls in other 
disciplines as well to look at questions about what is actually 
harming life in the sea right now based on current threats and 
what do we need to do to address those problems?
    I think a good example is looking at the situation with 
coral reefs right now. As many people know, there are many 
threats facing coral reefs, including coral diseases and 
pollution and those kinds of things. And a key question to 
answer is when we are looking at questions like coral diseases, 
which is very much an unknown right now, is what sort of things 
are contributing to it, what do we need to know about the 
disease organism, itself, which could be considered a very 
basic question.
    And what do we need to know about the sort of pollution 
that is entering the systems, very often, for example, from 
sewage runoff or siltation, from construction activities, those 
kinds of things. What role does that play in the movement of 
the disease? Those kinds of questions.
    Mr. Sununu. And marine conservation biologists are more 
focused on answering those questions than marine biologists?
    Ms. Mathews-Amos. Exactly.
    Mr. Sununu. Thank you.
    Mr. Goode, any questions?
    Mr. Goode. MCBI, did you say it was a nonprofit or profit?
    Ms. Mathews-Amos. Nonprofit.
    Mr. Sununu. Thank you. Thank you very much for your time.
                              ----------                              

                                         Wednesday, April 12, 2000.

                   NATIONAL CORN GROWERS ASSOCIATION


                                WITNESS

BOYD SMITH
    Mr. Sununu. Mr. Boyd Smith.
    Mr. Smith, welcome. You are from the National Corn Growers 
Association?
    Mr. Smith. Yes. Good afternoon.
    Mr. Sununu. I know what your members do and I am pleased to 
have you here.
    Mr. Smith. Thank you, Mr. Sununu, Mr. Goode.
    I am Boyd Smith. I am a corn farmer from York, Nebraska, 
York County and I appreciate the opportunity to testify today 
on behalf of the National Corn Growers Association. We are 
speaking today on the Plant Genome Initiative and how that is 
important to the National Corn Growers Association. We have 
kind of deemed it our most important appropriations issue for 
agriculture.
    We strongly urge you to provide not less than $80 million 
for the National Science Foundation Plant Genome Initiative and 
$25.5 million for the 2010 Project, which is the functional 
genomics project for Arabidopsis.
    The initiative is critically important to the nation's 
growers and consumers. While world population continues to 
expand and protein demand increases exponentionally there is an 
expectation of higher quality, safer and more nutritious food. 
We must use these existing resources of land, water and 
nutrients more effectively if the supply of food, feed and 
fiber is going to meet world needs. Plant genomics holds that 
key to meet that world demand.
    The plant genomics program allows us to create new hybrid 
varieties that will one, improve human and animal health; two, 
reduce medical costs due to more nutritious and healthier food; 
three, reduce worldwide malnutrition through higher yielding 
and more nutritious crops; four, reduce environmental problems 
for crop and livestock growers; five, expand plant based 
renewable resources for raw materials, industrial feedstocks, 
chemicals and energy, and last, enable growers to get more 
income from the market, thereby, reducing grower reliance on 
Federal farm programs.
    Already the Plant Genome Initiative has revolutionized 
plant research, rejuvenated the plant research community, and 
contributed significantly to our understanding of basic 
biology. Some results: Since we have completed sequencing the 
Arabidopsis--we have done that four years ahead of schedule, 
through help with funding through the NSF--public accessibility 
to massive plant genomics data bases, tools and resources, 
advancing the international rice sequencing efforts that 
facilitated the recent release of a working draft of rice by 
Monsanto and that just happened last week. And generally 
encouraging the release of fundamental genetic information into 
the public domain which we feel is very important.
    Just in a recently published report, the Interagency 
Working Group on Plant Genomes, estimated that over the next 
three years $500 million was needed for the plant genome 
initiative to meet this minimum need.
    We believe that a minimum of $80 million in the initiative 
for fiscal year 2001 is necessary for us to begin to address 
the research needs for plant genomics. In addition, we support 
the Administration's request for $25.5 million in funding for 
the 2010 Project and the request for increased funding for 
biocomplexity in the environment.
    Funding for plant genomics is truly the most important 
appropriations issue for our nation's corn farmers and thank 
you for the opportunity to present my views.
    I would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much, Mr. Smith.
    What is Arabidopsis?
    Mr. Smith. That is a small mustard plant.
    Mr. Sununu. Mustard. I should have known that. That is 
where they are begun.
    Mr. Smith. That is where they began and then they moved 
onto rice.
    Mr. Sununu. Thank you.
    Mr. Goode.
    Mr. Goode. No questions.
    Mr. Sununu. Thank you very much.
    Mr. Smith. Thank you for your time.
    Mr. Sununu. I appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

            NATIONAL COUNCIL FOR SCIENCE AND THE ENVIRONMENT


                                WITNESS

RICHARD E. BENEDICK, AMBASSADOR, [RET.], PRESIDENT
    Mr. Sununu. Mr. Richard Benedick.
    Welcome.
    Mr. Benedick. Good afternoon.
    Mr. Sununu. We are pleased to have you here.
    Mr. Benedick. Thank you very much.
    I thank you for the opportunity to speak here in support of 
the proposed budget for the National Science Foundation. I am 
here as President of the National Council for Science and the 
Environment which you have previously known as the Committee 
for the National Institute for the Environment and which this 
Committee has generously supported over the past several years. 
This is a nonpartisan, nonprofit organization that is dedicated 
to improving the scientific basis for environmental decision 
making. The work of the National Council has been endorsed by 
over 475 organizations representing the full range of 
environmental stakeholders from business, such as the U.S. 
Chamber of Commerce and the Business and Industry Association 
of New Hampshire, and the Chamber of Commerce of Virginia; 
nearly 300 universities, including Harvard and Yale and UVA and 
the University of New Hampshire; the U.S. Conference of Mayors, 
environmental organizations, State and local governments and 
over 80 scientific and professional societies in the country.
    As a former U.S. Ambassador and Deputy Assistant Secretary 
of State, I have been responsible to be Chief U.S. Negotiator 
for numerous international environmental treaties, including 
the historic 1987 Montreal Protocol on protecting the ozone 
layer. In this first-hand experience, I have come to appreciate 
the importance of sound science as a basis for environmental 
decision making.
    We have greatly appreciated the support of this Committee 
in our efforts over recent years to improve environmental 
science and more recently to encourage the National Science 
Foundation to expand its own activities in environmental 
sciences. Largely in response to our joint activities, both the 
National Council and this Committee, the National Science Board 
unanimously approved early this year a path-breaking report 
entitled, ``Environmental Science and Engineering for the 21st 
Century: The Role of the National Science Foundation.''
    This report contains bold and ambitious recommendations 
that have the potential to transform the role of the National 
Science Foundation as a source of credible environmental 
scientific information. We support it unequivocally: The high 
priority given by these recommendations to environmental 
research, assessment, education, and the recommendation for an 
increase in the NSF expenditures in environmental science from 
$600 million currently to $1.6 billion over the next five 
years. This will require an effective organization within the 
National Science Foundation in order to implement these 
recommendations.
    And we believe that the recommendations of the National 
Science Board are consistent with this Committee's own 
recommendations in the past, including a strong stakeholder 
role in defining scientific needs, and including the importance 
of multi-disciplinary research and research that is oriented 
toward problem solving which represents somewhat of a departure 
from the NSF's traditional role.
    We believe that with appropriate funding from this 
Committee and with Congressional oversight, the National 
Science Foundation has a historic opportunity to support, 
increasingly support science that will be the basis for 
environmental decision making which we need in the future.
    Therefore, we recommend that there be supportive language 
in the appropriations bill for the full and effective 
implementation of the National Science Board's recommendations 
in this new report as well as we recommend full funding for the 
currently proposed activities in the environment under the NSF 
biocomplexity and environment initiative.
    Looking to the future, the National Council, as a member of 
the Coalition for National Science Funding, also hopes that 
total funding for National Science Foundation activities could 
increase to a level of $10 billion by the next five years, at 
the end of five years because again from my own experience I 
feel that scientific research is essential to our national 
well-being and to our national security.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you very much.
    Mr. Goode, any questions?
    Mr. Goode. No questions.
    Mr. Sununu. Thank you very much for your time.
    Mr. Benedick. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

DAVID MONGAN, VICE PRESIDENT
    Mr. Sununu. Mr. David Mongan.
    Welcome. Thank you for taking the time to be here and we 
are pleased to recognize you.
    Mr. Mongan. Thank you.
    Mr. Chairman, Members of the Subcommittee, I am David 
Mongan. I am a Vice President of the American Society of Civil 
Engineers. And I am pleased to appear on behalf of ASCE and its 
125,000 members to discuss the proposed budgets of EPA, and the 
Federal Emergency Management Agencies for the fiscal year 2001.
    First, the Administration has proposed a budget for EPA of 
$3.7 billion in fiscal year 2001. But the proposed funding for 
all Clean Water Act programs has been reduced drastically in 
that proposed budget. This is a very disturbing trend. We wish 
to focus on one aspect of this proposed reduction, the Clean 
Water State Revolving Loan Fund Program in the hope that 
Congress will restore critically needed funding to this program 
in fiscal year 2001.
    Since 1972, Congress has approved over $69 billion to 
assist cities in complying with the Act. In 1987, Congress 
established a new grants program to support State water 
pollution control revolving funds. This program has provided 
more than $8 billion in loan funds between 1987 and 1994. This 
has been leveraged to more than $30 billion in financial 
assistance to local communities but the tremendous national 
need for funds for wastewater treatment plants requires 
continued Federal assistance.
    We understand the Office of Water is preparing a new 
assessment of national wastewater financing needs that is 
expected to put the total bill at more than $300 billion over 
the next 20 years. Incredibly, despite the staggering need, an 
EPA statement that the SRF is a significant financial tool for 
achieving clean and safe water, the agency actually has 
proposed to cut the funding for the program by $550 million in 
fiscal year 2001.
    We urgently recommend that Congress restore the $550 to 
bring the Clean Water State Revolving Fund Program to its 
fiscal year 2000 level of $1.35 billion.
    Let me turn next to two important programs under the 
direction of FEMA: The Flood Hazard Mapping Program and the 
National Dam Safety Program. The fiscal year 2001 budget 
request will provide $134.4 million for FEMA to begin 
modernizing its mapping program. ASCE strongly supports this 
funding request. FEMA's Flood Hazard Mapping Modernization Plan 
would improve map accuracy and completeness, map utility, map 
production and public awareness and customer service. It would 
also reduce the burden on taxpayers for disaster relief and 
maintain the maps as one of the most valuable national 
resources for flood hazard mitigation.
    Unfortunately, the current maps are aging. Approximately 45 
percent are over 10 years old and 70 percent are over 5 years 
old. The effect of aging is that many of the maps are 
inaccurate. They reflect engineering analyses that are out of 
date as a result of subsequent intervening development or 
because of newer data for improved methods that are now 
available.
    Secondly, the Administration's proposed budget request 
would provide $5.9 million for FEMA's National Dam Safety 
Program. ASCE strongly supports this funding request. This 
modest, yet vital funding, will enable States to improve their 
fledgling dam safety programs, thereby, reducing risk to life 
and property. Dam failures are catastrophic and extremely 
costly. We should give special attention to the old adage that 
an ounce of prevention is worth a pound of cure.
    Our experts estimate that thousands of dams are at risk of 
failing or disasters waiting to happen. One-fourth of all U.S. 
dams are more than 50 years old and by the year 2020 that 
figure will go to 85 percent. ASCE estimates that it will cost 
over $1 billion annually for the next 20 years to rehabilitate 
all the documented unsafe dams in the United States.
    The request of $5.9 million offers a solid starting point 
to States to begin improving their dam safety programs. 
However, dam safety is ongoing and much more work is needed to 
be done to ensure that the nation's 93,000 dams continue to 
operate effectively and safely.
    We would also like to conclude by indicating our strong 
support for the Administration's proposed budget increase to 
the National Science Foundation. That concludes my testimony 
and I would like to thank you for the opportunity to present it 
and I will be happy to answer any questions you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Thank you, Mr. Mongan.
    Any questions?
    Mr. Goode. Just one. You were asking for $500 million over 
and above what EPA requested or just transferring $500 million 
and moving it to another account?
    Mr. Mongan. Over and above what EPA is requesting. We think 
that this program clearly needs the funding and full support.
    Mr. Sununu. Thank you very much.
    At this time I will turn the gavel over to Mr. Goode.
                              ----------                              

                                         Wednesday, April 12, 2000.

                LOVELACE RESPIRATORY RESEARCH INSTITUTE


                                WITNESS

JOSEPH L. MAUDERLY, VICE PRESIDENT
    Mr. Goode. Mr. Joseph Mauderly, from the Lovelace 
Respiratory Research Institute.
    Mr. Mauderly. Well, thank you.
    I am Joe Mauderly, and I am a Vice President and Senior 
Scientist of the Lovelace Respiratory Research Institute which 
is an independent nonprofit research organization in 
Albuquerque. And I am here to request funding of the EPA 
appropriation for the National Environmental Respiratory Center 
which is a program to address how complex mixtures of air 
pollutants affect human health.
    Our air quality regulations tend to focus on one pollutant 
or one source at a time and they are debated and argued that 
way and in response research also focuses on one pollutant or 
pollutant class or source at a time: To whit the current 
emphasis on particle research.
    The problem is that people don't breathe one pollutant or 
pollutants from one source at a time and everyone knows this 
but our behavior, both regulatory and research, has denied it. 
Now, there are high stakes in attributing health effects to the 
proper pollutants and sources and their combinations. We need 
to correctly estimate both the health effectiveness and the 
cost-effectiveness of control measures and yet these control 
measures are typically focused on one pollutant at a time.
    Now, the more we learn each year, the less it appears 
likely that any health effect observed in populations is 
actually caused by only one pollutant or one source. Now, this 
problem isn't new. But its complexity has kept it in the closet 
and you can't test every possible combination of air 
pollutants. In developing this program we first formed the 
broad-based advisory board that cuts across disciplinary and 
stakeholder lines and we sat down with them to develop a 
strategy. The long-term goal of the Center is to make progress 
by creating a new detailed data base in the laboratory on 
pollutant composition versus health. And then using that data 
base to analyze which pollutant species and combinations affect 
the different health effects that are associated statistically 
with air pollution.
    And this requires laboratory studies to control the 
exposures and the environment. It will apply identical health 
studies to several complex atmospheres having overlapping but 
different composition that were recommended by our committee 
and these include diesel and gasoline emissions, wood smoke, 
tobacco smoke, road dust, power plant emissions. Health 
measurements include things like allergies, asthma, 
inflammation, heart and lung function, cancer, the kinds of 
effects that are attributed to air pollution.
    Now, analysis of the combined data from these atmospheres 
will allow us to understand better the relationship between 
pollutant composition and health. By using real world source-
based atmospheres in this study instead of artificial 
atmospheres we will also achieve our short-term goal of 
providing some head-to-head comparisons that are badly needed.
    Now, this work is well underway and the preliminary work 
needed to start these studies is nearly completed. Workshops 
have been held to bring together the scientific community to 
design the details of these studies and to develop broad 
consensus. At about $4 million a year these initial studies 
will take about five years and it will take about one more year 
to do the statistical analyses to see where we are on the 
problem. In the meantime the results of the individual 
atmospheres will be published as they are acquired.
    Now, continuation of EPA support is critical. We have made 
good progress in obtaining funding from other stakeholders just 
as we agreed at the outset that we would. And we are getting 
closer to the target level but we are not there yet.
    Other sponsors who are contributing on the assumption of 
continued EPA involvement include the Department of Energy, 
nongovernment organizations in the automotive, engine 
manufacturing, trucking, chemical, petroleum, electrical power 
sectors. We have other commitments from the Department of 
Transportation and the State of California. And Lovelace 
respectfully requests that $2 million for this program be 
included in the fiscal year 2001 EPA appropriation.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Doctor.
    I appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     THE COALITION OF EPSCoR STATES


                                WITNESS

FRANCIS VAN SCOY, ASSOCIATE PROFESSOR OF COMPUTER SCIENCE AT WEST 
    VIRGINIA UNIVERSITY
    Mr. Goode. Dr. Francis Van Scoy.
    Ms. Van Scoy. Mr. Chairman, my name is Francis Van Scoy and 
I am an associate professor of computer science at West 
Virginia University and co-project Director for West Virginia 
EPSCoR. I am here to testify on behalf of the 19 States and 
Puerto Rico that are members of the Coalition of EPSCoR States. 
The experimental program to stimulate competitive research was 
established by the National Science Foundation about 20 years 
ago to assist those States that historically have not 
participated fully in Federal R&D funding to become more 
competitive. More recently, EPSCoR programs were started by 
other agencies including NASA, DoD, DOE, and NIH.
    The EPSCoR States represent about a third of our nation but 
receive only 7 percent of Federal R&D funding. As we all know, 
a strong connection has been established between R&D and 
education at universities and the long-term economic health of 
States and regions. For this reason, EPSCoR is vital to our 
States.
    EPSCoR provides funding for two types of components. First, 
research infrastructure improvement. This helps to build 
capacity by allowing us to secure equipment, faculty, startup 
packages, graduate students, professional development 
opportunities, and other things that enable our institutions to 
be more competitive. Second, there is a component called co-
funding. This is designed to help EPSCoR researchers become 
participants in regular NSF funding streams. These co-funding 
awards are supported by a combination of funds from the EPSCoR 
program, itself, and the NSF research directorates.
    In my State of West Virginia, research infrastructure 
improvements and co-funding have helped WVU develop unique 
capabilities and national competitiveness in materials science 
research and in non-literal dynamics. It has also led to the 
creation of new Ph.D. program in biomedical science, and a 
forensic science laboratory, and graduate program at Marshall 
University.
    Nationally, EPSCoR provided us a means to participate in 
the advanced networking and competing initiatives for the vBNS, 
the next generation Internet and the national PACI program.
    I am here today because the EPSCoR coalition is concerned 
about the EPSCoR budget request for the National Science 
Foundation and for NASA. Congress provided $55 million for the 
NSF EPSCoR core program for fiscal year 2000. When applying the 
across-the-board cut NSF reduced the fiscal year 2000 amount to 
$51.3 million. In fiscal year 2001 NSF is requesting only $48 
million for the EPSCoR core program. The EPSCoR core program, 
designed to enhance capacity on almost a third of our States, 
should not be reduced when NSF funding continues to be highly 
concentrated and NSF is seeking a budget increase in fiscal 
year 2001 of more than 17 percent or some $675 million, the 
largest dollar increase ever requested by the agency.
    In fiscal year 2001, NSF proposes to increase co-funding 
from $20 million to $25 million. Our concern is that this will 
reduce the availability of infrastructure improvement funds. 
Under their proposed budget, either most EPSCoR States will not 
receive an increase in their award or, worse yet, many EPSCoR 
States will not receive an infrastructure award at all. This 
causes serious concern because the infrastructure awards have 
been the most valuable component of EPSCoR over the years.
    We urge the Subcommittee to continue support for EPSCoR by 
appropriating $55 million in fiscal year 2001 funding for the 
NSF EPSCoR core program in the NSF education and human 
resources directorate.
    Finally, I would like to bring the NASA EPSCoR program to 
your attention. Congress appropriated $10 million for NASA 
EPSCoR in each of the last two fiscal years. This year, NASA 
requested only $4.6 million. We are 20 States, only 10 have 
ever received any award at all. Last year, NASA continued to 
fund the 10 existing research awards and also awarded all 20 
eligible States a planning grant to be able to develop a plan 
in collaboration with NASA centers so they can apply for new 
funding. Continuation would allow for all States to receive a 
research grant, assuming that each submitted acceptable grant 
proposals.
    EPSCoR is a small program at NASA but it is very important 
for the 20 States that participate in it. We ask for the $10 
million to fully fund the EPSCoR research programs.
    Thank you for your consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you very much.
    Is Virginia one of the 19 States?
    Ms. Van Scoy. No. Virginia is not.
    Mr. Goode. Okay. Mrs. Meek, have you got any questions?
    Mrs. Meek. No. I am pleased to see you. Are you associated 
with the University of West Virginia?
    Ms. Van Scoy. Yes, I am. I have been there for 21 years as 
a computer science professor.
    Mrs. Meek. Thank you very much.
    That university has always been a diversified university 
according to the student population.
    Ms. Van Scoy. Yes, it has.
    Mrs. Meek. Thank you.
    Ms. Van Scoy. Thank you.
    Mr. Goode. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                        NUCLEAR ENERGY INSTITUTE


                                WITNESS

RALPH BEEDLE, SENIOR VICE PRESIDENT AND CHIEF NUCLEAR OFFICER
    Mr. Goode. Mr. Ralph Beedle from the Nuclear Energy 
Institute.
    Mr. Beedle. Thank you, Mr. Chairman and Members of the 
Subcommittee. First of all, I would like to thank the House for 
their support of the Nuclear Waste legislation, and in 
particular, Mrs. Meek, for your participation. Thank you very 
much.
    I would also like to thank the Committee for your support 
and careful oversight of the Environmental Protection Agency, 
and in particular, the Agency's administration of the National 
Priorities List. I appreciate the invitation to testify today 
on that subject.
    Over the last 3 years, this Committee has instructed the 
EPA to continue its longstanding policy of deferring to the 
Nuclear Regulatory Commission for clean-up of NRC-licensed 
sites and recognition that dual regulation by the EPA is not in 
the public interest, nor a good expenditure of public or 
private funds.
    August of last year, you directed the EPA and the NRC to 
enter into a Memorandum of Understanding to eliminate dual 
regulation. Mr. Chairman, I regret to report to you today that 
that is not working.
    First, the EPA is still involved in the clean-up of NRC-
licensed facilities. The EPA is still wasting time and 
resources, it is interfering with the NRC's regulatory process 
without benefiting public health and safety. In fact, this 
year, the EPA codified that resistance to this Committee's 
direction by issuing a policy document to their regional 
offices that is nothing less than a blueprint for dual 
regulation.
    Second, it is not obvious to us that there has been any 
substantive progress in developing an MOU between the EPA and 
the NRC. At most, there has been an exchange of letters between 
the agencies that restates positions rejected by each other in 
1998.
    And, third, based on the record to date, we believe it is 
unlikely that an MOU, even if concluded in the future, will 
provide a lasting resolution to this dual-regulation issue.
    Since 1992, EPA and the NRC have had an MOU that resulted 
in the EPA deferring to the NRC with regard to clean-up of NRC-
licensed sites. Unfortunately, over the last 4 years, 
disagreements between the agencies over clean-up standards has 
led to a situation where threatened actions, allegations and 
EPA interference in the NRC's regulatory process has 
characterized their relationship. In other words, Mr. Chairman, 
after 3 years of guidance from this Committee and more than 6 
months after you directed EPA and the NRC to work out an MOU, 
we still see no progress toward that solution.
    When testifying before this Committee last year, I was 
asked to testify consider suing the EPA for failure to follow 
the Committee's directions. In considering the merits of a 
lawsuit, I concluded that the solution is really one of 
legislation. And I recommend that you consider giving 
legislative language in the appropriations bill that would 
preclude the EPA from the ability to conduct dual-regulation 
activities.
    Mr. Chairman, we continue to look to you and members of 
this Committee for leadership and the action needed to resolve 
this timely and important issue.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. We will include your entire statement in the 
record. I appreciate your comments.
    Mr. Beedle. Yes, sir.
    Mr. Goode. I liked what you had to say.
    Mrs. Meek, anything?
    Mrs. Meek. I was going to ask him to put a statement in the 
record, but that has been done. Thank you.
    Mr. Beedle. Thank you, Mrs. Meek.
    Mr. Goode. Ms. Kaptur, do you have any questions?
    Ms. Kaptur. No questions. I just wanted to welcome you.
    Mr. Beedle. Thank you very much.
    Mr. Goode. Thank you, Mr. Beedle.
                              ----------                              

                                         Wednesday, April 12, 2000.

                          UNIVERSITY OF MIAMI


                                WITNESS

OTIS B. BROWN, PROFESSOR AND DEAN ROSENSTIEL SCHOOL OF MARINE AND 
    ATMOSPHERIC SCIENCE
    Mr. Goode. Dr. Otis Brown.
    Mr. Brown. Mr. Goode, Ms. Kaptur and Mrs. Meek, I really 
appreciate the opportunity to testify today on behalf of my 
colleagues at the Rosenstiel School of Marine and Atmospheric 
Science at the University of Miami. I am Otis Brown, dean of 
the Rosenstiel School. My remarks today will summarize the 
written testimony.
    We respectfully seek your continuing support in fiscal year 
2001 for two important ongoing projects:
    First, we seek third-year funding, through the 
Environmental Protection Agency, for the National Center for 
Caribbean Coral Reef Research, otherwise known as NCORE, to 
conduct research to protect and preserve the Nation's 
endangered coral reef resources.
    Next, we seek second-year funding, through the National 
Aeronautics and Space Administration for the National Center 
for Tropical Remote Sensing Applications and Resources--the SAR 
Facility. We have special expertise in both coral reef research 
and in remote sensing technology and applications. It is for 
these reasons that I appear before you today. I will, first, 
focus on the National Center for Caribbean Coral Reef Research.
    The Rosenstiel School is a major national research 
institute focusing on the living coral reef as a unique 
national and international resource critical to the vitality 
and health of the marine life and coastal marine environment of 
the Florida and the southeast. The environmental, climatic and 
manmade challenges to and the stress on these precious 
resources are expensive. To preserve and protect our reefs 
requires the organization and coordination of the broadest 
range of talent and resources.
    NCORE initiated a new approach to coral reef research. The 
Center seeks to coordinate U.S. coral reef policy and research 
and assemble major national and international initiatives 
pertaining to coral reefs. The initial focus is on problems 
faced by coral reefs in Florida and U.S. possessions in the 
Caribbean region. That includes Puerto Rico and the U.S. Virgin 
Islands.
    For fiscal year 2001, we seek $3 million through the EPA to 
continue and expand the National Center for Caribbean Coral 
Reef Research begun in fiscal year 1999, which is a parallel to 
the Hawaii-based and focused effort.
    Secondly, I would like to talk about the National Center 
for Tropical Remote Sensing Applications. Synthetic Aperture 
Radar, otherwise known as SAR, is a powerful remote sensing 
system able to operate in all weather, day or night. Space-
based satellite SAR systems are able to monitor the land and 
ocean in near real-time, map topography with unprecedented 
accuracy, assess storm and flood damage to urban and rural 
infrastructure and assess soil moisture and vegetation and 
health. SARs provide data that can be used to forecast major 
volcanic eruptions and understand the earthquake process and a 
host of other military, civil and scientific applications.
    The SAR Receiving Facility currently under construction at 
the University of Miami will provide a unique capability for 
the Caribbean and Southeastern U.S., with a wide range of 
applications in earth, atmosphere and ocean sciences, as well 
as more practical applications in environmental monitoring, 
natural hazard assessment and military defense applications.
    Last year, you provided support to launch this vital 
initiative. We hope to continue our partnership with the 
National Aeronautics and Space Administration in fiscal year 
2001 and seek $5 million for the NASA-advanced Tropical Remote 
Sensing Center--the SAR Facility.
    Mr. Chairman, we recognize that this will be another 
difficult year for you. However, we hope that you and your 
colleagues on the Subcommittee will find it possible to 
continue to support these two important initiatives that deal 
with issues of crucial national importance. The National Center 
for Caribbean Coral Reef Research will make important 
contributions to the national effort to save our endangered 
coral reef communities. Similarly, our proposal for the SAR 
Facility will enable us to continue our partnership with NASA 
in developing a vital resource in South Florida that will 
benefit the entire Nation.
    Thank you for allowing me to testify today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Dr. Brown.
    Mrs. Meek, any questions?
    Mrs. Meek. They do an outstanding job with the amount of 
funds that the Congress allocates to them, and we are very 
proud to have the dean testifying today.
    Mr. Brown. Thank you.
    Mrs. Meek. Along with him is Mr. Cyrruss Jollivette, who is 
the Vice President at the University of Miami, and a very good 
one. We thank you so much for being here.
    Mr. Brown. Thank you.
    Ms. Kaptur. You could not have a stronger advocate than 
Congresswoman Carrie Meek. You are very lucky she is on this 
committee.
    Mr. Brown. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

       THE AMERICAN SOCIETY OF MECHANICAL ENGINEERS INTERNATIONAL


                                WITNESS

JOHN ANDERSON, AVIATION R&D TASK FORCE OF THE AEROSPACE ENGINEERING 
    DIVISION OF THE ENVIRONMENT AND TRANSPORTATION GROUP, COUNCIL ON 
    ENGINEERING
    Mr. Goode. Mr. John Anderson.
    Mr. Anderson. Good afternoon, Congressman Goode.
    Mr. Goode. How are you doing?
    Mr. Anderson. I am John Anderson, speaking on behalf of the 
Aerospace Engineering Division of the American Society of 
Mechanical Engineers International.
    We are extremely pleased to speak with you in a year where 
there is a proposed 3.2-percent increase in the total NASA 
budget for fiscal year 2001, different from the rather 
contentious hearings that some of you heard us involved with 
last year when there was a decline in NASA budget. We give 
great thanks to the House for their pivotal role of the passage 
of what is known as AIR-21, the Airport Investment and Reform 
Act for the 21st Century. However, we see a number of serious 
problems within the NASA budget concerning aviation. I will 
quickly address five of those.
    The first is that they combine their scant aviation 
programs, less than 5 percent of their total budget, in the 
space programs for an expected synergy. We are afraid that this 
synergy will result in a unidirectional flow from aviation to 
space as NASA contends with other pressures on their budget and 
great ventures into space.
    The second thing we would like to speak about is world 
trade and national competitiveness. The National Research 
Council reported that from the 1980s up to 1997 the aerospace 
share of the U.S. in the world market slipped from about 77 
percent to 55 percent. In January of this year, we saw that 
Airbus in France has garnered 55 percent of all future orders 
of large civil transport aircraft, Boeing constantly slipping 
down from what used to be a 60-percent share of the market. We 
see that Embrar in Brazil and Bombardier in Canada dominate the 
U.S. jet commuter market. During this same period of time, NASA 
reduced the investment in aviation by about $200 million. We 
think that to turn this around for the next orders for new 
technology in aviation that NASA should be vigorously 
supporting long-term, high-risk R&D for the next generation of 
subsonic and supersonic passenger transport.
    Our third point concerns aviation safety. Unfortunately, 
most of the spectacular accidents that have affected so many of 
us have, as their cause, a situation which is easily corrected 
by available technology and/or by short-term research. Now, 
NASA tells us they are active in those areas of safety. I would 
point out to you that in that 5-percent of the NASA budget of 
$700 million for aviation, $70 million has the earmark 
``aviation safety,'' one-half of 1 percent. Yes, they know the 
issues. Are they really equipped to solving them? And they can 
be solved.
    Our fourth area is about the U.S. aerospace infrastructure. 
The root cause here is that industry now provides about 70 
percent of the R&D investment in aviation, the Government about 
30 percent. For many years that was about 50/50. And the 
Government research, principally done then by NASA, tends to be 
longer range; whereas, the industry research is for short-term 
gain. This has affected the forefronts of technology, 
computing, engineering mechanics and basic science for 
aeronautics.
    Our fifth and last point is NASA's critical role in 
supporting our university Departments of Aeronautical 
Engineering. Those programs, sir, are really suffering. There 
is not much NASA sharing R&D out there with universities any 
more. And aeronautics at the University level is a very 
expensive proposition. They are losing faculty. Importantly, we 
are losing the pipeline of aeronautical students to provide the 
next generation of U.S. expertise.
    Those five points were what I wished to say about the very 
small portion that NASA has for aviation.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Mr. Anderson.
    Ms. Kaptur, any questions?
    Ms. Kaptur. I thank you, Mr. Chairman.
    I just wanted to thank you for testifying today and say 
that when I looked at some of your comments here on the impact 
on the research budget, for instance, the zero funding of 
hypersonics now and the lack of emphasis on vehicle systems, 
propulsion, et cetera. I was one of the Members that sat on 
this Committee and predicted that would happen when the 
Augustine Commission reported and told us that if we put all of 
our marbles in manned space flight, this would affect every 
other account. And so I agreed with Norm Augustine. I still do. 
When I see this, it troubles me greatly. So I appreciate your 
testimony here today.
    Mr. Anderson. Thank you. I know him personally. He is a 
remarkable man.
    By the way, you have a model of the HST right up here, but 
it is probably not going to happen, except from France.
    Ms. Kaptur. Thank you.
    Mr. Goode. Mr. Cramer.
    Mr. Cramer. Mr. Chairman, I would like to thank you for 
your testimony today. It is information that we need to pay 
attention to, and thank you for bringing the information back 
before the Committee.
    Mr. Anderson. Thank you so much, sir.
    Mr. Goode. Thank you, Mr. Anderson.
    Mr. Anderson. Thank you, Congressman.
                              ----------                              

                                         Wednesday, April 12, 2000.

               AMERICAN HELICOPTER SOCIETY INTERNATIONAL


                                WITNESS

M.E. RHETT FLATER, EXECUTIVE DIRECTOR
    Mr. Goode. Mr. M.E. Rhett Flater?
    Mr. Flater. Mr. Goode, Ms. Kaptur, Ms. Meek, Mr. Cramer, I 
just wanted to say it is a pleasure to be here.
    I am the executive director of the American Helicopter 
Society. That is what AHS stands for. Our industry is a 
relatively small industry in the United States. It is made up 
of Bell Helicopter Textron in Fort Worth. It is made up of 
Boeing Helicopters in both Philadelphia and in Mesa, and it 
also includes Sikorsky Aircraft in Connecticut, with facilities 
in Florida at West Palm Beach.
    Eighty percent of our industry's product is devoted to 
national security. We seek today greater mobility for our 
Armies, which are getting smaller, and our Marine Corps. And 
there are serious demands on helicopter manufacturers to build 
helicopters and tilt rotor aircraft that are safer, more 
affordable, faster and that can lift more.
    We are dependent in our industry on investments by NASA to 
achieve these goals. Only NASA has the facilities, like the 40 
by 80 wind tunnel, the vertical motion simulator and other 
facilities at both Glenn in Ohio, at Ames in California, and 
Langley down here in Hampton. The concern that we have is that 
we have seen a serious diminution in the amounts allocated for 
aeronautics at NASA. Historically, around 10 percent of NASA's 
budget; today, it is down around 4.8 percent total devoted to 
aeronautics.
    Basic research in rotorcraft, which is a core competency of 
NASA, has dropped from the $50-million level down now to $26.6 
million in the current account. Much of that money is obviously 
devoted to maintaining the facilities like the 40 by 80 wind 
tunnel. Therefore, the net amount going to the bottom line to 
support future research is less than half.
    What we are asking you today is support our request for an 
$18-million augmentation to the $26.6 rotorcraft basic research 
program budget. This is not a huge amount of money, but it is 
really important for our industry in restoring its health and 
providing the kinds of answers that the United States Army and 
our industry need to provide to meet national security 
requirements in the future.
    I am happy to answer any questions you may have. In 
addition to my written testimony, which I provided to you all, 
I have a one-pager of requested committee actions. I would be 
happy to answer any questions you may have. And I appreciate 
your listening to me.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Mr. Flater.
    Ms. Kaptur.
    Ms. Kaptur. I just want to say that in view of the time you 
have been given to testify, you have done an excellent job. We 
thank you for being here today.
    Could I ask you, as you note the declines in NASA 
investment in the areas in which you are most interested, where 
have you seen NASA increase its investments?
    Mr. Flater. Well, the increases, quite honestly, are in the 
space area. They have not been in aeronautics. We have lost two 
huge programs this past year. Those huge programs--High Speed 
Transport and Advanced Subsonic Research--they did not directly 
impact us, but indirectly they do because that money finds its 
way into things like composite development, and lighter 
structures, and more durable structures and safety.
    So we are dependent upon, overall, the NASA aeronautics 
budget for support. Sure, our part of it is pretty small, $26.6 
million, and we are asking you to bump it up a little bit to 
$44--to restore a little bit of health to our situation and let 
us make the kinds of advancements that we have to make in 
safety, that we have to make in terms of range, speed, payload, 
in terms of national security, things of this nature.
    Ms. Kaptur. I know that time is limited. I just must ask 
this, as someone who has never personally flown a helicopter. 
If you look at the last 50 years, what have been one or two of 
the major advancements in helicopter flight that you could 
state for the record for someone who is not an aeronautical 
engineer? I would be curious, just from your own knowledge of 
the industry, what are some of the really critical new advances 
we have made?
    Mr. Flater. I am going to cite two real quickly. One is the 
basic technology, and that is the rotor system. And a 
helicopter, of course, used to be made of wood and is now made 
of composites. The main rotor assembly itself is made up of 
lead lag elements, flapping elements to handle different 
torsional loads. The number of parts number in the many, many 
thousands. In the course of the last several years, this 
industry has developed a bearingless main rotor that reduces 
the parts count to 50 percent--huge development made with the 
support of NASA.
    Secondly, the events of last Saturday notwithstanding, the 
tilt rotor development is major. It is absolutely major. It 
will revolutionize this industry. Bell Helicopter and Boeing 
have made huge investments in this area. Sikorsky is doing wind 
tunnel tests right now using a variable diameter device. This 
is an aircraft, as you well know, that can fly like a turbo 
prop, get there fast, get long distances and yet can land like 
a helicopter, and that is what you need in national security 
requirements.
    We also think that is what you need to relieve some of the 
congestion and delays that we see at our major airports because 
these aircraft can run independent of runways. So we do not get 
tied up in stacks, using VOR systems and things like this. We 
can land independent of runways, and we do not need to add to 
the congestion, but we can add to the capacity throughput.
    These are two important developments. I can go on, but I 
know your time is limited.
    Ms. Kaptur. To me, that is fascinating. I really appreciate 
that.
    Mr. Flater. But we cannot do these things without NASA. 
NASA created the XB-15. NASA's research gave us the B-22.
    Mr. Goode. Any further questions?
    Ms. Kaptur. Not for me.
    Mr. Goode. Let me ask you one. What do you call the 
aircraft that crashed at the beginning of the week?
    Mr. Flater. Yes, sir. I have a report on that here. That 
was an MV-22 Osprey.
    Mr. Goode. How fast will the MV-22 go?
    Mr. Flater. The aircraft will fly 360 miles an hour flat 
and level. It will do 400-plus miles an hour in a slight dive. 
That is pretty fast.
    Mr. Goode. That is.
    Mr. Flater. It also means that our Marines on board these 
aircraft will not got shot down to the ground by ground fire as 
quickly and as easily as I was shot down in Vietnam years ago. 
So it is really important to us.
    Mr. Goode. About how much does one of those aircraft cost?
    Mr. Flater. If we go to full production cycle, if we do the 
whole production, we take the nonrecurring costs and we lay 
them over everything, we are looking at somewhere on the order 
of about $32 million a copy. But if we do not build the whole 
thing, we are talking about $40-plus million a copy.
    Mr. Goode. Thank you very much.
    Mr. Flater. Thank you, sir.
    Mr. Goode. We appreciate your testimony.
    Ms. Kaptur. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                        FLORIDA STATE UNIVERSITY


                                WITNESS

RAYMOND E. BYE, JR., PH.D., INTERIM VICE PRESIDENT FOR RESEARCH
    Mr. Goode. All right. We will hear from one more witness 
before we have to break.
    Dr. Raymond Bye.
    Mr. Bye. Thank you very much, Mr. Goode, Ms. Kaptur, Mr. 
Cramer. Thank you for the opportunity for allowing me to appear 
again before this Committee. I had a chance to be here before, 
going back to the time of Congressman Bolling, when he was in 
the chair, with Mr. Stokes, with Mr. Lewis, and Mr. Walsh. So 
thank you.
    I wanted to take just a minute and talk briefly to you 
about the fiscal year 2001 budget request of the National 
Science Foundation pending before you. I am certain that you 
know the many reasons why this small agency is so vitally 
important to our Nation. It provides the foundation in all of 
the natural and physical science and engineering research that 
feeds the breakthroughs and NIH and DoD. An eloquent advocate 
of NSF's important role is Harold Varmus, who felt that the NIH 
could not survive without a healthy and vigorous NSF.
    As you know, the NSF is seeking a 17-percent increase this 
year, a $4.57-billion request that is the largest dollar 
increase ever proposed for the Agency. Were this NIH, few would 
have any concern about endorsing such a budget. However, NSF 
does not have the medical hook that NIH has to garner its 
support. But what the NSF does is so important to our 
universities and our citizens in moving this Nation forward in 
areas like telecommunications and information technologies, in 
genetics, biomedical and biological research and developing new 
composite materials and substances and a wide array of 
important scientific applications.
    This Federal investment in NSF has led to the creation of 
new industries, new jobs and additional tax revenues. Many 
economists have concluded that R&D is the best investment we 
can make as a Nation. NSF is clearly one of the best places to 
put those dollars. I hope that at the end of the appropriations 
process this year, this Subcommittee can find the resources 
needed to make this important investment.
    I would next like to comment briefly on the National High 
Magnetic Field Laboratory, which is located at Florida State 
University. We have recently submitted a second 5-year renewal 
proposal to the NSF. As you may remember, the Magnetic 
Laboratory was relocated to Tallahassee, Florida, from 
Cambridge, Massachusetts, MIT, in the very late 1980s. The 
decision by the National Science Foundation has turned out to 
be an excellent one, as we have seen the laboratory grow to 
clearly the best in the world. The laboratory has grown 
dramatically over the past 10 years in both facilities, which 
are unique in one-of-a-kind instrumentation and in the number 
of scientific users who come to Tallahassee from around the 
Nation and the world to gain access to the incredible resources 
available only at this facility.
    Our renewal proposal has been submitted to NSF and asks for 
new funding beginning in fiscal year 2001. We hope the NSF will 
provide our full request and that you will have resources to be 
able to give serious consideration to the full increase 
requested by the NSF in their 2001 budget plan pending before 
you.
    One crucial component of this National High Magnetic Field 
Laboratory Renewal proposal relates to a previous interest of 
this Subcommittee; namely, your concern about the progress 
other nations like Japan and Western Europe are making in the 
area of nuclear magnetic resonance, a new technology so 
critical to the biological sciences, biomedical advances and 
progress in materials and other physical sciences.
    Industrial applications are numerous and lucrative, but we 
are not the leaders in the world. Last year, you asked OSTP to 
look NMR. We have been working very closely with other 
agencies, including NSF, in this review. I want to thank you 
and the Committee for your support in that area.
    I have concluded my statement with reference to one 
additional project that we are working with NASA on relating to 
a joint activity between some of our scientists at Florida 
State, at Alabama, Louisiana, Mississippi and Georgia Tech, 
focusing on natural hazards mitigation activities. It is clear 
that the Southeast coast is going to be hit very hard in the 
future with additional storms, hurricanes, tornadoes. We have 
come a long way in the ability to be able to predict those, and 
we think we can be very helpful in that area.
    Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Dr. Bye.
    Ms. Kaptur, any questions?
    Ms. Kaptur. I just wanted to ask a question about Florida. 
Now, we have heard testimony from the University of Miami. This 
is Florida State. Are you an integrated campus system? or are 
you freestanding universities?
    Mr. Bye. The University of Miami is a private institution 
and, of course, located in Miami. Florida State is one of ten 
State universities within the State University system in 
Florida.
    Ms. Kaptur. Are each freestanding in the State budget?
    Mr. Bye. We are freestanding in the State budget.
    Ms. Kaptur. Thank you.
    Mr. Goode. Mr. Cramer.
    Mr. Cramer. I thank you for the information you have 
supplied to the Committee. I am very interested in NSF, NASA 
and the joint project over the NASA issues that you have there. 
We have used Florida State a lot. I am up at the top of 
Alabama, and Peter Ray has participated with us in some general 
issues up there regarding the National Weather Service.
    Mr. Bye. I understand.
    Mr. Cramer. We thank you for that partnership and 
opportunity. And I also want to congratulate you and Florida 
State for the revenues that you generate from your patents and 
licenses, which are phenomenal.
    Mr. Bye. We had $47 million coming in this year as a result 
of those activities by our faculty members, who work very hard 
to commercialize those technologies with a variety of sectors, 
and we have been very lucky in that.
    Mr. Cramer. Keep up the good work.
    Mr. Bye. Thank you, sir.
    Mr. Goode. And congratulations on January 4th.
    Mr. Bye. Thank you, sir. That was an awfully good game.
    Mr. Goode. That was a good game.
    Mr. Bye. Thank you, sir.
                              ----------                              

                                         Wednesday, April 12, 2000.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

DANIEL B. WILLINGHAM, PH.D.
    Mr. Goode. Daniel Willingham, from the University of 
Virginia?
    Mr. Willingham. Mr. Chairman and Members of the Committee, 
I am Dr. Daniel B. Willingham. I am an Associate Professor of 
Psychology at the University of Virginia. I am submitting 
testimony on behalf of the American Psychological Association, 
a scientific and professional organization of more than 159,000 
members.
    Our behavioral scientists play vital roles within three 
agencies under this Subcommittee's jurisdiction: the National 
Science Foundation, the National Aeronautics and Space 
Administration, the Department of Veterans Affairs.
    In my oral testimony, I would like to highlight the need 
for investment in basic research at NSF. NSF is currently 
celebrating its fiftieth anniversary as the only Federal agency 
whose primary mission is the support of fundamental research in 
science and engineering. As a member of the Coalition for 
National Science Funding, APA urges the Subcommittee to 
reinvest in the critical basic research enterprise that is 
responsible for many of the most exciting discoveries and 
dramatic advances in scientific understanding and technological 
development in the last 5 decades. Federal support for basic 
research has played a major role in the longest sustained 
economic growth in this country's history.
    In the 1990s, NSF's basic research budget grew at an annual 
rate of 1.9 percent, much less than the 5.1-percent annual 
growth rate in the 1970s.
    It is clear that many of the technology innovations enjoyed 
today are based upon research done 20 and 30 years ago. 
Innovations, 20 to 30 years in the future, will depend upon the 
significant investment in present-day research.
    For example, one aspect of my own work examines how older 
people learn to manipulate devices that are novel to them such 
as a computer mouse or a joystick.
    One long-term goal of such research is to make computers 
easier to use for older people. The Joint Coalition for 
National Science Funding is applauding the President's proposed 
fiscal year 2001 budget of $4.57 billion for NSF and urges this 
Subcommittee to support an increase of at least this amount.
    Psychological researchers can play a particularly important 
and unique role in NSF's primary research initiatives, the 
Information Technology Research Program. NSF takes the lead 
role in this multi-agency effort to increase long-term computer 
science research and provide scientists access to world-class 
super computers.
    One of the stated goals of the initiative within NSF is to 
examine social and ethical implications of emerging information 
technologies. Behavioral and social scientists have expertise 
in addressing vital questions regarding design of, access to, 
and potential impact of these information technologies as they 
become increasingly prevalent in our lives.
    APA supports the Administration's request for an increase 
in fiscal year 2001 funding for the multi-agency information 
technology research initiative. We view the proposed total of 
$327 million for information technology research at NSF as an 
excellent first step. However, NSF should be strongly 
encouraged to make research on the impact of emerging 
technologies on society and particularly the potential effect 
on children's and adolescents' development, a funding priority 
within both the initiative and the agency's core disciplinary 
research programs.
    Psychological scientists address a broad range of important 
issues and problems confronting our Nation from basic research 
on the impact of technology on children's development to NASA-
funded studies of how to optimize next-generation spacesuits 
and VA-sponsored development of tools to better detect 
Alzheimer's disease.
    I urge you to place a high priority on reinvestment and 
vital behavioral research within the NSF, NASA, and the VA so 
that our Nation can meet the millennium scientific and 
technological challenges.
    Thank you for your attention.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Dr. Willingham.
    Any questions?
    Ms. Kaptur. No. I just want to thank the Association so 
much for testifying today. I was very interested in what you 
had to say. Thank you.
    Mr. Willingham. Thank you.
    Mr. Cramer. As well, thank you for your testimony. The 
American Psychological Association--I know that to me and to my 
office, my children's issues have been very, very available, 
and I thank you for that. Pass that on, if you would.
    Mr. Willingham. I will.
    Mr. Goode. Thank you, Dr. Willingham.
    We will recess.
    [Recess.]
                              ----------                              

                                         Wednesday, April 12, 2000.

                            EARTH UNIVERSITY


                                WITNESS

BERT KOHLMANN, CHAIRMAN
    Mr. Goode. Mr. Bert Kohlmann. Thank you. Go ahead.
    Mr. Kohlmann. Good afternoon. Mr. Chairman and Members of 
the Subcommittee, thank you for providing me with the 
opportunity to appear before you. I am Chairman of the project 
of EARTH University located in Costa Rica.
    I am here today to request the Subcommittee's assistance 
with funding this project under the NASA account. Since 1994, 
EARTH University has been the lead institution in a multi-
international effort involving the Center for Crystallography 
at the University of Alabama at Birmingham, 12 research 
institutions in Latin America and NASA, to find treatments and 
a cure for the deadly Chagas disease.
    Chagas disease is one of the primary causes of death in 
Latin America. The disease often affects the poorest of the 
poor in the humid tropics. It is transmitted through the bite 
of a small bug that feeds on the human blood.
    Chagas affects 20 million people worldwide and kills more 
than 20,000 people in Latin America each year. 150,000 people 
are infected with Chagas in the United States. The disease 
costs the public approximately $2 billion annually in lost work 
hours. After the bug bites a human, it releases a deadly 
parasite into the wound which then enters the bloodstream.
    The parasites then multiply and eventually attack the vital 
organs which ultimately leads to death. There is no known cure.
    NASA became interested in EARTH's efforts with Chagas 
disease after NASA officials visited EARTH's medicinal plant 
gardens. NASA then proposed beginning a multinational project 
to help fight Chagas.
    EARTH's research has left to the isolation and purification 
of two compounds from a tropical tree. Extracts from the tree's 
part contains natural elements that could inhibit the 
parasites.
    This could lead to the cure for Chagas disease and could 
lead to treatments or cures to other serious diseases such as 
malaria and Dengue fever.
    NASA has successfully flown Chagas experiments on four 
space shuttle missions in an effort to grow very pure crystals 
of a protein in microgravity. NASA has committed $150,000 to 
the project, and will include EARTH in a project on the 
International Space Station.
    The Center for Micromolecular Crystallography at the 
University of Alabama in Birmingham has used the crystals from 
space to try and map the protein structure so that the 
effective pharmaceuticals can eventually be developed to combat 
the disease.
    As you may know, EARTH University is a science-based 
international agricultural university which was created in 
Costa Rica in 1986 with significant financial support from 
USAID, the Kellogg Foundation of Michigan, and the Republic of 
Costa Rica.
    Since 1986, EARTH's scholarships endowment has doubled. 
EARTH has revolutionalized banana production. EARTH has been 
recognized as a world leader for demonstrating how to balance 
production with conservation of the tropical rainforest.
    EARTH University and the other multinational institutions 
have contributed an estimated amount of $5 million to the 
Chagas Disease Space Project. The budget for the next 5 years 
is $14.2 million. EARTH and its team have committed $6.5 
million in an effort to finish the project. We seek a Federal 
investment of $7.7 million for a 5-year period from the NASA 
account for continued collaboration in scientific research with 
the University of Alabama at Birmingham and NASA.
    This would allow the team to help identify and develop 
compounds to cure Chagas disease which would not only benefit 
Latin America, but the entire western hemisphere.
    Thank you for your support of this request.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Mr. Cramer, any questions?
    Mr. Cramer. No.
    I just want to congratulate you on the work you have been 
doing. I have been down there to Birmingham to observe to the 
extent that it can be, observed your partnership with UAB and 
the projects that you are working with them on, and I want to 
encourage our Members to be aware that that is an important 
side of what NASA does.
    Mr. Kohlmann. Thank you very much.
    Mr. Goode. In your testimony, you state that 24 million 
people are affected. Will all those 24 million die?
    Mr. Kohlmann. It varies. It varies depending on the 
locality. If you live, let's say, in Bolivia or Brazil, the 
strain of the parasite is very, very active and within about 3 
years, you are dead.
    If you have the chance of being bitten in Central America 
or in Mexico, for example, the strain is not as aggressive, and 
you can live 15 to 20 years perhaps or even die of old age 
before it actually kills you. It depends also on when you get 
infected. So, if you get infected as a child, your chances of 
dying are greater than later on.
    Mr. Goode. Is it only in the western hemisphere?
    Mr. Kohlmann. Only on the western hemisphere, yes.
    The disease is associated with a very specific bug which 
only exists here in this hemisphere.
    Mr. Goode. What bug is that?
    Mr. Kohlmann. Oh, it is called the kissing bug. It is 
called the kissing bug because it usually bites around the 
mouth. So that is the name, the popular name.
    Mr. Goode. And it goes no further south than Bolivia and no 
further north than Mexico?
    Mr. Kohlmann. No. It actually goes all the way from 
northern Argentina, Chile, and Uruguay to southern Texas. There 
have been unconfirmed reports in Louisiana, but southern Texas 
has the bugs and the bugs have been found to be infected as 
well.
    Mr. Goode. What size are the bugs?
    Mr. Kohlmann. This size.
    Mr. Goode. Will you see the bug on you?
    Mr. Kohlmann. It is a very interesting story. The bug is 
very big. It is very showy. It is black and orange, but it is 
nocturnal. What it will usually do is it will hide during the 
day in the house, inside the crevice or hole or whatever, and 
it will come out by night when you are sleeping to bite you, 
and the bug knows very well when you are sleeping because it 
has sensors which detect the change in CO<INF>2</INF> 
concentration. So, when you start sleeping, your CO<INF>2</INF> 
level changes. So the bug knows immediately this person is 
sleeping and then he comes out and starts biting. So it is a 
very efficient bug, I must say.
    Mr. Goode. After the person is bit, do they know whether 
they are bitten the next day? Does it leave a welt like a 
mosquito?
    Mr. Kohlmann. It will leave a little puncture on the place 
it has bitten, but usually 2 to 3 weeks after having bitten, 
the area which was bitten swells. It swells very, very grossly.
    You know then you have Chagas at that moment. There is a 
small chance then of trying to stop Chagas at that moment with 
a special product, but most of the time, people in the field 
just do not make any association between having been bitten and 
getting the swelling, 2, 3 weeks later. They think about 
something else, and then they just forget about it and do 
nothing.
    By the time they know they have Chagas, it is too late. The 
heart will start having problems. Usually, what happens is the 
heart explodes. The parasite will eat the muscle of the heart 
until it is so thin that the normal pumping pressure just 
explodes, bursts. So you die of an instant heart attack.
    Mr. Goode. All the kissing bugs do not have Chagas, though?
    Mr. Kohlmann. Not all kissing bugs have Chagas.
    Mr. Goode. About what percent of them do?
    Mr. Kohlmann. It depends on the region again. If you go to 
South America, it can vary between 20 to 60, 70 percent of the 
bugs have infection.
    If you go to Central America, it is around 20 to 30 percent 
of the bugs having the infection. So it varies for the 
geography.
    Mr. Goode. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

SPACE SCIENCE WORKING GROUP OF THE ASSOCIATION OF AMERICAN UNIVERSITIES


                                WITNESS

DR. GLENN MASON, PROFESSOR OF PHYSICS, UNIVERSITY OF MARYLAND
    Mr. Goode. Dr. Glenn Mason.
    Mr. Mason. Mr. Chairman. I am Glenn Mason. I am a Professor 
at the University of Maryland-College Park, in the Physics 
Department. I am here to talk on behalf of the Space Science 
Working Group of the Association of American Universities.
    We are represented by 50 universities nationwide, several 
hundred active space researchers, and the space science, earth 
science, and life in microgravity science area.
    Just a general comment about the NASA in the last year, it 
has had a lot of successes and a lot of failures this year. The 
successes with Chandra were fantastic. The launch of the Terra 
mission and some of the smaller missions, IMAGE mission a 
couple of weeks ago--and then there have also been these 
problems in the Mars program which have been very painful, and 
I just would comment that it is painful for the agency, but it 
is also hard for the scientists.
    Some of my predecessors in this chair have worked years on 
missions that did not succeed in the Mars program. They lose 
years of data, but the agency, we work closely with it, and our 
impression is that they are doing a very good job in facing up 
to this. They are putting hard-nosed panels together. They are 
taking sensible device by adjusting their approach rather than 
tossing it and going off in some other direction. We support 
that.
    Regarding the budget for FY01, the sciences area, by and 
large, the first substantial growth in a number of years, and 
we certainly are delighted with that and recommend its passage. 
There are some excellent science initiatives in there. There 
are a couple areas of concern, but it is a very good budget.
    Just going through the various science offices, in the 
Office of Space Science, there is a new initiative, Living With 
a Star. This is based on the success of this mission of the 
solar hiliosphere observatory which looks at solar quakes and 
by using seismic data, earthquake data, or sunquake data is 
looking inside the sun, and Living With a Star builds on that 
to look at the sun from all directions. Obviously, from here, 
we only see one part of the picture, and Living With a Star has 
a research program to flesh it out, look at the sun from all 
directions, and piece together the science so we can understand 
better how the sun works and how the explosions that take place 
on the sun, such as the big one that hit us about a week ago, 
how they affect space assets and communications. So we are very 
enthusiastic about that.
    There are some small initiatives in the program like the 
Discovery Micromissions, which are terrific for university 
research such as our group does nationwide. These are small, 
quick-response, cost-effective missions.
    In the earth sciences, that program is going very well. It 
has got a flat budget this year which is a normal evolution. 
They have been building these big observatories. They are now 
getting ready to launch them. We especially command keeping the 
program going as it is, and there is a new initiative in there 
on the earth probe series that we believe is excellent. These 
are, again, small missions based on the small explorers in the 
earth science area.
    In life and microgravity science, there has been a real 
problem in the last few years where the slippage of the space 
station has opened up a flight gap between the last planned 
shuttle missions and the initiation of the station. The life 
sciences community sort of fell into that gap with no flight 
program and no mission to keep the community alive.
    We are very happy to see that in this budget for the first 
time, now within this coming year we are going to have activity 
on the space station for life science research, and we 
certainly hopes that starts as early as possible and is 
supported at a good level so that we start to get some 
investment back from the station in the science area. So that 
is a big plus.
    Some other nice parts about the budget that we like are the 
plus-up and the space grant consortium. That is something that 
we support.
    There is one issue at the end that is not exactly an 
appropriations issue, although sometimes people come to you 
with these issues, and this is an area called the international 
traffics and arms regulations, the ITAR. This is a ramp-up of a 
series of export regulations that is going to basically cripple 
a great deal of the foreign collaboration that is going on in 
space sciences.
    I understand the National Science Foundation is going to do 
a study of this, and if they come and need some help and 
assistance to do that study, we would ask your support for that 
because, as it is, it plans to put lawyers in the middle of the 
flight program, and that is something that is just not going to 
work.
    So thank you for your time, and I would be pleased to 
answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Dr. Mason.
    Mr. Cramer
    Mr. Cramer. Thank you for giving me some time, and I want 
to try to be brief.
    Dr. Mason, you brought up a lot of issues. I represent the 
Marshall Space Flight Center in Alabama, and all of the issues 
you brought up have been struggles that we have all barely made 
it through, but we have made it through those struggles and now 
we have an opportunity to have a budget that sends us in a 
different direction, not a totally different direction, but a 
significant different direction. We are all waiting anxiously 
to see what our allocation is going to be, to see what kind of 
budget we can hold onto.
    I especially appreciate your comments about the space grant 
colleges. Thank you.
    Mr. Goode. Thank you, Dr. Mason.
    Mr. Mason. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     NATIONAL SPACE GRANT ALLIANCE


                                WITNESS

DR. JOHN GREGORY, PROFESSOR OF CHEMISTRY, UNIVERSITY OF ALABAMA
    Mr. Goode. Dr. John Gregory.
    Mr. Gregory. Good afternoon. My name is John Gregory. I am 
professor of Chemistry at the University of Alabama in 
Huntsville. I am Director of the Alabama Space Grant 
Consortium.
    I am one of 52 State space grant directors in the country 
on whose behalf I am speaking to you today.
    The space grant program brings the inspiration of space to 
hundreds of thousands of students and teachers of science 
across America today. We address three national needs. One, 
improve the poor performance of U.S. school children in science 
and mathematics, to provide a skilled technical work force, and 
to improve scientific literacy in the general population.
    What do we do? Space grant is committed to improving 
science education at all levels. We excite 600,000 school kids 
each year about science. We award 2,300 scholarships and 
fellowships to university students, including 23 percent for 
minorities and 44 percent for women scholars and fellows, and 
we also benefit 36,000 college students and faculty.
    The space grant brings the NASA program in a much broader 
way to the general public, and our numbers on that are 14 
million.
    Space grant has no rival among science and education 
organizations, in the extent of its coverage, both in age, as I 
described, and in geographic extent.
    In most States, the National Space Grant Program is the 
principal link between NASA and the formal and informal 
educational communities. We are in many cases NASA in the 
States.
    As you know, Congress initiated space grant a little over 
10 years ago and has been a strong supporter. They provided 
$19.1 million for each of the past several years, and this 
year, NASA has included that amount in the budget.
    Ladies and gentlemen, we are at the turning point here. We 
have done our job as mandated in the legislation of 12 years 
ago. We have created a network of 550 colleges and another 200 
industries and other institutions.
    However, we now face a serious problem, and that our 
success means we face demands from our constituents which far 
outrun our ability to meet them.
    For the FY01 budget, the National Space Grant Alliance, our 
member organization, is requesting an appropriation of $28 
million. This is an increase of $9 million of which about one-
half would be used to upgrade States which presently only 
receive half-funding.
    The remaining $4.4 million will be used for cooperative 
efforts among space grant consortia to expend certain key 
efforts which we have identified. One is the addition of summer 
faculty and the increase in summer faculty internships at NASA 
centers, to promote the use of remote sensing to non-science 
users, and to extend nationwide certain modeled programs of 
which one example is the Colorado Citizen Explorer Satellite 
Program.
    A few examples in the States, Virginia has some major 
science teacher ed programs which are supported by funds from 
Virginia State, including programs for LD children and girls in 
science. It also has an industry-supported work force 
development program which is a national model.
    In Alabama, space grant has combined the resources of 
NASA's global hydrology center at Marshall with the Alabama and 
Georgia Cooperative Extension Services to demonstrate 
successfully the remotely sensed crop prediction. This model 
needs to be extended to other States.
    In conclusion, you, the Congress, have created a science 
education organization which is without equal or precedence. We 
urge you to nurture it so that it can achieve its potential.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Dr. Gregory.
    Are there any questions?
    Mr. Cramer. Mr. Chairman, Dr. Gregory is from my district. 
So I welcome you and want to endorse everything you said. This 
is your return appearance before this Subcommittee, and we 
thank you for that information.
    Dr. Gregory, just one quick question. How long have the 52 
space grant consortia programs been in existence?
    Mr. Gregory. They came--the program was actually--the 
legislation was passed in '87 or '88. I think the actual 
organization was implemented in '89.
    Mr. Cramer. It grew to 52 slowly but surely?
    Mr. Gregory. It was 19 to start with, and then Congress 
insisted there would be one in every State, but there was only 
funds to implement those at half-funding.
    Mr. Cramer. And the appropriation that you are requesting, 
the $28 million, is an increase of what?
    Mr. Gregory. $9 million.
    Mr. Cramer. Thank you very much.
    Mr. Goode. You have a great spokesman.
    Mr. Gregory. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                 THE AMERICAN MUSEUM OF NATURAL HISTORY


                                WITNESS

ELLEN V. FUTTER, PRESIDENT
    Mr. Goode. Ellen Futter.
    Ms. Futter. Good afternoon. I am Ellen Futter, president of 
The American Museum of Natural History, and I very much 
appreciate the opportunity to appear before you today.
    With your purview, including NASA and NSF, you are, as you 
know, pivotal to the future of science and education in this 
country and ultimately to the quality of American leadership in 
21st-century work force.
    NSF under skilled leadership has vitally important new 
initiatives in addition to its core research and education 
programs. Because of this, I urge you to fund NSF at the 
increased levels in its budget.
    Similarly, NASA with its able leadership captures 
imaginations, reflects our instincts for national leadership 
and our aspirations for the future. So I also urge you to fund 
NASA at the level it needs to meet its goals.
    I would like now to turn to The American Museum of Natural 
History's accomplishments and plans. The American Museum is a 
premier scientific research and public education institution 
with one of the largest and most diverse audiences in this 
country and in the world.
    In 1997, under congressional leadership, the Museum and 
NASA forged a critical partnership as a part of which we 
launched the National Center for Science Literacy, Education, 
and Technology, and since then, this relationship has broadened 
and developed as a model.
    The Museum's new Rose Center for Earth and Space offers 
dramatic testimony to its extraordinarily productive and 
fruitful partnership. What is the Rose Center? Well, I have 
actually brought you a picture to just give you a sense of what 
it at least looks like from the outside. It includes the new 
Hayden Planetarium, the most technologically and scientifically 
advanced planetarium in the world, as well as the new Hall of 
Planet Earth and Hall of the Universe.
    The planetarium's Digital Dome and space theater 
constitutes the world's largest venue for displaying 
astrophysical data.
    We have been extremely pleased in the last few weeks to 
welcome several bicameral, bipartisan groups of senior 
congressional staff who have toured the Rose Center with the 
exhibition designer as part of the design planning for the new 
U.S. Capitol Visitors Center.
    A few quick examples of the accomplishments in the NASA/
American Museum partnership, first, the Digital Galaxy Project, 
where we have worked together with other collaborators to 
create a unique scientifically accurate 3-D map of the 
universe. Second, three scientific bulletins, the BioBulletin, 
GeoBulletin, and AstroBulletin, whose regularly updated content 
is available both on site at the museum and on our web site, 
and third, the National Center itself reaching millions of 
Americans with 70 different educational products.
    For example, our environmental science curriculum is now 
piloted in 110 schools in 40 States, and the list is expanding.
    On other fronts, we are working with NSF Super Computing 
Centers, Time for Kids, with each edition which is 2 million 
students nationwide, and on the scientific research side, we 
have a new parallel computing cluster, an environment 
conservation and training program, and new initiatives in such 
important emerging fields as astrobiology.
    Our FY2001 agenda seeks to deepen and extend this 
partnership. We seek to maximize the Rose Center scientific 
visualization and modeling capacities, taking massive and 
highly complex datasets and making them visible.
    In the National Center, we will introduce an expanded line 
of teaching and learning tools, and we are moving to a 
systematic national distribution of the science bulletins to 
schools and communities throughout the country.
    Now is the moment to maximize shared investments, to extend 
the power and reach of the Rose Center in this model 
partnership. We have successfully leveraged Federal funds, and 
we have indeed more than matched the Federal share. The size of 
the American Museum audience is like no other, and we are 
poised to reach many, many millions more.
    In sum, the American Museum is a national resource with a 
singular combination of research capacity, over 200 scientists, 
collections, more than 32 million specimens and artifacts, and 
educational outreach capacity.
    I thank you again, Mr. Chairman and Subcommittee Members 
for your past support and for the chance to appear today. We 
are eager to make a growing contribution to enhancing science 
literacy in this country. We think we have an extraordinary 
reach among young and old and as well a unique integration of 
scientific research and education.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Doctor.
    Mr. Cramer?
    Mr. Cramer. Thank you for that wonderful testimony, and for 
bringing the word of your renowned institution here.
    Your Rose Center and the Gottesman Hall of Planet Earth, 
those are complementary programs?
    Ms. Futter. The Rose Center embraces the Hayden 
Planetarium, completely reconstructed from the old. The Hall of 
the Universe and the Hall of Planet Earth all do.
    Mr. Cramer. How long did you work on the Rose Center?
    Ms. Futter. The Rose Center was six years in conception and 
three years in construction.
    Mr. Cramer. And how was it funded?
    Ms. Futter. It was funded through a public/private 
partnership, which embraced public local funding and private 
funding primarily.
    Mr. Cramer. I can't wait to see it.
    Ms. Futter. Please come and see us. We look forward to 
having you visit us.
    Mr. Goode. Thank you.
    Ms. Futter. Thank you for having us.
                              ----------                              

                                         Wednesday, April 12, 2000.

                             CARNEGIE HALL


                                WITNESS

ISAAC STERN, PRESIDENT
    Mr. Goode. Mr. Isaac Stern.
    Mr. Stern. Good afternoon.
    Mr. Goode. Good afternoon, sir.
    Mr. Stern. Beginning, I want to thank Chairman Walsh for 
his past support, for which we are very grateful.
    I think that you will have materials that have been given 
to you to read, and rather than go through that, let me just 
hit a few things myself as to the whys and wherefores of why we 
are here. With me is our Executive Director, Mr. Franz Xaver 
Ohnesorg, who is a world class, probably the leading person in 
the world to lead a major cultural institution, and he has been 
with us--he has taken over since September, though he was there 
a few months before, and his leadership and imagination have 
been central to the enormous growth of ideas and activities.
    Why Carnegie Hall other than other halls? There are other 
good halls in the world, so why are we unique? Because since 
1891, when this hall opened under Tchaikovsky, we are the only 
hall in the world, the only single one, where every single 
orchestra, every single conductor from the whole world, from 
Europe, America, South America, Japan, Australia, anywhere, has 
been on the stage of Carnegie. We are the only one in the world 
who can say that. And in a word, Carnegie and the United 
States, to most of the world of music, are synonymous, so we 
have a special role.
    Secondly, economically, I don't think that Congress is 
unaccustomed to figures being used rather freely. However, 
there are figures that we know. $39 billion in income passes 
through the entertainment group in the United States, and in 
New York alone, several billion dollars of activities have to 
do with economic life in New York City.
    As far as we are concerned, we are simply the holders of a 
faith. This country was founded by immigrants from all over the 
world, and they brought their cultures. We are the caretakers 
of those cultures of every one. I don't think there is anybody 
in this room or in the Congress who doesn't have an immigrant 
parent, grandparent or great-grandparent. They are what made 
this country, and we are what put them together in Carnegie. So 
we are simply carrying on an old tradition, and in a sense, an 
old, a very old responsibility. It is our belief that education 
is a primary function of an artistic institution, because 
nothing provides the sense of self for a nation as its artistic 
and cultural heritage. We think that the greatest wealth we 
have is the minds of the young children in the future, and it 
is to them we owe a responsibility.
    Therefore, education is for us a key word. Education is a 
free mantra today. The question is what kind of education and 
how do you do it?
    We are building in the last possible space under Carnegie, 
Zankel Hall, which we budgeted at $75 million. We have about 
$62 million at the moment. What we are about is a little bit 
connected with--let us use a word from our sister organization 
magazine, ``Natural History.'' It is a wonderful place. It 
happens to be across the street from my office, and it is an 
incredible area of knowledge and dissemination of knowledge 
through the technology of today. That is what we want to do at 
Carnegie. We want to have Carnegie be able to teach the quality 
of music as an educational factor, not as an additional social 
adornment, but as basic to education. We believe that an 
educated child is a civilized child, and we believe that the 
arts are basic, complete to education.
    Therefore, what we are doing is trying to get to the minds 
and hearts of the young people, the youngest beginning with 
pre-kindergarten and going through the first 8 years as quickly 
as possible. We do as much as any single organization in in-
school training in New York that we know of. We provide 
materials. We train teachers. We send people to the schools. We 
go to the schools, and we get them to come to us. Getting into 
the minds of young people is what our responsibility is, and I 
think it is a responsibility of all of us who believe in 
America as a quality of life, and what we will leave before. 
That is central to everything that we are doing. We present 
concerts. The world comes to us. Everybody knows. You can read 
it in the papers, see it all the time.
    Behind that is a thoughtfulness about humanity, and we 
care. We care about the future. We care about our kids. We care 
about this country, and that is what we are about, and rather 
than try and give you and read to you the entire thing that you 
will have and excerpt it at your leisure, I would be delighted 
to answer any questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Thank you, Mr. Stern. Are there any questions?
    Mr. Cramer. I do have one.
    Mr. Goode. Go ahead.
    Mr. Cramer. Is the Zankel Hall the Third Stage?
    Mr. Stern. It is.
    Mr. Cramer. And you have raised $62 million toward the $75 
million?
    Mr. Stern. We have.
    Mr. Cramer. Where will that be? Not where Carnegie Hall is 
now.
    Mr. Stern. If you know Carnegie, it is along--below 
Carnegie Hall, there used to be a cinema. As a matter of fact, 
the original recital hall.
    Mr. Cramer. It is not there any more?
    Mr. Stern. No. We have recaptured all of that space and all 
the private shops that were along 7th Avenue from 57th to 56th 
Street, and we started what is now a major engineering program 
in that area, to dig out of the bedrock of Manhattan a little 
further down, to create a hall that will hold 650 to 680 
people. It was the original recital hall. It was even opened a 
year before Carnegie. It was opened in 1890. And about 7 years 
later was turned into a couple of things, and since then, 
elevator shafts, air conditioning have taken up some space, 
this, that and the other thing. It is an enormously complicated 
engineering feat in itself to be watched as it is coming to be 
is something to see, because we have to prop up the hole while 
we are building under it, and build certain supports that will 
not only support the main hall, but also not transmit vibration 
and noise.
    Mr. Cramer. How long will it take?
    Mr. Stern. It will be, with the help of everybody, 
including the Congress, we hope to open on the 5th of May of 
2002. It will be our--the 5th of May is our anniversary date. 
It will provide for the first time a medium stage for Carnegie 
for not only chamber music, but chamber dance, chamber theater, 
chamber orchestra, and the floor can be raised this way or that 
way or raise in the center, and what is most important for me, 
be flat, and we can have 800 kids sitting on the floor. We can 
touch them and talk to them and get into their heads directly 
there where we are.
    More than that, we can then create programs using modern--
all the modern technology that has been developed so 
fantastically in the last ten years, to teach those kids there, 
and others, sitting wherever the home states of any of the 
Congressmen will be. We can touch from Alaska, to Hawaii to 
Rome, to Paris, Tokyo. We can touch the world from Carnegie 
Hall. And as we are the standard setters of musical standards 
today in America, and have been since 1891, we can share those 
standards with the entire country and indeed the entire world. 
Carnegie is a center for everybody, and we want to make it 
available to as many people as we can touch with everything 
that we can learn, and with your help, we can do something 
about it now.
    Mr. Cramer. Thank you.
    Mr. Stern. Any other questions?
    Mr. Goode. No, but we appreciate your testimony, and thank 
you very much.
    Mr. Stern. I thank you very much for your time.
                              ----------                              

                                         Wednesday, April 12, 2000.

               NATIONAL EMERGENCY MANAGEMENT ASSOCIATION


                                WITNESS

JOE MYERS, PRESIDENT, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION, AND 
    DIRECTOR, FLORIDA EMERGENCY MANAGEMENT AGENCY
    Mr. Goode. Mr. Joseph Myers.
    Mr. Myers. I appreciate the opportunity to be here today, 
Mr. Chairman.
    I am Joseph Myers, Director of Florida's Division of 
Emergency Management, and the President of the National 
Emergency Management Association. NEMA is a national 
organization of the state emergency management directors are 
responsible to the governors for emergency management 
activities, and we are the people you rely on when you have 
disasters in your--or your constituents area--to work for the 
local government and the state, together to get the disaster 
assistance, and I know that you have all probably had disasters 
in your respective districts.
    Included in the written testimony, we talk about what we 
call the Emergency Management Preparedness Grants, domestic 
preparedness, competitive grants under hazard mitigation 
programs and some standards and accreditation programs.
    I know you have had a long day, but I would like to focus 
my attention just on what we call the state and local 
assistance funding out of the Emergency Preparedness 
Performance Grants.
    What this is, it is grants that go to the states from FEMA. 
The states pass two-thirds to the local governments, and there 
is a match requirement of 50 percent. And they are to provide a 
foundation for basic emergency management capabilities, 
planning, training, exercising, public education and 
information.
    Our concerns are that this has been stagnant, this 
particular line item, and it is only--virtually the only 
program within FEMA that FEMA hasn't requested an increase 
really in the last 7 years.
    There are a lot of challenges for us out there. I know you 
want us to do more--people want us to do more with less. We 
have got to reduce disaster costs, but we face new threats out 
there today: domestic terrorism; we just went through Y2K; 
international disaster relief; school violence; fires that 
we're having in Florida now and so forth. And Director Witt 
challenged us all to a mid-year conference that we need to 
think about new disasters out there and take on more 
responsibility, and he wants us to start managing some of the 
smaller disasters for FEMA that would reduce their 
administrative costs, which would be a savings, and we believe 
we can do that. But I think with adequate funding, we can do it 
and maintain the capabilities to do that.
    We are asking for $10 million. I know that sounds like a 
lot, but that would go to 50 states, territories and local 
governments, a total of 50. What that means to Florida, a large 
populated state that is driven by populations, $320,000. Two-
thirds of it goes to the local governments, and break that down 
to 67 counties, you are talking $3,000 a county. We think that 
there are shortfalls out there through our surveys that are in 
the testimony, 150 million, and I think people need to know 
that everything that we do in the states is not--all being 
matched--states are spending a lot of money out there on their 
own on other programs. We think this would be a good 
investment, save lives, properties, and also assist in reducing 
the federal government's cost for administering disaster relief 
if we are going to take on that responsibility.
    Whether it be threats we face, hurricanes on the East Coast 
or tornadoes in the Midwest, what we need is a federal 
commitment to recognize each state has its unique disaster 
preparedness response needs and we require some flexibility, 
predictability and adequate funding assistance.
    And let me just say in closing, on behalf of NEMA, we want 
to express our deep respect and appreciation to Director Witt. 
He has done an incredible job. He was a state director in 
Arkansas when he came to FEMA, and the last 7 years he has done 
a great job, and people of this country are benefitting from 
that. And we want to institutionalize many of the changes he 
has made at FEMA, and we would appreciate your serious 
consideration for a $10 million increase in that part of the 
budget that would go out to the local governments and the 
states.
    I would be glad to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Mr. Myers, thank you.
    Any questions?
    Mr. Cramer. Thank you for your testimony. We were very 
interested in what our EMAs are doing in North Alabama, where 
we think we are in the tornado crossroads.
    Mr. Myers. Yes, sir. You had some bad weather, I believe, 
last week.
    Mr. Cramer. Thank you for your response to H.R. 2588, which 
is a bill that I have been interested.
    Mr. Myers. Exactly. So we would appreciate any support we 
can get.
    Mr. Goode. We appreciate your testimony.
    Mr. Myers. Thanks.
    Mr. Goode. Thank you, Mr. Myers.
                              ----------                              

                                         Wednesday, April 12, 2000.

                          THE DANNY FOUNDATION


                                WITNESS

CHRISTINE M. WARNKE
    Mr. Goode. I believe lastly, we have Christine Warnke.
    Ms. Warnke. Thank you. It is a privilege to testify before 
you today. My name is Christine Warnke. I am representing the 
Danny Foundation, an organization founded in 1986, dedicated to 
crib and nursery equipment safety.
    My message to you today is clear, incontrovertible, that 
is, too many innocent babies die every year from unsafe baby 
cribs, in fact, one death per week. 50 children die every year 
from completely preventable crib incidents caused by older, 
unsafe cribs made prior to improved manufacturing standards. By 
the federal government's own estimate, there are about 20 to 30 
million unsafe cribs still in use or in storage in this 
country, and each one could become the next death trap or be 
the cause of 1 of the more than 9,000 crib injuries that are 
treated annually in hospital emergency rooms in this country.
    Danny Line-Weaver, the child of John and Rose Line-Weaver--
John Line-Weaver is also the chairman of the board of the Danny 
Foundation--at the age of 23 months, attempted to climb out of 
his crib, and he caught his shirt on a finial, which is the 
decorative knob on the corner post, and he hanged himself. His 
mother found him hanging lifeless, revived him through CPR. He 
did live, but he lived in a semi-comatose state for 9 more 
years until he died in 1993. Danny is just one of more than 800 
like tragedies that have taken the lives of innocent victims in 
the past 16 years.
    Since the Danny Foundation began its efforts in 1986, the 
death rate has decreased from nearly 80 to 50 per year, but 50 
deaths, again, one per week, is still abominable. Moreover, we 
do not seem to be making any headway in reducing the number of 
deaths below 50, where that rate has really hovered for the 
last several years.
    So I respectfully urge the members of this Committee, to 
give serious thought to the appropriation requested by the 
Consumer Product Safety Commission, and grant this 
appropriation to the fullest extent possible. But I really 
further urge, on behalf of the Danny Foundation, to give 
consideration of increasing this appropriation to cover a crib 
safety educational campaign conducted by the Consumer Product 
Safety Commission with the cooperation of the Danny Foundation 
and other like-minded safety groups.
    The foundation has worked well with the CPSC during the 
past 14 years with such projects as this hotel-motel crib 
survey, and the annual unsafe crib roundups. The commission's 
efforts, I should say today, have been admirable and 
commendable in the area of crib safety, but unfortunately, 
still more children continue to die from unsafe baby cribs and 
all other nursery products combined.
    Therefore, more funds we believe are needed to expand the 
commission's crib safety educational effort to reach really 
every parent or grandparent who may have an old crib in storage 
or in use. I know from myself, when I adopted a child, I went 
to an auction and actually bought an old crib off an auction 
house, and it turned out that I never used it, but it turned 
out also that it was not a safe crib.
    Parents and caregivers need to be warned regularly for a 
period of several years, so some sort of an organized method of 
destroying unsafe cribs can be devised in cooperation with 
local waste disposal companies, where needed unsafe cribs 
should be replaced by safe cribs for needy families. Surely, I 
think preventing the loss of 40 to 50 lives per year, and 
injury to nearly 700 infants monthly is worth the time, effort 
and expenditure from the federal budget.
    Again, this expenditure will be a critical first step in 
the elimination of the dangers posed by unsafe cribs. Once the 
22 million unsafe cribs made before improved manufacturing 
standards have been removed from the hands of the public, then 
we think the problem will be solved and no more government 
money will be needed to be spent on this effort and certainly 
no more children need to die or be injured. So I thank you very 
much, and it is a privilege again to be here. Thank you, Mr. 
Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goode. Any questions?
    Mr. Cramer. The Danny Foundation existed since '84?
    Ms. Warnke. Yes, since then, since Danny. It was actually 
named after Danny Line-Weaver.
    Mr. Cramer. And you carry out public awareness campaigns?
    Ms. Warnke. We do. In fact, we work with a number of groups 
like Babies 'R Us, Toys 'R Us stores, and they sometimes carry 
our pamphlets. We try to educate the public as much as we can, 
with some public service announcements and other ways, but it 
is difficult to reach a wide audience. And really, the majority 
of the cribs on the market, unsafe cribs on the market, are 
older, used cribs, and that is where the problem lies.
    Mr. Goode. What is the magic date?
    Ms. Warnke. In 1973 mandatory standards were put in place. 
Certainly the new cribs that are being manufactured meet the 
standards and are safe
    Mr. Goode. All right. How many of the cribs, and which, the 
50 who died, were made before 1970?
    Ms. Warnke. That I can't tell you. I can get that for you, 
Mr. Goode.
    Mr. Goode. Because it is possible, you know, that they died 
in a, quote, ``safe crib.'' A crib is not foolproof, even 
though it is 1985.
    Ms. Warnke. Yes, but the statistics that we have received 
or the ones that we are getting from CPSC, and we are told that 
they are dying in unsafe cribs.
    Mr. Goode. I just think it would be helpful if you have it.
    Ms. Warnke. Yes.
    Mr. Goode. If besides the 50 deaths, you listed the cribs.
    Ms. Warnke. Right.
    Mr. Goode. All right. Any other questions?
    Ms. Warnke. Thank you.
    Mr. Goode. Thank you very much. We appreciate it.
                                          Thursday, April 13, 2000.

        AMERICAN ASSOCIATION OF HOMES AND SERVICES FOR THE AGING

                                WITNESS

THOMAS W. SLEMMER, PRESIDENT OF NATIONAL CHURCH RESIDENCES
    Mr. Frelinghuysen [presiding]. The meeting will come to 
order.
    Good morning. I am Rodney Frelinghuysen, and I am joined by 
Congressman Joe Knollenberg from Michigan. We are here to hear 
your testimony this morning. As a general rule of thumb, most 
everybody has prepared remarks, which we appreciate all the 
time and effort and thought that goes into those. Those remarks 
will be included in their entirety in the record, so we would 
love to have people summarize as best they can. Thank you all 
for your time and effort getting here just as we start this 
hearing.
    It is my pleasure to recognize Thomas W. Slemmer of the 
American Association of Homes and Services for the Aging. Thank 
you very much for coming.
    Mr. Slemmer. Thank you for inviting us. I am Tom Slemmer. I 
represent the American Association of Homes and Services for 
the Aging. We have about 300,000 units of housing for senior 
citizens across the country. We represent about 5,000 not-for-
profit sponsors. And I work for National Church Residences, and 
we operate a lot of housing for seniors across the country, 
primarily affordable housing.
    We are here to support the Administration's proposal for 
fiscal year 2001, and we just really want to applaud your 
efforts last year, because lots of the proposals in the 2001 
budget came out of the 2000 budget, and we think it is very 
good for seniors.
    We would like to suggest modifications in that particular 
Administration proposal. First of all, the 202 Program is 
funded at about 629 million, and we would recommend that that 
be increased to 700 million, with 35 million additional for the 
flexible financing piece. We also would suggest that that is 
funded in a separate continuum of care account. We think that 
is important, because what happens, it seems like every year, 
the 202 Program, the new construction program, gets whittled 
down with the set-asides that are kind of created in the 
process. So we really think that is important.
    The other piece of that that is really important to our 
association is a service coordination piece. The Administration 
has proposed $50 million for service coordination, and we think 
that needs to be increased to 75 million. That is a really 
important part of senior housing. We are providing a lot of 
services for frail older people. We are finding that more and 
more people are coming out of nursing homes, living in this 
kind of housing. Helping them to access services is really 
important. At 75 million we would be able to fund renewals to 
the service coordinator program from previous years, we would 
be able to fund last year's applications and then some minimal 
amount of new service coordination.
    We would like to add also, and urge you, that the funding 
for this program, we think, would be much more stable if we 
could get it out of this annual appropriations and allow it to 
be in the operating budget of these facilities. Some HUD 
offices allow you to do that, some don't. We think a change in 
the legislation would really help that and get it out of the 
annual cycle.
    The other aspects of the Administration's budget proposal, 
including cost-of-living operating subsidies at 50 million and 
assisted living conversion, we think are good things, and we 
support those. For the assisted living conversion, however, we 
would suggest that that be opened up to more than just Section 
202. There are not-for-profit elderly housing facilities out 
there that operate under the Section 236 Program, and the 
221(D) Program. We think that those are older facilities, and 
it would be great if we could open that up to those particular 
facilities. A minor change, but an important one for us.
    Finally, we would suggest to you that HUD left out some 
very important things out of this budget, two things. 
Modernization of the older housing stock is not in this budget. 
It is in the authorization, but not in the administration's 
budget, and we think that is really shortsighted. And also 
preservation of housing stock that is being going off into 
market rate facilities, we have estimated about 100,000 units 
of affordable housing being lost in the last 5 or 6 years. Lots 
of that is elderly housing, and coming up with a preservation 
program that would allow this housing to be transferred to not-
for-profits would be an important piece I think for you to 
consider.
    This 202 Program is only going to fund about 5,000 units. 
We are losing it faster, Congressmen, then we are building it, 
and we think there are ways that are affordable to keep that 
housing in the stock.
    On the modernization side, we really would encourage you to 
fund that at 50 million. We have aging buildings as well as 
aging residents, and some really great buildings out there. But 
you can imagine, some of this senior housing is 20 and 25 years 
old. Code issues and things that we think are fractional to the 
cost of new construction, you would be able to preserve this 
housing for a long time. And with the wave of seniors that we 
think are going to be hitting the affordable housing community 
in the next 10 years, this is a really important piece for you 
to consider.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you very much for very 
comprehensive testimony, and touching on some things which are 
pretty important. Some of us share some of the very points--
interested in some of the points that you have raised, and we 
are going to do our level best to be of help.
    Mr. Slemmer. Thank you.
    Mr. Frelinghuysen. Thank you for giving us some excellent 
testimony.
                              ----------                              

                                          Thursday, April 13, 2000.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

VERONICA GONZALES, EXECUTIVE DIRECTOR
    Mr. Frelinghuysen. Ms. Veronica Gonzales. Good morning. How 
are you?
    Ms. Gonzales. Good morning, Mr. Chairman, Mr. Ranking 
Member.
    My name is Veronica Gonzales. I am the Executive Director 
of the American Indian Higher Education Consortium, which 
represents this nation's 32 tribal colleges and universities. I 
am very honored to appear here before you today to express our 
critical need to become full partners with the federal 
government. I would like to briefly summarize my statement, and 
have my full statement inserted into the record.
    I come before you today to let you know a little bit more 
about the tribal colleges and the important work that they are 
doing. We have very sparse resources, but we have struggled 
very hard to achieve very much.
    The communities that the tribal colleges serve are among 
the most isolated communities in the most impoverished areas of 
this nation. The sole meaning of who our institutions really 
have become and the integral role that they play in their 
communities have become very important realities to their 
people.
    We are located in 12 states and serve over 25,000 students 
for more than 250 federally recognized tribes. The tribal 
colleges primarily offer two-year degrees and our community 
colleges, with some of our colleges now offering four-year and 
graduate degrees. Together they represent the most significant 
development in American Indian education, promoting achievement 
among students who would otherwise not have the opportunity to 
pursue a higher education. Our colleges are accredited. They 
meet the full accreditation standards of the mainstream 
accreditation associations.
    Our budget request concentrates on four program areas under 
the jurisdiction of this Subcommittee, National Science 
Foundation, National Aeronautics and Space Administration, the 
Departments of Veterans Affairs and Urban Housing.
    We are particularly interested in two programs within the 
National Science Foundation. One program is a new $10 million 
tribal college initiative that is proposed in the President's 
fiscal year 2001 budget, which will be used to help bridge the 
digital divide by encouraging American Indians to pursue 
information technology and other science and technology fields 
as primary area of study, as well as to increase the capacity 
of tribal colleges to offer courses in these areas. We strongly 
urge Congress to support this initiative and seek report 
language that will insure the tribal colleges' input in the 
program design.
    The second is the tribal colleges' Rural Systemic 
Initiative. In fiscal year 1999 NSF expanded its commitment to 
the High Plains Rural Systemic Initiative, which is a 
collaborative effort to promote K through 12 science, math, 
engineering and technology, using 18 of the tribal colleges as 
springboards for addressing systemic change in these subject 
areas. Each tribal college is responsible for providing 
leadership to the K through 12 school systems located in their 
respective reservation. All of these activities are organized 
and implemented with careful consideration of the cultural and 
academic needs of the respective tribe and the students that 
are being served. This has been a very successful program, and 
we are starting to see incredible results from the last three 
years. We strongly urge this subcommittee to support and 
increase of $5 million to expand the program's resources so 
that all of the tribal colleges can help bring systemic change 
to the reservations that they serve.
    Under NASA, for several years now the tribal colleges have 
been participating in a number of the competitive programs that 
NASA offers, but we have been limited by some of the agencies' 
restrictions for those programs. The programs are designed to 
serve four-year institutions instead of community colleges. 
These programs seek to strengthen minority-serving institutions 
capacity in math, science, engineering and technology research, 
course delivery, and increase opportunities for partnerships in 
these areas. We urge Congress to support NASA's important 
education and outreach activities but ask this subcommittee to 
please include report language that would insure better tribal 
college participation in the higher education and minority-
serving programs that NASA offers.
    We are very excited about a $5 million initiative proposed 
in the President's fiscal year 2001 budget for a Tribal College 
Community Development Block Grant under the Housing and Urban 
Development Department. This program is patterned after very 
highly successful programs that the HBCUs, Historically Black 
Colleges and Universities, and the Hispanic already enjoy, and 
will enable the tribal colleges to expand their roles and 
effectiveness in addressing community development and 
neighborhood revitalization. Some areas that would be supported 
include housing rehabilitation, business development, pre-
employment counseling, job training and job creation.
    Under Veterans, the tribal colleges support continued 
funding for Veterans Affairs pilot program within the Center 
for Minority Veterans that provides health services for 
American Indians that are veterans through the American Indian 
Health Service.
    In closing, I would just like to say that today 
approximately 1 in 5 American Indians live on a reservation. 
Past federal policies of relocation and neglect of these trust 
territories have left once proud Indian communities in abject 
poverty. Those are the communities that our tribal colleges are 
now serving. They provide a very strong alternative to that 
kind of a lifestyle. A minimum investment in education and 
infrastructure and the knowledge that those best qualified to 
coordinate more growth are the American Indians themselves, and 
they have really served as the key stones to the tribal college 
movement and to the success of our movement. Indian communities 
are being effectively developed by the tribal colleges, the 
residents being taken off of welfare rolls and gainfully 
employed, lowering taxes for all Americans and providing 
crucial services in production.
    We implore you to continue to support and invest in the 
lost human potential within these reservation communities, and 
gain new avenues to social and economic change.
    Thank you for giving me this opportunity to appear before 
you today. We look forward to working with you to achieve 
higher levels of tribal college participation in federal 
programs funded under the authority of your subcommittee. I 
would be glad to address any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you for your excellent testimony. 
One of the values of serving on this Committee is we do learn 
of the historical roles of various Indian tribes, and certainly 
the fact that you are working with NSF and NASA and the VA, 
quite frankly, I wasn't aware of all of those good connections, 
but I do think whatever we are doing is important and we ought 
to build on it.
    Mr. Knollenberg?
    Mr. Knollenberg. Is Mr. Goldin embracing your idea on this 
NASA situation?
    Ms. Gonzales. Like I said, I think that many of the NASA 
programs have been specifically designed to serve four-year 
institutions. The tribal colleges are really make a very strong 
effort to partner with NASA, but we really need more people to 
embrace our institutions as they are.
    Mr. Knollenberg. Does he embrace it?
    Ms. Gonzales. I think he could do more.
    Mr. Frelinghuysen. We will help him embrace it.
    Thank you very much, Ms. Gonzales.
    Ms. Gonzales. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                  CENTRAL NEW YORK HOUSING AUTHORITIES


                                WITNESS

SHARON A. JORDAN, LEGISLATIVE CHAIRWOMAN
    Mr. Frelinghuysen. Ms. Sharon Jordan. Thank you for being 
with us.
    Ms. Jordan. Good morning. My name is Sharon A. Jordan. I am 
the Legislative Chairwoman for Central New York Housing 
Authorities, representing 90 housing authority directors and 
187,000 public housing residents throughout New York State. I 
would like to thank all of you for affording us this 
opportunity to share our concerns and our hopes regarding the 
fiscal year 2001 VA/HUD Appropriations Bill.
    Central New York Housing Authorities is the largest 
organization of housing authorities in New York State. 
Collectively we operate over 64,600 housing units, which 
include 26,700 senior citizens. Approximately 1,850 U.S. 
veterans live in our apartments and receive a VA pension. 
However, that is not the entire picture. The Kingston Housing 
Authority recently conducted a much broader survey among their 
residents, and found that 50 percent identified themselves as 
veterans, spouses, dependents or otherwise involved with the 
military.
    Our priorities for fiscal year 2001 are 100 percent 
operating subsidy at $3.55 billion, capital fund at 3.5 
billion, fuel reimbursement dollar for dollar, reinstating 
year-end adjustments and simplifying PHAS inspections by 
possibly using HQF standards, and drug elimination program at 
410 million.
    CNYHA, along with CLPHA, NAHRO and PHADA, are united in our 
budget request in the fiscal year 2001 Appropriations Bill. 
These are not pie-in-the-sky pipe dreams of housing authority 
directors. These appropriations requests are simply to fund the 
basics, utilities and salaries. Our maintenance staff shovel 
the snow in the winter and keep the grass cut in the summer. 
Our office staff juggles the concerns of thousands of families 
every day. However, without enough money to buy rock salt, lawn 
mowers or high-speed computers, housing authorities will have a 
very difficult time serving our residents.
    I would like to point out that HUD's request of $3.192 
billion in the operating budget ignores fiscal year 1999 and 
fiscal year 2000 shortfalls totaling over $368 million. HUD's 
capital request ignores its own 1999 study of capital needs 
identifying $23 billion needed after many years of cuts and 
flat modernization budgets to finance the serious construction 
backlog. Congress must insure that adequate funding is made 
available for capital projects such as roofs, boilers and 
sewers.
    HUD also continues its pattern of underestimating utility 
costs. This year underestimating is certainly an 
understatement, with fuel bills doubling since the first of the 
year. HUD continues for a second year to deny year-end 
adjustments which cost hundreds of thousands of dollars 
annually. If year-end adjustments were reinstated, our bottom 
line would look better.
    The new HUD inspection system is overly expensive, 
incredibly complex, unfair, and regularly produces false 
scores. We believe that it is downright wrong to spend $100 
million of badly needed modernization money to finance an 
inspection system that does not work. We applaud the efforts of 
the members of Congress who have called for a delay in 
implementation.
    Central New York Housing Authorities supports the 
suggestion to transfer some of the $7 billion of accumulated 
TANF excess to public housing. We also are pleased with 
Congressman Walsh's leadership in the upcoming Millennium 
Housing Commission.
    In conclusion the executive directors of the 90-member 
agencies of Central New York Housing would like to leave you 
with this thought. Public housing is a vital resource to 
communities all across New York State and this nation. Low-
income senior citizens depend on us to stay in their homes, 
rather than be forced into expensive nursing homes. Children 
living in our family developments attend after-school education 
programs, helping many to succeed in school and avoid drugs. 
Parents are taking advantage of programs to help them succeed 
in the job market. Local churches, corporations, community 
groups and colleges in cities all across New York State and 
this nation have made it their business to support the efforts 
of their local housing authority. We serve a vital function in 
every city as a safety net for low-income people, and a place 
that workers on the bottom of the pay scale can call home and 
raise their families. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, Ms. Jordan.
    Congressman McNulty is here to endorse your excellent 
testimony.
    Mr. McNulty. Not just the testimony, Mr. Chairman, but I 
had intended to get here a little bit earlier and I was 
waylaid, but I was going to introduce Sharon. I just want to 
say that we are very proud of her in the capital region of the 
State of New York, and as you may already know, she is one of 
the leaders in this field across the country. She has received 
regional, statewide and national recognition for her work. We 
are very proud of her, and we hope you will take her testimony 
into very serious consideration.
    Mr. Frelinghuysen. Well, Chairman Walsh has given me the 
responsibility of chairing this Committee, but he forewarned me 
that you were a dynamic person, and he salutes your work on 
behalf of not only his district, but Mr. McNulty's and so many 
other people, and being a voice for housing authorities around 
the nation. You are absolutely great.
    Ms. Jordan. Thank you very, very much.
    Mr. Frelinghuysen. Thank you both for being here.
    Congressman Knollenberg.
    Mr. Knollenberg. We wouldn't mistake you for anybody else.
    Ms. Jordan. Thank you.
    Mr. Frelinghuysen. Thank you both for being here.
                              ----------                              

                                          Thursday, April 13, 2000.

                      CITY OF COMPTON, CALIFORNIA


                                WITNESS

MARCENE SHAW, COUNCILWOMAN
    Mr. Frelinghuysen. Councilwoman Marcene Shaw, representing 
the City of Compton. Good morning.
    Ms. Shaw. Good morning.
    Mr. Frelinghuysen. Thank you very much for being here.
    Ms. Shaw. Good morning.
    Mr. Frelinghuysen. Good morning. A copy of your full 
testimony will be included in the record, and the time is yours 
if you would like to summarize and make your case. We are 
honored to have you here.
    Ms. Shaw. Well, thank you very much. I am honored to be 
here. I am Councilwoman Marcene Shaw, the City of Compton, 2nd 
District. And on behalf of the Mayor, I would like to apologize 
for him. He is unable to be here today, but I do have with me 
Ms. Arlene Williams, who is the director of our Resource 
Department.
    You have the testimony already. Basically I am one of those 
that I feel that I can tell you a little bit about exactly what 
is going on within our city.
    First let me give you a little background of the City of 
Compton. We were incorporated in 1888, which makes us one of 
the oldest cities, and we are pretty large too, in Los Angeles 
County. And you know, when you are at 112 years old, everything 
starts happening. Things start breaking down, you know? Our 
sewer system was built back in the 1920s and the 1930s, which 
make them right at 70, 80 years old. At that time the 
population was much less.
    Today we are facing a situation where our population is at 
over 100,000. The 1990 Census said that we had 90 some 
thousand, but we were 23 percent under counted at that time. We 
are facing a situation with our sewer system that is beyond our 
control, and it is also beyond our funds. First you must 
understand that Compton, the median age of Compton is about 23-
years-old. We have people in low income. We have a lot of 
people on public assistance. Our tax base is low. The economy 
is not where it should be. And although we are trying to work 
with the situation, it is, like I said, out of control.
    I want to break them down in three levels to you as far as 
our sewer systems go. Priority 1, at 70 percent of our sewer 
system, Priority 1 is the priority that we give the sewer 
system that might be breaking while we are talking. It is at 
the point at any time that those lines can go. We have over 150 
miles of sewer lines in a 10-square mile boundary. Priority 2 
is not as bad as Priority 1. Priority 2 won't be breaking while 
we are talking, but it might come up tomorrow and start. I am 
not trying to over exaggerate. It is really that bad. Priority 
3 level is where they can go without the major attention, but 
it needs repair, maintenance and cleaning. The reason why I can 
break this down in those priorities is because we did a study. 
We took a tele-video of these lines to actually see what we 
were working with.
    We spent $8 million already trying to maintain the sewer 
system, and it is a very, very extraordinary situation. We feel 
that in the City of Compton, we have floated bonds, we have 
done just about everything we can possibly think of to try to 
maintain the situation. However, without going here word-by-
word that you have, I would just like to say that because of 
our shortfall in the City of Compton, we are requesting $3.2 
million from your Subcommittee, appropriations under the 
Environmental Protection Agency.
    I realize that we have a lot of states, cities that could 
be in the same situation, and I know you have a hard task to 
determine exactly what we should or shouldn't do. But the fact 
that I am able to sit here and tell you these situations, and 
explain to you where we are, I am asking you to consider 
Compton's request. I think you received a letter of support 
from our Congressperson. I feel that with the unemployment at 
11\1/2\ percent--the 2000 Census will put us over 100,000 
people--I feel the fact that we have spent $8 million in trying 
to fix the system, and the fact that we are doing what we can, 
and we come here strictly out of desperation, saying we really 
need your help in giving us this money to be able to fix a 
system that was built for a population of maybe 20 or 30,000. 
Even the pipes are small, the whole bit.
    And so, that is my testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Councilwoman, you did a fantastic job. I 
see your mayor's name is Omar Bradley.
    Ms. Shaw. Yes, sir.
    Mrs. Meek. It is a famous name.
    Mr. Frelinghuysen. It certainly is.
    Ms. Shaw. Yes, Omar Bradley.
    Mr. Frelinghuysen. And you look like you could be a general 
yourself.
    Ms. Shaw. Well, I was an army sergeant.
    Mr. Frelinghuysen. You were?
    Ms. Shaw. Yes. [Laughter.]
    Mr. Frelinghuysen. I knew there was something going on 
here.
    Mrs. Meek. How are you doing?
    Ms. Shaw. Fine.
    Mr. Frelinghuysen. We didn't run into each other down at 
Fort Dix or anything, did we?
    Ms. Shaw. Would you believe I was stationed at Fort Dix. I 
had my training at Fort Meade. I was stationed at Fort Dix, New 
Jersey. And then I was stationed 25 months in Yokohama, Japan, 
and I am a Korean veteran.
    Mr. Frelinghuysen. Well, thank you for being here today, 
for making a good case for your city and its needs, and for 
your service to our country, and the Ranking Member here, 
Carrie Meek, is a general in her own right. [Laughter.]
    Ms. Shaw. Yes, she is. Yes, she is.
    Mrs. Meek. She is a real one.
    We are pleased to see you and to hear you. I am sorry I 
only caught the end. I had another meeting earlier this 
morning.
    Ms. Shaw. I understand. Well, you are sitting here again, 
ma'am.
    Mrs. Meek. Now, Congresswoman Millender-McDonald, she is 
your congresswoman, right?
    Ms. Shaw. Yes, ma'am, she is.
    Mrs. Meek. Has she asked for any federal help?
    Ms. Shaw. Yes, ma'am, she has. She really has. And the 
letter of support and understanding, and like I said, I do know 
that you have a tough job, a tough decision, but I feel that 
being able to come here and speak to you from the heart and 
tell you what our situation really is, I hope that you give us 
top consideration.
    Mr. Frelinghuysen. We will do what we can. Thank you for 
doing an excellent job. Thank you.
    Ms. Shaw. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

              COUNCIL OF LARGE PUBLIC HOUSING AUTHORITIES


                                WITNESS

FRED MURPHY, EXECUTIVE DIRECTOR, SYRACUSE HOUSING AUTHORITY
    Mr. Frelinghuysen. Good morning. I know your neck of the 
woods pretty well up there.
    A copy of your entire remarks will be put in the record in 
its entirety, so proceed, if you would, to summarize. Thank 
you.
    Mr. Murphy. Thank you. Good morning. I am Fred Murphy. I am 
the Executive Director of the Syracuse Housing Authority. Thank 
you for allowing me to testify on behalf of the Council of 
Large Public Housing Authorities, known as CLPHA. CLPHA members 
manage over 40 percent of the Nation's public housing and a 
significant share of the Section 8 vouchers. I would like to 
focus my comments on six problem areas.
    Number one, increasing capital funds for rehabilitation for 
$3.5 billion is essential to preserve the $90 billion public 
housing stock and to provide its 3.2 million residents with 
safe, respectable, affordable, and attractive apartments. Both 
HUD and the National Commission on Severely Distressed Public 
Housing, co-chaired by former Congressman Bill Green, agree 
that there is a rehabilitation or modernization backlog of $22 
billion. OMB and HUD also agree that $2.1 billion is needed 
every year to keep pace with annual deterioration.
    It is distressing to see that HUD's net request for funding 
means it will take 38 years to finish the job. The scary part 
of it is I might not make it that far. [Laughter.]
    CLPHA's request of $3.5 billion could complete the work in 
16 years. I might make that.
    Number two, public housing is the country's largest program 
for senior citizens, and the Elderly Plus Initiative could lead 
to better housing and better health for these aging residents. 
Housing for the elderly is often equated solely with the 202 
program. However, public housing is the country's largest 
senior citizens housing program and serves a poor and a more 
diverse population.
    Many of our residents prefer to age in place, therefore 
avoiding a move to a nursing home. Public housing senior-
citizen buildings must be improved as they are also aging in 
place. Elderly Plus could be an effort to reward public housing 
authorities who come forward with the best ideas for 
refurbishing their elderly buildings for assisted living.
    Number three, HOPE VI should be shared to focus on 
revitalizing the worst public housing. The HOPE VI program was 
created to expedite the removal of obsolete high-rise and other 
over-built family units and replace them with less dense and 
more attractive housing developments. CLPHA supports HUD's 
request for the program, although we are concerned that HUD 
seems to be placing more emphasis on HOPE VI demolitions 
without any rebuilding.
    Number four, operating subsidies would be shortchanged by 
$1.6 million due to HUD's overestimated--overstated estimates 
of PHA rental income. We thank the Committee for commissioning 
an objective study of the cost of operating public housing. We 
do need a realistic estimate of these costs. Year in and year 
out, HUD overestimates rental income. They assume that revenue 
will increase by 6 percent over the prior year's number, 
whereas the reality, at least in Syracuse, is 3 percent.
    This year the HUD overestimate will cost us all $168 
million. CLPHA urges the Committee to reject HUD's estimates on 
rental income and appropriate $3.36 billion to the operating 
fund, which is an increase of $168 million over HUD's request. 
Our members are grateful to you for rescuing us from last 
year's appropriations rollercoaster. For our authority, I am 
looking forward to the end of deficit financing.
    Number five, I have to do it, I have to bring up PHAS. The 
so-called Public Housing Assessment System is deeply flawed, 
needlessly complex, and excessively costly. We appreciate the 
Committee's efforts and those of its staff to make HUD fix the 
extremely complex and badly flawed Public Housing Assessment 
System. Your fiscal year 2000 conference report had the right 
idea. HUD should stop PHAS until it can be demonstrated that 
its many flaws have been corrected. As Senator Dodd has said, 
HUD is trying to fix the bicycle while riding it at the same 
time.
    Number six, drug elimination grants have increased the 
safety of our residents significantly. The Secretary recently 
said that the residents in public housing are twice as exposed 
to gun violence as those who live elsewhere, and I wish to 
state that this is simply untrue. At least in Syracuse over the 
last 4 years, we had 28 gun incidences out of our city's total 
of 826, which is only 3 percent of the total.
    The drug elimination grants are reducing crime. Sixty 
percent of public housing authorities saw their crime rate 
decline faster than their surrounding communities. With such 
success, we urge that the drug elimination grant appropriation 
be increased to $410 million, and it should be stripped of the 
$90 million set-asides by HUD for unauthorized activities, such 
as the Community Gun Safety and Violence Reduction Initiative 
and the New Approach anti-drug program.
    Mr. Chairman, CLPHA, NAHRO, and PHADA are united in these 
appropriations requests for the operating fund, the capital 
fund, HOPE VI, and drug elimination grants. We hope that the 
Committee will help us provide our low-income residents with 
safe and secure and attractive places to live. We make a 
special plea for the Elderly Plus Initiative.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, Mr. Murphy, for making a good 
case for America's public housing authorities. This reinforces 
some of this Committee's concerns, and you are also recognizing 
our staff.
    Mr. Murphy. Hard-working staff.
    Mr. Frelinghuysen. We appreciate it. Thank you for your 
testimony.
    Mrs. Meek?
    Mrs. Meek. Thank you for being here, and I have some of 
your same feelings about the PHAs, and I get a lot of criticism 
about the inspection system, that it is not a truth-in-
packaging kind of system.
    Mr. Murphy. Oh, absolutely.
    Mrs. Meek. That is right. Thank you again.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

               CONSORTIUM FOR CITIZENS WITH DISABILITIES


                                WITNESS

MATT BAUSCH
    Mr. Frelinghuysen. Mr. Matt Bausch, representing the 
Consortium for Citizens with Disabilities. Thank you very much 
for being with us. A copy of your full remarks will be included 
in the record.
    Mr. Bausch. Yes. First, I would like to thank the Chairman 
and the Members of the Committee for letting me talk to you. 
Today I am here testifying on behalf of the CDC and the Housing 
Task Force and this is my first time public speaking.
    Mr. Frelinghuysen. Feel very comfortable here.
    Mr. Bausch. The Coalition of Citizens with Disabilities and 
the Housing Task Force and TAC.
    Are you aware of what TAC is?
    Mr. Frelinghuysen. Technical Assistance.
    Mr. Bausch. Yes, okay. I would like to have my statement 
put in the record.
    Mr. Frelinghuysen. Absolutely. The whole thing will be put 
in the record.
    Mr. Bausch. I was injured when I was 20 years old, and I am 
living in Miami. I was receiving $615 from Social Security for 
disability. My rent was $665. So I needed initial money from my 
parents and other help for other expenses, for furniture, 
electrical, et cetera. The Section 8 voucher, which I received, 
due to everyone here, including Kathy McGinley, Ann O'Hara, and 
everyone that got involved in helping me get that Section 8 
voucher has really made a dramatic change in my life as far as 
feeling independent again. I will just talk from my heart, you 
know?
    It makes me feel more like getting your life back, because 
when you leave home and you go out on your own and you do your 
job and you are cutting a check and you are making money, and 
then to have to go back to getting money from someone, it just 
doesn't feel right.
    Once I got the Section 8 voucher and now that I can afford 
to pay my rent and my gas bill, I am eligible and everything, 
and I still have money left over at the end of the month to 
save for vacation or whatever I need it for, it just makes me 
feel so good. But there are some points that I do want to bring 
up. In order for me to find a place to live, we went through 
over 30 different places that HUD recommended, but most of them 
were unaccessible or only for the elderly.
    So it took me a long time to find a place, so I had to move 
from Miami. You are from Miami.
    Mrs. Meek. Yes. I love Miami so much.
    Mr. Bausch. I love Miami. So I moved from Miami to Lake 
Worth, Florida, and I miss Miami. But the problem with HUD and 
the Section 8 voucher, my parents and I didn't really 
understand it. So the only people that really took the time and 
explained it was the TAC and the CDC, and even the people that 
we were trying to rent the apartment from did not understand 
the rules behind the whole situation.
    So it was a long process, and my parents were living far 
away. They are in Virginia, and I was on my own. So they had to 
fly down, do the paperwork, and fly back and forth. It just 
made me feel worse and worse to depend on them to come down and 
do the paperwork.
    But now that this is finally over with and I got my 
voucher, I just feel like this huge weight is off my shoulders. 
I mean, I still need to earn my cut, I want to say, because I 
don't want to take advantage of the Government in any way. I 
feel bad enough doing that. But I still want to be able to have 
my Section 8 voucher where I can pay off my rent, my bills, 
have enough money set aside for vacation or whatever, clothing, 
whatever I need to set aside for, and then still have the 
leeway to get a job and build to save even more.
    I would like for you to actually read this over because 
there are some points in here that I did not really make that I 
wanted to get on with by mentioning all the places that we 
called that were inaccessible or for the elderly, which I agree 
with because I deal with a lot of people down there in Florida 
that are elderly, and I understand completely the difference 
between the elderly and the disabled. But there is not enough 
disabled housing.
    Mr. Frelinghuysen. We are trying to wake HUD up. Mrs. Meek 
and Members of this Committee are united in the fact that HUD 
has been neglectful and, quite honestly, with all due respect, 
``Elderly Only'' is a sign we see too often, and that is 
totally unacceptable. Your consortium and your personal 
presence here is absolutely necessary.
    Mr. Bausch. I can understand it from both views. Because 
right now I see elderly people all the time in Florida that are 
disabled, but there are all kinds of disabilities. From 
wheelchair apartment compared to, like, an elderly apartment, 
that is what I'm talking about, there is a big difference. I 
deal with people weekly going to therapy, geriatrics, and I 
talk to a lot of them, and we pick people up from different 
places. We looked at different places in Lake Worth, Florida, 
and on my way to therapy the van service will stop and we will 
pick different people up to take them to the same facility that 
I go to. I see where they are living, and I am saying, well, 
why didn't I look at this place? But then I realize that that 
is one of the places I looked at, but it is only for the 
elderly. It is a nice place, but it is not accessible for me.
    So, I mean, there's a couple of people that I would really 
like to thank, and I really cannot pinpoint all the people that 
have to do with TAC, but there are a couple of people, Ann 
O'Hara, Emily O'Hara, and then Kathy McGinley.
    Mr. Frelinghuysen. Kathy McGinley is a familiar figure in 
these halls. She does a wonderful job advocating.
    Mr. Bausch. She is someone who has helped me and my parents 
when we were going crazy. I just thank God my father had a bit 
of a background in Government, working for the State of 
Connecticut, because he knows all the paperwork. And if it was 
not for all these people, I don't know where I would be.
    Mr. Frelinghuysen. You did a fantastic job. You did. You 
should be proud of yourself.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. We definitely got the gist, and we will 
hold HUD accountable.
    Mrs. Meek. We shall, and, Matthew, you have renewed our 
faith in the value of government services.
    Mr. Frelinghuysen. Thank you very much for being here.
    Mr. Bausch. Thank you.
    Mr. Frelinghuysen. Excellent testimony, and a copy of this 
will be put in the record. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                         ENTERPRISE FOUNDATION


                                WITNESS

KRISTIN SIGLIN, SENIOR DIRECTOR OF PUBLIC POLICY
    Mr. Frelinghuysen. I am pleased to recognize Kris Siglin, 
representing Enterprise Foundation. Good morning. Thank you for 
being with us.
    Ms. Siglin. Good morning. Well, thank you for the 
opportunity to come to present the views of the Enterprise 
Foundation on the fiscal year 2001 HUD budget. The Enterprise 
Foundation is the national nonprofit dedicated to improving 
poor communities, and I would like to focus my comments today 
on three key HUD programs, the first of which is not exactly a 
HUD program. It is called the National Community Development 
Initiative, and that is a project by a group of national 
foundations that was started 10 years ago to pool their 
resources to support and expand the efforts of community-based 
organizations to improve poor neighborhoods. HUD has 
participated in this project since 1993 as an equal partner 
with its private sector counterparts.
    HUD's funding is matched 3 to 1 by resources raised by the 
private sector. The funds are used for loans, grants, and 
training to help community-based organizations expand their 
efforts to provide affordable housing, train people for jobs, 
and do other community development work.
    The other two programs that I would like to talk about in 
addition to this are the Home Program and Community Development 
Block Grant. And while all three of these things are separate 
HUD programs, they are inherently connected.
    The National Community Development Initiative set the stage 
for efficient, effective use of HOME and CDBG at the local 
level. It basically creates strong, proficient CDCs or 
nonprofits, whatever term you want to use, that then can be 
effective partners for local governments as they do community 
development work.
    The result of this is that these scarce public dollars have 
been instrumental in creating sustainable community-based 
nonprofit organizations that have had an amazing impact on 
thousands of lower-income Americans struggling to create better 
lives for themselves and their children. And I came prepared 
with an example of how this all works in Syracuse, but Mr. 
Walsh is not here, but I equally could come up with good 
examples from Miami. For example, the work of Greater Miami 
Neighborhoods is a perfect illustration of this.
    Mrs. Meek. Yes.
    Ms. Siglin. Now, the Enterprise Foundation does not work in 
New Jersey, but my counterparts from LISC do, so they may be 
able to give you some examples from New Jersey.
    Mr. Frelinghuysen. Fair enough.
    Ms. Siglin. But, basically, the way it works is that the 
private sector and national foundations can work to create 
these effective local organizations that can then get in the 
mix with local governments and local banks to make things 
happen in terms of effective community development. This is a 
very efficient way to maximize the use of the scarce Federal 
resources and, you know, we encourage you to continue funding 
these programs because we see every day in our work that they 
are doing a marvelous job.
    We thank you for your commitment over the years to funding 
these programs, and we encourage you, as you make your hard 
choices this year, to continue to provide communities with the 
tools that they need to be able to improve themselves.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, and thank the Enterprise 
Foundation for all their good work.
    Mrs. Meek. That is right, good work.
    Mr. Frelinghuysen. And their collective efforts with other 
foundations to leverage and to partner.
    Ms. Siglin. Thank you.
    Mr. Frelinghuysen. Mrs. Meek, anything?
    Mrs. Meek. No. I am just happy to see you are here, and I 
have been associated with that group for many, many years in 
Florida.
    Ms. Siglin. And we greatly appreciate your participation. 
Thank you.
    Mr. Frelinghuysen. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                     LIGHT OF LIFE MINISTRIES, INC.


                                WITNESS

BRIAN R. JACKSON
    Mr. Frelinghuysen. Brian Jackson, representing the Light of 
Life Ministries, Incorporated. Mr. Jackson, good morning.
    Mr. Jackson. Good morning.
    Mr. Frelinghuysen. Glad to have you with us.
    Mr. Jackson. Thank you. Thank you, Mr. Chairman, and 
members of the subcommittee for providing me with the 
opportunity to appear before you on behalf of Light of Life 
Ministries of Pittsburgh. My name is Brian Jackson. I am a 49-
year-old man, and I am a recovering heroin addict. I have been 
clean for about 21 months now. This might not seem like a long 
time to you, but I have been using drugs for the last 28 years.
    In July of 1998, after reaching a point of utter 
desperation and hopelessness, I started on the road to recovery 
at Light of Life's Serenity Village located on 300 acres of 
rolling hills in Washington County, Pennsylvania. Little did I 
know that what I was embarking upon was the most amazing and 
wonderful journey in my life.
    Since 1992, Light of Life has owned Serenity Village, which 
is licensed by the State of Pennsylvania to operate an 
inpatient, residential drug and alcohol rehabilitation program. 
Drug- and alcohol-dependent men are sent to Serenity Village by 
the courts and are chosen from a waiting list to enter, far 
removed from the urban street drug trafficking, violence, and 
temptations. The men learn teamwork, responsibility, respect, 
and self-worth.
    Serenity's treatment facility accommodates 25 men in 30- to 
60-day cycles and includes counseling, group sessions, and work 
therapy. Serenity Village has about a 60 percent success rate.
    After my 28 years of active addiction and countless 
attempts at recovery, it was a true blessing to arrive at 
Serenity Village's country location. I had never before been 
exposed to a faith-based recovery center, which I believe is 
why numerous other drug programs did not work for me. I can now 
see how important the faith element was to getting better.
    The Serenity Village staff and counselors help us all stay 
focused on our difficult task of recovery from drugs and 
addiction. The peacefulness and serenity of the village allows 
the body, mind, and spirit to begin the healing process. Since 
leaving Light of Life's Serenity Village, I have returned to 
work and am now a productive member of society.
    I have recently been promoted to shop foreman, which 
includes many additional responsibilities. I am looking forward 
to my future challenges and adventures in this new position.
    As addicts, we take and are eventually taken. In recovery, 
we give and are given. I am here today on behalf of the 
addicted that desperately want to get better but have nowhere 
to go. I know what that was like. I found the answer in 
Serenity Village.
    The demand for help with addiction has increased in western 
Pennsylvania. While the courts continue to fill the Light of 
Life's waiting list for Serenity Village, the facility has 
remained the same since being built more than 20 years ago. 
Minor improvements are already being made, but Light of Life 
needs to renovate and expand Serenity Village to meet the 
increased demand.
    Serenity Village desperately needs an additional 
residential facility, a facility to house donated food and 
goods, and a multipurpose hall for dining and recreational 
therapy. Therefore, Mr. Chairman and Members of the 
Subcommittee, Light of Life Ministries would appreciate your 
support of a one-time Federal investment of $1.2 million for 
expansion and renovation of facilities at Serenity Village 
through the EDI account.
    Put simply, for 48 years Light of Life Ministries has been 
transforming the lives of the needy and the addicted. I will 
always be grateful to God, to Light of Life, and Serenity 
Village. If Serenity Village had additional resources to 
expand, they could and would lead many other men to the same 
road, to genuine recovery.
    Thank you, and God bless you.
    Mr. Frelinghuysen. Thank you very much for being a 
courageous witness in every sense of the word. We appreciate it 
very much.
    Mrs. Meek. Thank you for coming.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 13, 2000.

                 LOCAL INITIATIVES SUPPORT CORPORATION


                                WITNESS

BENSON ROBERTS, VICE PRESIDENT FOR POLCIY
    Mr. Frelinghuysen. Benson Roberts.
    Mr. Roberts. Good morning.
    Mr. Frelinghuysen. Thank you for being here, representing 
the Local Initiatives Support Corporation.
    Mr. Roberts. Well, good morning. LISC has been in business 
about 20 years. We are a nonprofit group, similar to the 
Enterprise Foundation, that works with community development 
corporations to rebuild old neighborhoods. We do that in over 
40 urban areas, including several places in New Jersey--Newark, 
Trenton, and several others--as well as in Miami. And our Board 
Chairman is Robert Rubin, the former Treasury Secretary, and 
over 20 years, we have raised about $4 billion in private 
capital and helped nonprofit community groups to build about 
100,000 units of housing, over 11 million square feet of 
commercial and industrial space, and undertake a wide range of 
other community development activities.
    Every year this Subcommittee has very hard choices to make 
among many, many good programs. I would like to focus you on 
three extraordinary opportunities before you.
    One of them is the same initiative that Kris Siglin from 
Enterprise identified, the National Community Development 
Initiative. NCDI, as Kris mentioned, is really a private sector 
partnership among 17 corporations and foundations, of which HUD 
is the only public sector partner, and it has been a very good 
and equal partner with the private corporations and 
foundations.
    Kris described it well. I just wanted to bring your 
attention to the fact that about $38 million of HUD money that 
you all have appropriated has gone into this partnership. That 
has attracted almost $200 million from the 17 private sector 
funders, and that has led to over $1 billion of development 
activity in neighborhoods in 23 cities. That $1.2 billion is 32 
times what you all have appropriated. That is a great return on 
investment, and if I could get that kind of return on my own 
personal investments, I would try to do more of it.
    Second opportunity. We are increasingly seeing a worsening 
housing crisis, and over a 6-year period, 1991 to 1997, the 
country has lost about 5 percent of its rental stock affordable 
to very, very low-income people. It is about 370,000 units. 
Over that same period, the number of families with worst-case 
housing needs has increased by about 12 percent, about 600,000 
units.
    It is apparent that while rental subsidies are very 
important as part of this mission, they are not going to solve 
the problem on their own. We need to do more production.
    The good news is you already have a program, the HOME 
program that is an extremely effective and efficient way to do 
just that. HOME produces about 90,000 units of housing a year. 
It reaches genuinely low-income people. About 44 percent of the 
rental housing that HOME assists reaches folks below 30 percent 
of area median. Not many people realize quite how low the 
income HOME reaches. It attracts over $2 and other funds for 
every dollar of HOME money. It is a block grant that runs 
through cities and States. There is no big Federal bureaucracy 
required. It is the perfect tool for this job, and we would 
encourage you to take a close look at expanding it if that is 
possible.
    The third opportunity is in economic development. 
Yesterday, the House Banking Committee approved authorizing 
legislation for APICs, the American's Private Investment 
Companies, and we are very excited about this program.
    APICs would be private companies that would raise private 
investment capital, and for every dollar of that they raise, 
they would be able to draw Government-guaranteed loans, private 
loans, but Government-guaranteed. The result is that for every 
dollar that you appropriate, there will be $40 in private 
capital going into low-income communities for economic 
development. This is to help those places that the economic 
expansion has left behind.
    A lot of these neighborhoods are ready for this economic 
development. A lot of housing has been rehabilitated and built 
to stabilize those neighborhoods. Crime is down. Businesses are 
ready to go in.
    Private capital is critical to this, and APICs is a tool 
that can help attract substantial private capital. At 40-to-1 
leverage, again, it is too good a deal for us to pass up. So we 
would encourage you to take a close look at that.
    So those are our three recommendations. We hope you will 
consider them.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Excellent recommendations regarding 
NCDI, the HOME program and APICs. I did not realize the 
leverage was that high, but certainly you presented pretty 
exciting numbers and a lot of good people put their shoulder to 
the wheel.
    Mrs. Meek, do you have anything?
    Mrs. Meek. No. Just congratulations on the fact that LISC 
has well thought out the possibility of putting public and 
private partnerships together on housing and economic 
development. I congratulate you.
    Mr. Roberts. Well, thank you.
    Mr. Frelinghuysen. Thank you, Mr. Roberts.
    Mr. Roberts. Thanks.
                              ----------                              

                                          Thursday, April 13, 2000.

                          NAHB RESEARCH CENTER


                                WITNESS

LARRY ZARKER, VICE PRESIDENT
    Mr. Frelinghuysen. Larry Zarker.
    Mr. Zarker, good morning.
    Mr. Zarker. Good morning.
    Mr. Frelinghuysen. Good morning. Thanks for coming.
    Mr. Zarker. Good morning. Thank you very much.
    My Baltimore Office was here last year and spoke to you 
about the partnership for advancing technology in housing. I am 
Larry Zarker. I am a vice president at the NAHB Research 
Center. I am here to speak on behalf of the Partnership for 
Advanced Technology in Housing.
    I would like to start by thanking you and the Members of 
the subcommittee for your support for the program in the past. 
Over the past year in 1999, I had the opportunity to spend 10 
months working with HUD in the PATH program as an industry 
consultant to try and get the program up and running and to 
help develop an operating plan that was submitted by HUD to the 
Subcommittee which laid out a very ambitious agenda for short-
term, medium-term, and long-term activities that could help 
achieve the PATH goals.
    Today, I am here to report that an initial commitment from 
industry of over $2.4 million has been made, and expect that 
number to rise as we enter into more and more cooperative 
research and development with the industry.
    Just a quick highlight of some of the activities that we 
laid out in that plan and that are underway, I would like to 
share with you in the area of cooperative research and 
development, product development, product testing, and field 
evaluation as well as outreach.
    In the area of cooperative research, I think last year Liza 
might have shown you an evacuated panel technology that was 
developed by Dow Chemical.
    Mr. Frelinghuysen. I was here. I think I do remember this.
    Mr. Zarker. Yes. What we have done over the last year is 
really work with the industry to find out where this really 
innovative technology might have applications. That small--
about the thickness of your finger--technology is equivalent to 
about this much insulation, roughly six times the insulative 
capability of traditional insulation, and it allows you to 
consider putting this into doors, garage doors, walls, possibly 
floors, and making radical improvements in the energy 
performance of housing, and that is one that we are actually 
making progress on and trying to bring into the marketplace.
    In the area of product development, there are some short-
term, kind of medium-term, and longer-term activities. One of 
the interesting short-term activities--the American 
Agricultural Industry has a lot of residue, and the forest 
industry has a lot of residue. So we are looking at straw-based 
or possibly rice hull-based structural products that--this is a 
Canadian example, but we are looking at a whole range of ways 
in which we can use residue out of our agricultural industry 
more effectively.
    Another example that we find really interesting is this--it 
looks like a conventional shingle, but this actually can become 
the powerplant for your house. This converts sunlight to 
electricity. We have worked on the development of that and 
incorporated it into our national research home park out in 
Bowie, Maryland, and in a standing seam metal roof--but this is 
one that looks like shingles. Again, here is an idea where we 
can now start to incorporate advanced energy efficiency with 
some of the breakthrough technologies on power production to 
make housing more efficient.
    In some of the longer term things, you probably heard of 
fuel cells and some of the work that is being done in other 
industries like automotives. We are trying to examine what we 
can take from the breakthroughs in those industries and bring 
it into housing and working with some of the companies like 
Plug Power and Energy Partners to see how that would make sense 
in the 3-to-5-year timeframe.
    I have one other example here that I will show----
    Mr. Frelinghuysen. You have a grab bag back there.
    Mr. Zarker. Absolutely. I think it is better to show 
things.
    Mr. Frelinghuysen. But you did not show that last year 
because I remember those shingles.
    Mr. Zarker. No.
    This is something that actually all fittings, all plumbing 
fittings----
    Mr. Frelinghuysen. This does not have to do with Mr. 
Knollenberg's toilet project, does it?
    Mr. Zarker. Thank you, no, but it is related, though.
    Mr. Frelinghuysen. Okay.
    Mr. Zarker. We run vents up through our roofs, and all 
plumbing fixtures, all sinks have to have these things, have to 
have vents. These allow you to prevent running your vents up to 
the roof and save a lot on materials and on the labor that is 
required. So, again, looking at all sorts of these----
    Mr. Frelinghuysen. That meets the code, does it?
    Mr. Zarker. It meets the code in not all jurisdictions, but 
in some.
    Mr. Frelinghuysen. Sure.
    Mr. Zarker. So, again, we are working on a lot of different 
areas, but on the horizon we would like to say that we are 
trying to continue to work in cooperative research. We are 
trying to expand the work and product testing, getting more and 
more builders involved in evaluating these new things so we can 
make sure that they work.
    We started a process called technology road-mapping where 
we brought the industry in to make strategic R&D 
decisionmaking, and it would help the Government in its 
laboratories and its programs to understand its roles and 
responsibilities. The industry will know its roles and 
responsibilities.
    In wrapping up, we are here to support the proposed $12-
million initiative for the PATH program, but that we also feel 
that if the budget allocation permits, we would encourage you 
to consider an additional $3 million to the program that would 
help the industry to leverage the investment and put more money 
into R&D to bring about the innovations that can actually help 
us to achieve the PATH goals.
    So, once again, I thank you for the opportunity to speak to 
you, and I would be happy to answer any other questions you 
might have.
    Mr. Frelinghuysen. Mr. Zarker, thank you for your 
testimony. I think we have Habitat coming later. I assume that 
some of these new materials are available.
    Mr. Zarker. We work very closely with them.
    Mr. Frelinghuysen. Good. We are glad to hear that.
    Mrs. Meek.
    Mrs. Meek. One question. Does your wood fabric, your wood 
materials, will they meet the salt water building code? Have 
you tested anything in that area?
    Mr. Zarker. We have been very active in South Florida in 
helping the builders there to conform, and we have worked with 
the steel industry in developing products that can help in 
those areas as well. We have a great floor joist that is 
helping us in that capacity.
    Mrs. Meek. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you very much. We appreciate it.
                              ----------                              

                                          Thursday, April 13, 2000.

      NATIONAL ASSOCIATION OF HOUSING AND REDEVELOPMENT OFFICIALS


                                WITNESS

TARA BALFE CLIFFORD, VICE PRESIDENT, MEMBER, BOARD OF GOVERNORS
    Mr. Frelinghuysen. Ms. Tara Clifford.
    Ms. Clifford. Good morning.
    Mr. Frelinghuysen. Hi. How are you? Nice to see you.
    Ms. Clifford. Thank you.
    Congresswoman Meek, good morning.
    Mrs. Meek. Good morning.
    Mr. Frelinghuysen. Your whole testimony will be in the 
record. If you could summarize, that would be fantastic.
    Ms. Clifford. Thank you very much.
    I am Tara Clifford, a revitalization coordinator for the 
State of Maryland Department of Housing and Community 
Development.
    I am here in my capacity as vice president and a member of 
the Board of Governors of NAHRO, the National Association of 
Housing and Redevelopment Officials. It is a pleasure to be 
able to testify on the Federal fiscal year 2001 budget for U.S. 
Department of Housing and Urban Development, HUD.
    Founded in 1933, NAHRO is the country's oldest and largest 
organization representing housing and community development 
interests. We have over 9,000 members, 2,500 of which are local 
agencies ranging from some very small to very large, and over 
6,500 professionals.
    The NAHRO members administer or operate virtually every 
national, State, or local housing and community development 
program that exists. These range from the community development 
block grant programs, CDBG, to Federal tax credit-financed 
housing to administering Section 8 and public housing as well 
as creating home ownership opportunities for low- and moderate-
income individuals and households.
    I understand, as the Chair has said, that my testimony is 
part of the record. So I do want to focus my remarks.
    First and foremost, NAHRO clearly supports increased 
funding for affordable housing and community development 
programs. Certainly, in this time of a very robust economy, it 
is important to appropriate funds to programs that assist those 
whose boats have not risen with this current economic tide.
    Also, I think it is very important that Congress not pit 
one program against another. We have heard about HOME. We have 
heard about others from some of the prior testifiers, and 
certainly, as the State of the Maryland's first director of 
Community Development as well as a former chair of the local 
counting housing authority commission, I realize that public 
housing has been underfunded at a time when there are increased 
expectations about what local housing agencies are supposed to 
do, the services that they are supposed to provide to the 
lowest-income, poorest residents.
    I have provided for the record NAHRO's recent summary. Each 
of you has it, and I encourage you to look. I am sorry that 
Chair Walsh is not here.
    Mr. Frelinghuysen. Well, he is here in spirit.
    Ms. Clifford. I will tell you, there is a wonderful summary 
of what has occurred in Syracuse.
    Secondly, the current largest affordable housing program in 
the local tool kit is tenant-based assistance, and under the 
Quality Housing and Work Responsibility Act, the voucher and 
certificate programs were merged.
    Tenant-based assistance is but one of the tools, but it is 
a critical tool. So, the second thing, NAHRO strongly 
encourages you to appropriate the funds that will guarantee the 
renewal of all vouchers and certificates that are due to expire 
in 2001. Not a one should be lost.
    As good as the rental assistance program is, there are 
several operational issues that we think merit Congress' 
attention. The first is an increase of the fair market rent 
currently at 40 percentile to the 45 percentile.
    Some of you or perhaps others at HUD or OMB will say, 
``Well, this is going to cost the Federal Government more 
money.'' The reality is some certificates go unused because of 
the high-cost housing markets and without a 45 percent 
percentile. We are losing resources that are needed and the 
certificates that have been assigned to people.
    Also, we believe that Congress needs to review QHWRA's 
provision that limits a household to not pay more than 40 
percent of its adjusted median income for the initial use of 
subsidy.
    Lastly, NAHRO believes Congress needs to invest in a new 
housing production program. Quite truthfully, a voucher is 
meaningless without a hard unit to attach it to. You heard from 
Mr. Roberts, from LISC, about the housing prices. HUD recently 
has issued the report citing over 5 million people in this 
country are in an affordable housing crisis, paying exorbitant 
amounts for their housing. NAHRO finds through its members 
throughout the country the lack of new units. So we hardily 
encourage that Congress create a new production program.
    We have promulgated 14 principles on which this new housing 
production program should be based and crafted. You can refer 
in my testimony to those, but I would say chief among the 
principles are that it be one fund, that it be flexible in 
order to permit both rental housing, rent to own, lease 
purchase, as well as home ownership opportunities, all decided 
at the local level.
    In closing, let me say thank you for the opportunity to 
testify, and on behalf of NAHRO, we look forward to working 
with you and members of your committee to ensure that adequate 
funding is made available for these neighborhood-strengthening 
and healthy community programs.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Ms. Clifford, thank you very much for a 
very articulate and comprehensive testimony.
    Ms. Clifford. Thank you.
    Mr. Frelinghuysen. Have a good day. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                 NATIONAL ALLIANCE TO END HOMELESSNESS


                                WITNESS

NAN ROMAN, PRESIDENT
    Mr. Frelinghuysen. Ms. Nan Roman representing the National 
Alliance to End Homelessness. Good morning. Thank you for being 
with us and your patience.
    Ms. Roman. Good morning. Thank you so much for letting me 
come.
    Mr. Frelinghuysen. A copy of your full testimony will be 
put in the record.
    Ms. Roman. I will try to be brief.
    Thanks so much for letting me come today. The National 
Alliance to End Homelessness is a membership organization. We 
have several thousand organizations that are really on the 
front line helping homeless people, many in New Jersey, so I am 
happy to be here.
    I am going to focus on the homeless programs at HUD today, 
and I wanted to say that really we feel that we are at a 
crossroads on the issue of homeless now. If we stay the course 
we are on, we can continue to add resources to the current 
system, the homeless assistance system, and we can continue to 
do a better job of managing homelessness, but we fear in the 
long run if we stay on this course that we are going to 
institutionalize the problem of homelessness.
    We think there is a different path that we could take that 
is much more end game-oriented and that can result in ending 
homelessness, and if we choose that path--and, of course, we 
think that is what we should do--some of the most important 
steps that we can take to achieve that are within the 
jurisdiction of this Subcommittee. Indeed, this Subcommittee 
has already been extremely helpful in making progress towards 
the things we need to accomplish to end homelessness.
    So I just want to focus on a couple of those things today 
that I think are important in that regard that the Subcommittee 
can do.
    The first is we need to facilitate planning at the local 
level that will end homelessness and not just to manage the 
problem.
    The Subcommittee has required in the past couple of years 
that HUD provide much better data on homeless and spending at 
the local level. This is really changing the dynamic of 
homeless assistance systems at the local level. It is hard to 
explain how data will do that, but it really is making a 
difference. So we encourage you to keep doing that and to keep 
providing that funding. It is terribly important.
    Second, we need to open the back door out of homelessness. 
We have got a backlog in the system. The major users of 
emergency homeless assistance are chronically homeless people 
with chronic illnesses, mental illness, AIDS and so forth.
    At present, we are housing these people in a very expensive 
combination of shelters and hospitals and jails. On the other 
hand, permanent supportive housing is cost-effective, very 
effective housing for this group, tenant-based, project-based, 
either one. We ought to be using the HUD homeless assistance 
program to end chronic homelessness.
    Thankfully, the Subcommittee has set aside 30 percent of 
the homeless money in the past couple of years to this end, to 
provide permanent housing for people with disabilities. We 
would ask that you make that provision permanent. We need to be 
spending at least that much.
    I might mention that last year, 50 percent of the homeless 
assistance money at HUD went to services for which we have no 
real outcome information.
    A related request is to shift the renewal of the Shelter-
Plus-Care in supportive housing, permanent housing programs. 
From the Homeless Assistance Grant Program to the Housing 
Certificate Fund, you have made a commitment in Congress to 
renew Section 8 and other housing subsidies so that people who 
are receiving housing subsidies do not end up homeless.
    It is a tremendous irony that the one group that does not 
have such protection is people who have been homeless and have 
chronic illnesses. In fact, as you well know, because I know 
you were involved in it, this year we lost 850 units of 
permanent housing of people who were formerly homeless with 
chronic disabilities. We are going to have this problem every 
year unless we come up with a fix for it, and we think that fix 
is to shift to the renewals once people are in permanent 
housing to Section 8.
    These two steps making the 30-percent set-aside permanent 
and shifting the Shelter-Plus-Care renewals really have the 
potential to end chronic homelessness over a period of time for 
homeless people.
    In addition, we need to address, as many people have 
raised, the general housing infrastructure problems. We have 
appreciated the efforts of this Subcommittee to do this. In 
particular, the Millennial Housing Commission we think is an 
exciting opportunity to address these. We support the 
Administration's request for homeless assistance and, 
therefore, request for the 2001 budget including the Section 8 
incrementals. That is a very important avenue out of homeless 
for an awful lot of people.
    So thank you so much for the work that you have been doing 
on this issue, and hopefully we can make some more progress on 
it and do a better job in the coming years.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Ms. Roman, thank you for your question.
    Ms. Roman. Sure.
    Mr. Frelinghuysen. You have highlighted a lot of areas 
where we have a keen interest.
    Did you skip over your comments about the VA and homeless?
    Ms. Roman. Yes. I just was focussing.
    Mr. Frelinghuysen. Your focus was excellent. I must say 
when we had the VA in for a public hearing, I found a lot of 
the people who should be responsible, to be disinterested in 
their responsibilities which I think is an outrage. So we need 
to wake them up, too.
    Ms. Roman. Yes. That, I think, is a major factor.
    Mr. Frelinghuysen. They do not know who is coming in, and 
they do not know who is going out.
    Ms. Roman. Right. And they are not spending the money that 
you are giving them to deal with homelessness. On the other 
hand, the veterans groups are asking for set-asides in HUD to 
deal with veterans, and I think the VA could do a much better 
job itself.
    Mr. Frelinghuysen. I highly agree with you, and I would not 
have any arguments with some of your other observations as 
well.
    Ms. Roman. Well, thank you so much.
    Mr. Frelinghuysen. Thank you very much for your time.
    Ms. Roman. Thank you so much for the help on the Shelter-
Plus-Care this year.
    Mr. Frelinghuysen. My pleasure, our pleasure. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

SUSAN MASTEN, PRESIDENT
    Mr. Frelinghuysen. Ms. Susan Masten representing the 
National Congress of American Indians. How are you?
    Ms. Masten. Good, fine.
    My name is Susan Masten. I am President of the National 
Congress of American Indians. I also serve as the Chairperson 
of the Yurok Tribe that is located in Northern California.
    I thank you for the opportunity to address you today 
regarding the President's FY2001 budget request for Indian 
programs and services in the Departments of HUD and Veterans 
Affairs.
    The member tribes of NCAI are extremely encouraged by this 
year's budget request. If preserved through the appropriation 
process, this will add an additional $1.2 billion that will 
provide Federal Indian program dollars.
    This commitment by the Administration to increase funding 
to Indian programs will better serve Indian communities and is 
a step toward honoring the Federal Government's trust in 
treating these obligations to Indian nations.
    The last time the Federal Government enacted a similar 
funding level was in the mid-'70s as part of President Nixon's 
tribal self-determination policy. In this policy, tribal 
governments such as the Yurok Tribe have more control over 
programs and decision-making on our reservations.
    Because tribal self-determination has been successful, it 
is now time to increase the investment to this program policy.
    Mr. Chairman, today third-world conditions exist on the 
majority of our reservations. In particular, our housing, 
drinking water, and wastewater infrastructure are in desperate 
need of attention.
    While the President's proposed budget recognizes these 
needs, indeed it is only a first step into addressing the long 
history of inadequate Federal funding to Indian programs.
    Mr. Chairman, as Congress works through this year's 
appropriation process, NCAI seeks support from this Committee 
to fully fund Indian programs in HUD and Veterans Affairs.
    I have submitted for the record our written testimony that 
addressees Indian Country's critical needs within these 
departments. Today, I will highlight some of our priorities.
    For Indian housing, adequate assistance is critical because 
40 percent of Indian reservation housing is considered 
substandard. This is in stark contrast to the national standard 
housing rate of 5.9 percent. Therefore, an additional $335 
million must be added to the FY2001 budget request of $650 
million for Indian housing block grant programs.
    For veterans programs, adequate funding is another critical 
concern for Indian Country. Native Americans have served this 
country with honor and distinction, and we, since this Nation 
was founded--and our people, have the highest percentage of 
veterans than any population in the U.S.
    NCAI supports the $12,000 increase for the Native Americans 
Veterans Housing Loan program. This very successful program 
provides direct loans to Indian veterans living on trust land.
    In conclusion, Mr. Chairman, we urge that Congress to 
fulfill its fiduciary responsibility to American Indians and 
Alaskan Native people and to continue to aid our tribes on our 
journey to self-sufficiency.
    I thank you for the opportunity to address you today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. You did a remarkable job.
    Would you satisfy my curiosity? I have asked this question 
before. Are any of the tribes that are so involved with gaming 
and gambling doing some things relative to housing? I would 
love to know.
    I do think sometimes there is certainly the public 
perception that there is a lot of money being made, and I would 
assume that living standards have been raised. Maybe it is just 
on the East Coast that I am aware of things, but whether some 
of that largess is shared with other Indian tribes.
    Ms. Masten. Mr. Chairman, I appreciate the opportunity to 
address this question, and I hope that you are aware there are 
558 tribes in the United States.
    Mr. Frelinghuysen. A huge number. I just wondered.
    Ms. Masten. A small percentage are fortunate enough to have 
economic opportunities with gaming revenues, and with those 
tribes, what I have seen as I have traveled through Indian 
Country--is the remarkable benefits from being able to generate 
successful revenue from their gaming ventures, and they are 
meeting the needs of their people whether it be health, 
housing, or education, and that is an exciting thing to see, 
that they are able to provide the governmental services that 
they have a responsibility to their membership.
    As any sovereign nation, their responsibility lies within 
their constituency, and just like any State, they take care of 
their State. They do not help the State next to them. So, as a 
sovereign government, that is our responsibility also is to 
provide for our membership, and we are not responsible for 
another sovereign government constituency.
    Mr. Frelinghuysen. Fair enough. Obviously, we have a 
national and Federal responsibility, and we will do what we can 
to continue that effort.
    Ms. Masten. I appreciate your time.
    Mr. Frelinghuysen. I thank you very much.
    Ms. Masten. I thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                      THE ARC OF THE UNITED STATES


                                WITNESS

KATHLEEN H. McGINLEY, ASSISTANT DIRECTOR, THE ARC GOVERNMENTAL AFFAIRS 
    OFFICE
TIM QUINN, EXECUTIVE DIRECTOR, THE ARC OF THE NORTHERN CHESAPEAKE
    Mr. Frelinghuysen. Kathleen McGinley, we are going to move 
right to you, probably because you were mentioned earlier.
    Ms. McGinley. Pre-introduction.
    Mr. Frelinghuysen. We are moving the duck to get you right 
up front.
    And you have brought somebody with you?
    Ms. McGinley. I am Kathleen McGinley, and I am with The Arc 
Governmental Affairs office, and this is Tim Quinn. He is 
executive director of The Arc of the Northern Chesapeake.
    I am going to take a couple of minutes to summarize a few 
points, and then Tim is going to talk about his experiences 
because he is one of the first non-profits to get the tenant-
based rental assistance.
    Mr. Frelinghuysen. If you can do that within the time 
limit, both of you that would be fantastic.
    Ms. McGinley. The Arc is the largest volunteer organization 
in the country devoted solely to the welfare of more than 7 
million people with mental retardation.
    We are extremely appreciative of the support the 
subcommittee has provided, and in all of Congress, it was the 
Members of this Subcommittee who first woke up to the fact that 
people with mental retardation and other disabilities face a 
housing crisis.
    The Arc is particularly concerned about housing because we 
have so many people waiting for services and support in the 
community, including housing, and we have adults with mental 
retardation who live at home with their aging parents. These 
are the parents who made the decision 30, 40, and 50 years ago 
not to put their child in an institution, but to keep their 
child at home, and now the parents are old. They are afraid 
they are going to die, and there is not going to be any place 
for their child to live in the community.
    These are also the parents that have saved hundreds of 
thousands of dollars because institutional services are so 
expensive.
    They are also being followed by younger families who kept 
their children at home with them who expected they should be 
able to grow up in the community.
    Last year, Congress passed the Ticket to Work and Work 
Incentives Act which was supposed to remove some disincentives 
for people with disabilities, help them get jobs. No matter 
what happens, people with mental retardation are going to 
continue to be poor and need housing assistance in the 
community.
    I am going to skip right to our recommendations. We ask 
your support for $50 million for Section 8 tenant-based rental 
assistance, specifically for people with disabilities. We know 
that problems have hindered the distribution of these funds. We 
know that only a small percentage of the PHAs apply for them. A 
few PHAs have partnered with ARCs and other non-profit 
disability organizations and have been successful in getting 
the vouchers out to people, but a lot of them are just sitting 
on vouchers, and because they do not work with the disability 
community and they have not identified the people who need the 
housing or they are unwilling to help them find the housing.
    Therefore, we are urging you to follow in the footsteps of 
what you did last year when you opened up eligibility for this 
Section 811, mainstream vouchers, to non-profits. We are 
recommending that you open up eligibility for these Section 8 
disabled vouchers to non-profits, also.
    We recommend that you increase funding for this Section 811 
program to $300 million. HUD's increase--or recommendation of 
an increase to $210 million is a step in the right direction. 
HUD is a breath of fresh air for us.
    Mr. Frelinghuysen. It is amazing what can happen in a year.
    Ms. McGinley. It is amazing what can happen in a year.
    We urge you to reject HUD's recommendation that you target 
50 percent of the 811 funds to tenant-based rental assistance. 
Tenant-based rental assistance is important, but we still need 
to add to the stock of housing in the community for those with 
the most severe disabilities.
    We also urge you to go one step further than last year. 
Last year, you said that non-profit disability groups could be 
one of the eligible applicants for the Section 811 mainstream. 
We are suggesting that we take 811 back to what it used to be 
and make them the only applicants.
    Tim, as I said, is one of the people who got the money last 
year, and he is going to talk about that.
    Mr. Quinn. We were awarded certificates last October, and I 
would like to come with good news and tell you how we have been 
able to distribute those. However, we have not. We have had 
some problems with HUD in getting those. We do not have a 
contract as of this time.
    In our situation, we support over 70 people in residential-
type services. None of those folks have HUD certificates. 
Almost all of them have applied and have been turned down. 
Because of some of the technical assistance we have received 
from Ann O'Hara, we believe our local housing authority is 
interpreting those guidelines incorrectly.
    Interestingly enough, since our county executive found out 
that we had the HUD certificates, he was less than pleased with 
this. He very much wanted that control under the housing 
authority, but what it has done, it has allowed us to be at the 
table with all the folks who do housing and zoning planning, 
which we were never invited to before. So, because of the 
certificates, we have been very involved in some of the local 
planning and on the consolidated State plan.
    The other thing I would like to say is we are an 
organization that supports 150 people in vocational services. 
In the last 3 years, we have closed all of our activity centers 
and all of our workshops, and all 150 people are now working. 
Even with jobs, people still are below the poverty level, and 
the HUD certificates would be another added resource in 
people's lives for folks that do not have the resources.
    The last point I am going to make is about our funding. We 
get reimbursed at $6.30 an hour, which does not include housing 
cost. Because we have to take that out of the budget, we 
attract or try to attract staff at $6.00 an hour which is 
almost an impossible task.
    So the access to the HUD certificates would allow us to 
redirect that money back into the support of folks to be in 
their homes.
    Thank you.
    Ms. McGinley. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you both very much for covering a 
lot of territory.
    Mr. Goode, any comments?
    Mr. Goode. No questions, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Price?
    Mr. Price. No questions. Thank you for being here.
    Mr. Frelinghuysen. Thank you for being here.
                              ----------                              

                                          Thursday, April 13, 2000.

            PUBLIC HOUSING AUTHORITIES DIRECTORS ASSOCIATION


                                WITNESS

JAMES TABRON, EXECUTIVE DIRECTOR, DURHAM, NORTH CAROLINA HOUSING 
    AUTHORITY
    Mr. Frelinghuysen. Mr. Price, I believe you wanted to 
introduce our next guest.
    Mr. Price. Yes. I will do that. I appreciate you letting me 
do that.
    James Tabron is the Executive Director of the Housing 
Authority of Durham, North Carolina. James, Welcome.
    Mr. Tabron. Congressman, thank you very much, and to the 
Committee as well.
    Mr. Price. Welcome to our Subcommittee.
    Mr. Tabron joins us today in a dual capacity, not only as 
an experienced and accomplished director of a local housing 
authority, but also as the president of the Public Housing 
Authorities Directors Association. In that capacity, he 
represents more than 1,700 public housing agencies from all 
over this country, and he is, I think, well equipped to convey 
to use the views of that organization and the needs of housing 
in this country.
    So, James, we appreciate you being here.
    Mr. Tabron. It is my pleasure.
    Mr. Price. We welcome you, and I am particularly proud to 
have you here as a constituent.
    Mr. Frelinghuysen. Welcome. Thank you for being here, and 
you have a very strong advocate here. We hear a lot from North 
Carolina, and he is so proud of his State and obviously proud 
of you.
    Mr. Tabron. Thank you.
    Mr. Frelinghuysen. Mr. Price does a great job on your 
behalf.
    Mr. Tabron. I appreciate you saying that.
    Mr. Frelinghuysen. The floor is yours, and your entire 
comments will be put in the record in their entirety. You may 
begin.
    Mr. Tabron. Thank you very much.
    I do want to say again on behalf of the Public Housing 
Authority Directors Association that it is indeed a pleasure to 
be here, and if anything good can be said about the Durham 
community, a lot of credit is to my right there. So we do 
appreciate that.
    In the spirit of being brief, there are five major points 
that I do want to focus on, but before I do that, let me just 
say that the partnership which my organization has been able to 
bridge with HUD and with Congress has been of great benefit to 
us as we try to work through some rather challenging budget 
years in the past.
    We do not feel that this year pretends to be any different, 
and, therefore, it is important that we at least share some 
thoughts with you that we hope will be of insight.
    The first item that I do want to reference is the operating 
fund which is the major life blood of housing authority 
operations. It does appear that the Department of HUD has not 
projected realistic fund estimates for fiscal year 2001 in 
order for housing authorities to meet their performance system 
requirement obligations.
    There are some real questions as relates to estimates; for 
example, with regards to such items as utility costs which tend 
to, for example, perhaps be the largest budgetary item on a 
housing authority's budget sheet.
    HUD, for example, has a budget of 1 percent last year, when 
in reality the increase was 6 percent. This year, HUD is 
looking at a 4.9-percent decrease, which we feel is going to 
create some tough situations for us.
    We also think of HUD estimates as relates to anticipated 
increase in rental income, perhaps a little unrealistic in 
light of a series of measures which housing authorities are 
going to have to put in place in terms of income targeting, the 
concentration of objectives, and that type of thing.
    One other point that we think is of particular import here 
is that even HUD's own consultants have indicated, for example, 
that as much as $226 million over last year's appropriations 
are necessary to address the operating fund shortfall.
    HUD has budgeted or proposed a 1.7-percent increase which, 
when you come right down to it, will not even cover inflation. 
In that regard, HUD or PHADA is proposing that we look at a 
$3.55-billion line item for that category.
    Point number two, the capital fund which is again the major 
modernization funding source for housing authorities. The HUD 
numbers show an increase of $55 million over last year, but 
they do not actually represent what we think is a real increase 
in public housing modernization.
    The additional funds actually represent what we have found 
to be set-asides for various other programs which HUD is 
putting in place, and the actual net effect when we look at 
monies, administrative monies, we feel, are being used for, 
again, various activities, the real estate assessment center, 
the troubled agency recovery center; that those administrative 
dollars in fact should be applied to HUD's administrative 
budget as opposed to coming out of the capital fund which we 
think will result in $100 million less this year for housing 
authorities to work with.
    A HUD consultant has identified a number of deferred 
maintenance items, but what PHADA feels is necessary is that we 
look at, again, a more realistic figure. We think the actual 
cost should be $4 billion, but recognizing the constraints from 
a budgetary perspective, we are proposing that this Committee 
will consider a $3.5-billion amount. We think it would be 
adequate to address, again, the next operations modernization 
year needs.
    Point number three, the public housing drug elimination 
program. PHADA is proposing $410 million. HUD is proposing $345 
million, and after we look at the various set-asides which are 
in fact applied to this program, which has done a lot to help 
housing authorities create a much safer environment for those 
served and which you all, we know, want us to serve in an 
effective fashion, the $30-million set-aside in this program 
which is being applied to community safety and gun buy-back 
initiatives we feel is actually putting us into a less 
advantageous position.
    If I am correct, Mr. Goode, I know that this has been an 
area of concern in terms of the other gun litigation matter 
that you have given some attention to, and we do appreciate the 
level of consideration.
    So we are asking that $410 million be applied to this 
particular category, especially as relates to the needs of 
smaller housing authorities.
    Point number four, the Secretary has proposed monies for 
120,000 new vouchers. We are not arguing with the need for 
affordable housing. We think that the Secretary has been very 
bold in his attempt to address affordable housing needs, but 
before looking at that, it is PHADA's position that we have to 
give priority where priority work is due to address shortfalls 
as it relates to operating capital and public housing drug 
elimination program areas.
    The last point that I would like to mention very briefly, 
Mr. Chair, is for us to give consideration to certain things 
which are not necessarily budget direct, but they do in fact 
have budget implications.
    I, for example, would like to just mention briefly the 
public housing assessment system. Housing authorities clearly 
feel that there needs to be in place a system which would allow 
you and others to determine that we are spending monies in the 
proper fashion.
    We have a lot of concerns with the current system which we 
feel will have a significant cost in terms of housing because 
we are actually having to spend more, and HUD as well, just to 
stay on top of that program.
    There is a booklet which we have provided you with our 
packet that PHADA has just recently published which we think 
will provide some excellent and yet succinct insight into 
problems as well as recommendations we have with this current 
system.
    I do want to sum up my comments by saying we have had 
effective partnerships in the past. Contrary to how PHADA and 
other industry groups may appear, we are not adversaries in our 
relationship with HUD. We do want to sit at a table with you 
and with them to find common ground. If we have to give a 
little bit to achieve objectives that would benefit us all, 
PHADA is very receptive to that.
    I will close my comments with that statement, and I would 
be prepared to answer any questions you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Tabron, thank you very much, and we 
have seen your document here.
    Mr. Tabron. Thank you very much.
    Mr. Frelinghuysen. Mrs. Meek?
    Mrs. Meek. I just want to thank you for staying on the 
case.
    Mr. Tabron. It is my pleasure. You all make it a lot easier 
for us, and we do in fact appreciate that.
    Mr. Frelinghuysen. Mr. Price, back to you.
    Mr. Price. We appreciate your testimony, and we will take 
it fully into account.
    Mr. Tabron. Good. Thank you very much, and let us know if 
you have any questions down the line. Thank you very much.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                  THE MILTON S. EISENHOWER FOUNDATION


                                WITNESS

LYNN A. CURTIS, PH.D., PRESIDENT
    Mr. Frelinghuysen. Dr. Lynn Curtis representing The Milton 
S. Eisenhower Foundation.
    Hi.
    Mr. Curtis. Mr. Chairman, thank you for this opportunity. 
Currently, there is considerable concern in the Nation over 
police strategies that create conflicts in low-income and 
minority communities.
    By contrast, over the last 10 years, The Milton S. 
Eisenhower Foundation has begun replicating a model in which 
crime is reduced, at the same time that relations with police 
and low-income housing communities are improved.
    The Eisenhower Foundation model begins with youth safe 
havens where our community non-profit organization works with 
young people after school when they are most likely to get into 
trouble. The safe havens are then combined with many stations 
run by police officers.
    The safe havens in many stations share the same public 
housing space. A public housing agency donates the space.
    Civilian staff and specially trained police officers work 
shoulder to shoulder to mentor youth, provide adult role 
models, help with homework and train young people in computers. 
Police use the safe haven mini station as their base for 
community policing in the neighborhood.
    Police and civilian staff meet with both parents and 
teachers on a regular basis.
    Mr. Chairman, great demand exists for this Eisenhower 
Foundation model, but there is little Federal funding. 
Accordingly, the Foundation requests a $2-million in FY2001 HUD 
appropriations to modestly begin more widespread replications 
around the Nation.
    The two scientific evaluations, one of which is here, have 
already been undertaken on such community policing combined 
with youth development in safe haven mini stations. We have 
seen dramatic drops in crime at the same time the police-
community relations have improved. These successes have 
occurred in a wide range of public housing and other low-income 
settings.
    For example, in Dover, New Hampshire, Senator Judd Gregg 
keynoted a grand opening of a safe haven mini station in public 
housing that has been doing very well and that has received a 
great deal of local coverage in the local media.
    In Boston, we were successful in the Dorcester community in 
a mixed African American, Latino, and Asian American 
neighborhood.
    In Columbia, South Carolina, ABC World News Tonight with 
Peter Jennings aired a story on our successes in public housing 
with African American youth. The Economist and the Federal 
Reserve magazine also have done stories on the South Carolina 
successes which are not moving into middle schools.
    In San Juan, Puerto Rico, a police officer and his family 
live above the mini station which is at the entrance to a small 
campus of youth programs and business enterprises. This is in 
Caimeto, the toughest neighborhood in San Juan, and crime has 
dropped dramatically.
    Because of these successes, the Center for Visionary 
Leadership in Washington, D.C., designated the Eisenhower 
Foundation safe haven mini station model a national best-
practices model in its 1998 best practices guide submitted to 
HUD.
    Mr. Chairman, in closing, instead of a win-lose outcome 
where police strategies result in less crime but deteriorating 
relations with the community, the Eisenhower replications have 
proven to be win-win. We have produced less crime and improved 
police-community relations.
    Given current concerns about police, the low-income 
community and minorities, the time would seem right and perfect 
for expansion of this proven success.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Dr. Curtis, thank you for your 
testimony. You have made some excellent points. I think we 
would agree with you, and we will do our level best given the 
resources that we have that are available.
    Mrs. Meek?
    Mrs. Meek. Mr. Curtis, this is an interesting model, the 
Eisenhower model. I was not familiar with that. Is this working 
at any place in the South that you are aware of?
    Mr. Curtis. Yes, Congresswoman. In Columbia, South 
Carolina, the police chief is African American, and he is also 
an ordained minister.
    Mrs. Meek. I see.
    Mr. Curtis. He has done this in four locations in public 
housing, and we are now beginning in a middle school.
    Mrs. Meek. Excellent. Thank you for sharing your success.
    Mr. Frelinghuysen. Mr. Goode.
    Mr. Goode. No questions.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Curtis. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

     U.S. CONFERENCE OF MAYORS, NATIONAL ASSOCIATION OF COUNTIES, 
 ASSOCIATION OF LOCAL FINANCE AGENCIES, NATIONAL COMMUNITY DEVELOPMENT 
                              ASSOCIATION


                                WITNESS

ROSLYN PHILLIPS, CHIEF, COMMUNITY DEVELOPMENT DIVISION, JACKSONVILLE, 
    FLORIDA
    Mr. Frelinghuysen. Ms. Roslyn Phillips representing the 
U.S. Conference of Mayors. Thank you for being with us.
    Ms. Phillips. Thank you.
    Mr. Frelinghuysen. Good morning.
    Ms. Phillips. Good morning.
    Mr. Chairman, Members of the Committee, my name is Roslyn 
Phillips. I am the chief of the Community Development Division 
in the City of Jacksonville, Florida. I am testifying on behalf 
of the National Community Development Association, the U.S. 
Conference of Mayors, the National Association of Counties, and 
the Association of Local Housing Finance Agencies.
    We appreciate the opportunity to present our views on the 
FY2001 appropriations for the Department of Housing and Urban 
Development. In particular, the two priority programs for local 
governments, community development block grants, the CDBG 
program, and the HOME investment partnership program, or HOME.
    We thank you, Mr. Chairman and the Members of the 
Subcommittee, for your continuing support of these priority 
local government programs. We are especially pleased by the 
$50-million increase in CDBG for FY2000 to $4.8 billion and 
maintaining HOME funding at $1.6 billion.
    As we stated in our testimony last year, before this 
Subcommittee, local officials continue to be concerned about 
setting aside funds out of CDBG to fund boutique or one-time 
programs. We particularly oppose set-asides that are unrelated 
to the core purpose of CDBG.
    Despite increases in the appropriations for the programs in 
recent years, the fact is that over the past 5 years, actual 
formula amounts to urban counties and central cities have been 
cut as a result of the set-asides and an increase in the number 
of entitlement communities.
    Between FY95 and FY2000, CDBG setasides rose from $95 
million to $560 million, more than 10 percent of the total 
appropriation, and at the local level in Jacksonville, we saw a 
proportionate decrease in our funding relative to those set-
asides.
    We are also concerned about the continued availability of 
technical assistance funds to aid an effective administration 
of the CDBG and HOME programs. We want the Committee to know 
how important these funds are to local governments and that 
they should remain as authorized and appropriated and not be 
redirected for other uses.
    Mr. Chairman, local government officials urge you to 
increase CDBG formula grants to entitlement jurisdictions by 
increasing the overall appropriation for CDBG in FY2001 to at 
least $5 billion and scaling back fund set-aside under the CDBG 
program for special purpose grants.
    The significant impact of the HOME program like CDBG is 
that the HOME program is producing very positive results in 
expanding the supply of affordable housing. Enacted as the 
centerpiece of the 1990 National Affordable Housing Act, the 
program became law with President Bush's signature. Testimony 
of the HOME's effectiveness can be found in the Committee 
report accompanying the House version of FY99 appropriations 
bill where it praised the HOME program and gave it additional 
funding because it can document the results. The report said 
the program tracks the performance of its grantees and measures 
their performance to determine whether the Federal investment 
is worthwhile.
    Targeting is very deep in the HOME program. The majority of 
the funds have been committed to housing that will be occupied 
by very low-income people, and a substantial amount will assist 
families with incomes no greater than 30 percent of the median 
income.
    At the end of February 2000, more than 89 percent of the 
home assistance rental units were benefiting families at or 
below 50 percent of the area median. HOME is cost effective and 
provides the gap financing necessary to attract private loans 
and investments to projects.
    For each HOME dollar, $2.37 of private and other funds have 
been leveraged since the HOME program's inception. This clearly 
illustrates the effectiveness and judicious use of the HOME 
funds by the participating jurisdiction. Local officials urge 
you to continue to fund the HOME program for FY2001.
    Mr. Chairman, we commend the Subcommittee and the Congress 
for fully funding all of the tenant-based and project-based 
rental subsidy contracts last year. We are very concerned about 
the funding of the homeless programs as well as the lead-based 
paint regulations that have come forth before the Committee.
    We have got lots of other things that we would like to 
share with the Committee, but I see our time is out. So, Mr. 
Chairman and Committee, we look forward to working with you and 
the Subcommittee in adequately funding HUD's housing and 
community development programs for FY2000 and moving our Nation 
closer to the goal set forth in the declaration of the Nation's 
housing policy.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, and particular thanks to your 
advocacy in face of community development block grants and for 
your excellent representation at the U.S. Conference of Mayors 
and NACO. As a former county-elected official, it is good to 
see you here representing NACO and other groups as well.
    Mrs. Meek.
    Mrs. Meek. Thank you.
    Ms. Phillips, it is good to see you again.
    Ms. Phillips. It is good to see you again.
    Mrs. Meek. We have been preaching the same thing that you 
are telling us. Back home, they tell us the same thing that you 
are telling us here today, and we thank you for the message. I 
feel like we will reach the goal. I have a strong interest, and 
so does my Chairman, in CDBG because we know the real purpose 
of it, and we would like to see it adhere to those purposes.
    Ms. Phillips. Thank you very much.
    Mrs. Meek. Thank you.
    Mr. Frelinghuysen. Mr. Goode.
    Mr. Goode. No questions.
    Mr. Frelinghuysen. Mr. Price.
    Mr. Price. No questions, but this is good comprehensive 
testimony and very helpful to us.
    Mrs. Meek. It sure is.
    Ms. Phillips. Thank you.
    Mr. Price. We appreciate your being here.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                          HABITAT FOR HUMANITY


                                WITNESS

LaVERNE COOPER STOKES, EXECUTIVE DIRECTOR, SANDTOWN HABITAT FOR 
    HUMANITY
    Mr. Frelinghuysen. Mrs. LaVerne Cooper Stokes representing 
Habitat for Humanity.
    With a name like Stokes, that sounds pretty good to this 
Committee.
    Ms. Stokes. Good morning. How are you doing?
    Mr. Frelinghuysen. Nice to see you, welcome.
    Ms. Stokes. Well, it is an honor and a privilege to be here 
this morning, and needless to say, I will start off with saying 
that I am extremely nervous.
    Mr. Frelinghuysen. Well, this is a very friendly group 
here.
    Ms. Stokes. Okay. Well, what a privilege it is to represent 
Habitat for Humanity International. I am quite sure you all 
know that the best speaker is Melwood Fuller himself, who is 
the founder, but I am privileged to be speaking today, not only 
on behalf of Habitat International, but I would like to just 
share with you who I am and how I became involved personally 
with Habitat.
    I am LaVerne Stokes. I am not just one of the co-executive 
directors of Sandtown Habitat in Baltimore, but I am also a 
Habitat Homeowner. And so I bring to you today a personal 
testimony to let you know that Habitat does work.
    I would like to introduce to you Mr. Allan Tibbles, who is 
the founding executive director at Sandtown Habitat, and we now 
share that position.
    I know that over the years you all have been instrumental 
in providing funds for us, so I am here today to ask for your 
continued support. And I am not real good with numbers, but I 
will say to you, give until it hurts. [Laughter.]
    It really makes a difference. I just want to share with you 
that I grew up in West Baltimore in a town called Sandtown 
Winchester, and in 1992 I lost my sister due to death, and I 
took on two additional kids. That is nothing great, because she 
would have done the same for me. But being a single mom of four 
at that time, my life changed drastically. Sometimes in death 
we feel that is a bad way God intends for it to be a good.
    I wanted to always stay within the community because it was 
home, but at the same time, as a mom of four, I wanted to do 
what was best for the kids, and it just encouraged me to say, 
``I really need a decent place to bring up four girls in such a 
community.'' At that time I was introduced to Habitat, and I 
have been introduced to plenty of programs throughout my tenure 
of life, but I will tell you I am very biased, because I want 
to let you know that this was a program that was a true 
program. It was not a giveaway program, but it was a 
partnership between the homeowner and the people giving. What 
Habitat has done is provided an opportunity for folks such as 
myself to feel empowered, to move towards home ownership. What 
you all have done is actually helped to continue to set the 
stage to provide funding that is desperately needed for people 
to have decent and affordable houses.
    Habitat for Humanity has over 1,500 different affiliates, 
and 64 different affiliates in different countries. But I stand 
here today to tell you that without your help, without the 
partnerships out there, government does need to play an 
important role in giving and helping us, the private sector, it 
just takes all of us totally working together, and I stand 
before you today to say that it does work. We ask for your 
continued support.
    I also sit here today to say thank you from a personal 
note. I thank you for homeowners such as myself, for giving us 
the opportunity to be empowered and to own a home. I also thank 
you on behalf of Melwood Fuller, Habitat for allowing me to 
speak to you all today, and just to tell you how important it 
is just to stay involved, and thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. We are thrilled by Habitat for letting 
you speak. You did a wonderful job, extremely enthusiastic, and 
I think we all would like to show our bias towards Habitat for 
Humanity. I don't mind saying that.
    Mrs. Meek. I don't either.
    Mr. Frelinghuysen. Many of us have the privilege of doing 
some things in our home district, and have over the years, and 
I must say, there is nothing quite like it. It makes you feel 
good, and then when you see the families participating, and the 
end product, it is what life is all about.
    Ms. Stokes. It has certainly changed my life, so I want to 
thank you all very much.
    Mr. Frelinghuysen. I want to give Mrs. Meek some equal 
opportunity.
    Mrs. Meek. Well, I am just looking at her, looking at Ms. 
Stokes, who gave an outstanding testimony. You said that you 
were nervous, but you certainly didn't show it. And you didn't 
even have a note. It is in your head and in your heart, and I 
appreciate it.
    Mr. Frelinghuysen. We would want you on our team, I can 
tell you that. [Laughter.]
    Ms. Stokes. Good.
    Mr. Goode. Habitat does a great job.
    Ms. Stokes. Well, thank you.
    Mr. Frelinghuysen. Mr. Price.
    Mr. Price. I just attended a celebration of a Habitat 
subdivision really. No longer just single houses scattered 
around, but whole subdivisions being developed by Habitat in my 
community, and I appreciate the testimony about the capacity 
building and the self-help ownership opportunity fund. Also in 
our local community, community development funds, local CDBG 
funds have also been used for some of these infrastructure 
needs associated with Habitat projects. So we know it is a 
partnership and we want to make it work. And we thank you for 
underscoring that for us.
    Ms. Stokes. Well, I thank you all very, very much.
    Mr. Frelinghuysen. And thank you for enhancing the Stokes 
name around here.
    Ms. Stokes. Thank you very much. Thank you all.
                              ----------                              

                                          Thursday, April 13, 2000.

                    NATIONAL AIDS HOUSING COALITION


                                WITNESS

REGINA R. QUATTROCHI, PRESIDENT
    Mr. Frelinghuysen. Ms. Regina Quattrochi.
    You are nice to come. Thank you very much.
    Ms. Quattrochi. Good morning.
    Mr. Frelinghuysen. And you are president of the National 
AIDS Housing Coalition?
    Ms. Quattrochi. Yes.
    Mr. Frelinghuysen. Thank you for being with us this 
morning.
    Ms. Quattrochi. Good morning, and thank you for this 
opportunity to testify. I represent the National AIDS Housing 
Coalition, which is an organization of people living with HIV 
and AIDS, and providers of HIV/AIDS housing around the nation. 
I am also the executive director of Bailey House, which is an 
organization in New York City, that has been providing housing 
to homeless people with AIDS since 1983.
    There are approximately 1 million Americans living with 
HIV/AIDS today. Once an epidemic of mostly urban areas, the 
epidemic now has spread into virtually every community of 
America, affecting rural and suburban areas as well as large 
towns and cities. As has been well publicized over the last 
decade, communities of color have been extremely hard hit by 
the epidemic. They are represented in a disproportionate number 
in most HOPWA funded programs. In New York City, for example, 
over 60 percent of the tenants in HOPWA funded housing are men, 
women and children of color.
    Surviving with HIV/AIDS today is an extremely complex 
matter. Treatment advances in the last decade have greatly 
prolonged the chance of survival. Around the nation this is 
reflected in a dramatic drop in the number of AIDS deaths. But 
these dramatic survival rates we read about, do not happen 
organically; they result from early access to care and 
adherence to a complex regime of medical interventions 
including medication and other forms of treatment. Stable 
housing is a prerequisite for both.
    To be diagnosed with AIDS, someone who is HIV infected has 
to develop one or more of the many so-called opportunistic 
infections considered by the CDC to result from HIV infected, 
compromised immune system. These include various types of 
cancers, many rare respiratory illnesses including rare forms 
of pneumonia and/or TB, hepatitis, pulmonary diseases and 
debilitating forms of anemia. While more manageable than ever 
before, HIV/AIDS continues to take its toll. PWAs, who cannot 
afford housing, therefore are some of the nation's most 
vulnerable citizens.
    Studies around the nation demonstrate that next to primary 
care, people living with AIDS cite stable housing as their 
greatest need. The reasons are obvious. Without access to 
regular sleeping quarters, a refrigerator, proper sanitation, 
fresh water and a bathroom, PWAs cannot adhere to their complex 
medical treatments, which require taking multiple medication on 
a very rigid schedule, and they can't tolerate the side effects 
that often accompany management of the illness. It is 
difficult, if not impossible, to imagine tolerating disease 
symptoms and drug reactions, including chronic diarrhea and 
vomiting, severe headaches and body sweats, fluctuating 
temperatures, neuropathies and other types of really hard-to-
imagine side effects, without having somewhere to live. For 
people with AIDS on anti-retroviral medication, missed 
medication can result in mutation of the virus and death.
    Preliminary findings from a recent study by the School of 
Public Health at Columbia University in New York show that 
people with AIDS in stable housing have three times greater 
rates of access to comprehensive care and adherence to 
comprehensive HIV/AIDS care and treatment than those who are 
homeless or marginally housed. Another study by UCLA/Rand 
Corporation found that homeless or marginally housed people 
with AIDS are less likely to have received the latest anti-
retroviral therapies than those with stable housing.
    AIDS is an impoverishing disease. In an ongoing study of 
AIDS housing by Vanderbilt University in AIDS Housing of 
Washington, 54 percent of the residents of AIDS housing 
programs reported incomes of less than $8,400 per year. HUD 
HOPWA grantees report that over half of the PWAs in their 
housing have incomes of less than $6,000 per year, and a total 
of 91 percent earn less than $1,000 per month. The recipients 
of HOPWA funded assistance, therefore, are among the poorest 
people in the nation. Without HOPWA funded housing assistance, 
they face severe challenges in meeting personal, medical and 
housing costs during their illness. They are unable to afford 
non-subsidized housing or survive in shelter systems where they 
may be exposed to communicable diseases and/or unable to store 
life-prolonging medication.
    For people with AIDS, time is of the essence. Survival is 
contingent upon stable housing, early access to care and early 
treatment intervention. People with AIDS, therefore, cannot 
wait for years on waiting lists prevalent in many parts of the 
nation, for Section 8 or other forms of public housing. Since 
stable housing may literally mean the difference between life 
and death, funding for AIDS specific housing must remain a 
national priority.
    Since 1992 the HOPWA Program has helped tens of thousands 
of low-income men, women and children survive by finding stable 
housing and related support services. In communities across the 
nation, HOPWA funds programs ranging from rental assistance to 
housing production. In Newark, New Jersey and Dallas, Texas, 
HOPWA funds are used to provide tenant-based rental assistance. 
In Ohio, 7 counties collaborate to provide rent, mortgage and 
utility assistance to prevent homelessness among the HIV 
infected in their jurisdiction. The State of Missouri uses its 
grant to provide rental assistance to the poorest PWAs earning 
well below the federal poverty level within the 97 counties 
covered by the grant. New York City has used over half of its 
HOPWA funds to develop and build several thousand units of 
permanent housing. A grant to West Virginia funds the West 
Virginia Housing and Advocacy Coalition to provide housing and 
housing-related services to people with AIDS, particularly HIV 
infected women and their families, migrant workers and 
veterans.
    90 percent of HOPWA funds are distributed pursuant to 
formula. 10 percent are set aside for competitive grants. Since 
the beginning of the HOPWA program in 1992, the number of 
eligible jurisdictions has grown from 38 to 101 in fiscal year 
2000. Currently 67 cities qualify, and 34 states qualify 
separately. It is expected that in fiscal year 2001, 5 to 9 
additional jurisdictions will qualify as they reach 1,500 
cumulative cases or the threshold for HOPWA eligibility.
    What we are asking you today is--I guess as the person 
before me testified, give till it hurts. No, seriously, we are 
asking for an increase in HOPWA to 292 million. That will 
provide level funding in many areas as new jurisdictions 
qualify, and it may provide some additional relief in areas 
that have had to lower the assistance threshold to well below 
the poverty level, and watch their waiting list grow and grow, 
because as people live longer, they stay in subsidized housing 
longer than they did.
    Thank you for this opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you for your testimony. I know the 
Committee has been very supportive of HOPWA funding.
    Ms. Quattrochi. Absolutely, and we appreciate it.
    Mr. Frelinghuysen. We will do our level best to be of 
additional assistance.
    Ms. Quattrochi. Thank you.
    Mr. Frelinghuysen. Ms. Meek.
    Mrs. Meek. Just thank you.
    Mr. Frelinghuysen. Mr. Goode.
    Mr. Goode. No questions.
    Mr. Frelinghuysen. Mr. Price.
    Mr. Price. No questions, but thank you.
    Mr. Frelinghuysen. Thank you very much.
    Ms. Quattrochi. Thank you very much.
    Mr. Frelinghuysen. We will take a break.
    [Recess.]
                              ----------                              

                                          Thursday, April 13, 2000.

            HACKENSACK UNIVERSITY MEDICAL CENTER FOUNDATION


                                WITNESS

ROBERT TORRE, VICE PRESIDENT AND CHIEF OPERATING OFFICER, HACKENSACK 
    UNIVERSITY MEDICAL CENTER FOUNDATION
    Mr. Frelinghuysen. The meeting will come to order. Mr. 
Torre, come on up, representing the Hackensack University 
Medical Center Foundation. Mr. Robert Torre.
    Mr. Torre. Thank you.
    Mr. Frelinghuysen. Summarize your needs.
    Mr. Torre. I will summarize. Thank you, Mr. Chairman, for 
this opportunity to address the Committee. I am Bob Torre, Vice 
President and chief operating officer of the Hackensack 
University Medical Center Foundation.
    I think, Mr. Chairman, discretion is much better than 
valor, and less is more, so rather than go through all of this, 
I think I will just hit the high points in a few moments if I 
may.
    On behalf of Hackensack University Medical Center, I am 
here today seeking support of an $85 million project to build a 
new facility dedicated to women's and children's care with 
federal support, hopefully, in the amount of $2 million of the 
$85 million.
    Our programs are growing exponentially. The number of 
babies born at the Medical Center has risen from 2,419 ten 
years ago to 4,132 in 1999. Most importantly, the number of 
critically ill newborns doubled in that period.
    We are among the top three hospitals in New Jersey in total 
volume of pediatric cases, treating many of the most critically 
ill children in the state. We provide care without regard to 
race, religion or social or economic background, a fact that is 
demonstrated in the amount of uncompensated care, $12.6 million 
in 1999 or 13\1/2\ percent of the medical center's overall 
uncompensated care experience of $93 million in that period.
    While the development of a children's hospital on the 
campus of the medical center will have little impact on 
existing New Jersey pediatric providers, it will enable 
patients who have historically used New York institutions to 
receive care for their children close to their home. Among 
parents who use hospitals in New York, fully 25 percent of 
those interviewed would use a children's hospital at Hackensack 
University Medical Center. In light of the fact that the 
medical center now operates at capacity, and in recognition of 
these undeniable needs among patients needing care, we are now 
currently planning construction of a state-of-the-art facility 
dedicated to the care and treatment of women and children. It 
will be a multi-story building of 225,000 square feet and 
costing approximately $86 million. It would increase women's 
beds and would increase the number of pediatric beds.
    In conclusion, Mr. Chairman Hackensack University Medical 
Center will provide $48 million of its own funds from our own 
designated funds for this. We typically manage our institution 
so that we have--we don't call them profits since we are non-
profit--but we have excesses, and we put that toward this 
project, and an additional $40 million from philanthropic fund 
raising. The one year grant we are asking for, $2 million, is 
about 2 percent of the total cost of the project.
    Mr. Chairman, in conclusion, thank you for this opportunity 
to bring before the Committee the exciting vision of our 
medical center for women's and children's health care in 
Northern New Jersey. We hope the Committee will look favorably 
upon this request for an important federal investment in the 
future. Thank you, sir.
    Mr. Frelinghuysen. Mr. Torre, thank you for being a great 
advocate on behalf of the Center. Certainly as a resident of 
New Jersey, I know the Center's excellent reputation. And to 
the degree that this Committee can do it, we will be supportive 
of this initiative given the resources we have, but thank you 
for being here and putting your case so well before the 
Committee.
    Mr. Torre. Thank you for the opportunity.
    Mr. Frelinghuysen. Mr. Price?
    Mr. Price. Thank you for being here. We appreciate it.
    Mr. Torre. Okay.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                NATIONAL AMERICAN INDIAN HOUSING COUNCIL


                                WITNESS

CHESTER CARL, CHAIRMAN
    Mr. Frelinghuysen. Mr. Chester Carl.
    Mr. Carl. Good morning.
    Mr. Frelinghuysen. Good morning. How are you? Representing 
the National American Indian Housing Council. Thank you very 
much for being with us. A copy of your full remarks will be put 
in the record, if you could begin.
    Mr. Carl. Thank you very much, Congressman, and the 
honorable Members of the Committee. On behalf of the National 
American Indian Housing Council, I want to thank you for this 
opportunity to address you today on the proposed President's 
budget. This Committee has been and continues to be good 
friends to Indian country, and the opportunity to speak frankly 
about concerns before this distinguished committee is a 
tremendous honor.
    I also want to recognize the tremendous effort that has 
been put forth by the Committee staff in understanding the 
issues that are before Indian country.
    Although National American Indian Housing Council is 
pleased with the increase of the President's budget for the 
Native American Housing Assistance and Self-Determination Act 
block grant, an increase from 620 million to 650 million, and 
also the increase in BIA Housing Improvement Program, this 
amount is nowhere the level to meet the tribes' housing needs. 
The National American Indian Housing Council estimates that the 
housing needs as presented requires an annual funding of at 
least $1.25 billion. This does not take into account the rapid 
growth in Indian population, and whereas this population is 
also very young, and many of these families will have families 
very quickly, and they will need housing. We also are faced 
with additional tribes in California that are in the process of 
being fully-recognized tribes, and this funding has to cover a 
greater number unlike before, and the needs of Indian housing 
are many and varied.
    The lack of significant private investments and dire 
conditions that face Indian communities means that federal 
dollars make up a larger portion of housing resources in Indian 
country. The basic need for infrastructure, low-rent housing, 
home ownership and housing counseling services are critical. On 
a positive note, the flexibility of NAHASDA has also allowed 
tribes to determine their own needs, and has worked with other 
tribes to develop innovative housing programs. NAHASDA is also 
a model program and should be supported.
    Some of the new programs tribes have developed include 
tribally-designated mortgage program, and are now entering to 
bond financing, and now are also indirectly using NAHASDA 
monies to program and leverage economic development, so on a 
positive note, that is good news.
    We are faced with the impact of welfare reform, and what we 
see, it will have unintended adverse consequences. In Indian 
Country, the choice to work is not an option. Job opportunities 
simply do not exist. Tribal members losing their benefit will 
place increased burden on tribal housing and subsidized 
programs and cause more tribal members to move back to tribal 
areas, where they have been self-sufficient elsewhere.
    The recent strict enforcement by HUD on environmental 
reviews, not only jeopardize fundings to tribes on simple 
paperwork mistakes, but it is also an unfunded mandate. HUD 
does not have the resources to conduct environmental reviews, 
and tribes are held to higher standard than HUD.
    The President's budget for HUD includes new initiatives for 
Indian country. Unfortunately, it is being funded at the 
expense of NAHASDA block grant program. Because of the 
inadequate funding, approximately 54 tribes receive an annual 
funding of 25,000. The total HUD set-aside for NAHASDA is 24 
million, leaving tribes with actual funding of 626 million, so 
in actuality there is an increase of $6 million.
    National American Indian Housing Council believes there 
should be no set-aside under NAHASDA, and these programs should 
be funded separately and not at the expense of direct funding 
to tribes.
    In closing, Indian country is concerned the makeup of HUD's 
budget is done without consultation that recognizes the unique 
government to government nature of relationship between tribes.
    I would again thank all the Members of this Committee for 
their continued support for Indian housing programs and tribes, 
and I look forward to working with you in this session of 
Congress, and happy to answer any questions at this time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Well, thank you for being here on behalf 
of the National American Indian Housing Council. Are you a 
member of the Navajo Nation Area?
    Mr. Carl. Yes, I am.
    Mr. Frelinghuysen. Well, thank you for your leadership and 
being an excellent representative here this morning.
    Mr. Carl. Thank you.
    Mr. Frelinghuysen. Appreciate your testimony. Mr. Price?
    Mr. Price. I echo my appreciation too. We are glad to have 
you here and we will pay close attention to your request.
    Mr. Carl. Thank you very much, and this committee has been 
very good to us, and we appreciate the continued support.
    Mr. Frelinghuysen. Thank you for your time and effort.
                              ----------                              

                                          Thursday, April 13, 2000.

               HEBREW ACADEMY FOR SPECIAL CHILDREN, INC.


                                WITNESS

BERNARD M. KAHN, EXECUTIVE DIRECTOR
    Mr. Frelinghuysen. Bernard Kahn, Hebrew Academy for Special 
Children, Incorporated. Thank you very much. Welcome.
    Mr. Kahn. Thank you.
    Mr. Frelinghuysen. A copy of your full remarks will be put 
in the record. Pleased to have you with us.
    Mr. Kahn. Thank you, Mr. Chairman and Congressman Price, 
Members. Thank you for letting me have the opportunity and the 
privilege to testify before you.
    Since you do have my testimony there already, I want to say 
a couple of words and respond to any questions.
    My name is Bernie Kahn. As you have stated, I am the 
Executive Director of the Hebrew Academy for Special Children, 
which is better known as HASC. HASC is a non-profit, non-
denominational organization that serves mostly disabled 
children and adults from New York, Florida, New Jersey, 
Michigan, and 13 other states around the union. HASC facilities 
are in 13 different locations across New York.
    When my parents founded HASC nearly four decades ago with 
four profoundly handicapped children, they believed that every 
child has a right to develop to his and/or her full capacity, 
and it is because of HASC that disabled children and adults 
from all over America have a better chance to reach that 
capacity. Today HASC serves more than 1,100 disabled children 
and adults on a regular basis.
    As you probably know, for individuals with severe 
disabilities, learning how to walk or learning how to talk may 
take several years. For others, especially adults, HASC 
provides job training and employment so they can secure a job 
with dignity in the private sector, and they can become 
taxpayers, not just tax recipients.
    Mr. Chairman, it is not lost on me, and I am sure among the 
other members of this Subcommittee, but the dreaded tax 
deadline is just days away. I just feel it is worth mentioning 
that there are people at HASC who are actually looking forward 
to paying taxes and not just receiving it.
    Both developmentally disabled children and adults need 
intense occupational training skills, physical therapy, speech 
therapy, critical health monitoring, counseling and many other 
therapeutic exercises, and our success rate is very high. This 
means that through early intervention, HASC is able to 
mainstream developmentally-disabled children to regular 
classes. We give the children an opportunity to sit in the same 
classrooms, to learn the same skills, and to dream the same 
dreams as the typical children do. HASC also trains the parents 
in how to care for the special child so that they can live 
together at home as an alternative to institutionalization. 
This is especially helpful because nearly 50 percent of our 
students come from low-income families.
    While we are here to request a DDI Grant, HASC's programs 
over the years saved the federal, state and local governments 
millions of dollars in health care and welfare funding, for 
without HASC, many of these children and adults would end up in 
costly institutions and hospitals, homeless on the streets, or 
having to stay home 24 hours a day, which would force the 
parents to give up their jobs and collect unemployment or 
welfare to care for that special child.
    Ironically, the demand for our services continues to grow. 
Last year we had a waiting list of over 150 children. These 
individuals are desperate to enter our programs because 
programs like HASC are rare. The demand currently surpasses our 
physical capacity, and in fact, in some of our facilities we 
had to convert bathrooms and closets into occupational therapy 
and speech therapy rooms. It has become virtually impossible to 
add another student to our programs.
    To meet this demand, HASC plans to purchase and renovate 
another facility into a nationwide service center. This would 
increase our physical capacity and upgrade more cost effective 
programs from New York.
    On behalf of some of the most vulnerable individuals in our 
society, we are seeking this Subcommittee's help. The total 
cost of this project is $9 million, and HASC is requesting 2.5 
million from this Subcommittee for this nationwide service 
center, to service developmentally disabled children and adults 
from low-income and needy families. With this funding, even 
more special children can be mainstreamed into regular classes 
so that they can live their life to the fullest. Thank you for 
considering our request.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Kahn, thank you for your testimony 
on behalf of the Hebrew Academy for Special Children, and as 
noted in your remarks, we know you are passionate about the 
work that you do, and it is very important to New Yorkers and 
to the nation.
    Mr. Kahn. Thank you very much, sir.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                       NEVE YERUSHALAYIM COLLEGE


                                WITNESS

ELISSA STEIN
    Mr. Frelinghuysen. Ms. Elissa Stein. We will hear from you 
next. Welcome to the Subcommittee.
    You may proceed with your statement.
    Ms. Stein. Subcommittee Members, thank you for the 
opportunity to appear before you. My name is Elissa Stein. I am 
proud to sit before the Subcommittee today and tell you that my 
life has been changed because of Neve Yerushalayim College.
    As early as I can remember, my life was in crisis. 
Beginning at age 11, I was sexually and emotionally abused by a 
member of my extended family. I desperately wanted it to stop, 
but I was terrified of what would happen if someone found out. 
The abuse continued through age 13. During the time I was being 
abused, my parents separated. I continued to feel isolated, 
very alone and guilty all through my teen years. I started to 
crumble emotionally. I had serious bouts of depression and 
contemplated suicide. I hated myself, the person I had become 
and the person I believed that would always remain.
    But my life started to turn around shortly after I was 
introduced to Neve Yerushalayim College, a school for women. 
Neve College was created in Israel in 1970 to provide women 
with a high-quality, faith-based education. In the early 1980s, 
the U.S. Government invested in Neve to expand its campus in 
Israel. Now Neve is also located in New York, Maryland, New 
Jersey and Michigan.
    I formed close relationships with many of the students, and 
in particular two of my professors, who strongly suggested that 
I enter therapy to help me confront what I had hidden for so 
long. Neve provided therapy and allowed me personal space to 
reflect on my sessions. The therapy program was draining, but 
excellent. Everyone there was so supportive. You see, Neve 
College is not just an academic institution. It is an 
environment of love, care, warmth and stability, a family in 
many ways. That is why I am here today.
    Neve College has proposed the development of a residential 
community center for young women in Brooklyn. The hallmark of 
the center will be its live-in mentors. The center will serve 
approximately 100 women each year between the ages of 16 and 
23, some of whom will be at-risk and formerly at-risk women who 
want to get better. There is no residential mentoring program 
of this kind that is specifically devoted to young women in the 
New York area. Neve's total budget for the project is $4 
million. Neve has asked the Congress to help with half. Last 
year, Neve was thankfully included in the EDI section of your 
bill for $400,000.
    While not everyone I knew at Neve had stories similar to my 
own, many did. I cannot testify about what Neve did for other 
people, but only how it changed my own life. The answer is very 
clear. Had I not gone to Neve, it is certain that I would not 
be here to testify before you today.
    I know for a fact that there are many women who are caught 
in a destructive cycle and who can be saved by this kind of 
center. Neve has worked for more than 30 years to help nurture 
and care for women. They have an outstanding track record, as 
evidenced by the successes of thousands of Neve alumni who work 
and live throughout the United States and the world.
    Perhaps the most amusing thing about my former life is that 
before my experience at Neve, I literally had no desire to set 
goals for myself. I never wanted to live long enough to have a 
future. Now, I am sitting here testifying before a 
congressional committee, and I am just one month away from my 
college graduation. The most complicated decisions I have to 
make now are which master's or doctoral programs should I 
accept.
    Mr. Chairman and Members of the Subcommittee, please help 
Neve College with an investment of $1.6 million for the 
development of a residential community center for young women. 
It will serve young women from all walks of life, some of whom 
are on the brink of giving up hope, for one reason or another. 
This center could be their lifeline. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Ms. Stein, we admire your perseverance 
and courage, and we wish you the best in your future. You have 
been a tremendous advocate for Neve.
    Ms. Stein. Thank you very much.
    Mr. Frelinghuysen. We appreciate that.
    Mr. Price.
    Mr. Price. We do appreciate your sharing your personal 
story. I note that you have written testimony here that tells a 
little bit more about the college. So we will put that in the 
record alongside your personal testimony.
    Ms. Stein. Thank you.
    Mr. Price. You have a powerful story, and we appreciate 
your sharing it with us, and we will try to respond.
    Ms. Stein. Thank you very much.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                UNITED NEGRO COLLEGE FUND, INCORPORATED


                                WITNESS

DELBERT BAKER, PRESIDENT, OAKOOD COLLEGE
    Mr. Frelinghuysen. Dr. Delbert Baker. Welcome.
    Mr. Baker. How are you?
    Mr. Frelinghuysen. Thank you very much for being with us.
    Mr. Baker. My pleasure.
    Mr. Frelinghuysen. A copy of your full remarks will be put 
in the record, if you would like to proceed and make your case.
    Mr. Baker. Thank you. I would like to give greetings to you 
and the committee. I am Delbert Baker, representing the UNCF 
organization and here on behalf of Bill Gray, the president and 
CFO of that organization, who I am sure you know of as well.
    I want to thank you for the opportunity to speak with you 
and to share the concerns of our 39 colleges and universities. 
It is very important to us that we have this moment to share 
the important matters that make a difference with our 55,000-
plus students who are part of the UNCF, the College Fund 
schools.
    We have a particular burden as it relates to the UNCF 
history to nurture and to enroll graduate students in this 
area, in this vital area, and we know that our students are 
making a great difference. All of this is facilitated by funds 
from committees like this that go to the UNCF programs or help 
support programs of HBCUs and UNCF schools to make these 
dynamic graduates possible.
    So my comments this morning deal with the great record of 
UNCF and HBCUs, in terms of the fact that approximately 34 
percent of all UNCF students come from families with incomes 
below $25,000 a year, compared with 17 percent of students 
attending 4-year colleges nationwide. That is a significant 
step there. Approximately 90 percent of UNCF students require 
some form of financial assistance. Forty percent are the first 
in their families to attend college. Yet in spite of these 
challenges, UNCF students and member institutions have 
accomplished significant advances. In fact, one of the 
committee members----
    Mr. Frelinghuysen. Mrs. Carrie Meek.
    Mr. Baker. That is right--is a graduate of HBCU--we are 
proud of that--and 15 other members of Congress. So you see the 
impact is real.
    Furthermore, HBCUs also graduate the most African American 
doctoral degree recipients as well. Despite these remarkable 
contributions to preparing blacks and other minorities for 
professional careers, especially the noteworthy production of 
scientists, mathematicians and engineers, HBCUs receive 
negligible levels of Federal assistance from Federally-
supported science, mathematics, engineering and technology, 
SMET, programs. Being the president of a college, I know that 
is a reality with our own institution. It is a real need that 
we have for our students, faculty staff and our constituents.
    So with this reality that the funds haven't grown 
significantly in the last decade, that is why we are here today 
to make a special appeal to you to do what you can to help us 
in this area. You have the power and the call to make a 
difference here, and that is what we are seeking to appeal to 
you with.
    We have inadequate amounts of monies in the science and 
engineering research to provide for space in dollars. These 
deficits limit the opportunities for faculty to conduct 
cutting-edge research and to remain competitive within the 
respective disciplines. Lack of adequate support threatens the 
viability of HBCUs as the leading producers of African American 
scientists, and this is of great concern to us. And thereby, 
the Nation is jeopardizing a longstanding and ever-more 
essential pipeline of science, mathematicians, and engineers 
and technology professionals. So that is part of this whole 
thrust here.
    So, Mr. Chairman, we are asking that this Committee will 
look very, very closely at what you can do to increase the 
number of dollars in the programs that support this. We believe 
that by your doing this, we will increase the quality and the 
competencies in this area, areas that we have contributed so 
much.
    For these reasons, our 39 schools strongly recommend that 
programs at NSF, National Science Foundation, and NASA, 
targeting broadened participation for underrepresented minority 
SMET students and making resources available to upgrade the 
research and educational capabilities of HBCUs be dramatically 
increased. This includes the Louis Stokes Alliance for Minority 
Participation Program, the HBCU Undergraduate Program, the 
Alliance for Graduate Education, the Centers for Excellence in 
Science and Technology, the CREST Programs, all of these. These 
initiatives have remained level funding, for the most part, for 
the last 10 years. We are hoping that they can receive an 
increase.
    As I come to the conclusion of my remarks, so many areas 
that these fundings touch impact directly on students. I am 
coming from Oakwood College, and we have a number of programs 
that are funded by dollars from these programs, and they are 
making a tremendous difference in our communities; in terms of 
collaboration, in terms of the Community Development Programs, 
and they are transforming blighted communities into productive 
areas.
    So with that in mind, Mr. Chairman, even though we have 
small endowments and a greater percentage of students needing 
financial aid, the UNCF institutions capitalize on our Federal 
partnerships in extraordinary ways to address national 
concerns. Currently, like the rest of the Nation, UNCF is 
facing the digital divide challenge, a problem that is greater 
in higher education than it is among the Nation's households. 
All of these programs I have mentioned today help us to address 
this challenge, and the HUD programs and all of the different 
ones where we teach computer literacy, and I simply say that 
for these reasons it is imperative that you assist us in these 
areas, and that is really our appeal on behalf of our 39 
colleges and universities.
    I thank you for your time and consideration this afternoon.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Dr. Baker, thank you for your time and 
consideration. For the longest period of time I see the motto 
is still there, ``A mind is a terrible thing to waste.''
    Mr. Baker. Absolutely.
    Mr. Frelinghuysen. I remember growing up and seeing 
solicitations in the mail at home, back in New Jersey. And I am 
sure my parents put money in the mail because it was always a 
very good investment.
    I know your member of Congress is Mr. Bud Cramer.
    Mr. Baker. Yes. Absolutely.
    Mr. Cramer. I breezed in after you had started.
    Mr. Baker. Thank you.
    Mr. Frelinghuysen. The floor is yours.
    Mr. Cramer. Thank you, Mr. Chairman. I will only take 30 
minutes, but----
    [Laughter.]
    Mr. Cramer. Dr. Baker, welcome to this Subcommittee. We 
visit regularly down in the district.
    Mr. Baker. That is correct.
    Mr. Cramer. I want to say, for the record, how much we 
appreciate your leadership there at Oakwood College and in our 
community. Thank you for speaking today on behalf of the United 
Negro College Fund. I hope we can accommodate your modest, 
reasonable request here today.
    That is, Mr. Chairman.
    Mr. Frelinghuysen. Thank you. You have got a lot of good 
alumni and alumni that are here.
    Mr. Baker. Thank you.
    Mr. Frelinghuysen. Mrs. Meek, I am sure, will be--if she 
hears you are here, she will probably be beating a path to get 
here.
    Mr. Baker. As long as they support it, there is no problem, 
sir. [Laughter.]
    Mr. Frelinghuysen. All right. I am sure they will. Thank 
you very much.
    Mr. Baker. Thank you very much.
    Mr. Frelinghuysen. Take care.
                              ----------                              --
--------

                                          Thursday, April 13, 2000.

                 THE DETROIT RESCUE MISSION MINISTRIES


                               WITNESSES

HON. CAROLYN KILPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
LINDA HUFFMAN, DIRECTOR, EDUCATIONAL PROGRAMS, THE DETROIT RESCUE 
    MISSION MINISTRIES
    Mr. Frelinghuysen. Mrs. Kilpatrick, our colleague, welcome. 
Thank you very much. I understand you are going to make an 
introduction for us.
    Ms. Kilpatrick. Yes, yes.
    Mr. Frelinghuysen. We are thrilled.
    Ms. Kilpatrick. Thank you, once again, for having Members 
and others come before you to ask for our appropriations.
    One of the greatest programs in our State is the Detroit 
Rescue Mission Ministries. They work across ethnic, racial, 
gender lines to treat the unfortunate in our society. Many have 
come and many have been successful after completing the 
ministries and its programs. I have with me today a young woman 
who will talk to you about her experiences and what DRMM has 
done--and that is how we refer to it effectively--in her life. 
We have requested $1.5 million. This Committee was helpful in 
last budget cycle and have been assisting these programs over 
several years.
    So with that, let me introduce and have her introduce 
herself to you, one of my constituents and one of the fine 
members and providers in our State.
    Thank you very much.
    Mr. Frelinghuysen. Welcome.
    Ms. Huffman. Thank you, Mr. Chairman, and Members of the 
Subcommittee for this opportunity to appear before you on 
behalf of the Detroit Rescue Mission Ministries.
    My name is Linda Huffman. I graduated, with honors, from 
the University of Detroit. I have a master's degree in reading 
and learning disabilities. I was a school teacher for 23 years 
and I was a drug addict. I was not abused as a child, I lived 
with my biological parents, our home was a lovely one. I had 
most of the things that I wanted. I am educated. I have always 
had good jobs, so how could I be an addict?
    It began in college when I met my future husband, and we 
started to experiment with drugs; first, powder cocaine and 
then crack. We thought it was cool and hip. After I began using 
every day, things started to go terribly wrong. My marriage 
fell apart, my husband left me and took my son. It devastated 
me so that I attempted an overdose on pills. I was found near 
death and was sent to a local hospital for 3 months. I was 
treated for my depression and addiction. After I was released, 
I remained sober for 5 years. I resumed teaching and became a 
super mom to my son.
    After he graduated from high school and left for college, I 
hit rock bottom again. Drugs took me over. I resigned as a 
teacher, I lied, I cheated, I stole, I manipulated, I sold my 
body. I literally did whatever it took to keep my addiction 
going. In the process, I lost my self-respect, my self-esteem 
and my dignity. I was arrested for drug possession. After that, 
I went to Detroit Rescue Mission Ministries, Genesis House II-
III program, which is a residential treatment center for women 
that has a 70-plus percent success rate. This is the only 
center that allows women to bring their children while they are 
receiving treatment.
    I entered the Detroit Rescue Mission Ministries' 2-year 
Transitional Housing program, which provided the necessary 
structure and supportive services to enable me to learn how to 
accept life, on life's terms, without resorting to the use of 
drugs.
    I was doing so well at the Ministries that they hired me, 
and recently promoted me to director of Educational Programs 
for all of its ministry sites. The Detroit Rescue Mission 
helped me understand that we are not alone in this world; that 
through prayer, individual initiative and God's guidance 
anything is possible, even after the age of 50. I just 
celebrated 2 years of being clean.
    The Detroit Rescue Mission Ministry is the only nonprofit 
that provides medically treated detoxification. Therefore, the 
City of Detroit, the Salvation Army, the McGregor Foundation 
and other social service agencies has asked the Ministry for 
help. Each organization pledged significant program funding to 
the Mission, but the Detroit Rescue Mission lacks the facility 
to accommodate the need. In January, Detroit Rescue Mission 
Ministries signed a Letter of Intent with the YMCA to sell one 
of its major Detroit facilities to the Mission for below-market 
value. This facility will allow the Mission to provide housing, 
expand its licensed medical detoxification program and offer 
supportive services to more than 1,000 individuals.
    Mr. Chairman and Members of the Subcommittee, Detroit 
Rescue Mission seeks a $1.5-million Federal investment for the 
purchase and renovation of the YMCA building so the Detroit 
Rescue Mission can help more people transform their lives. The 
Detroit Rescue Mission Ministry successfully offers hope to the 
hopeless, care and love to the forgotten, and healing for the 
mind, body and soul. I sit before you today as living proof of 
the Detroit Rescue Mission Ministries' commitment.
    Thank you.
    Ms. Kilpatrick. Thank you very much for having us this 
morning. We will have a statement for the record. You have been 
there for us before. We have saved thousands of lives, and we 
hope that you will help us again this time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Ms. Huffman, thank you for your very 
personal, remarkable testimony. You have a wonderful advocate 
sitting next to you. But I think one of the amazing things 
about this Committee is we learn a little bit about people 
every time we have this hearing, and we learn about the needs 
of--obviously, Detroit's needs are not unique, but your 
testimony is one of the highlights and the most remarkable 
testimony we have had today. And we thank you for your courage.
    Ms. Huffman. Thank you. Thank you very much.
    Mr. Frelinghuysen. It is important.
    Ms. Kilpatrick. Thank you.
    Mr. Cramer. Thank you.
    Mr. Frelinghuysen. Thank you very much, both of you.
                              ----------                              --
--------

                                          Thursday, April 13, 2000.

                       THIRD DISTRICT OF FLORIDA


                                WITNESS

HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Frelinghuysen. Ms. Brown, good morning. How are you?
    Ms. Brown. Good morning, Chair. Thank you for letting me 
come.
    Mr. Frelinghuysen. Any remarks you have of any length we 
will be happy to include in the record, and you have some 
prepared remarks, and we are happy to hear them.
    Ms. Brown. Thank you. I am going to just really give my 
prepared remarks for the record. I just want to make one brief 
statement. This area that I am requesting, you know, a lot of 
people think our job is very glamorous, but it is not, from the 
example that we have just heard. I mean, it is serious, and it 
is not just kissing babies and taking pictures.
    I went to this area in my district, the Third Congressional 
District of Florida, St. Johns County, which is one of the 
richest counties, I guess, in the State of Florida. I represent 
an area that I thought I was in Haiti. It was awful. They 
called me over after serious storms and rain, and the septic 
tanks were running over. It was just deplorable, and I said 
that openly. Well, the county has gotten involved. They have a 
$60-million project now. They have come up with $8 million. 
They are getting some from the State, and I am trying to see 
that we can get some from the Federal Government to fix these 
conditions that have existed for years and years.
    I just do not think that we should have people living in 
the conditions that I found. I could not believe that we had an 
area in this country that looked like the situation. It is a 
danger to the kids in the community, to the community, the 
contamination, the fact that raw sewage is just overrunning. It 
was just awful. And so I am hoping that we can do something for 
that particular area.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. You are specifically seeking $5 million 
of Federal funding for the sewer?
    Ms. Brown. Yes, sir.
    Mr. Frelinghuysen. And a million dollars for an EDI 
initiative.
    Ms. Brown. Yes, sir. And I do want to say that the county 
has come together. They have a $60-million project. They have 
already put up $8 million. The State is chipping in so much at 
this time. So I am hoping that we can do some kind of matching 
so that we can get this situation cleared up.
    Mr. Frelinghuysen. Well, thank you for making a strong case 
and being an excellent representative of Florida, and most 
particularly St. Johns County?
    Ms. Brown. That is correct.
    Mr. Frelinghuysen. That is where most of the problems 
exist.
    Ms. Brown. Yes, sir.
    Mr. Frelinghuysen. Thank you for your time and for being 
here.
    Mr. Cramer.
    Mr. Cramer. Just briefly, to my colleague, the City, 
according to your statement, will match the Federal funds two 
to one?
    Ms. Brown. Yes. That is correct. So we have got them moving 
in the right direction. I have had several town meetings with 
the people in the area, and I have met with the officials. In 
fact, when they know I am coming, they start doing a little 
street clean-up. So things are moving for those people, and I 
do think that we can make a difference, if we are committed. I 
am hoping that I will be able to do my part.
    Mr. Cramer. Thank you.
    Mr. Frelinghuysen. Thank you. Thank you for your time.
    [Recess.]
                              ----------                              

                                          Thursday, April 13, 2000.

                           HUD APPROPRIATIONS


                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Frelinghuysen. Congressman Frank Pallone from New 
Jersey.
    Mr. Pallone. Thank you, Congressman.
    Mr. Frelinghuysen. The floor is yours. A copy of your full 
statement will be put in the record. We know that you have some 
remarks for us.
    Mr. Pallone. I will try to summarize and maybe skip through 
a few things that are in the record already. Good to see you, 
too.
    I just wanted to, first of all, mention the Child Health 
Institute, which you are familiar with, in New Brunswick. It is 
part of the University of Medicine and Dentistry. You gave us a 
million dollars last year, and there has been other Federal 
funds as well. So this is one of those things where, if we get 
more Federal funds, we are able to leverage more private money, 
as well as State money. We are trying to see if we can get as 
much as $5 million. That is what we really need ultimately in 
Federal funds to match about $17- that is coming from private, 
nonprofits and individuals, as well as the State.
    It is biomedical research. You know what it is, but I would 
gladly tell you more about it.
    Mr. Cramer. I am certainly willing to listen.
    Mr. Pallone. The other one you are familiar with, also, 
Congressman Frelinghuysen, and that is the decontamination 
technology, which you have been the champion of, and we would 
not have it if it were not for you. We are trying to get $5 
million to continue with that technology. You know that they 
are about to sign, it is not totally related, but in terms of 
alternative disposal, alternative to ocean dumping, we have 
been working very hard to get the CTI Corporation contract 
signed, and I think that is going to happen with the Governor--
the Governor has been very supportive--within the next week. 
That is to take the material out to Pennsylvania coal mines. 
And if that works and if this works, we are going to have a 
number of alternatives to ocean dumping.
    In the same vein, I am hoping we can get the $300,000 for 
the helicopter that monitors the beaches before the beach 
season opens. In Edison, my largest town, we wanted to get 
funding, $5.2 million, under the EPA's building and facilities 
account, to modernize the EPA labs that are there. I have been 
there, and they really need a lot of infrastructure repairs and 
changes.
    Yesterday, we reauthorized the Clean Lakes Program, which I 
know has been very difficult to get any money for. And I do not 
know what you have in mind, if you know what kind of funding 
may result because it has been reauthorized, but I have a lake 
in Ocean Grove, between Ocean Grove and Asbury, called Wesley 
Lake, and they have local money, State money, but they need 
Federal funds for that as well. I have put in a request for a 
couple million for that as well.
    And then the other thing Superfund, another one of your 
major priorities, we are hoping for full funding. I know you 
always fight for that, and I am sure you are going to fight 
again.
    Mr. Frelinghuysen. Absolutely.
    Mr. Pallone. And you will be successful. So I will mention 
it.
    Mr. Cramer. And I will join that.
    Mr. Pallone. You will join us. Thank you, sir.
    The EPA has requested, and the Administration, $91.7 
million within the EPA and $50 million under HUD for 
brownfields redevelopment. Obviously, that is another priority 
for you. I mentioned it at the SEED meeting yesterday. We have 
already been getting some local grants in my towns, but we need 
obviously more, and I know you are going to move to support 
that as well.
    I guess I do not even have to come here, but I will anyway 
because I have got good supporters here.
    Mr. Frelinghuysen. It is always a pleasure to welcome you 
and for you to reinforce some of the issues that we mutually 
feel are important and need to be addressed by this committee 
and the other committees.
    Mr. Cramer. Thank you.
    Mr. Frelinghuysen. Thank you for your time.
    Mr. Pallone. Thank you. Take care.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Frelinghuysen. We stand recessed until later this 
afternoon.
                              ----------                              

                                          Thursday, April 13, 2000.

             WAKE FOREST UNIVERSITY BAPTIST MEDICAL CENTER


                               WITNESSES

HON. RICHARD BURR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
RICHARD DEAN, M.D., SENIOR VICE PRESIDENT FOR HEALTH AFFAIRS, WAKE 
    FOREST UNIVERSITY, AND DIRECTOR OF WAKE FOREST UNIVERSITY BAPTIST 
    MEDICAL CENTER
    Mr. Knollenberg [presiding]. We will bring the Committee to 
order.
    I am going to recognize, at this time, my colleague, Mr. 
Richard Burr, who is going to, I believe, introduce the 
gentleman who is going to make the testimony for the first time 
this afternoon.
    Mr. Burr. I am, Mr. Chairman. I thank you, and thank the 
other Committee Members, and Chairman Walsh.
    It is indeed an honor for me to have Dick Dean, the senior 
vice president of the Wake Forest School of Medicine with me 
today. This committee, in the past, has been generous in 
helping us to complete a very important nutrition facility in 
Winston-Salem. We have still got a ways to go, and I am hopeful 
that Dr. Dean's testimony today will prove the worth of this to 
the Committee for the best interests of the country, and I 
would like to introduce Dick Dean.
    Mr. Knollenberg. Dr. Dean, you are on, and all of your 
testimony will be included.
    Dr. Dean. Thank you, Mr. Chairman. As Richard said, I am 
Richard Dean, the Senior Vice President for Health Affairs at 
Wake Forest University and Director of the Wake Forest 
University Baptist Medical Center in Winston-Salem. Obviously, 
it is an honor to be here today and discuss a few of the 
exciting initiatives that are in the Wake Medical Center.
    There are many initiatives underway there. This year we are 
seeking support from the Subcommittee to complete two floors of 
the Center of Human Nutrition and disease prevention research 
to expand research in the areas of prostate cancer and women's 
health.
    Specifically, we are seeking $5 million in the 
Subcommittee's fiscal year 2001 bill through the Department of 
Housing and Urban Development's Economic Development Initiative 
or EDI.
    The Center will have an impact on the Nation's health 
through its scientific research, as well as a significant 
impact on the economic future of Winston-Salem, both during 
construction of the facility as well as after the research 
begins. Specifically, when completed, it is estimated that 
construction of the Center will have generated 200 construction 
jobs, with an additional 160 jobs in other industries 
Statewide. Once completed, the Center will employ 250 to 300 
researchers, technicians and assistants. These jobs will 
generate an additional 200 jobs in other industries Statewide.
    Local and State economies benefit greatly from being the 
home of this major biomedical research center. The Wake Forest 
Medical Center is the leading employer in our county of Forsyth 
County, North Carolina, employing nearly 10,000 individuals and 
generating an additional 7,400 jobs in other industries 
Statewide as a result of its activities. It is estimated that 
it brings into the State of North Carolina, approximately $1.8 
billion in economic activity Statewide, at least as of the year 
1997.
    Funding the EDI will enable the Medical Center to build out 
two floors of the center to expand its programs in the areas, 
as I mentioned, of prostate cancer and women's health. Prostate 
cancer is the most common cancer in men and the second most 
common cause of cancer death among men. Nationally, one in nine 
men will during their lifetime be affected by prostate cancer. 
Given a very high instance, prevalence and ultimate mortality 
of prostate cancer, the need for better diagnosis, prevention, 
and treatment and supportive care is obviously compelling.
    North Carolina and the Southeast have pockets of the 
highest incidence and mortality of prostate cancer in the 
country. One North Carolinian will die from prostate cancer 
every 7.3 hours. Explanations for this high incidence have 
included the typically Southern high-fat diet we all consume 
and other exposure to agricultural pesticides. These 
epidemiologic associations, however, are still inconclusive and 
more research is obviously needed. Further strategies to 
prevent prostate cancer by altering dietary habits and 
environmental exposures have been incompletely developed.
    African American men are particularly prone to prostate 
cancer for a number of reasons. The incidence of prostate 
cancer in our region is significantly high, and this research 
center will improve our capacity to treat them.
    Clearly, the other area of our work is in women's health, 
and this particular center will focus on hormonal therapy and 
prevention of postmenopausal cardiovascular diseases in women.
    So, in conclusion, Mr. Chairman, I am deeply appreciative 
of being given the opportunity to appear before you all and 
obviously solicit your support and economic health for this 
Economic Development Initiative.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Dr. Dean, thank you. The scope of your 
research and work is something that we do need to see some 
successes on, and I appreciate your stepping up to the plate 
and making a request. You have a good friend in this gentleman, 
Mr. Burr.
    Dr. Dean. I certainly do.
    Mr. Knollenberg. I have no questions, but I just want to 
say that we will tender your request seriously and sensitive to 
the interests of what you intend to accomplish. So thank you 
very much.
    Mr. Burr. I thank you and the Committee. As a member who 
works extensively on the health care challenges that we are 
going to be faced with, we understand more than anybody right 
now that without some breakthroughs in prevention, where we are 
not treating any longer, we have got an affordability problem 
that this country will see. So if through nutrition we can 
address some of the potential problems that we've got down the 
road, it's truly----
    Mr. Knollenberg. That Southern high-fat diet, by the way, 
is one that I kind of like once in a while, too. [Laughter.]
    Dr. Dean. We all do.
    Mr. Knollenberg. Thank you very much.
    Dr. Dean. Thank you.
    Mr. Knollenberg. Thank you, Dr. Dean.
                              ----------                              

                                          Thursday, April 13, 2000.

                  RURAL ENTERPRISES OF OKLAHOMA, INC.


                               WITNESSES

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
JOHN FREEMAN, BOARD MEMBER, RURAL ENTERPRISES OF OKLAHOMA, INC.
    Mr. Knollenberg. Mr. Watkins, I believe, is introducing 
John Freeman from Rural Enterprises of Oklahoma, Inc.
    Mr. Watkins. Mr. Chairman, having served for 10 years on 
the Appropriations Committee before I left the Congress the 
first time, I know you have got a mammoth job, and I respect 
that and appreciate that very much and do not want to come with 
anything that is frivolous, to say the least. I appreciate you 
giving us the time, allowing us to come.
    All of my public life, I have worked to try to improve the 
economic conditions of a real depressed area of Southeast 
Oklahoma, primarily. It is an area that has a high amount of 
migration, the lowest unemployment--the underemployment, and it 
is something that I am a product of and something that, because 
of that experience, I have literally dedicated my whole entire 
public life trying to build a future for those areas.
    We have lost even industry, very crucial, most of the time 
because we did not have housing. We could not get Oklahoma City 
and Tulsa to come down about 200 miles to this area of the 
State and could not get Dallas and Fort Worth to come across 
the river, of course, to try to get this area. So we really had 
to use our own initiatives to try to do things. It has been a 
partnership of the Federal, and the State and the local, and 
our universities even, Oklahoma State University, working 
together on a lot of different programs throughout the area.
    One thing I did nearly 20 years ago, I established a very 
multi-functional group called Rural Enterprise, Inc. And they 
have literally worked in trying to, I guess, provide financing, 
leveraging financing to help small business and industry, they 
have worked with technology, they have worked with industrial 
incubators. Whatever is needed, they will work right beside the 
local leaders in doing things to accomplish some of these 
things. But we have been deprived of really having the--I have 
the lowest income area of the State. We do not have any big 
cities.
    In financing the campaign, I have to go to Tulsa, Oklahoma 
City or Dallas to try to raise the money because we do not have 
it in our area. But I am proud to say that out of that area in 
one of my communities, the gentleman I am going to introduce to 
my left is a banker from that area, and he is committed to try 
to help in every way possible in his bank, as well as trying to 
bring others together. And he has served as President of Rural 
Enterprises during a period in the past, but he has continued 
to serve on the board and continues to provide a tremendous 
amount of knowledge and all of it free. All of it is volunteer.
    Tom Seth Smith is the Executive Vice President of the 
company, Rural Enterprises, and has provided that leadership on 
a day-to-day basis in carrying out these functions. But I 
wanted to introduce both of these gentlemen to you.
    Ken Simmons is also working on the program. But I wanted to 
make sure that--I tried to do a proper introduction of Ken 
because he is a leader in his own right. He is my friend 
because he is out there trying to accomplish those things of 
building a future for our children and our grandchildren in 
this area so they can work, stay and live in that area.
    So this is kind of like giving conception to a baby, you 
know. You have got to watch it grow. This is something that is 
very close and dear to my heart, as I know Chairman Walsh knows 
when I talked last year about this a little bit with him.
    So with your permission, John Freeman is here.
    Mr. Knollenberg. He is recognized.
    Mr. Watkins. Thank you, Congressman.
    Mr. Freeman. Mr. Chairman, I am pleased to have this 
opportunity to represent Rural Enterprises, Incorporated. As 
the Congressman said, my name is John Freeman. I am a past 
President and current Board Member of Rural Enterprises. 
Professionally, I am President of The Bank, N.A., McAlester, 
Oklahoma, a $250-million bank serving all of Southeastern 
Oklahoma.
    I appear before you today to request an appropriation of 
$1.5 million from the U.S. Department of Housing and Urban 
Development. The appropriation request is for rural economic 
development activities to meet the needs of small businesses 
and Oklahoma's rural communities. Our organization's mission is 
job creation and job retention in rural Oklahoma.
    The need for such appropriation is substantiated by the 
increased demand from rural Oklahoma entrepreneurs and 
communities for our services--Rural Enterprise's services. The 
need for the requested appropriation is further substantiated 
by the measurable results produced by this organization.
    Currently, the services of REI include:
    An issuer of Taxable Single-Family Mortgage Bond program 
with $37.5 million in commitment from local banks and a third 
bond issue nearly completed;
    A Mortgage Credit Certificate Program which provides rural 
home buyers with a tax credit;
    Financial services include the lending of the U.S. Small 
Business Administration and serving as an intermediary lender 
for the Economic Development Administration and Rural 
Development Administration;
    We also operate business incubators, and we have an 
equipment program;
    We offer international trade assistance and business 
development.
    The commitment of rural banks and the number of families 
served measure the impact of affordable rural housing. At the 
close of 1999, over $29 million had been loaned to 647 families 
under the $37.5 million rural housing bond program. 
Complementing the rural housing program, the Mortgage Credit 
Certificate program offers a tax credit as an additional 
incentive for rural Oklahoma working families to pursue home 
ownership.
    The requested appropriation today will help facilitate and 
continue the rural housing program and Mortgage Credit 
Certificate program for our people.
    The demand for business financing is evidenced by total 
financing secured of over $27 million for 67 businesses in 
1999. This helped create 619 jobs in rural Oklahoma. Since 
1981, over $166 million in financing has been secured for small 
businesses. Rural Enterprises is a Certified Development 
Company of the U.S. Small Business Administration and also a 
Community Development Financial Institution of the U.S. 
Department of Treasury.
    The number of business incubators has grown to facilities 
in 11 rural Oklahoma communities. A component of the business 
incubator program is Rural Enterprise's lease/purchase 
equipment program. To the best of our knowledge, this is the 
State's only equipment program available to manufacturers 
employing 25 or less people.
    The requested appropriation from HUD will allow Rural 
Enterprises to expand its international trade assistance to 
rural businesses. This is crucial to the competitiveness and 
perhaps even the survival of some our rural businesses.
    Rural Enterprise's business development efforts including 
coordinating efforts among the rural communities and assisting 
them with their infrastructure needs to help them attract new 
business and better serve existing businesses. The requested 
appropriation will allow Rural Enterprises to expand itself in 
a leadership role for effective business development.
    Rural Enterprises of Oklahoma is a nonprofit 501(c)(3) 
corporation doing economic development and we are headquartered 
in rural Southeastern Oklahoma.
    The assistance programs of Rural Enterprises are essential 
to small businesses and the communities in which they are 
located. Oklahoma's rural communities suffer from 
underemployment, out-migration of its university graduates and 
skilled workers. Our communities also suffer from a dependency 
upon State and Federal assistance.
    REI's combination of services and its ability to envision 
the needs for the future of our small businesses and our 
communities is what sets us apart from other economic 
development firms.
    As an REI board member and as a bank president working with 
small businesses on a daily basis, I can personally testify to 
the need for the services of this organization. I am also here 
to testify to the impact of these services, which produce 
measurable results.
    REI has attained a credible reputation for its economic 
development programs and for its accountability to its funding 
agencies. HUD appropriations are absolutely essential for the 
continuance of these economic development services to enhance 
rural Oklahoma.
    Thank you for your consideration.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you, and, Wes, thank you very much 
for taking some time and actually covering some points that we 
would like to hear directly from you, and you have done that.
    I do not have any questions.
    Mr. Watkins. Two additional emphases--I would like to say 
the leverage has been fantastic with what we have been able to 
do with building that partnership up, Federal, State and local, 
and giving more money privately than from what people would 
expect. So I just want to share that with you.
    And then REI is the only, along with the partnership of 
Oklahoma State, that is trying to assist businesses with some 
international export opportunities. They would like to, but 
they do not know how. And so that is what we are doing.
    Mr. Knollenberg. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

             THE VILLAGE OF FREEPORT, LONG ISLAND, NEW YORK


                                WITNESS

WILLIAM F. GLACKEN, MAYOR
    Mr. Knollenberg. Mayor William Glacken.
    Mr. Glacken. Yes.
    Mr. Knollenberg. Come forward. We would just remind you 
that if for any reason you cannot get your testimony in, in the 
time frame that you are allowed, we will include it all in the 
record. You are free to begin.
    Mr. Glacken. Thank you, sir.
    Mr. Knollenberg. Thank you.
    Mr. Glacken. Thank you, Mr. Chairman, for the opportunity 
to address the Committee. I would like to also thank Chairman 
Walsh and both Congressman Peter King and Congresswoman Carolyn 
McCarthy for their assistance in making it possible for me to 
be here today to testify before the Subcommittee.
    I am William F. Glacken, Mayor of the Village of Freeport, 
Long Island, New York. When I was elected 3 years ago, I 
inherited a $33 million annual operating budget that included a 
$10 million deficit. The village also had a crumbling 
infrastructure, as the previous administrations had failed to 
do the basic street and road repairs to keep pace with the 
growing needs of our residents and merchants.
    Since 1997, through hard work and the willingness to make 
tough decisions, we have accomplished remarkable results and 
achieved several small miracles. We balanced our budget, 
protected our fiscal future with solid financial planning, 
dramatically revitalized our waterfront, upgraded or repaved 
more than 30 streets and elevated 23 homes situated in a 
persistent flooding zone, setting a standard of accomplishment 
in just our first term.
    Now we are focusing on revitalizing our central business 
district, a project that will restore the economic health of 
the village and ensure its future. Our design plan implements 
ideas and lessons gleaned from a local architect, as well as 
residents, merchants and planners who drew on their working 
knowledge of the village. This plan covers our needs and our 
strengths, while incorporating the cultural, ethnic and racial 
diversity that makes Freeport unique among suburban 
communities.
    Today, Freeport's central business district is visually 
blighted and has been abandoned by shoppers in favor of upscale 
malls. The facades of many of our aging buildings need major 
renovations to restore their original architectural details and 
to return to their appropriate scale and character.
    A major contributor of this blighted look is the exterior 
security gates in a number of shops. These gates discourage 
healthy pedestrian traffic in the evenings and on weekends. We 
have legislated their removal, with over 70 due to come down 
within the next 18 months.
    In addition, we have set up a task force of Village 
department heads to work with the merchants and property 
owners. They regularly review an extensive list of items of 
concern to all of the members. Our business community is 
depending on the village to guarantee a clean, safe and 
inviting commercial district. This is not easy, since we must 
reverse more than 30 years of blight.
    But Freeport is delivering. We are working with State and 
county highway officials to achieve both aesthetic and traffic 
safety enhancements, including changes on Sunrise Highway that 
would provide easy access to our proposed Plaza West 
development. That location, which has been vacant for a decade, 
is the site of a planned restoration of a landmark six-story 
bank building. This development will also offer restaurant and 
retail space at the Northern edge of the central business 
district. The road and street improvement plans include the 
widening of vehicle lanes, the construction of a raised and 
landscaped median on Sunrise Highway at the center of our 
commercial area, paved pedestrian walks and vest-pocket parks 
on both sides of this major thoroughfare.
    In the coming months, we will repeat the 1920's theme 
created along our Nautical Mile by extending the same 
ornamental lighting used on that project, north through the 
heart of the Village. On Main Street, there will be bump-outs 
to accommodate street trees, as well as benches, planters, 
waste receptacles and bus shelters, all in keeping with the 
same 1920's motif.
    Working through our Community Development Block Grant 
program and with banks and not-for-profit community development 
financial institutions, we are providing assistance and 
incentives to commercial property owners willing to invest in 
the future of our community. The results have been encouraging. 
In the last 10 months, we have received close to 50 
applications--unfortunately, more than we can currently fund.
    We are also seeking State aid to renovate and expand a 
blighted structure on South Main Street. Our plans include a 
retail/restaurant anchor on the ground floor, with space on the 
second floor for artists' studios. At a nearby site on South 
Main Street, we plan to bring in a family movie theater with a 
four- to six-screen capacity, a size proven successful in the 
revitalization of other traditional downtowns.
    We are leveraging our money to maximize private investment, 
but we still need an additional $9.1 million to complete and 
coordinate all of these building improvements within our 
infrastructure plans. Our downtown project needs a fast-track 
approach in order to encourage the 175,000 Long Islanders who 
live within three miles of our central business district to 
take a fresh look at Freeport.
    Any help we can receive from this committee would be most 
appreciated.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Mayor, thank you very much. I 
appreciate the seriousness of your request. I also noted that 
you said you elevated 23 homes.
    Mr. Glacken. Yes, sir.
    Mr. Knollenberg. What did you fill in with?
    Mr. Glacken. Well, actually, we elevated----
    Mr. Knollenberg. Because of the flooding problem.
    Mr. Glacken. Yes. The Southern end of our village, which is 
a coastal community on the South shore of Long Island, about 30 
miles east of Manhattan, has a tradition of being a low-lying 
area and susceptible to tidal flooding. And, really, it floods 
over 100 times a year.
    Mr. Knollenberg. But no longer.
    Mr. Glacken. No. And we have done a very substantial job in 
the last 3 years to eliminate that problem. We have actually 
elevated the streets. And in the course of doing that, built 
new sidewalks, and curbs, and gutters and then put in a lot of 
the amenities like trees, and shrubs and flowers as well.
    Mr. Knollenberg. Well, you have done a lot of work on your 
own, and I commend you for that. And we, again, will look very 
seriously at your request.
    Mr. Glacken. Thank you, sir.
    Mr. Knollenberg. We appreciate your being here, Mr. Mayor. 
Thank you.
    Mr. Glacken. Thank you very much.
    Mr. Knollenberg. Did you have a question, Mr. 
Frelinghuysen?
    Mr. Frelinghuysen. No.
    Mr. Glacken. Thank you.
    Mr. Knollenberg. You are welcome.
                              ----------                              

                                          Thursday, April 13, 2000.

                   THE VILLAGE OF HEMPSTEAD, NEW YORK


                                WITNESS

JAMES GARNER, MAYOR
    Mr. Knollenberg. We are ready for Mayor James Garner. Mr. 
Garner? You are welcome.
    Mr. Garner. Thank you, Mr. Chairman.
    Mr. Knollenberg. We are glad to have you here.
    You have a battery of people here.
    Mr. Garner. I have a battery of people. These are my 
experts.
    Mr. Knollenberg. Very good. We appreciate your coming. 
Again, we will include all of your testimony in the record. We 
will let you begin.
    Mr. Garner. Thank you very much, Mr. Chairman, for allowing 
me to speak before the Appropriations Committee today. Let me 
also thank my Congresswoman, Carolyn McCarthy, for seeing to it 
that I get a chance to testify today and also to Chairman Walsh 
and to all of the ranking members and to all of the Members of 
the Subcommittee I thank you for allowing me to testify.
    Accompanying me today is the Village's community 
development commissioner, Dr. Glen Spiritis, on my far right, 
and Ms. Tina Hodge-Bowles, the Executive Director of Operation 
Get Ahead, next to me. The program she heads, Operation Get 
Ahead, works with the Hempstead and Roosevelt School Districts 
on self-esteem programs for the Village's youth.
    The Village of Hempstead is located in the center of Nassau 
and has a population of 50,000 according to the 1990 census. 
However, if you consider the increased demand on village 
services over the past 10 years, we estimate the population to 
be around 75,000. Over the past 15 years, the village, which is 
the transportation hub of Nassau County, has become the 
immigration hub for the county. Many of the new arrivals to the 
New York area from Central and South America have come to the 
Village of Hempstead because it is less expensive than New York 
City.
    The increases in immigrants, along with the loss of a 
significant amount of its middle-income population, have caused 
economic chaos for the village. We provide more public police 
service, more public and subsidized housing, more community 
redevelopment, more senior citizen service and more public 
recreation, and more water and wastewater services with less of 
a revenue base than we had 15 years ago.
    However, I am optimistic about the Hempstead future because 
we have citizens who continue to invest in Hempstead and raise 
their families there and because we are making every effort to 
maintain a quality of life for them. I am appearing here today 
before you to ask for $3 million to rebuild and rehabilitate 
the Village's main recreation center, which is Kennedy Park, a 
19-acre facility near the center of the Village. This facility 
is the major recreation center for many of the families that I 
mentioned earlier in my statement.
    Also, Mr. Chairman, again, I have with me a young lady who 
has been running Operation Get Ahead for 30-plus years, and she 
has done a phenomenal job in trying to run this agency. So I 
would just like to turn to her and maybe get some testimony 
with respect to Operation Get Ahead.
    Tina?
    Ms. Hodge-Bowles. Thank you, Mr. Chairman.
    Operation Get Ahead is an in-school/after-school program 
that services Hempstead students. We do a variety of workshops 
like self-esteem, self-motivation. Built in there is some 
education. We concentrate basically on prevention and 
intervention and do some workshops on HIV/AIDS education, 
career leader training, conflict resolution, we do job 
readiness and job placement. And in that we have some 
recreation service, we have structured basketball, which we 
attract over 500 to 800 students during the summer working with 
the Parks and Recreation, and also we do the job placement and 
readiness and an array of services within the village, not only 
working with the Village of Hempstead, but Roosevelt and 
Freeport.
    Mr. Garner. Also with us is Dr. Glen Spiritis, executive 
director for the Hempstead Community Development Agency.
    Glen?
    Mr. Spiritis. Mr. Chairman, thank you for the opportunity 
to speak today.
    As the mayor stated, we are the most urban community on 
Long Island, and we have all of the problems that an urban 
community has. With respect to the mayor, in the last 10 years, 
we have been able to take advantage of over $200 million in 
private and public investment, Federal funds. We recognize the 
fact that brick and mortar will not do it alone.
    We have a responsibility to the poor people that live in 
the village. We have the largest population of immigrants on 
all of Long Island. Unfortunately, we do not receive the taxes 
that go along with them to provide the services and the 
necessary quality of life that they deserve, especially the 
children. We have the highest at-risk population of children in 
the New York metropolitan area, excluding New York City.
    We have proved these programs work. We are asking you to 
help us with the social end of the stick, which we feel is the 
only missing link. Hopefully within a couple of years, our tax 
base will be large enough, as a result of the other Federal 
programs that are in place, for us to be able to handle these 
programs.
    Mr. Garner. Mr. Chairman, thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you. You have done well. You have 
three outstanding spokespeople here, and we appreciate you 
being here.
    Do we have questions from the panel?
    Mr. Frelinghuysen. No.
    Mr. Knollenberg. Mr. Mayor, thank you.
    Mr. Garner. Thank you.
    Mr. Knollenberg. Thanks for coming. Thanks to all of you.
    Mr. Garner. Thank you. We are grateful.
                              ----------                              

                                          Thursday, April 13, 2000.

                        WILLIAM TYNDALE COLLEGE


                                WITNESS

JAMES C. McHANN, PRESIDENT
    Mr. Knollenberg. I would like to call Dr. McHann to come 
forward at this time. And I would like to just say a couple of 
words about Dr. McHann and, of course, William Tyndale College, 
which happens to be in my district, in Farmington Hills. And it 
is a valuable asset and one that provides an act of service to 
the community.
    He is here today, briefly, to tell us about the college's 
plans to widen, obviously, their goals. And so I would like to 
welcome Dr. McHann.
    Mr. McHann. Thank you, Mr. Chairman. Thank you so very much 
for the opportunity to be with you to testify and to be with 
you today.
    In 1945, a group of Detroit citizens founded Tyndale 
College to prepare students to lead lives of service to others 
above self. Today, Tyndale offers 22 academic degrees in the 
arts, sciences and professional studies and serves students 
from metro Detroit, throughout Michigan and across the country. 
Fifty-three percent are women, one-third are minorities. Many 
come from low-income families and some are working parents.
    We provide a quality education. Over 90 percent of our 
full-time faculty hold Ph.D. or MBA degrees from institutions 
such as Oxford, Harvard, Yale, Princeton, Stanford, 
Northwestern and others.
    Our commitment to provide access to a quality education 
designed to prepare servant leaders has transformed lives, 
which in turn has transformed other lives. The 1992 National 
Teacher of the Year, Mr. Fleming, came to Tyndale as a young 
African American from the ghettos of Detroit. ``I was a 
functional nonreader and rather delinquent,'' he once said. 
``When I went to Tyndale College, the faculty saw me not as I 
was, but as the person I could become. I began to gain a new 
vision for my future, and I believe that God has helped me make 
a difference in the lives of others.''
    Mr. Fleming served for many years at the Washington All-
County Juvenile Detention Center, where he profoundly touched 
the lives of many troubled teens. In recent years, Tyndale has 
grown rapidly, and it embarked on a capital campaign to expand 
our ability to equip students to compete in today's global 
economy. Through this expansion, Tyndale will address three 
issues faced by our local community and our Nation.
    First, a critical shortage exists of qualified K to 12 
teachers who specialize in mathematics and science. This 
shortage compromises our children's future.
    Second, undergraduate college programs are failing to keep 
students in math and science. Fifty percent of freshmen who 
enroll as science majors drop out after the introductory 
courses, and nonmajors tend to take only those science classes 
that are required. While research universities do a good job of 
preparing graduate students to become world-class scientists, 
our undergraduate programs are not producing a science-savvy 
citizenry. Indeed, we risk becoming a math and science 
illiterate Nation.
    And, third, women, minorities and the disabled are 
underrepresented in these fields.
    Tyndale's expansion plan will enable us to help address 
these problems. The plan requires construction of a state-of-
the-art wing for Natural Sciences, combined with an electronic 
library and learning resource center. This facility will allow 
our science education to be inquiry based, hands-on, 
information technology rich and interactive.
    We are partnering with Project Kaleidoscope, a national 
alliance of scientists from the National Science Foundation and 
academia that is designing new pedagogical approaches to 
address the three issues mentioned above. Our partners believe 
in Tyndale's plans, and they are taking advantage of the unique 
opportunity presented by our project to make Tyndale a model of 
undergraduate science education in the United States.
    The Electronic Library and Learning Resource Center will 
provide IT support to the science programs and to the entire 
college campus so that all of our students can become skilled 
in the use of information technology for life-long learning and 
future employment, and it will be open to the general public, 
making it an economic asset for our community.
    In summary, Tyndale's expansion will create new jobs, 
benefit the economy and provide accessible education to lower 
income students and others who want to increase their 
marketability. We have already raised $6 million from private 
sources, and we plan to raise another $14 million to complete 
the project. We are requesting $2 million from this 
subcommittee. The funds will help economically revitalize the 
Detroit area and enable our graduates to become more 
competitive in today's global economy. The grant will be a good 
investment.
    Mr. Chairman and Members of the Subcommittee, thank you 
again for this opportunity, and may God bless you and guide you 
in the very important work you are doing for our country.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you. You seem to have a focus on the 
technology side of things, too. One of the points you made in 
your written statement here is that by the year 2010, that is 
not very far away, you expect that 50-percent of the U.S. job 
market is going to be in the technology field. You, obviously, 
do something about providing for people to get the educational 
needs, so they can move into that job market.
    Mr. McHann. Exactly. This new facility, half of it will be 
an information technology-based Electronic Library and Learning 
Resource Center, and it will be integrated with the Science 
Center, which will be on the second floor. And the information 
technology will serve all of the students. Actually, what we 
are finding is that the students coming to our college and to 
other colleges are just not ready for 2010 right now.
    Mr. Knollenberg. I think I would have to agree with that. 
Thank you.
    Mr. McHann. Thank you very much, Congressmen. Thank you so 
much for your time.
    Mr. Knollenberg. It is nice to see you again.
    Mr. McHann. Good to see you, too.
    Mr. Knollenberg. Mr. Frelinghuysen, did you have a 
question?
    Mr. Frelinghuysen. No.
    Mr. Knollenberg. We can always bring him back.
    Thank you. Thank you very much.
    Mr. McHann. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

           UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                                WITNESS

ROBERT L. TRELSTAD, M.D., PAZ PROFESSOR OF DEVELOPMENTAL BIOLOGY AND 
    ACTING DIRECTOR, CHILD HEALTH INSTITUTE OF NEW JERSEY ROBERT WOOD 
    JOHNSON MEDICAL SCHOOL AT THE UNIVERSITY OF MEDICINE AND DENTISTRY 
    OF NEW JERSEY
    Mr. Knollenberg. Dr. Robert Trelstad.
    How do you do?
    Dr. Trelstad. How do you, sir?
    Mr. Knollenberg. You are welcomed, and we look forward to 
your testimony. We will include everything in the record, 
should you not get through it. Thank you very much.
    Dr. Trelstad. Chairman Knollenberg, Congressman 
Frelinghuysen, I am Dr. Robert Trelstad, Harold Paz Chair 
Developmental Biology and Acting Director of the Child Health 
Institute of New Jersey at Robert Wood Johnson Medical School, 
one of eight schools in the University of Medicine and 
Dentistry of New Jersey. I am here today to tell you about the 
priority project of the University, the Child Health Institute.
    The Institute will address the prevention, treatment and 
cures of genetic and environmental diseases of infants and 
children. It is integral to the long-term plan for basic and 
clinical research at our medical school into disorders that 
affect children's development and growth, both physically and 
functionally.
    Approximately half of the admissions to a children's 
hospital are for genetic disorders. The majority of these 
result from groups of genes interacting amongst themselves and 
with the environment. These include autism, asthma, diabetes, 
heart defects and cleft palate. We now know that babies of 
smoking mothers are more likely to have cleft lips and palates 
because of interactions of maternal genes, the baby's genes and 
the environment. Ultimately, we hope to identify new means for 
the prevention, treatment and cure of such developmental 
defects. We also know that asthma-related health visits, 
hospital visits, and deaths, particularly in African American 
children have risen by 50 percent over the last decade.
    The Child Health Institute is well-positioned in New 
Brunswick, New Jersey, to serve disadvantaged populations of 
the region directly and through our research. We will work 
closely with the adjacent Bristol-Myers Squibb Children's 
Hospital now under construction to become a national and 
international center in children's health.
    The construction of the Child Health Institute is expected 
to cost $30 million. At maturity, the Institute will attract 
$12 million in research funds, applying the usual economic 
multiplier of five, the impact on the region will be $60 
million per year on an ongoing basis. We, respectfully, request 
$5 million for the Child Health Institute to complement $3 
million we received last year from the Federal Government, 
including $1 million from this Committee, with your support and 
the support of Congressman Frelinghuysen and the New Jersey 
delegation. In addition, last year we raised $18 million from 
the private sector, and we anticipate raising $10 million in 
the State of New Jersey. With the Committee's help, we will now 
have sufficient funds to build the building.
    The Child Health Institute will act as an engine for growth 
and research in health care programs in New Jersey and 
nationwide. It will house 40 laboratories, with over 130 new 
jobs for scientists and staff. It will forge interactions with 
the nationally prominent pharmaceutical industry in the State, 
as well as with the chemical and information industries in the 
growing fields of biotechnology and bioinfomatics.
    Your Committee has been instrumental in meeting the 
critical needs of research and economic development throughout 
the Nation. The ability of urban, academic medical centers, 
like Robert Wood Johnson Medical School, to conduct research 
and address the needs of children and their families will 
continue to grow with a combination of Federal, State and 
private resources and health.
    We appreciate the strong support of this Committee to 
sustain excellence in biomedical research, not only for 
humanitarian reasons, but also because biomedicine and its 
associated technologies are engines for economic growth.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. You are very welcome. It was a concise 
presentation. I see that your CV is far longer than your 
commentary, so you must have a lot going for you in terms of 
background, and I applaud that.
    I want to turn to my colleague, Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. It has been my 
pleasure to be an advocate on behalf of the Child Health 
Institute. They are doing some remarkable things, and we are 
giving them resources. But New Jersey is the most densely 
populated State in the Nation, and there are all sorts of 
afflictions children have, and just the study of genetics, the 
work you are doing there, asthma-related problems, your work 
relative to folic acid, its role in the overall scheme of 
things, I think there are some remarkable things that have 
already come out that you have been working on, and I heartily 
endorse their request for these dollars, an we will be working 
actively to see what we can do to help you.
    Mr. Knollenberg. We will, indeed. Thank you very much, 
Doctor.
    Dr. Trelstad. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, April 13, 2000.

     THE COALITION OF COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS


                                WITNESS

BILL MYERS, MANAGER, ALTERNATIVES FEDERAL CREDIT UNION
    Mr. Knollenberg. Mr. William Myers.
    Mr. Myers. It has been just a little while. So I will 
remind everybody, if they can, stay within the time frame of 
the little clock that lights up in front of you. We will ask 
you, Mr. Myers, to commence. Your entire contribution will be 
included in the record.
    Mr. Knollenberg. Thank you, Chairman. Thank you, 
Congressman, and thanks to Congressman Walsh for inviting us 
here today.
    My name is Bill Myers. I am the Manager of Alternatives 
Credit Union in Ithica, New York. We are regional Community 
Development Financial Institution, CDFI, providing mortgage 
business and transaction services to low-income people in 
Upstate New York. I am here on behalf of the CDFI Coalition, a 
national network representing 465 CDFIs working in all 50 
States to urge your support of the President's budget request 
of $125 million in appropriations for the CDFI Fund.
    CDFIs are a unique solution that brings private capital to 
bear on public problems that have initially required a public-
sector solution. This CDFI is a bipartisan approach to building 
public markets, creating partnerships and providing the tools 
to enable poor individuals and communities to become self-
sufficient stakeholders in their own future. In short, CDFIs 
are an extremely efficient way to leverage private dollars into 
public service.
    We urge you to support the CDFI appropriation for three key 
reasons: The first, demand for these resources has 
oversubscribed the funding since its inception in 1996. The 
Fund has only been able to fund 18-percent of the requests for 
funding, and this demand will only increase as the Fund has 
initiated initiatives to start Native American and more rural 
Community Development Corporations.
    The CDFI Fund, secondly, has responded to key market needs 
by identifying needs, and these and particular industry, 
financial and human capital needs. Last year, the Subcommittee 
took the lead in urging the FUND to implement the SECAP, which 
is a Small and Emerging CDFI Access Program. This funding 
initiative has a streamlined business plan process and flexible 
training and application requirements to encourage smaller 
CDFIs to get off the ground.
    Thirdly, the Fund, since 1996, has proven that this 
approach of small capital contributions to foster Community 
Development Financial Institutions, has proven to increase 
opportunity in distressed communities. I would use ourselves as 
an example. We have been funded in two rounds of funding, and 
it has allowed us to expand our lending and asset-building 
activities.
    I have Gary Barletta with me, who is one of our borrowers. 
Gary had applied successfully with us to receive funding to 
start a winery in our area. He is from Portland, New York, 
which has suffered greatly from large business closings and has 
increased unemployment in that area. This is a project that was 
not fundable through the banks, and we have been working with 
Gary about a year, and we expect, I think he expects to bottle 
his first wine to market in about 3 weeks.
    Mr. Knollenberg. Did you bring any?
    Mr. Barletta. It is on its way. [Laughter.]
    Mr. Myers. Three weeks.
    In addition, we have worked with first-time home buyers. We 
have an individual development kind of program, and a youth 
credit union to serve kids who want to learn about financial 
services.
    The Fund itself has invested more than $225 million in 260 
CDFIs across the country. I think the core difference in the 
CDFI program and others is that it invests in strengthening 
institutions rather than having problems directly that allows 
leverage in the private marketplaces to have a greater impact 
than the money the Government invests. We think this is an 
efficient use of Government resources. It has proven itself to 
leverage. It has proven itself to have impact in low-income 
communities.
    Without additional resources, the Fund's outreach 
activities, which are just starting to take place will go for 
naught, since they will not have money to meet the results of 
those activities. Again, we encourage you to support the 
appropriation, and I would be happy to answer questions if you 
have any.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Myers, we appreciate your testimony 
and appreciate the appeal. I do not believe I have any 
questions, and I certainly appreciate your coming on hand 
today, as well, to buttress the work of these folks and of Mr. 
Frelinghuysen.
    Thank you. Thank you very kindly.
    Mr. Myers. Thank you.
                              ----------                                


                                          Thursday, April 13, 2000.

      THE CITY OF GAINESVILLE, FLORIDA AND ALACHUA COUNTY, FLORIDA


                               WITNESSES

HON. KAREN THURMAN, A REPRESENTATIVE OF CONGRESS
PAULA M. DeLANEY, MAYOR, CITY OF GAINESVILLE, FLORIDA
DAVE NEWPORT, VICE CHAIR, COUNTY BOARD OF COMMISSIONERS, ALACHUA 
    COUNTY, FLORIDA
    Mr. Knollenberg. Ms. Thurman, why do you not come forward 
and introduce our next witnesses, who apparently is from your 
district.
    Mrs. Thurman. I have county commissioner, Dave Newport, and 
our mayor, Paula DeLaney.
    Mr. Knollenberg. Very good.
    Mrs. Thurman. Let me just say that the one thing that is 
always refreshing for me is when you have your local Government 
and your county Government working together, and then to add 
this other level of us working together. So it is with a great 
deal of honor and privilege that I get to introduce our mayor 
from the home of the Gators and Mr. Newport also of the County 
of the Gators. So I would like to let them go ahead and give 
their statements and appreciate your taking this opportunity.
    Ms. DeLaney. Thank you very much, Mr. Chairman. On behalf 
of the City of Gainesville, Florida, I appreciate the 
opportunity to appear before you.
    The City of Gainesville is seeking Federal funds in the 
fiscal year 2001 VA, HUD and Independent Agencies 
appropriations for three innovative projects. These projects 
are outlined more fully in my written testimony, and I ask that 
it be made a part of the Subcommittee's official record.
    Mr. Knollenberg. So ordered.
    Ms. DeLaney. First, I would like to focus on the East Side 
Community Recreation Center project. The City of Gainesville is 
seeking $1 million as a one-time infusion of Federal funds for 
this $2.5-million public/private initiative. The Center would 
be in one of our most economically distressed areas of the 
community. In my county, over 60 percent of the public school 
children are on free or reduced lunch. This area has a medium 
family income of $14,700, with 41 percent of the households 
below the poverty level. Eighty-four percent of the residents 
are African American.
    This initiative is being led by a grassroots partnership of 
community leaders and concerned citizens. They have already 
raised or received pledges of $1.5 million from the City of 
Gainesville, Alachua County and private individuals. Also, the 
University of Florida and our school board have indicated in-
kind support.
    The site amenities will include a 6,500-square foot 
multipurpose building to serve as a learning resource and 
community center, complete with a computer lab. The outdoor 
features will include an interactive water fountain play area, 
a playground and a tot lot, picnic areas, two softball fields, 
two soccer football fields, three basketball courts, jogging 
and fitness trails, a nature birdwalk and a concession 
facility.
    The City of Gainesville will own and operate the park and 
improvements. The Center will provide recreational 
opportunities for families and children, including our elderly 
citizens. The facility will also provide unlimited 
opportunities for cultural and educational programs, such as 
after-school tutoring, leadership training, mentoring and 
theater. This Recreation Center will have a tremendous and 
positive impact on all of the surrounding neighborhoods.
    For our second initiative, the City of Gainesville is 
seeking $4 million in Federal funding assistance for our Depot 
Avenue Project. The $277,500-HUD/EDI special project grant 
received from the fiscal year 2000 budget is assisting us with 
the costs of the surveying, preliminary engineering and 
identifying the needed right-of-way for the reconstruction of 
Depot Avenue.
    The Depot Avenue project has several major components, 
including transportation enhancements, historic preservation, 
passive recreation and environmental improvements. Partners for 
this project include agencies at the Federal, State and local 
level. The funds will provide for the enhancement and 
reconstruction of about 2 miles of Depot Avenue, which will 
provide safer and more accessible facilities for all modes of 
travel, serving downtown and surrounding economically depressed 
neighborhoods.
    Finally, for our third project, the City of Gainesville is 
seeking $1.5 million in funding assistance for a $2-million 
stormwater management project along the Sweetwater Branch. This 
project is intended to remove 90 percent or more of the 
sediment and debris that currently flows into Paynes Prairie, a 
State-owned preserve and park system that drains into the 
Florida Aquifer, the major source of drinking water for the 
State of Florida.
    The Sweetwater Branch Basin is located in the older 
sections of the city and receives stormwater runoff from urban, 
commercial, industrial and residential areas with very little 
pollutant load production. Studies conducted by the Water 
Management District indicate that the water in the creek is not 
suitable for recreation or propagation of a healthy, well-
balanced fish and wildlife population. The City of Gainesville 
is partnering with Alachua County, the Florida Department of 
Environmental Protection, the St. Johns River Water Management 
District and local citizens.
    In closing, Federal support is critical for each of these 
initiatives. We respectfully request that the Subcommittee give 
our request every consideration possible throughout your fiscal 
year 2001 appropriations process. I thank you for your time. It 
has been an honor to be here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mayor, we appreciate the speed with which 
you speak. [Laughter.]
    Ms. DeLaney. I could have spoken an hour on each of these 
projects.
    Mr. Knollenberg. I understand.
    That may focus me to ask this question now, and then we can 
get into your testimony.
    Do you have a priority? I know you have several requests 
here. Do you have them ordered?
    Ms. DeLaney. I guess what I would share with you is that 
the Recreation Center is a one-time request, if that would make 
any difference, the million dollars for that.
    Mr. Knollenberg. The Rec Center, that is the first one.
    Ms. DeLaney. We already have a $1.5-million match from 
Gainesville, Alachua County and private citizens. About 
$500,000 is coming from the private sector.
    The other two are very long, ongoing, projects with several 
components. These are just increments of those. We certainly 
need those. Those have implications for greater regions in the 
State.
    Mr. Knollenberg. We would be very interested in the 
priority. You know there are limitations on what we can do. And 
if we have to get into that box, we would like to have your 
impressions.
    Ms. DeLaney. You all have been generous with us in the 
past. As you all probably know, rural North Florida is poor. 
Sixty percent of the property in our city is off the tax rolls, 
about 50 percent countywide. I cannot tell you what the 
assistance from the Federal Government has done to change our 
entire community.
    Mr. Knollenberg. Thank you.
    Ms. DeLaney. Thank you very much.
    Mr. Knollenberg. Mr. Frelinghuysen, do you have questions?
    Mr. Frelinghuysen. No. Thank you.
    Mr. Knollenberg. Mr. Newport, County Commissioner and the 
Chairman, I believe, is it not, of the County Commissioners?
    Mr. Newport. Not this year. Vice-chairman.
    Mr. Knollenberg. Vice-chair.
    Mr. Newport. Thank you, sir. I appreciate the honor.
    Mr. Knollenberg. You are very welcome.
    Mr. Newport. Thank you very much for the opportunity to 
testify in support of our request for Federal assistance.
    Alachua County has three very productive opportunities to 
enhance and leverage local money into national successes. The 
first program is already an award-winning national leader. We 
call it the Partners for a Productive Community and is 
providing citizens with the atmosphere and resources needed to 
empower low-income neighborhoods, strengthen working families, 
enhance property values, stimulate new private investment in 
our community.
    We have put over $3 million of public money, local public 
money, and tens of thousands of volunteer hours in a 5-year 
program that has established a record of innovative and 
successful neighborhood revitalization and economic 
development. We have helped nearly 6,000 citizens with their 
job-training and job-creation efforts, and the initiative is 
also conscious of the fact that reducing crime is good for 
economic development. In our case, neighborhoods that comprise 
only 3 percent of our county's population, previously accounted 
for 57 percent of the 911 calls. We have reduced that number 
over 75 percent in that 5-year period of time. We need to build 
on our success and expand in some other neighborhoods and into 
a rural community outlying the Gainesville metro area that is 
also economically at risk.
    With the help of the Congress, we can sustain these 
partnerships for years and provide a model program that could 
be cost-effectively replicated in communities nationwide.
    The second program is what we call the Alachua County 
Farmland Preservation Initiative and presents an opportunity 
gain to turn local dollars into a national heritage. The 
program creates a so-called emerald necklace of preserved 
farmlands and gems of concerned natural areas throughout our 
end of Florida, which we call the real Florida. [Laughter.]
    Over the years, our county has been able to preserve nearly 
2,300 acres of undeveloped lands with the $2 million of local 
public funds that we have put in. Federal resources would 
enable three significant land preservation and enhancement 
projects to move forward. These projects would advance several 
ecotours and recreational opportunities. It would capitalize on 
the county's protection of natural areas and facilitate a 
budding economic development program.
    The county, in cooperation with municipalities and 
nongovernmental organizations, is seeking State and Federal 
partnerships to advance our mutual goal of land stewardship and 
conservation.
    And, finally, Mr. Chairman, Alachua County is modestly, 
perhaps, the most proactive community of its size, as it 
relates to ensuring air quality and economic development in the 
future. Medium-sized urbanizing communities nationwide are 
looking for ways to ensure that necessary economic growth does 
not lead to air quality degradation. We never want to become a 
so-called nonattainment community. To that end, Alachua County 
has harnessed local expertise, local money and local political 
will to forward partnerships within the community and launch 
several initiatives that may become national models.
    For instance, a study compiled by ten local air quality 
experts from the University of Florida analyzed where our air 
pollution comes from and made recommendations that addressed 
all sources. Now, we are going forward with a plan that is 
equitable, effective and comprehensive. All community sectors, 
even Government, are included. The strategy is to integrate 
economic development and social equity concerns alongside 
environmental issues. With the help of the Congress, we can 
blueprint an approach to air quality protection that is more 
productive than punitive and prevents a problem with relatively 
few dollars instead of remediating a problem for much greater 
cost.
    I hope the Subcommittee perceives the real value that we 
are returning for the taxpayers' money, from local money and 
hopefully from State and Federal sources and grants the 
appropriations our community so very much needs.
    Thank you for this opportunity to appear before you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. The only thing I would add, again, is if 
there is a priority, we would like to know what that is. Do you 
have a priority for the projects that you are talking about? If 
you want to do that for the record later, you can. Maybe you 
need to study it a little bit first.
    Mr. Newport. Well, I think my gut reaction, sir, is that 
our Partners project is a shining star. It has already won many 
national awards. We are looking to expand into some rural 
communities that very much need that sort of empowerment. If I 
was forced to pick one, I would fight for that one because I 
believe it has probably the broadest area of impact in the 
community.
    Mr. Knollenberg. Thank you both very, very much.
    Mr. Newport. Thank you.
    Ms. DeLaney. I would say probably our Recreation because we 
are ready to break ground and roll on that.
    Mr. Knollenberg. So you decided that is going to be the one 
on top.
    Congresswoman Thurman.
    Mrs. Thurman. I will make sure you get a letter to that 
effect, and I will tell you, Mr. Chairman, based on the things 
that we have all learned about budget and keeping our caps and 
doing all of those things, we have had this conversation. And 
so we kind of knew that we were asking for some things, though 
I will tell you, some things have been ongoing in the budget 
already. Sweetwater Project is one of them and then the 
recreation initiatives that they have been working.
    Mr. Knollenberg. Thank you.
    Mrs. Thurman. As you can see, they are a great success.
    Ms. DeLaney. Thank you very much.
    Mr. Knollenberg. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                       CITY OF NEWARK, NEW JERSEY


                                WITNESS

HON. DONALD PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Knollenberg. Congressman Payne, would you come forward 
and introduce the mayor's testimony. We know who the mayor is.
    Mr. Payne. All right. Thank you very much. The mayor of 
Newark, who is a very close friend of mine--he lives a few 
houses away--was supposed to be here, unfortunately, he is 
unable to be here. So I think I have the distinction of being 
promoted up to mayor of Newark for today.
    Let me just say, first of all, Mr. Knollenberg, and to Mr. 
Frelinghuysen that this Committee has been very important in 
the redevelopment of our city, of Newark, and of the region of 
my congressional district. We have started to turn the corner 
on the revitalization of the city. As you know, Newark was one 
of the cities that they talked about wherever the Nation was 
going, Newark would get there first--sort of in a negative 
context by Mayor Kent Gibson. But because of support from the 
Federal Government, because we have got a new energy, the city 
is coming back. We have a new performing art center, which 
support came from here. We have a new waterfront development on 
the Passaic River. We have a minor league baseball stadium 
bringing back the days of the Newark Bears that was a farm team 
for the New York Yankees, and all of those Phil Rizzutos and 
guys played in Newark and went on to the Yankees.
    And so we feel very good that this arts, and sports and 
entertainment complex has helped change the city. But as we 
know, we need to have more than that. We need to have 
neighborhoods revitalized. So we have several projects that we 
would just like for your consideration.
    The Urban Park Restoration Initiative, which is key to the 
improvement in the revitalization, which is municipal parks in 
our poorest areas, most densely populated areas. So we are 
looking for a full partnership as we move into the 
neighborhoods to have the residents and the community 
organizations feel that there will be some open space. The 
space is there, but we need assistance. The City of Newark is 
seeking the support of this subcommittee to help to implement 
the City's overall strategy and neighborhood revitalization. So 
that is our first priority. As you see, I am really capsulizing 
it.
    Secondly is the Queens/Peddie Ditch rehabilitation. Being 
that we are old, we have old sewer systems and water systems. 
So the second project is one that will have a tremendous impact 
on redevelopment of our industrial property close to Newark 
International Airport. As you know, Newark Airport has now 
become the airport of choice in the New York/New Jersey region. 
We have exceeded Kennedy in overseas flights. It is one of the 
highest performing airports in the country now. So it has 
developed a lot of employment, which we need in our area.
    So the Newark International Airport, known in this project 
that we are trying to renovate, is called the Airport Support 
Zone. In order to accommodate the expanding business which must 
be closer to the airport in the Port of Newark/Elizabeth, 
adequate drainage and unflooded roadways are necessary. So the 
Queens/Peddie ditches feed into the south side interceptor and 
are the principal storm water conveyance draining the southern 
part of the city. The project is critical to the development of 
the warehouse/industrial complex along Frelinghuysen Avenue and 
the Waverly Yards property to support expansion of Newark 
Airport. The estimated cost of this is approximately $20 
million. In fiscal year 2001, the city of Newark requests an 
additional appropriation of $2 million to complete the 
preliminary design and engineering phase to begin construction 
on this very important project.
    Finally, the Newark Museum Science Initiative. The Newark 
Museum seeks $2 million to support its new Science Initiative 
Education. The city of Newark has committed $1.7 million to 
date toward the preparatory collections care necessary to make 
this initiative possible. Additionally, the museum is involved 
in a $5 million operating endowment which would come from 
public and private partnership to ensure adequate ongoing 
support of the project, of which $1.2 million has already been 
raised to date. The plan calls for the creation of a major 
permanent exhibition based on its natural science collections. 
The consideration of this committee is deeply appreciated. 
Newark, New Jersey, is looking forward to your support of this 
exciting project and innovation. We know we have to improve the 
educational system, too. We can't only have bricks and mortar, 
but we have to work on our educational system, and the Newark 
Museum has done a tremendous job in helping the educational 
system that, as we know, in many urban areas are in need of 
strong support.
    So with that, Mr. Chairman, I respectfully request serious 
consideration for these projects, and I appreciate the time you 
are giving us.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much.
    Do you have a question, Mr. Frelinghuysen?
    Mr. Frelinghuysen. No. I would like to compliment----
    Mr. Knollenberg. Did you want to comment on your street? 
[Laughter.]
    Mr. Frelinghuysen. They always put that in there to appeal 
to my basic instincts. Isn't that correct, Congressman? 
[Laughter.]
    Thank you for the work you do on behalf of our largest and 
most important city. It has been my real pleasure to work with 
you since I have been down here to help the City in a variety 
of ways in terms of recreation, the arts, whenever possible, 
and flood control issues and Minnish Park and things. It has 
been a real pleasure to work with you.
    Mr. Payne. Thank you.
    Mr. Frelinghuysen. Sometimes we can get some things, 
sometimes we can't, but we certainly strive towards those types 
of objectives that we both share. Thank you very much.
    Mr. Payne. Thank you very much. And, once again, thank you 
for your support in the past and thank the Committee for their 
generosity. We just look forward to our continued partnership.
    Mr. Knollenberg. The mayor's submission will be included in 
the record.
    Mr. Payne. Thank you.
    Mr. Knollenberg. That will be as ordered, so we thank you 
again.
    Mr. Payne. Thank you very much.
    Mr. Knollenberg. I am going to relinquish the Chair now to 
Mrs. Northup, who will come forward and introduce the next 
witness.
                              ----------                              

                                          Thursday, April 13, 2000.

                             OWENS CORNING


                                WITNESS

DAVE BROWN, PRESIDENT, INSULATING SYSTEMS BUSINESS FOR OWENS CORNING
    Mrs. Northup [presiding]. Hello, Mr. Brown.
    Mr. Brown. Hello. How are you?
    Mrs. Northup. Welcome.
    Mr. Brown. Thank you.
    Mrs. Northup. You may proceed.
    Mr. Brown. Okay. Chairwoman, Members of the Subcommittee, 
thank you for the opportunity to testify before you today 
regarding the critical need to support the energy-related areas 
of the Environmental Protection Agency and Housing and Urban 
Development fiscal year 2001 budget.
    Specifically, I want to provide you with two examples of 
how the Administration's request for EPA and HUD energy 
efficiency and pollution prevention programs work together with 
our efforts in the private sector to improve energy efficiency 
and reduce pollution.
    My name is Dave Brown. I am the president of the Insulating 
Systems Business for Owens Corning. We are the pioneers of the 
technology that brought the world fiber glass insulation. Owens 
Corning's sales are derived from two essential businesses: our 
building materials systems and composite materials systems 
businesses. Owens Corning achieved record sales of over $5 
billion in 1999. We have employees of over 20,000 across the 
world and in virtually all 50 States. Over 50 percent of our 
employees reside in the States of Texas, Ohio, New York, 
Florida, Pennsylvania, California, South Carolina, and Georgia.
    In recent years, we have seen a synergy develop between 
these EPA and HUD programs and our business. I would like to 
give you two specific examples.
    The EPA Energy Star initiative provides home builders with 
marketing tools to sell homes that use at least 30 percent less 
energy than homes built to the national Model Energy Code. Once 
a home's performance is verified by an independent third-party 
expert, the home can bear the Energy Star label. Owens Corning 
builds and expands on this concept with our System Thinking 
Home Program that takes a scientific approach to building by 
identifying how the performance zones within a house work 
together. The result is a home that is built using a high 
degree of pre-planning, attention to detail, and quality 
control. The integration of these cutting-edge technologies 
produces a higher-value home for the homeowner and energy 
savings and pollution reduction for all Americans.
    Similarly, the Partnership for Advancing Technology in 
Housing created by HUD seeks to accelerate the creation and 
widespread use of advanced technologies to dramatically improve 
the quality, environmental performance, energy efficiency, and 
affordability of our Nation's housing. To do this, we must 
overcome resistance to change the way we have built in the 
past. PATH helps us break down this resistance to change and 
bring both new products and existing products that are used in 
new ways to the marketplace.
    The development of effective and efficient products and 
systems and an efficient delivery to market will contribute to 
Owens Corning's business growth. In the past, Government has 
been seen by some as an impediment to business, slowing 
development of new products. Our experience with these two 
programs has been just the opposite. As a participant in this 
public/private partnership, we are able to exchange information 
and develop approaches, innovative housing components, designs, 
and production methods that can significantly reduce the time 
needed to move quality technologies to the market.
    Some specific examples of products and programs we have 
developed in the last 24 months by applying these principles 
include: basement finishing system, insulated concrete forming 
systems, and our new acoustic room system. These products not 
only make homes more comfortable, but more importantly, many of 
these products save energy.
    The HUD/PATH and the Energy Star initiatives provide 
enormous benefit to the consumer through better products and 
systems. These programs are an excellent investment in our 
energy future because they help absorb the shock of higher 
energy prices like those we have witnessed recently. They 
deserve your continuing support.
    Chairwoman and Members of the Subcommittee, I thank you 
once again for the opportunity to speak with you today. Thank 
you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much, and thank you for the 
innovations your company brings to us. As a parent of a 
teenager, I guess the soundproofing would have helped a lot.
    Mr. Brown. There you go. [Laughter.]
    We can keep the noise in or we can keep it out, either way 
you want to do it.
    Mrs. Northup. Does it also cut down on the vibrations of 
the music?
    Mr. Brown. As a matter of fact, it does.
    Mrs. Northup. Let me see if my colleagues have questions.
    Mr. Frelinghuysen. No questions.
    Mrs. Northup. Thank you very much.
    Mr. Brown. You are welcome. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                      CITY OF MIAMI BEACH, FLORIDA


                                WITNESS

DAVID DERMER, VICE-MAYOR
    Mrs. Northup. The next presenter is from the city of Miami 
Beach, Commissioner David Dermer.
    Mr. Dermer. Madam Chair, Congressman Frelinghuysen, I am 
David Dermer, vice mayor of the city of Miami Beach, Florida. 
On behalf of Miami Beach, I thank you for the opportunity to 
appear before you.
    The city respectfully submits a community sustainability 
project for a discretionary fund set-aside through the fiscal 
year 2001 VA/HUD Economic Development Initiatives Program. The 
city-proposed set-aside of $15 million will be used toward 
implementation of a citywide network of bicycle, pedestrian, 
greenway trails known as the Atlantic Corridor Greenway 
Network, which will help create additional economic development 
opportunities for Miami Beach. The cost of implementing the 
network is estimated at $35 million, of which $20 million has 
already been funded by or awarded to local government. Only the 
$15 million requested herein remains unfunded.
    The Atlantic Corridor Greenway Network encompasses the 
trails along the Atlantic Ocean and Indian Creek Waterway, and 
several inland trails that will provide direct access to and 
from the various city neighborhoods, parks, entertainment, 
employment, commercial, and business centers. One such train 
will span a residential causeway over Biscayne Bay and into 
downtown Miami. A list of the elements of the Greenway Network 
is provided as an exhibit to this testimony.
    This integrated network of greenway trails will snake its 
way along the city's parks, beaches, waterways, and other 
natural ecosystems, and will include rest areas, vista areas, 
water recreation areas, and interpretive signage throughout the 
greenways to provide enhanced eco-tourism amenities and 
recreational opportunities for trail users.
    The first segment of the greenway network, known as the 
North Beach Recreational Corridor-Phase I, will be constructed 
in 2001 as part of an economic revitalization plan for the 
North Beach area of the city. Other segments will follow as 
they reach full funding status. In addition, a project known as 
the Beachwalk Trail is also fully funded by the city and ready 
to be constructed adjacent to the Art Deco historic district 
and hotel area of South Beach.
    We wish to emphasize that a $15 million fiscal year 2001 
discretionary fund set-aside by VA/HUD EDI toward the Atlantic 
Corridor Greenway Network is critical to the long-term 
effectiveness of Miami Beach in sustaining and strengthening 
its position as the number one beach tourism destination in the 
United States.
    Since housing is one of the most pressing needs of the 
elderly in Miami Beach, funding for elderly housing is a top 
priority for the city. Strong funding commitments for U.S. HUD 
entitlement programs, like CDBG, the Home Investment 
Partnership Program, and the ESG Program, are needed to 
continue assisting the elderly population. Your consideration 
is sincerely appreciated.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much.
    Mr. Dermer. Thank you, Madam Chair.
    Mrs. Northup. Any questions?
    Mr. Frelinghuysen. No questions. Thank you.
    Ms. Kaptur. No questions.
    Mrs. Northup. Thank you very much.
    Mr. Dermer. Thank you very much. I appreciate it.
                              ----------                              

                                          Thursday, April 13, 2000.

                          NEW YORK UNIVERSITY


                                WITNESS

PETER LENNIE, DEAN OF SCIENCE, PROFESSOR OF NEURAL SCIENCE
    Mrs. Northup. The next person is from New York University, 
and it is Dr. Lennie.
    Mr. Lennie. Thank you, Madam Chair.
    Mrs. Northup. Good afternoon.
    Mr. Lennie. On behalf of New York University, I appreciate 
the opportunity to speak in support of public investment in 
basic research and, in particular, to salute the National 
Science Foundation, the largest supporter of basic research in 
the Federal Government.
    NSF is marking its 50th anniversary, an opportune time to 
assess the contribution of university-based research to the 
national welfare. In this regard, we think it highly 
significant that the Members of this House included in the 
recently passed budget resolution sense of the Congress 
language on the importance of the NSF in improving the quality 
of life of all Americans and enhancing the Nation's scientific 
and technological competitiveness. We applaud the 17.3 percent 
increase in NSF's budget proposed by the President and urge 
Congress and this Committee to support an increase of at least 
that amount.
    I would like today to underscore genomic studies, 
particularly functional genomics, a field that NSF has 
designated a priority. Many research universities, including 
NYU, are well poised to make major contributions to it. The 
genome is a recipe or a blueprint for life. During the last 
decade, the unraveling of the genetic code has opened a vast 
range of opportunities for biologists and chemists to 
understand what genes are, what they do, and how they do it. 
Genomics is growing extraordinarily rapidly and is 
revolutionizing the life sciences.
    In its first stage, the revolution was characterized by the 
development of techniques to analyze DNA, first in simple 
models like yeast, bacteria, worm, and the fruitfly, and then 
in the mouse, and now in humans. The structure and function of 
genes are similar in these organisms, making comparisons 
useful. In the second phase, these techniques were used to 
address easily approached biological questions. So-called 
structural genomics focused on the mapping and sequencing of 
genomes. The scientific community is now entering the third 
phase of functional genomics, which will use the map and 
sequence information already collected or to be collected to 
reveal the function of genes.
    The task before us is equivalent to trying to understand 
how a computer works when we don't really know much about its 
design. The genome, which is all of the organisms' genetic 
information, plays the role of the computer program source code 
or instructions for what must be done. Our challenge now is to 
know how each unit of code is used in the functioning program.
    At New York University, we think that an especially 
valuable approach to cracking the code is to develop 
comparative functional genomics. This approach looks for the 
occurrence of the same genes in different species that share 
certain structures or functions. It identifies what has been 
conserved over long evolutionary distances, and it determines 
the crucial differences that distinguish closely related 
species. It provides a powerful method for understanding the 
functions of particular genes, both normal ones and ones that 
are responsible for disease.
    The promise of genomics is enormous, offering new and more 
effective treatments for disease, new materials and processes 
for industry and biopharmaceutics, new approaches to solving 
environmental problems and conservation, and ultimately an 
understanding of the workings of life in all its diversity. It 
is provoking the rapid development of entirely new scientific 
fields, such as bioinformatics.
    An investment in genomics research will have an enormous 
payoff in improving the Nation's well-being and in accelerating 
economic advance. It is key to the development of new 
procedures for diagnosis, prevention, and cure of disease. For 
example, genomics research may make it possible to predict 
individual responses to drug intervention and to design more 
effective drugs customized for individual use.
    Investment in genomic science is an ideal vehicle for 
advancing fundamental studies in a range of scientific fields, 
facilitating biomedical applications that can enhance the 
public welfare, and energizing existing and new industries. 
This Committee's commitment to support the National Science 
Foundation and its genomic initiative is greatly appreciated.
    This concludes my testimony. I thank you for the 
opportunity to appear before you today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much.
    Dr. Lennie, I would like to ask you, I also sit on the 
Labor/HHS/Education Appropriation, and, of course, that 
includes the National Institute of Health. One of their 
institutes is the Genome Project. I wondered how much 
collaboration and coordination goes on between the NSF and NIH.
    Mr. Lennie. My sense is that a great deal in defining their 
complementary roles. The NSF, for example, would be perhaps 
more likely to be interested in the mathematical foundations of 
many of the techniques that are involved in solving these 
problems, whereas the NIH might be more interested in those 
approaches that have closer relevance to clinical applications.
    I believe that the approaches are very much complementary.
    Mrs. Northup. Do the people involved in this research 
collaborate, or is it mostly done in two different theaters?
    Mr. Lennie. Oh, they are very much aware, I believe, of 
what the different groups are doing. It is an enterprise that 
is inherently multidisciplinary, and no one can make advances 
without knowing what is going on in other disciplines. And, 
indeed, why it works so well here is because people do know 
what is going on in other disciplines.
    Mrs. Northup. Okay.
    Ms. Kaptur. I could listen to him talk all day long. I am 
very interested in the subject. Doctor, we thank you very much 
for the fine work that you and your colleagues do all over our 
country, and much success in your own work, and we thank you 
for testifying.
    Mr. Lennie. Thank you.
    Mrs. Northup. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                   SAR INFORMATION USER WORKING GROUP


                                WITNESS

CRAIG DOBSON, UNIVERSITY OF MICHIGAN, COLLEGE OF ENGINEERING
    Mrs. Northup. Mr. Craig Dobson, who is from the University 
of Michigan, College of Engineering, welcome.
    Mr. Dobson. Thank you. It is a great pleasure to be here. 
Chairwoman and Honorable Members of this Committee, I am here 
today to urge Congress to support and enable the development of 
a new U.S. spaceborne synthetic aperture radar as a joint 
partnership between industry and NASA. A broad community 
representing industry, science, and operational agencies has 
been meeting with NASA over the past 6 months to develop a plan 
for such a mission, as requested by Congress in its last budget 
authorization bill. It is now time to advise this committee on 
the status of these deliberations, and I appear before you as 
both the co-chair of a SAR information user working group that 
was recently sanctioned by NASA and as a research scientist at 
the University of Michigan.
    There are a number of compelling reasons for this country 
to move forward with such a mission, and to do so now. The 
state-of-the-art SAR radar under consideration will provide 
unique information that serves well-documented NASA science 
needs and the operational requirements of government agencies 
and a wide variety of nascent commercial needs for spatial 
information. The technology is ready now. NASA deserves a good 
bit of praise for the recently completely Shuttle Radar 
Topography Mission in February that gives strong testimony to 
this Nation's capability to be successful in this endeavor. The 
only obstacle is funding. A joint partnership approach is 
envisioned with government support of the space segment and 
industry support of the commercial ground segment.
    As background, the U.S. has a 30-year investment in 
development of this technology, and NASA is to be commended as 
having been a leader in the demonstration of the technology. 
Recent NASA efforts to promote a joint science and commercial 
LightSAR mission resulted in a failed bid last summer due to an 
inadequate financing plan.
    We know that the NASA administrators are supportive of the 
spaceborne radar, but funding has been dropped in the current 
budget due to the loss of the LightSAR bid. At hearings this 
morning over in the Senate, Senator Mikulski expressed concerns 
over NASA's lack of plans for the post-EOS/DIS era. The 
instrument that we are talking about should and could be part 
of that plan.
    NASA owes a report to Congress on the status of its 
spaceborne SAR plan. That report was due February 1. It is past 
due. I understand that they have a draft. It is over at the 
Office of Management and Budget.
    Since it is yet to be released, I am concerned that it will 
recommend further study. The working group that I represent 
feels that further study is unwarranted.
    NASA, to its credit, has responded to our working group's 
request to revamp the radar mission plan to support oil spill 
mitigation efforts and has also solicited industry input via 
the formation of a user information working group, which I co-
chair. We recently held meetings in Houston in January and 
again in March, last month. At these meetings, a broad 
consensus arose from those attending in support of this mission 
and urging an immediate start.
    In summary, the envisioned new U.S. Earth imaging radar 
will enable the realization of important science objectives. It 
will enhance the capabilities of our operational agencies to 
manage our natural heritage and to effectively respond to 
disasters. It will promote greater efficiencies and 
competitiveness in U.S. industry. Such a mission will leverage 
a long history of basic and applied research and reassert U.S. 
preeminence in this important area. In addition, it will 
provide infrastructure supporting the growth of this 
information technology.
    Our working group believes that time is urgent. The 
technology is right. It is not necessary to study this to 
death. Failure by Congress to act swiftly could well jeopardize 
U.S. interests by surrendering critical technical 
specifications and important tasking priorities to foreign 
interests whom we know are interested in this same area. We ask 
Congress to instruct NASA to initiate such a mission as soon as 
possible and to provide NASA with the requisite funds to do so. 
Nominal funding is needed now in order to enable procurement of 
long lead time items.
    The Science Information User Working Group stands ready to 
advise this Committee, its staff, and NASA in furtherance of 
these objectives, and I thank the committee for its patience 
and interest.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you, Mr. Dobson.
    Ms. Kaptur, do you have any questions?
    Ms. Kaptur. I have no questions except to say I am a 
graduate of the University of Michigan, so it is very good to 
have you here today, Doctor, and we have been very interested 
in this particular initiative relative to NASA, and we thank 
you for U of M's involvement in it.
    Mr. Dobson. Thank you.
    Mrs. Northup. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

AMERICAN ASSOCIATION OF NURSE ANESTHETISTS AND ASSOCIATION OF VA NURSE 
                              ANESTHETISTS


                                WITNESS

JAN STEWART, PRESIDENT, AANA
    Mrs. Northup. Next we have Ms. Jan Stewart, who is with the 
American Association of Nurse Anesthetists.
    Ms. Stewart. Good afternoon.
    Mrs. Northup. Welcome.
    Ms. Stewart. My name is Jan Stewart, and I am a certified 
registered nurse anesthetist, a CRNA. I am the president of the 
American Association of Nurse Anesthetists, the AANA. I 
appreciate the opportunity to present my testimony to the 
committee today on behalf of the 28,000 nurse anesthetists of 
the AANA and the 500 nurse anesthetists of the VA Nurse 
Anesthetists Association.
    My testimony today will offer our recommendations on how 
this committee can assist in saving money for the VA in the 
face of the pending nursing shortage.
    CRNAs administer possibly 65 percent of the anesthetics 
given to patients each year in the United States and perform 
virtually the same functions as the physician anesthesiologist. 
Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most 
complex. CRNAs are the sole anesthesia providers in numerous VA 
facilities.
    While both types of professionals can provide the same or 
similar services, CRNAs cost the VA much less to retain. When 
the salaries of the two providers are compared, there is a 
significant difference. Retention of CRNAs should be a high 
priority for the VA because in the past, shortages have proven 
costly for the VA to rectify.
    This should be a critical concern, especially right now, 
since this country is facing a pending nursing shortage of 
which we are just beginning to see the evidence in the private 
sector. According to a recent survey by the AANA Administrative 
Management Committee, as many as 59 percent of civilian 
institutions in the country are actively recruiting for CRNAs. 
Recruitment of nurse anesthetists for the VA becomes 
increasingly difficult when the civilian sector faces such 
critical shortages.
    In addition, recent data gathered by Loretta Wasse, CRNA, 
Deputy Director of Anesthesia Services for the VA, indicates 
that 10 to 12 percent of CRNAs in the VA will be retiring in 
the year 2000 alone. In real numbers, that means that the VA 
will be losing over 50 CRNAs this year. These retirement 
numbers, combined with the national nursing shortage, means 
that the VA must work even harder at recruiting and retaining 
nurse anesthetists. It is obvious that the VA will not be able 
to reach its 30/20/10 goal, as is referenced in the President's 
budget, if they are facing a nursing shortage. That is because 
it will be impossible to reduce the cost per patient by 30 
percent if the VA is forced to hire expensive temporary 
providers, and it will be impossible to increase the number of 
patients by 20 percent if you are losing health care providers 
in the double digits.
    This Committee can greatly assist in the effort to attract 
and maintain essential numbers of nurse anesthetists in the VA 
by your support of competitive salaries and by providing 
sufficient funding for VA personnel.
    As you may know, CRNA salaries in the VA have been 
determined under a locality pay system since 1991. This system 
allows VA medical directors to survey hospitals in order to 
determine competitive salaries. These provisions are intended 
to assist in the recruitment and retention of CRNAs by keeping 
VA salaries competitive with the private market. It is our 
belief, however, that the locality pay system has faltered in 
recent years. There is increasing evidence that some VA medical 
directors are utilizing the locality pay system as a method to 
actually deny pay increases to nurse anesthetists and other 
nurses. There are reports that some facilities have nurse 
anesthetists whose salaries have been completely frozen for 6 
full years, all the while working side by side with other VA 
employees who have enjoyed the general scale increases afforded 
to all Government workers each year.
    AANA and the AVANA strongly recommend that you urge your 
colleagues on the authorizing committee to seriously consider 
proposals to restructure the locality pay system for VA nurses 
in order to reduce the risk of another costly CRNA shortage in 
the near future.
    I thank the Committee for the opportunity to testify, and I 
would be happy to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you, Ms. Stewart. I am glad you raise 
the issue of the Authorizing Committee because it is my 
understanding that they are considering legislation or a 
proposal to address the issues and the concerns you have. I 
think all of us are very eager to save the fair pay scales, and 
the equity questions are of concern to us, and we are eager to 
see what they recommend.
    Ms. Stewart. Great. Thank you, Madam Chairwoman.
    Mrs. Northup. Thank you.
    Ms. Kaptur. Ms. Stewart, I just wanted to say I really 
appreciate your testimony. I am deeply concerned both about the 
VA and the general status of nursing in our countries, nurse 
anesthetists as well as regular nurses. I would truly enjoy the 
opportunity at another time to sit down with you and perhaps a 
representative of the AANA to look at the magnitude of the 
need. I have even been considering programs that we could 
initiate at some point that would have shared personnel between 
the VA and local hospitals, local hospices, et cetera, how we 
help our nursing schools. I have a whole range of concerns 
about nursing in our country. So at such time you would have 
time to do that, I would really appreciate that very much.
    Ms. Stewart. I would be honored and pleased to do that. 
Thank you for the invitation. I appreciate it.
    Mrs. Northup. Thank you.
                              ----------                                


                                          Thursday, April 13, 2000.

                    AIR FORCE SERGEANTS ASSOCIATION


                                WITNESS

DON C. SMITH, MASTER SERGEANT, USAF (RET)
    Mrs. Northup. Next we have from the Air Force Sergeants 
Association Master Sergeant Don C. Smith.
    Sergeant Smith. Good afternoon.
    Mrs. Northup. Good afternoon. Welcome.
    Sergeant Smith. Mrs. Chairwoman and distinguished Committee 
Members, AFSA is proud to once again address this Committee on 
behalf of the United States Air Force and enlisted men and 
women of all components of the United States Air Force. Each of 
us in this chamber are here to do the right thing: to honor 
those who have given up part of their mortal existence to 
maintain the freedom our citizens enjoy today. The service 
people we represent, those currently serving and those who have 
served, have played a vital role in protecting and keeping this 
Nation the greatest on Earth.
    As you conduct hearings and determine budgetary priorities 
for fiscal year 2001, I ask that you review my entire written 
statement submitted earlier. During this statement, however, I 
wish to highlight the issue of educational benefits.
    This committee will no doubt address many aspects of 
improving the Montgomery GI Bill. We ask you to hold as a 
priority two measures.
    The first is to establish an open window allowing all 
military members not currently in the GI bill the opportunity 
to enroll in it. This would include those still on active duty 
and who are still enrolled in the old Veterans Educational 
Assistance Program, or VEAP, and those who did not enroll in 
either VEAP or the GI bill for whatever reason.
    The second effort we ask you to achieve this year would be 
to increase the value of the benefit and index it to a standard 
reflecting the actual average cost of education. Over the 
years, the Montgomery GI Bill has lessened in relative value 
due to inflation. This benefit requires a member to pay $1,200 
to buy into the program. In return, by current rates, the 
member receives 36 months of education, $536 per month. This 
comes to a total value of a little over $19,000 for the initial 
buy-in cost.
    However, according to independent educational cost indexes, 
the national average for 36 months at a typical 4-year public 
college for a non-resident student is very close to $36,000, or 
around $1,000 a month for 36 months. It is time that we realize 
that the educational benefit is an important transitional tool 
that should be tied to actual educational costs. It does have 
an impact on recruiting, retention, and readjustment. It is 
time for the military institutions of this Nation to provide a 
fair, useful educational benefit to those who serve. As such, 
we strongly urge you to support legislation to benchmark the 
value of the Montgomery GI Bill to the annual college board 
report so that it will be from now on tied to a visible, 
legitimate cost of 36 months of education. This will be fair to 
those who serve and, as a side note, make our annual efforts 
quite a bit easier.
    Mrs. Chairwoman, my printed statement touched on numerous 
other areas that we feel are very important, and we ask you to 
review all of them. I thank you for this brief opportunity to 
address this committee on behalf of the men and women of the 
Air Force Sergeants Association. Your mission is a noble one of 
saying thank you to our Nation's finest men and women. We honor 
the work that you accomplish and your dedication to those who 
serve.
    Thank you, and I would be happy to address any questions 
you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you. I think you probably know that the 
authorizers are looking at this issue also very carefully and 
going to make a recommendation, and we are eager to have that 
recommendation.
    Sergeant Smith. Thank you very much for your time.
    Mrs. Northup. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                 FLORIDA DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

ROBIN L. HIGGINS, EXECUTIVE DIRECTOR
    Mrs. Northup. Next, from the Florida Department of 
Veterans' Affairs, Robin Higgins. Welcome.
    Ms. Higgins. Thank you very much. Good afternoon, Madam 
Chairwoman.
    In the interest of time, I ask that my written statement be 
entered into the record, and I will shorten my remarks.
    Mrs. Northup. Without objection.
    Florida has the second largest veterans' population in the 
country, 1.7 million veterans. We also have the number one 
largest population of older veterans and the most service-
connected disabled veterans. Thus, our need for veterans' 
health care and long-term care is very great, and the demand 
for limited resources is also great.
    I am pleased to see that the Administration is recommending 
a $1.4 billion increase for health care. Of course, how those 
dollars get distributed is of utmost importance to us in 
Florida. I ask that you continue to support the Veterans' 
Equitable Resource Allocation, VERA, to ensure that the dollars 
continue to flow towards those States where the veterans are.
    I have come before you today, however, to highlight two 
other very important issues to the veterans in Florida. First, 
a new national cemetery for South Florida. South Florida has 
been on the VA's list for highest priorities for a new national 
cemetery since 1987. Today there are by the VA's own estimates 
currently 435,000 veterans in the seven counties of South 
Florida alone. A staggering 48 percent of those veterans are 
over the age of 65. In fact, the population of veterans over 
the age of 65 in those seven counties alone in Florida is 
greater than the entire population of veterans over 65 in 40 
other States.
    Allow me to offer an example. I selected this for Chairman 
Walsh that I thought he would most appreciate. In order to be 
buried in a national cemetery, a veteran who dies today in 
Miami, Florida, must be transported approximately 300 miles to 
the nearest national cemetery, which is in Bushnell, north of 
Tampa. That is equivalent to telling a family of a veteran who 
dies in the chairman's district in Syracuse, New York, that 
they have to bury their loved one in Portland, Maine. 
Fortunately, veterans in Syracuse, New York, have at least 
three national cemeteries well within that same 300-mile radius 
from which to choose.
    I am pleased to report that there has been some progress in 
large part due to the efforts of this Subcommittee, of our own 
Congresswoman, Carrie Meek, and the Chairman of the 
Appropriations Committee, Congressman Bill Young. Last year 
this subcommittee supported an appropriation of $500,000 for 
the planning of the next four national cemeteries of which 
South Florida was specifically recommended. This action sent 
the right message to the VA that our need was immense and 12 
years was long enough for inaction. I thank you for what you 
did to get the ball moving.
    A few months ago, I hosted a roundtable discussion in 
Tallahassee on our need for a national cemetery in South 
Florida, and it was attended by the leaders of the VA's 
National Cemetery Administration and State Division of Public 
Lands. The meeting was a success, and the members of the 
assembled team pledged their support to continue working to 
make the cemetery a reality.
    Next week, in fact, the VA will actually visit some 
potential sites in South Florida that have been located by our 
Division of State Lands. However, despite the movement, I 
remain very concerned.
    While I am pleased that after 12 years of being on the VA's 
list of priorities South Florida is finally being recognized, 
my sense from the President's budget is that the VA prefers to 
spread this out over 3 years: planning funds this year, funds 
for the purchase of land in year two, and the actual 
construction in year three. With all due respect to the VA and 
the efforts that they are putting forth to help us, we simply 
cannot wait to spread this out over 3 years. The 435,000 
veterans in South Florida can't wait that long, and they 
shouldn't have to.
    I ask you and the Members of this Subcommittee to see that 
the full amount necessary for the planning, for the land, and 
for the construction of a new national cemetery in South 
Florida, approximately $15 million, is appropriated this year.
    My second issue, very briefly, is the State Veterans' 
Nursing Home Program. Immediate solutions for long-term health 
care are an absolute necessity for the veterans in Florida. We 
have been active partners with the VA in the State Veterans' 
Nursing Home Program. We are closely watching the pilot 
programs that are permitted under the Millennium Health Care 
Act. These concepts are the future of veterans' health care. I 
am constantly being asked by veterans in my State and by 
elected officials all throughout the State about the 
possibility of using VA funds to provide health care to 
veterans in private facilities or in their home, and I believe 
we should be striving to do more of this. I strongly support 
this subcommittee's effort to fund VA programs that move VA 
long-term health care in the direction of more options and 
increased flexibility.
    We in Florida currently have two State veterans' nursing 
homes and will soon open our third. However, with 1.7 million 
veterans and only 360 beds, we still have a tremendous need. So 
this year I proposed to our Governor and cabinet that we pursue 
building two more 120-bed nursing homes. The sites have been 
selected. Governor Bush supported my request in his budget, and 
the recommendation is currently working its way through the 
State legislature.
    I support the $140 million that the VA Committee has 
recommended to clear that grandfathered list so that we won't 
have to be pushed back an extra year for those nursing homes.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

                    AMERICAN PSYCHIATRIC ASSOCIATION


                                WITNESS

ALBERT C. GAW, M.D.
    Mrs. Northup. Next we have Dr. Al Gaw of the American 
Psychiatric Association. Welcome, Dr. Gaw.
    Dr. Gaw. Thank you. Mr. Chairman, I am Dr. Al Gaw, a member 
of the American Psychiatric Association, representing 42,000 
psychiatric physicians, of whom 2,000 are working for the VA. I 
also serve as co-chair of the APA Caucus of VA Psychiatrists. I 
am honored to have 23 years' experience as a psychiatric 
physician serving veterans. I currently work as Medical 
Director of Massachusetts State Hospital in Massachusetts, and 
I am a professor of clinical psychiatry at U. Mass. Medical 
School.
    I thank you for the opportunity to present APA 
recommendations for the appropriations for the Department of 
Veterans Affairs health care and medical research program for 
fiscal year 2001.
    Before beginning my comments, I would like to thank the 
Members of the Subcommittee and your colleagues in the House 
for your commitment to providing the highest quality medical 
care to our Nation's veterans and to supporting the research 
necessary to advance equality of that medical service.
    The APA is encouraged by the Administration's fiscal year 
2001 proposed budget which calls for a $1.4 billion increase in 
veterans' health care. This is a step in the right direction. 
However, APA joins with many other veterans groups in 
requesting an additional $500 million to ensure adequate 
funding.
    The APA is particularly concerned about the welfare of the 
mentally ill veterans as they account for approximately 25 
percent of all veterans receiving treatment within the VA 
system. The Administration's decision to flat-line the medical 
research budget in the VA is unfortunate. Science is leaping 
forward, particularly in the area of mental illness and 
substance abuse.
    Patients in the VA are often among those most in need of 
new medical technology to manage their health status. At the 
current level of funding, less than 12 percent of research 
dollars is actually applied to veterans' population of 
psychiatric disorders. The dearth of research funding in the 
area of elderly geriatric psychiatry is of special concern 
given the growing segment of the older veterans. We urge 
Congress to correct this imbalance.
    At the national level, although we are pleased with the 
outcome of the VA's mental health and substance abuse program, 
we are concerned about the fate of these programs in the VA-
reorganized 22 relatively autonomous Integrated Service 
Networks. Unfortunately, there are significant inequalities in 
access and quality of care across the Veterans Integrated 
Service Networks, or the VISNs.
    Some VISNs have been able to balance the need for access to 
mental health services with decreasing costs in an effective 
manner. However, some VISNs facing funding decreases are 
diverting resources from congressionally mandated mental health 
programs to other areas of veterans service. Still others have 
been slow in establishing community-based programs for mentally 
ill veterans. In particular, the APA is concerned with staffing 
shortage and staffing turnover in the VA system that 
compromises patient care.
    We are concerned about the reduction of quality of care for 
veterans because of replacement of key psychiatric physician 
leadership with professionals less trained and less experienced 
in the total care of patients. Cost-cutting methodologies used 
by HMOs in the private sector has been inappropriately applied 
to the veterans' programs, resulting in hurting veterans due to 
premature discharges from acute-care services. We urge Congress 
to seize the opportunity of reforming inappropriate application 
of HMO methodology in the care of veterans.
    I call the Members of the Subcommittee's attention to my 
written statement which outlines many of the successes of the 
VA programs and where APA has serious concerns. While we remain 
encouraged by the Administration's proposed fiscal year 2001 
budget, the APA suggests further investment in the VA health 
system which faces particular medical challenges due to the 
aging population.
    Thank you very much for this opportunity.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much, Dr. Gaw. I think we are 
all concerned that the medical dollars for VA medical get there 
and get to the right places and serve the veterans that we feel 
so strongly about supporting.
    Dr. Gaw. Thank you very much.
                              ----------                                


                                          Thursday, April 13, 2000.

                       FLEET RESERVE ASSOCIATION


                                WITNESS

MASTER CHIEF TERRY L. YANETTE, USCG (RET.), NATIONAL SERVICE OFFICER
    Mrs. Northup. Next we have Terry Yanette, who is 
representing the Fleet Reserve Association. Welcome.
    Mr. Yanette. Thank you. Madam Chairman, on behalf of nearly 
153,000 shipmates who serve in or have retired from the Navy, 
Marine Corps, and Coast Guard, I extend gratitude for the 
concern and active interest generated by this subcommittee in 
providing funds for the programs available to our Nation's 
veterans.
    The Fleet Reserve Association submitted a prepared 
statement, and I ask that it be included in the record. For the 
sake of brevity, I will limit my remarks to four areas of 
discussion: VA health care, the GI bill, concurrent receipt, 
and national cemeteries.
    FRA believes that until the military initiates or provides 
sufficient access to some type of health care program for 
displaced through base closure military retirees, Veterans 
Health Administration medical treatment and care centers should 
be open for the retirees' use at no cost to the retiree. The 
Association recommends that a demonstration project be 
authorized with funds appropriated for VA to test the 
feasibility of establishing Medicare subvention programs within 
its health care facilities. FRA is concerned with the dwindling 
access to health care.
    FRA is enthusiastically endorsing the Partnership for 
Veterans Education Initiative. The association recommends that 
the subcommittee provide additional funding to improve 
educational programs. Improvements to the Montgomery GI Bill 
are essential if the armed forces are to continue to attract 
new recruits each year and retain those who are currently 
serving. The Association believes that veterans who take 
advantage of their GI bill will eventually return more money to 
the U.S. treasury for every dollar spent by the Federal 
Government for their education.
    FRA continues its advocacy of the concurrent receipt of 
military retired pay and veterans' service-connected disability 
payments, without loss to either, and seeks the support of this 
distinguished committee.
    The Association is grateful for the enactment of the 
special compensation for severely disabled retirees last 
October. This is a good first step in providing equity among 
Federal families.
    FRA has recently learned that many in Congress believe 
special compensation fixed the issue of concurrent receipt. 
This is far from the truth. They are two separate issues, and 
concurrent receipt remains high on the association's agenda.
    FRA supports expanding of the National Cemetery 
Administration as well as Arlington National Cemetery. 
Currently, the Administration maintains more than 13,000 acres 
of developed and undeveloped land containing more than 2.2 
million gravesites. With a projected increase in the number of 
deaths, 620,000 by the year 2008, burial space is at a premium. 
FRA strongly endorses the bill H.R. 70 which will establish new 
eligibility requirements for burial in Arlington National 
Cemetery and help ease demand for space.
    Madam Chairman, allow me to again express sincere 
appreciation of the Association's membership for all the 
Subcommittee has done for our Nation's veterans. FRA is 
grateful for the opportunity to address the distinguished 
members of this panel on the issue so important to its 
membership. I am prepared to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Well, I know that you probably know that the 
authorizing committee is looking at a number of these issues, 
and we are eager to have their recommendations. But let me just 
thank you for appearing on behalf of a group that we appreciate 
their past service and want to do everything we can to meet 
their needs.
    Mr. Yanette. Thank you, ma'am. I appreciate it.
    Mrs. Northup. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                         JOSLIN DIABETES CENTER


                                WITNESS

DR. SVEN BURSELL
    Mrs. Northup. Next we have Dr. Sven Bursell from the Joslin 
Diabetes Center. Welcome, Doctor.
    Dr. Bursell. Thank you. Madam Chair, thank you for this 
opportunity to present a status report on the joint Joslin 
Diabetes Center/Department of Veteran Affairs diabetes project. 
We would also like to thank Representatives Nethercutt and 
Gejdenson for earlier this week testifying in support of this 
project.
    For the fiscal year 2000 appropriations act, you provided 
$2 million and our request for fiscal year 2001 is $5 million, 
of which the VA's cost represent about 40 percent.
    I am Dr. Sven Bursell, the principal investigator of this 
project, and I am an associate professor at Harvard Medical 
School.
    As you may recall, we have been involved in a joint project 
with the Department of Defense and the Department of Veterans 
Affairs in a two-site demonstration project for the advanced 
detection, prevention, and care of diabetes. The Joslin Vision 
Network is a telemedicine platform for this program providing 
remote-site retinal imaging through an undilated pupil and 
centralized specialty resources to grade these images for level 
of disease and appropriate treatment.
    Up until fiscal year 2000, this project was funded solely 
through the Department of Defense Appropriations Act. The 
success of the program to date has prompted considerable 
enthusiasm from the Department of Veterans Affairs medical 
staff as well as an eagerness to expedite the deployment of 
additional JVN technology beyond the limited resources 
available through participation in the DOD-funded project. 
Thus, additional resources were made available to the VA for 
discretionary diabetes care for which we extend our sincere 
appreciation for your response to that request.
    To date, a number of meetings have taken place with policy 
and program officials at the VA, and we have arrived at a 
consensus regarding the deployment of remote JVN sites in 
Anchorage, Alaska, TriCities, Washington, and Billings, 
Montana, with a centralized reading center resource situated in 
the VA center in Seattle.
    With these sites having been identified, we will now move 
forward with implementation planning and subsequent deployment. 
Further efforts will focus on the refinement of the JVN system 
and will involve modifications to the remote retinal imaging 
system that will overcome limitations identified during the 
course of our clinical studies with the DOD/VA project and 
result in a less expensive and more portable imaging system. We 
will also be working towards providing a seamless integration 
of the JVN application in the Joslin Diabetes eye health care 
model into the existing VA VISTA health informatics 
infrastructure. This will result in a more cost- and resource-
efficient system, permitting accelerated deployment for future 
VA sites.
    For fiscal year 2001 we are requesting that in the VA 
medical accounts $5 million be allocated to this program to 
continue to expand the reach of the JVN eye health care program 
and increase the access of VA patients into an annual eye care 
evaluation. The request of the $5 million also includes funds 
to complete refinement of the JVN system.
    The resources earmarked for refinement of the technical 
core of the JVN system will focus on the development of an 
expert system that is modular in nature, completely 
customizable, and fully integrated into the VISTA medical 
informatics system. The ultimate goal is to provide an 
application that incorporates diagnosis-specific diabetes 
assessment, an interactive treatment, and education plans for 
patients and providers. This effort will be achieved through 
close collaboration with the VA, a leveraging of the already 
existing excellent VA diabetes management program, and an 
integration of the JVN eye health care module in this 
application.
    For fiscal year 2001, we have established the following 
tasks: an accelerated deployment of a viable, sustainable 
system for the eye health care program in multiple remote VA 
outpatient settings to demonstrate improved access of diabetic 
patients to eye care and improved adherence to established 
clinical care guidelines for diabetic patients; to develop 
modularized and customizable medical outcomes-based 
telemedicine management programs in collaboration with the VA; 
and to develop curriculum-based patient and provider 
educational modules.
    In summary, thank you for this opportunity to present this 
request for $5 million for fiscal year 2001 and for being able 
to provide you with a status report for 2000. We are all 
tremendously excited about the opportunity to collaborate in 
this telemedicine effort, which represents a medical 
breakthrough in the way we can cost effectively provide high-
quality diabetes eye care specifically and diabetes care in 
general to all diabetic patients within the health care systems 
of the Department of Veterans Affairs.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Thank you very much, Doctor. I think that 
telemedicine and its applications are very exciting to all of 
us.
    Dr. Bursell. We are tremendously enthusiastic about it, 
yes.
    Mrs. Northup. Thank you.
    Dr. Bursell. Thank you very much.
                              ----------                              

                                          Thursday, April 13, 2000.

              THE LYMPHOMA RESEARCH FOUNDATION OF AMERICA


                               WITNESSES

HON. STEVE HORN, A REPRESENTATIVE OF CONGRESS FROM THE STATE OF 
    CALIFORNIA
GENEVIEVE DOUGLASS
    Mr. Horn. Madam Chairman, I am honored to introduce to you 
one of our top leaders in the community, Genevieve Douglass. 
She had to bury her husband from lymphoma. It was attributed to 
Agent Orange. And so what we would hope is that this 
Subcommittee could recommend more research on that by the VA 
and it should also be in the NIH because they need to work 
together in terms of the genetics and everything else. So I 
would hope that you could hear her story.
    Mrs. Northrup. Thank you, and welcome.
    Ms. Douglass. Thank you, Madam Chairperson. Thank you for 
the opportunity to present public testimony on behalf of the 
Lymphoma Research Foundation of America. LRFA is a private, 
nonprofit foundation and a leading lymphoma resource in the 
United States. The Foundation funds research and has awarded $3 
million to support 90 research projects. I am Genevieve 
Douglass, the widow of Vietnam Veteran Bob Douglass. In 
addition to membership in LRFA, I cofounded the Agent Orange 
Widows Awareness Coalition with my friend Karen, who is here 
with me today, and is the widow of Robert Olszewski, another 
Vietnam veteran.
    Both our husbands died recently of Agent Orange-related 
lymphoma. It is with great honor and humility that we speak to 
you today on behalf of the Foundation, Agent Orange Widows 
Awareness Coalition, Vietnam veterans and their post-war 
children across the Nation.
    I bring to you the story of my husband, Bob, who died last 
year. His death was 100-percent service connected as a result 
of this exposure to Agent Orange, the defoliant used in 
Vietnam. I am testifying to respectfully request your support 
of expansion of the Veterans Administration research portfolio 
on lymphoid malignancies.
    Lymphoma is the second fastest-growing incidence of cancer 
in America. It is estimated that over 87,000 Americans will be 
diagnosed this year with lymphoid malignancies, with a 50-
percent mortality rate. Hodgkin's and non-Hodgkin's lymphoma 
are two of the ten diseases and conditions recognized by the VA 
as service-connected for Vietnam veterans because of their 
exposure to Agent Orange.
    Bob served in Vietnam from 1969 to 1970 as a cook in a base 
camp near Da Nang. In August of 1997, he discovered a small 
lump on the side of his neck. A biopsy revealed an aggressive-
type of non-Hodgkin's lymphoma. Within 2 weeks, the lump had 
grown so fast that it blocked Bob's breathing and forced him on 
a liquid diet. He lost 25 pounds and his voice all within the 
first month of diagnosis.
    In trying to figure out how Bob developed lymphoma, we 
recalled hearing news stories about Agent Orange-related 
illnesses. When we asked our doctors if they knew of the 
connection, they did not. In August of 1998, after a recurrence 
of Bob's lymphoma in his liver, we sought a second opinion at 
UCLA medical center. They also were unaware of the connection 
to Agent Orange-related diseases. A more aggressive treatment 
of chemo was recommended.
    At this point, we contacted the Lymphoma Research 
Foundation. Finally, they knew of the connection to Agent 
Orange. We then went to the VA Hospital to enroll, but had to 
wait 6 weeks for an appointment with the Agent Orange Registry 
doctor. Bob's lymphoma took a turn for the worst on February 
10th. Nine days later, Bob died at the age of 49, leaving me a 
widow and our two sons, Shawn and Corporal Daniel Douglass, 
fatherless.
    Although we are now in the year 2000, currently, the VA has 
limited resource information regarding Agent Orange and 
lymphoma. Over 3 million troops served in Southeast Asia during 
the Vietnam War, when an estimated 19 million gallons of 
chemical defoliants were sprayed. The VA acknowledges that all 
veteran Vietnam personnel were exposed. There is insufficient 
research and data to determine the true relationship between 
Agent Orange and the second- and third-generation lymphoma 
cases.
    It has been 25 years since the end of the war. We now have 
a generation of veterans who are getting sick and dying across 
the Nation, leaving families devastated, in grief, despair, and 
financial distress. The United States Government is failing the 
people who served our country.
    On behalf of the Lymphoma Research Foundation, I ask for 
your assistance with the Foundation's request for expansion of 
VA resources and increased funding of Agent Orange-related 
lymphoma research regarding the development, diagnosis and 
treatment of the disease in Vietnam Veterans and their post-war 
children.
    This is a picture of my friend Dixie Miller's husband in 
the middle of the jungle where Agent Orange was sprayed, and 
you can see everything is dead around him, and they worked with 
very little protection. This is my husband, Bob, and this is 
our T-shirt with the Agent Orange Widow's Awareness Coalition 
and all of our ladies get to put their husband's pictures on 
the back of it. And this is Karen Olszewski's husband, Robert 
Olszewski.
    And so please seriously consider our request, as we try to 
assist veterans with lymphoma whom must face the challenge of 
fighting for their lives once again.
    Thank you for your attention to this important issue. I 
would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson [presiding]. Steve, did you have anything to 
say?
    Mr. Horn. I introduced her, and I think all of us would be 
moved by this testimony. We need to know that the VA does admit 
this and does have a way to deal with it, and that is one 
thing. But then the question is how many cases do we have to 
have before something else is done in a preventive sense.
    Ms. Douglass. Yes. We would like to see funding for 
research for solutions to the problem. I know that you are 
doing research and statistical data. But we are really looking 
for solutions because we know dioxin caused the lymphoma. So 
the researchers doctor can actually go after better solutions 
for treatment.
    Mr. Hobson. I think we all share your concern. I appreciate 
very much your coming in.
    Ms. Douglass. Thank you.
    Mr. Hobson. I have a number of friends who served in 
Vietnam. Steve and I are a little older than that. But I look 
at that, and I know my friend's age when he was there, I have 
seen his pictures, and he looks like almost the same age, a 
Marine in Vietnam.
    Ms. Douglass. Well, they are 40 and 50 years old, and they 
are dying. Councilman Schultz in the City of Long Beach, his 
friend, he just went to a funeral on Thursday to bury a friend 
who suddenly got sick and died from cancer-related illnesses.
    Mr. Hobson. I assure you we will take a look at this and 
see what we can do.
    Ms. Douglass. Thank you very much. You have brought a good 
advocate here too.
    Ms. Douglass. Yes.
    Mr. Horn. We might think about cross-relations between the 
VA and NIH in some of this research. Because as you know, NIH 
has flexibility where they can assign a lot of the market.
    Mr. Hobson. Right. And we have put a lot of money into NIH.
    Mr. Horn. Yeah, millions.
    Ms. Douglass. It was the lymphoma research experts with the 
Foundation last year that did not know the connection outside 
of the research doctors that do that research. They were not 
aware.
    Mr. Horn. Thank you very much for your time.
    Mr. Hobson. Thank you very much for coming.
    Ms. Douglass. Thank you. Nice meeting you.
    Mr. Hobson. My pleasure.
                              ----------                              

                                          Thursday, April 13, 2000.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                                WITNESS

ARNOLD MOSES, M.D., DIRECTOR, METABOLIC BONE DISEASE CENTER AT THE 
    STATE UNIVERSITY OF NEW YORK AT SYRACUSE
    Mr. Hobson. Sir, you are Arnold Moses?
    Dr. Moses. Correct.
    Mr. Hobson. Okay.
    Dr. Moses. On behalf of the National Coalition for 
Osteoporosis and Related Bone Diseases, the Bone Coalition, I 
would like to thank you for this opportunity to discuss briefly 
bone disease research and how it may benefit U.S. veterans. I 
am Dr. Arnold Moses, Professor of medicine and Director of the 
Metabolic Bone Disease Center at the State University of New 
York at Syracuse.
    As a resident of Syracuse, I would like you to relay my 
greetings to Representative Walsh from his home district. I 
would also like to mention that I am a member of the American 
Society for Bone and Mineral Research who, like Dr. Cliff 
Rosen, who recently spoke to Representative Hobson recently 
about bone research.
    I am here today to urge the Subcommittee to increase the 
budget for the Veterans Administration research program, and in 
particular, I wish to make a plea for an increase in funding 
for bone research. The Bone Coalition, which I represent, is 
involved in education, treatment and research of many bone 
diseases, the most common of which are osteoporosis, Paget's 
disease and cancer which has spread to bone. I will limit my 
comments today to osteoporosis, which is responsible for more 
than 1.5 million fractures annually in the United States.
    While osteoporosis is often thought of as a disease of 
older women, it is not unusual at younger ages or in men. And 
the society as a whole, funding for osteoporosis research in 
men has lagged far behind funding for other diseases of its 
magnitude. Yet by the ages of 75 to 80, men have about half as 
many hip fractures as women. When hip fractures occur in 
anyone, social and financial costs skyrocket.
    In 1993, the last year for which I have information, 2,650 
veterans over 65 were admitted to the VA acute care hospitals 
for hip fractures. In this age group, hip fractures are almost 
always due to osteoporosis. The average length of stay for 
those patients was about 25 days, for an estimated total of 
65,000 days. A rough estimate for the cost of hospitalizing 
these patients during that time would be approximately $122 
million. In addition, at least a quarter of these patients are 
never rehabilitated to live independently.
    We know that the VA population is aging and frail, and 
particularly subject to osteoporosis because of many known and 
probably unknown factors. For instance, veterans suffer higher 
rates of lung disease than the general population. From a 
report published by VA physician and scientist, Dr. Mark Nanes, 
this group is five times more likely to suffer from 
osteoporosis, in general. One of the reasons for this increase 
is the necessary use of steroid drugs and treatment, which 
alone causes a marked risk for osteoporosis. Some of the other 
defined risk factors are immobilization, such as occurs after 
spinal cord injury, inflammatory bowel disease and low male 
hormone levels either naturally occurring or from treatment of 
prostate cancer. All of these conditions are common among 
veterans and increase the risk for osteoporosis.
    When osteoporosis is diagnosed, particularly at an early 
stage, research has demonstrated the value of calcium and 
Vitamin D supplementation, application of new therapeutic 
agents, the need for appropriate exercise, et cetera. However, 
much more must be learned for effective prevention and 
treatment of osteoporosis, particularly as it applies to the VA 
patient population.
    The VA must do its part to mitigate the lifelong incidence 
of osteoporosis for fractures, which at the present time 
consist of one of two women and one of eight men over the age 
of 50. Yet, in 1999, the VA spent only $13 million to research 
the causes and treatment of osteoporosis. The good news is that 
some significant research has already been accomplished by VA 
researchers using either VA funds alone or partnering with 
researchers funded by the NIH.
    While we appreciate the increase in Congress's 
appropriation to the VA in 1999 and 2000, we need more. We, 
like the Friends of the VA, and the National Association of 
Veterans Research and Education Foundation, are requesting a 
total of $385 million for VA research for funding a number of 
programs which are listed in the handout, which you received 
previously.
    We feel that funding bone research at the VA is a wise 
investment and focusing on better treatment and cures will save 
us dollars in the future. It is a timely investment. As our 
veterans age, their health care requirements and dependence on 
VA assistance will drastically increase. Also, it is much 
needed and overdue.
    Mr. Chairman, there are 25 million veterans and 44 million 
family members who are potentially eligible for VA benefits and 
services. While 10 percent of veterans are now women, in 10 
years, it is estimated there will be 20 percent. Given the 
statistics which I have already quoted, one can easily see that 
a large percentage of the individuals eligible for VA benefits 
are at risk for bone disorders.
    Therefore, we urge you and your colleagues to provide 
additional funding for medical research in general at the VA 
and bone research in particular. It is time to increase the 
funding for bone-related research to be commensurate with the 
level of impact of bone diseases in the VA. We are asking for 
$23 million to be designated for bone-related research at the 
VA and feel that it would be money well spent. And I thank you 
for this opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Thank you very much. I think you know from the 
previous discussions I have had on this that this subject that 
we are interested in, and I think you will see more things 
happening in the field.
    I did not realize the male population that is susceptible 
to this. As I get a little older, I guess you look at things a 
little differently. But also as the Vietnam veterans and the 
baby boomers come into the VA, and the VA may change in some 
way. I think it has made efforts to grow. But I think there 
will continue to be support for this.
    Dr. Moses. I thank you very much.
    Mr. Hobson. Thank you.
                              ----------                              --
--------

                                          Thursday, April 13, 2000.

                THE SAFER FOUNDATION, CHICAGO, ILLINOIS


                               WITNESSES

HON. DANNY DAVIS, A REPRESENTATIVE OF CONGRESS FROM THE STATE OF 
    ILLINOIS
DIANE WILLIAMS, PRESIDENT AND CEO
    Mr. Hobson. Next, we have the Safer Foundation.
    Mr. Davis. Thank you very much, Mr. Chairman. And let me 
just thank you for the opportunity to introduce this witness. 
It is Diane Williams who works with one of the most difficult 
groups of people, I think, in the country to work with. The 
Safer Foundation has distinguished itself as one of the most 
effective organizations of its kind in helping individuals who 
have been incarcerated and are now trying to transition their 
way back into the normalcy of everyday life. They provide job 
training, housing, educational services and actually go out and 
help these individuals to find opportunities. If our country, I 
think, is to really reclaim a population group that is in 
serious need of help, it is going to be organizations and 
groups like the Safer Foundation and people like Ms. Williams 
who will help us to do that.
    I am pleased to present her to the Committee this 
afternoon.
    Mr. Hobson. Thank you.
    Ms. Williams. Thank you, Mr. Davis.
    Mr. Hobson. He did all of your speech for you.
    Ms. Williams. He did. I almost feel like I should not be 
here, that I could just give him my notes, and you could take 
care of this for me.
    I am pleased and I am thankful for the opportunity to 
present Safer to you. We are an organization, as Congressman 
Davis indicated, who has worked with a very tough population 
for a very long period of time. We are blessed to have a series 
of successes in doing that. Last year, we saw over 5,000 
people, and we placed 1,300 of them in jobs within a matter of 
2 weeks.
    We continue to work with the other group of people who come 
to see us, but recognize that their opportunities for 
employment are even less, if you will, than the first group 
that I referenced. And it is because they tend to be people who 
have no history of work, who have not finished high school, who 
have no role model in their younger years of someone who went 
to work every day and earned a living for that household. For 
that reason, they tend to be more difficult to place in jobs.
    We at Safer recognize, though, that they have a strong 
desire, in a lot of cases, to do that work. And so what we are 
proposing is that we buy a business that would allow us to 
employ those clients that we are referencing, who have a desire 
to work, but do not have the background to do that today, 
provide them while they are working some of the services that 
would support them, substance abuse treatment, housing, those 
kinds of basic needs that still need to be met.
    Mr. Hobson. What kind of business are you talking about?
    Ms. Williams. Right now what we are looking at is an 
assembly or manufacturing business, and that was determined 
after a feasibility study and after an advisory group that we 
formed took a look at it and recommended it. We have formed an 
advisory group of seven CEOs of manufacturing companies to 
ensure that as we go forward with this, we do so in the right 
way.
    The Chicago area is one of the primary areas for 
manufacturing. Fifteen of the top 25 companies in our area are 
manufacturing companies. What we would like to do is to help 
these people to learn the work ethic, to get the skills that 
are necessary to go to work. So in some ways, we might think 
about this an internship in a workforce development kind of an 
environment. They would be with us for 6 to 9 months. At the 
end of that period of time, we would place them in another 
manufacturing environment that had a need for their services. 
That company would receive an employee that was well prepared 
and able to deliver what they needed to deliver, and the next 
person could come into our slot and go through the same kind of 
an internship project.
    What we are looking for is about $2 million to invest in 
the purchase of a business. We believe that as that business 
moves forward, it will sustain itself, and it will sustain the 
services that are required to keep it moving.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. But you do not have the business identified yet 
or do you?
    Ms. Williams. Actually, I have probably a stack about this 
thick on my desk. We have been, through the Internet, through 
discussions with brokers and through discussions with a couple 
of capital groups, amassing a list of businesses in the Chicago 
area.
    Mr. Hobson. How many people will you be able to do? I know 
this is your intake. I used to be on the board of something 
called OIC, which was founded by Reverend Solomon. We did a lot 
of the same type of thing. Because if you could get in any 
other program, you did, and then you came to our program.
    And part of this is getting people's heads back on.
    Ms. Williams. That is right.
    Mr. Hobson. Because a lot of these people do not know what 
it is to get up in the morning and go to work or what time 
means. So you have to go through some of that. They can become 
very good workers. Recidivism, I mean, if you are having the 
kind of success you are, you ought to be able to transport 
those a lot of places. Because I came out of State Government, 
and this is one of the biggest problems we have is this 
population and caring for this population. And the Federal 
Government does, too, if you look at the amount of prisons we 
are building. These people come out, and we just cannot throw 
them into society overnight if they do not have the 
infrastructure.
    Ms. Williams. That is absolutely right, which is again why 
we want to approach the way that we are proposing. Those that 
can be placed in jobs today because they are ready, we think we 
should place them in jobs today. But I think we should not 
write the rest of them off. We should, in fact, provide this 
kind of an environment that allows them to prepare themselves 
for work.
    As we look at the clients that we serve today, we all know 
that they are getting younger, we all know that they still 
have, though they are younger, they are parents, they have 
children who will fashion their lives in some way, too. And so 
the more that we can support them in their employment, the more 
we can support that next generation in looking at employment in 
that vein.
    Mr. Hobson. Is the State giving you any support in this?
    Ms. Williams. We work with the State. In fact, the majority 
of the dollars that we get are State dollars to support the 
clients that we have today.
    Mr. Hobson. What is your budget today?
    Ms. Williams. Our total budget is $12 million.
    We have done a number of different kinds of projects. In 
fact, one of the ones that we are working on now is with the 
National Institute of Corrections to look, at job retention for 
that first tier. Again, it is the second-tier client that we 
will be focused on for this employment opportunity. And 
obviously what we are talking about doing is putting this to 
work in the City of Chicago in an area where it will support 
them economically for that particular community, as well as the 
clients that we serve.
    So we are eager to get started on it. There are a number of 
opportunities out there. Obviously, the West side of Chicago, 
which is the Congressman's area, is an ideal place for us to do 
this work.
    Mr. Hobson. Thank you for coming. It sounds very exciting.
    Ms. Williams. Thank you.
    Mr. Hobson. Thank you.
    Mr. Davis. Thank you. Thank you very much, Mr. Chairman.
                              ----------                              

                                          Thursday, April 13, 2000.

                 NEW YORK UNIVERSITY SCHOOL OF MEDICINE


                                WITNESS

ROBERT GLICKMAN, M.D., DEAN
    Mr. Hobson. Dr. Robert Glickman, NYU School of Medicine. 
Nice to see you.
    Dr. Glickman. Nice to see you.
    Mr. Hobson. Thanks for coming.
    Dr. Glickman. Good afternoon, Mr. Hobson. I am Bob 
Glickman, dean of the NYU Medical School. I am pleased to tell 
you a little bit about some of the initiatives underway at the 
school.
    Our school goes back to 1837 and includes participating and 
actually leading many of the major events in American medicine 
through 2 centuries. We graduate 150 physicians a year, employ 
3,000 individuals and have more than 800 faculty members. For 
150 years, we have been partnered with Bellevue Hospital, one 
of New York City's premier municipal hospitals providing care 
to a large segment of the citizens of New York City.
    Our School of Medicine is developing a comprehensive 
program in women's cancer, which is a component of a 
comprehensive cancer center that we have at the school. And the 
goal of the center is to bring together the enormous advances 
in basic research, genetic, environmental and couple these 
efforts with the highest-quality clinical care to benefit our 
community at large, regardless of their socioeconomic status or 
ethnicity. The program in women's cancer will be a full-
spectrum program of clinical services, training and fundamental 
research into those cancers that affect the female reproductive 
tract with a focus on minority women. And it, as I say, will be 
integrated with the other programs of this major cancer center. 
It will also train leaders in basic and clinical research, as 
well as clinicians specializing in this area.
    We are committed to revitalizing the school over the next 5 
to 7 years, and this program is a key component of our research 
effort. Our efforts will have significant economic impact on 
the region and on our area. A PricewaterhouseCoopers impact 
analysis of our plan was conducted last year and estimated that 
by the year 2005 over 400 full-time jobs will have been 
created, and during the peak of construction, 1,062 jobs will 
be supported. During an 11-year period, probably more than $500 
million of revenues will accrue as an economic benefit of this 
program.
    We are seeking the Subcommittee's support to expand our 
program in women's cancer. Specifically, we are requesting $5 
million in support through the Department of Housing and Urban 
Development's Economic Development Initiative in your fiscal 
year 2001 bill. These funds will be used to construct, and 
build-out and rehabilitate existing space to house this program 
in women's cancer and to purchase the equipment necessary for 
the research that will comprise this program.
    I thank you for affording me the opportunity of appearing 
before you, and I would be happy to answer any questions you 
might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Are you getting any money from the State or 
anybody?
    Dr. Glickman. We are getting some money from the State, and 
some from the City and private philanthropy as well, and it is 
part of probably a $50-million major effort, and this is a 
subcomponent of that.
    Mr. Hobson. My wife is very interested in breast cancer 
awareness. We are very involved in that.
    Dr. Glickman. Prevention and detection are really what is 
really going to make a difference.
    Mr. Hobson. Yes. Thanks for coming, and good luck with all 
you do. We appreciate it.
    Dr. Glickman. Thank you.
                              ----------                              

                                          Thursday, April 13, 2000.

                     SEIU 200-B, SYRACUSE, NEW YORK


                                WITNESS

ELAINE GERACE, R.N., DIVISIONAL PRESIDENT
    Mr. Hobson. Elaine Gerace.
    Ms. Gerace. Good afternoon.
    Mr. Hobson. Good afternoon. How are you?
    Ms. Gerace. I am fine. Thank you.
    First of all, I would like to take this opportunity for 
allowing me to address you here today. My name is Elaine 
Gerace, and I am a registered nurse at the Syracuse VA Medical 
Center. I have been a nurse in the VA system for 11 years, and 
I am also here as the Divisional President for Local 200-B of 
the Service Employees International Union. SEIU represents 1.3 
million workers nationwide, several thousand of which are VA 
nurses.
    I have submitted for the record more lengthy testimony.
    Mr. Hobson. You know I have a VA in my district, too.
    Ms. Gerace. Do you?
    Mr. Hobson. Yes.
    Ms. Gerace. Good.
    Mr. Hobson. And there is one next store.
    Ms. Gerace. Good. I would like to share with you my 
concerns about the Nurse Pay Act and what the consequences have 
been for VA nurses. I am a veteran myself, and I feel a 
personal commitment to provide the very best care possible. I 
am not alone in this. My colleagues at VA hospitals around the 
country share this same feeling.
    As we all know, veterans have sacrificed much to protect 
our freedoms. We, as VA nurses, have also sacrificed much. 
Working in the VA hospital means incredible patient loads 
because of chronic understaffing and its associated problems. 
This condition is far worse than in the private sector. We 
continue to provide excellent care despite these obstacles, yet 
we receive less compensation than our GS counterparts because 
we are paid under the Nurse Pay Act.
    The Nurse Pay Act was passed in 1990 in order to address 
the inequity in pay between registered nurses in the VA system 
and those employed in the local area hospitals. It requires 
that surveys be done each year to gather pay information from 
local area hospitals in order to determine pay schedules for 
the VA registered nurses. The Nurse Pay Act initially raised 
salaries, but problems have developed since its inception. Each 
VA hospital establishes its own pay scale and annual pay 
adjustments based on a survey of local area hospitals. The 
problem is that the surveys often produce inaccurate data that 
can have significant impacts on a nurse's salary. This happens 
because often area hospitals refuse to participate. If they do, 
many of them provide inaccurate data.
    The VA cannot be the pay leader in the community by law, 
yet VA nurses are required to care for more complex patients 
with unique and multiple problems than private facilities. We 
should be allowed to set the standard of pay rather than 
following the private sector's lead. VA medical center 
directors alone have the authority to determine whether 
registered nurses will or will not receive an increase. In some 
cases, nurses' pay is actually decreased. Directors determine 
whether the VA is the pay leader by the results of the local 
surveys, yet there is no way to determine if the data provided 
is factual, and therefore no way to verify that we are, indeed, 
the pay leader.
    The consequences for the VA nurses have been significant. 
Even when VA nurses received pay increases, these raises lagged 
behind those given to GS workers. For example, in 1996, the 
average pay raise for nurses was 1.2 percent, compared to the 
2.4-percent average increase received by their GS workers, and 
this still continues. From 1996 through 1999, DVA nurses, on 
average, were denied a cumulative pay equivalent to 4.5 percent 
because of the current pay system for nurses. This loss of pay 
affects pocketbooks of nurses now and when they retire.
    Unfortunately, the nursing profession is no longer as 
desirable a career as it once was. This is evidenced by 
decreased enrollment in the nursing programs and retention 
recruitment problems throughout the country. Nurses are leaving 
the profession for careers in other fields which offer higher 
salaries, better working conditions and better hours. 
Currently, the average age of the VA nurse is 47 and 
increasing.
    In 10 to 15 years, the VA will have to replace the majority 
of its current registered nurse workforce due to retirements. 
The VA is facing a crisis. The VA cannot maintain its current 
quality of nurses if it cannot or will not remain competitive 
with other professions and employers.
    For fiscal year 2001, the VA is requesting $63.5 million to 
support pay raises for nurses under an alternative pay system. 
This request assumes that registered nurses' pay increase for 
fiscal year 2001 will correspond to the same percentage 
increase for general schedule employees. In the past, however, 
the VA has denied registered nurses the full percentage pay 
increase provided to GS employees, despite the VA budgetary 
intentions.
    SEIU urges this Subcommittee to hold the VA accountable and 
require that nurses receive, at minimum, the same percentage GS 
increase to pay to other VA employees. We further propose that 
there be a locality-based differential that is based on the 
general schedule locality pay system that utilizes 32 metro 
statistical areas rather than the 170 local labor market areas 
currently used.
    This proposal will allow VA facilities to remain 
competitive in the local labor market area, while at the same 
time increasing the opportunity for recruitment and retention 
of high-quality skilled nurses to care for our veterans.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Thank you. You got through all of that, did you 
not?
    Ms. Gerace. Yes, I did.
    Mr. Hobson. I am going to ask you one or two questions.
    Ms. Gerace. Yes.
    Mr. Hobson. First of all, I have heard about this before 
because there is a VA in Dayton and there is a VA in 
Chillicothe. But I want to ask you another question.
    Do you have a 4-year degree?
    Ms. Gerace. No, I don't.
    Mr. Hobson. Okay. Then you are somebody I want to talk to 
then.
    Ms. Gerace. Good about the Nurse Qual Standards.
    Mr. Hobson. Here is the problem: I understand that the VA, 
and I brought this up in the Committee when we had the medical 
director there, they tell me I am wrong, but in my area I 
understand that the VA does not want to hire 2-year graduates 
and will not hire them, and is taking all 4-year graduates, 
which is causing some of the shortage.
    Now, the other side of the story they tell me is they will 
take the 2-year graduate, but they will not promote until they 
get the 4 years.
    Ms. Gerace. That is correct.
    Mr. Hobson. Well, what are they doing?
    Ms. Gerace. They are hiring 2-year people, but they will 
not promote them. So what happens is that currently the 
starting pay for, say, a new nurse coming in is $29,000, at 
least in Syracuse. I mean, I cannot speak for other areas. 
Normally, under the old system, within 3 years, they would be 
promoted to Nurse 2, which currently the salary is $37,000 for 
that. Under the current system that they have just passed, the 
nurse who comes in with a 2-year degree will have to work for 
approximately 25 years to reach that $37,000 point.
    So we may not have trouble recruiting nurses, although we 
will just because of the general shortage, but our biggest 
problem is going to be with retention because these nurses are 
going to work for the VA for 2 or 3 years, get the experience 
they need and then move on.
    Mr. Hobson. Are there any educational benefits to help them 
achieve the next 2 years?
    Ms. Gerace. Well, there are and there are not.
    Mr. Hobson. I have had complaints from the 2-year schools 
saying that their young people are discriminated against and 
not being hired. What you are telling me and what the VA is 
telling me, they are hiring them.
    Ms. Gerace. They will hire them.
    Mr. Hobson. But the problem is later on they cannot get 
promoted to making reasonable growth within their profession.
    Ms. Gerace. Correct.
    Mr. Hobson. Unless they get the 4-year degree.
    Ms. Gerace. The tuition assistance that they offer, what 
they have now is the National Nurses' Education Initiative, 
which has set aside $50 million, which is not nearly enough 
because 60 percent of the nurses in the VA do not have their 
bachelor's degree.
    Mr. Hobson. That is something I did not know. We ought to 
have that.
    Ms. Gerace. Sixty percent do not have it. So you take, 
there are 29,000 nurses, 60 percent of that, and we will just 
say, to round things off, 20,000 nurses do not have their 
bachelor's degrees. $50 million over 5 years is not anywhere 
near enough to support these nurses to go back to school.
    Mr. Hobson. Do you how much of that is currently being 
spent? Is it being taken down?
    Ms. Gerace. I do not know.
    Mr. Hobson. That is something we ought to look at because 
this is a problem, and this is going to be a more acute 
problem.
    Ms. Gerace. It is going to be. And actually my figure of 10 
to 15 years, with nurses retiring, probably is not true because 
most people retire at the age of 55, not 62.
    Mr. Hobson. And now this may be self-serving for the people 
who talk to me, but many people think that the last 2 years you 
learn some more, but you learn an awful lot in the first 2 
years.
    Ms. Gerace. Of nursing school?
    Mr. Hobson. Of nursing school.
    Ms. Gerace. That is true. The last 2 years is basically all 
administrative duties, which is not what they want these nurses 
for. They want them for bedside. And historically, nurses that 
have their bachelor's degree are really not interested in doing 
patient care. They are really interested in being in 
administrative jobs. And so that poses a problem, also. They 
are clinically not as experienced as the associate degree and 
the diploma nurses.
    Mr. Hobson. That is what somebody else told me.
    Ms. Gerace. And that is true. That is a fact.
    Mr. Hobson. Well, I just like to get that on record. I am 
glad you came today and that I was here when you came.
    Ms. Gerace. Well, thank you.
    Mr. Hobson. Because I like to get that on the record. And 
the authorizors are looking at this problem, as we speak.
    Ms. Gerace. Thank you very much.
    Mr. Hobson. Your problem, not the problems we are talking 
about. I am looking into those.
    Ms. Gerace. Okay.
    Mr. Hobson. When you go back and talk to them, I have 
raised this question about the hiring and the retention of the 
2-year people with the VA. And I think they are not supposed to 
get back to me in some sort of report.
    Ms. Gerace. I think that is going to be a problem all 
across the country.
    Mr. Hobson. You ought to get your union to look at this.
    Ms. Gerace. We are.
    Mr. Hobson. Fine.
    Ms. Gerace. Thank you very much.
    Mr. Hobson. Thank you.
                                          Thursday, April 13, 2000.

                    THE RETIRED ENLISTED ASSOCIATION


                                WITNESS

JOHN J. DALY, DEPUTY LEGISLATIVE DIRECTOR
    Mr. Hobson. Next is John Daly.
    Were you enlisted, John?
    Mr. Daly. No, sir. I am actually one of the few non 
veterans that works in the Retired Enlisted Association.
    Mr. Hobson. I was.
    Mr. Daly. Well, then you will appreciate I think what I 
have to say and understand it well.
    Mr. Chairman, on behalf of the 110,000 members and 
auxiliary of The Retired Enlisted Association, I appreciate 
having the opportunity to be here. I would like to express our 
views on the funding for the Department of Veterans Affairs.
    Last year, as you know, was significant in many respects 
for the VA, from the nearly $1.7 billion in additional funding, 
to the passage of the Veterans Health Care Act, we witnessed 
some of the most dramatic changes in veterans' benefits in 
decades, and we cannot properly express our gratitude.
    However, I would like to focus on one particular issue 
which has been ignored in the recent past and has left veterans 
with only a partial benefit. Since World War II, this Nation 
has promised veterans an opportunity to improve their lives 
through education in return for service in the military. From 
the first recipients of the GI bill in the 1940s to the Cold 
War and Vietnam to the Montgomery GI bill of today, those who 
serve this Nation were told they would have the opportunity to 
earn a college degree in exchange for their service.
    Throughout the decades, this often translated into 4 years 
of education paid for by the Government. Unfortunately, today, 
that complete benefit has deteriorated into a partial benefit. 
The Montgomery GI bill now covers less than 2 years of tuition 
at the average 4-year university for a nonresident student. 
Certainly, the intention of those who crafted this educational 
benefit was not to provide veterans with half of an education.
    TREA has been consistently disappointed that the efforts 
implemented and proposed for educational opportunities over the 
past several years have failed to include the Montgomery GI 
bill. Today, a volunteer in the AmeriCorps program receives a 
better educational benefit than someone who spends 4 years 
wearing this Nation's uniform.
    Today, a high school senior can receive more Federal grants 
and aid by not serving in the military than they can if they 
do. Where is the incentive to serve and where is the reward for 
service?
    TREA is proud to join with 39 other organizations 
representing the military and higher education communities to 
develop a proposal which will ensure that all of America's 
veterans have access to a 4-year degree. By locking in the GI 
bill reimbursement to the average costs of a 4-year degree we 
can guarantee that any veteran will have the opportunity to 
earn a college degree without worrying about financial 
limitations.
    We have been informed by your colleagues on your 
authorizing side this will be a difficult struggle. By today's 
estimates, implementation of such a benefit would double the 
cost of the Montgomery GI bill. But the time has come to, once 
and for all, fix the veterans educational benefit and ensure 
that it remains a proper benefit.
    Mr. Chairman, there is one additional issue I would like to 
address today, and that is the issue of VA facilities. The 
General Accounting Office estimates that the VA is spending $1 
million a day on unused or underused facilities. This funding 
should be used for providing veterans with quality health care. 
With the 21st Century and all of its promise upon us, the VA 
and Congress must look at what structure the Veterans Health 
Administration's facilities will take.
    We have strongly supported continued expansion of the 
community-based outpatient clinics. This is a great example of 
bringing the care to the veteran by using modern technology. 
However, issues will remain with the larger facilities and 
those need to be addressed. $1 million a day is far too much 
for unneeded bricks and mortar.
    In closing, Mr. Chairman, I would like to thank the 
Subcommittee for this opportunity, and I would be happy to 
answer any questions you may have at this time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. I can tell you how to get a college degree with 
that. Joining the Ohio National Guard or the Army Guard, and we 
will pay 100-percent for you to go to college.
    Mr. Daly. Some States do do that, sir.
    Mr. Hobson. There are a number of States that do that. And 
we are a total force today. The VA is doing a good job in my 
district of doing those outpatient clinics.
    Mr. Daly. They have been a success, certainly.
    Mr. Hobson. So far.
    Mr. Daly. So far. We will see how it goes.
    Mr. Hobson. Thank you, sir.
    Mr. Daly. Thank you, sir.
                              ----------                              

                                          Thursday, April 13, 2000.

   NATIONAL INTERRELIGIOUS SERVICE BOARD FOR CONSCIENTIOUS OBJECTORS


                                WITNESS

J. E. McNEIL, EXECUTIVE DIRECTOR
    Mr. Hobson. J.E. McNeil.
    Ms. McNeil. My name is J.E. McNeil. I am here today with 
Bob Daugherty, who is the Education Outreach Director at 
NISBCO. I am the executive director of the Center on Conscience 
and War, part of the National Interreligious Service Board for 
Conscientious Objectors or NISBCO. I am also the mother of a 
14-year-old son.
    NISBCO represents the concerns of most, if not all, major 
religious traditions in the United States and many smaller 
denominations in their goal of defending and extending the 
rights of conscientious objectors. Having helped shaped 
relevant policy since 1940, we are experts on the conscription 
system.
    We functioned as an adjunct staff to the Selective Service 
System during World War II, administering the alternative 
service program for conscientious objectors. Military chaplains 
and JAG officers continue to consult with us concerning proper 
handling of COs in the military.
    I will make only two points in my oral testimony: First, 
registration without conscientious objector registration will 
never be acceptable;
    Second, approximately $500 million has been wasted on a 
useless agency, as there is a practical, cheaper and better 
alternative. Foremost, from the viewpoint of my constituents, 
churches, synagogues, temples, mosques and meeting houses, is 
that draft registration will never be acceptable as long as 
there is not an conscientious objection registration at the 
time of registration. But the Committee is not in a position to 
deal with that issue today.
    My second point is the one which should concern you the 
most: the total waste of taxpayer money. Nearly one-half 
billion so far, on a system which could not only be supplanted 
by an equally adequate system, but by a more effective system. 
The Selective Service System, even if it were perfect, is 
unnecessary. The Secretary of Defense and Selective Service 
both reject that a draft due to military mobilization will 
probably never be needed.
    Further, in 1993, in a report to the President, the 
Secretary of Defense stated that peacetime draft registration 
could be suspended with no effect on mobilization requirements.
    In 1994, the Department of Defense changed its requirement 
that Selective Service deliver the first inductees 13 days 
after a declared mobilization to more than 6 months after that.
    Note that this was longer than the time to do a complete 
registration of eligible-aged men in 1980. This makes it clear 
that registration at the time of military mobilization would be 
a practical alternative and, clearly, $24 million a year 
cheaper. But more important is the fact that there is a better 
alternative. The on-the-shelf system that Selective Service, 
itself, maintains for health personnel which provides for mass 
registration in 13 days after notice of mobilization with 
induction orders to follow three weeks later would work better 
than the current system.
    Registration at the time of military mobilization, the on-
the-shelf system would be more accurate and, therefore, more 
useful and fairer. The population between the ages of 18 and 25 
are very mobile in our society. Selective Service has not been 
very aggressive in their requirement to report changes of 
addresses. So, the actual number of registrants who would be 
contacted and drafted from the Selective Service data base in a 
real emergency is considerably less than the 89 percent that 
they claim to have registered.
    The Selective Service system, therefore, supplements with 
motor vehicle lists, which they maintain cover 86 percent of 
registered-age youth. But the mobility of youth is a factor 
here as well. Their driver's licenses and IDs are not required 
to be updated but every two to four years. This is a problem 
and is especially acute for inner-city youths who often have no 
driver's license or IDs.
    A much more accurate list of eligible males would be made 
at the time of a military emergency. It would be more accurate 
not only because of its timeliness of its information but 
because of the incentive to register which would come out of 
patriotic fervor rather than heavy-handed penalties.
    In conclusion, an emergency mobilization, should one occur, 
would not be delayed by a single day by eliminating the 
Selective Service system, an agency that is neither needed nor 
adequate to its purpose. This would save $24 million of 
taxpayers' dollars a year. It would be fairer and more 
accurate. And it would increase the personal liberty of young 
men by freeing them from the onerous penalties for not 
registering either through ignorance or acts of conscience. It 
is $24 million that is being wasted and need not be. Do not 
fund the Selective Service system.
    I thank you and I would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Well, all I would say is the Chairman tried to 
do what you wished and he got out-voted last year.
    Ms. McNeil. Well, we can try again.
    Mr. Hobson. I am not sure he is going to try that again. 
Because if I had my way I would probably send every kid to 
basic training for nine weeks. I wouldn't put them necessarily 
in a war but we would have a lot less trouble on the streets if 
kids went to basic training.
    Ms. McNeil. Well, I think the Quakers and Mennonites would 
have some problems with that.
    Mr. Hobson. Well, we would not teach them war, we would 
just teach them how to get up in the morning, some 
responsibility, how to make their beds, how to brush their 
teeth, a lot of things that parents don't teach them.
    Ms. McNeil. CPS provided that and it didn't provide it by 
teaching them how to kill.
    Mr. Hobson. Well, I didn't say anything about killing. I 
said just basic training. I went to that Air Force basic 
training and nobody trained me how to kill at all in that but 
we just have a different view on that.
    Ms. McNeil. Sure.
    Mr. Hobson. But the Chairman shares your view and I don't 
know what he is going to try this year.
    Ms. McNeil. Well, it did pass the House and it was in the 
Senate in which it failed last year. Hopefully we will have a 
bigger voice in the Senate, as well.
    Mr. Hobson. Well, time will tell. That is right.
    Ms. McNeil. Thank you.
    Mr. Hobson. Good. Thank you for coming.
                              ----------                                


                                          Thursday, April 13, 2000.

                         THE INDEPENDENT BUDGET


                               WITNESSES

GORDON H. MANSFIELD, EXECUTIVE DIRECTOR, PARALYZED VETERANS OF AMERICA
JOE VIOLANTE, DISABLED AMERICAN VETERANS
DENNIS CULLIAN, LEGISLATIVE DIRECTOR, VETERANS OF FOREIGN WARS
DAVID WOODBURY, NATIONAL EXECUTIVE DIRECTOR, AMVETS
    Mr. Hobson. Mr. Gordon Mansfield.
    Mr. Mansfield. My name is Gordon Mansfield and I am the 
Executive Director of the Paralyzed Veterans of America and you 
have a statement in front of you for the record. We appreciate 
the opportunity to come down here and talk to you, sir. The 
plan is that I would talk about health care, Amvets will 
discuss the VA cemetery issues, DAV will talk about benefits 
and the VFW will address construction in the VA.
    The testimony is that last year through the efforts of the 
Independent Budget and the hard work of Congress and this 
Subcommittee the VA budget received a $1.7 billion increase in 
the years of straight-line funding. Although this amount fell 
short of the $3 billion recommended by the independent budget, 
it represented a solid step forward and helped forestall what 
was perhaps the most severe budgetary threat ever to face the 
VA.
    We applaud the Administration's requested increase of $1.36 
billion for health care. Although this is an encouraging step 
forward, it does not quite address the resource requirements 
that the agency faces in the coming year.
    For the year 2001, the Independent Budget recommends an 
increase in the appropriated dollars for Veterans Health 
Administration of $1.915 billion. This recommendation is $555 
million more than the Administration's requested increase. It 
is also the amount the Senate unanimously approved in its bud 
resolution last week.
    The Independent Budget is asking for a $1.84 billion 
increase in medical care, a research increase of $65 million 
and an additional $11 million for medical support services. We 
ask that you look upon this conservative estimate as the 
starting point not the end point in addressing the financial 
requirements of the health care system devoted to Veterans.
    We oppose the Administration's proposal to consolidate the 
recently created extended care revolving fund and the health 
services improvement fund into the medical care collections 
fund. Keeping these funds separated will enable us to better 
track collections and help us ensure that monies raised for 
long-term care is spent on long-term care.
    The Administration's plan to return half of every dollar 
collected to the Treasury would force the VA to cover what is 
essentially a short-term loan at usurious rates. When the cost 
of collections is factored in, which amounts to 20 cents on the 
dollar, the VA would have to collect close to $850 million 
before being allowed to retain the whole dollar collected to 
provide health care to Veterans.
    The Independent Budget recommends an increase for VA 
research of $65 million for a recommended total of $386 
million. We note that while VA research is accorded flat 
funding in the Administration's budget request, the President 
has proposed a 6 percent increase in funding for the National 
Institutes of Health and a 17 percent increase in funding for 
the National Science Foundation. VA research must not be left 
behind in our national research funding effort.
    We are also concerned when hard-fought increases for 
Veterans health care are achieved, they are spent as needed. We 
have reviewed recent VA prosthetic budget analyses and we are 
surprised to learn that as of the end of the first four months 
of fiscal year 2000 there is a $14.3 million surplus nationwide 
in the overall prosthetic budget.
    We also recall that VHA only spent $461 of its fiscal year 
1999 prosthetic budget of $485 million, leaving a surplus of 
approximately $24 million. With such a significant surplus of 
funds at both the end of Fiscal year 1999 and the beginning of 
this year we are lost to understand why the VA's own report, 
the National Delayed Order Report for the first quarter shows 
there were 452 delayed orders in the field attributed to delays 
in funding approval and insufficient funds. With chronic 
shortfalls to overcome, we hope the VA will receive directions 
from this Subcommittee ensuring that hard-won appropriated 
dollars are not held back but are spent when and where needed 
for prosthetics and the full range of health care services.
    At the core mission of the VA is the provision of 
specialized services for disabled veterans which can be found 
nowhere else. One of these specialized services is in the area 
of spinal cord medicine. To augment this mission, we call on 
this Subcommittee to assist us with the creation of multiple 
sclerosis, centers of excellence. Medical science is making 
remarkable strides in treating MS, among which are new drugs 
promising to arrest the progression of the disease and prevent 
advancing disability. VHA supports a strong community of 
clinicians with specialized knowledge and expertise in MS. The 
centers of excellence are to act as catalysts to coordinate the 
application of this rich resource, spearheading research, new 
clinical applications, medical education and the development of 
clinical practice guidelines.
    That concludes my testimony and I would be happy to respond 
to any questions.
    Mr. Hobson. I really am concerned about this. As you said 
on page 5, you didn't think I was listening, but I did. With 
all the money we have funded into the VA there is absolutely no 
excuse in my opinion, I get this all the time from people. We 
have testimony about delays and funding approval and 
insufficient funds. That just shouldn't be.
    I wish you would or your people would get instances of this 
so we can move on it. Because we fund all this money and then I 
hear that the money is not getting to the Vet, which is really 
upsetting--and it gets hung up over here some place. Maybe we 
need you, you were in HUD, maybe we need to go over to the VA 
and try to kick it around for a while and see if we can do 
something over there. You are not the first person to tell me 
this. I have VAs around me in my district and this kind of 
stuff just drives me nuts.
    I get letters from people telling me that we are cutting 
the VA. I said, no, we are not. We are giving them more money. 
But they send out all kinds of directives, etc. If you can get 
a specific instance, I am sure that the Chairman will take this 
to them and I will, too.
    Mr. Mansfield. We are reporting from their own reporting 
system and we track that on a regular basis.
    Mr. Hobson. But I need specifics. I mean you give us the 
specifics and if somebody didn't get it, I mean there has got 
to be some sort of an administrative glitch or something that 
is doing it.
    Mr. Mansfield. We will get you specifics.
    Mr. Hobson. Okay.
    But I just called them on this in another committee about 
their reporting systems, their computerization, and stuff 
because they are all messed up.
    Mr. Violante. Mr. Chairman, and Members of the 
Subcommittee, I am Joe Violante with Disabled American Veterans 
and my remarks will address the general operating expenses 
appropriation which covers the administrative costs of benefits 
delivery. As Harry Schultz, of our Syracuse, New York, National 
Service Office informed you in his written statement, 
sufficient staffing to allow VA to make quality and timely 
decisions is a major concern. By hiring 287 new employees and 
reassigning 299 more, the Administration's budget proposes to 
increase staffing by 586 full-time employees for claims 
processing. We fully support this proposal to increase 
staffing.
    VA has struggled to overcome poor quality and large 
backlogs in its compensation and pension claims processing. VA 
needs additional staffing to help it meet its workload demands, 
however additional staffing alone will not solve the problem. 
VA must concentrate on improving quality in its claims 
decisions. To do that it needs to better train its adjudicators 
and hold them accountable for quality. VA reported a 32 percent 
error rate in disability claims processing for fiscal year 
1999.
    The Court of Appeals for Veterans Claims reversed 22 
percent of the regional office decisions it reviewed in fiscal 
year 1999 and remanded another 36 percent to correct 
deficiencies. These high error rates demonstrate that VA is not 
doing enough to achieve and hold adjudicators accountable for 
quality in its claims decisions.
    These high error rates substantially decrease claims 
processing efficiency. Appeals make up one-fifth of all 
compensation and pension claims pending in the regional 
offices. Also, we believe any gains from increased staffing 
will be more than off-set by lost efficiency and productivity 
from court-imposed procedures regarding well-grounded claims.
    The Court of Appeals for Veterans Claims has construed a 
long-standing principle in VA administrative practice to mean 
something entirely different from what it meant since the 
1920s. As a consequence, the Court has imposed additional 
procedure requirements upon Veterans and the VA. With added 
complexity and the additional work that must be done, more time 
and effort is required to dispose of individual claims. H.R. 
3193 restores the prior process and resolves the problem 
created by the Court's decision.
    Mr. Chairman, we appreciate your cosponsorship of H.R. 3193 
and hope that we can work with you to get this passed as soon 
as possible. An April 7th Court order in Chase v. West only 
reinforces the immediate need for a legislative fix.
    Mr. Chairman, that concludes my statement and I thank you 
for your time.
    Mr. Hobson. Thank you.
    Mr. Dennis Cullian will talk about construction.
    Mr. Cullian. Good afternoon, Mr. Hobson, my name is Dennis 
Cullian and I am the VFW's legislative director. I first had 
the pleasure of making your acquaintance at a veterans rally in 
Circleville, Ohio, a couple of years ago where you were 
gracious enough not only to attend but to speak.
    Mr. Hobson. I am a life member.
    Mr. Cullian. Once again the VFW is proud to be one of the 
coauthors of the Independent Budget. As in the past, our 
contribution lies with the construction portion of the budget. 
But as an organization of over 2 million members, the VFW is 
obviously greatly concerned with all aspects of the VA's budget 
from health care to veterans benefits, administration and the 
national cemetery system.
    The VFW and all constituent members of the IB are deeply 
troubled that the President's budget for fiscal year 2001 would 
only provide $62 million for major construction projects; $114 
million less than is proscribed by the IB as being necessary to 
meet true need in this vital area.
    Similarly, the President's funding recommendations for 
minor projects falls $29 million below the IB level of $191 
million. In total, the Administration's budget for VA falls 
$161 million below the funding level the IB has identified as 
being absolutely essential to properly accommodate current 
construction needs while preparing for the future.
    Inadequate funding for major and minor construction 
programs has compromised VA's ability to provide high-quality 
patient care in safe and clinically appropriate physical 
settings. We note that insufficient resources and having to 
partially or even totally fund renovation and facility 
conversion projects with non-construction dollars had led to 
cost-cutting methods that are neither fiscally efficient nor 
completely clinically sound.
    We ask that you ensure that there are adequate funds for 
both major construction and minor construction programs so that 
the Veterans Health Administration may address urgently needed 
projects and the system's antiquated infrastructure.
    The Veterans integrated service networks need to undertake 
more extensive construction planning and national managers must 
oversee this project. Again, the VFW recommends that the 
Congress increase construction budgets to allow the program 
consolidations, facilities realignments and other changes 
necessary to implement VA's changing national health care 
strategy.
    Mr. Chairman, I would emphasize here the VFW's and the IB's 
concern that any realignments, any restructuring, any 
downsizing, upsizings or what have you, all of these things 
pertaining to exclusively benefitting veterans and for no other 
purpose.
    I would also mention one other thing. I couldn't help but 
notice that one of the earlier panelists spoke eloquently in 
support of enhancing the Montgomery G.I. Bill. I would just 
lend our voice to support that as well. The Montgomery G.I. 
Bill benefit is something like 50 percent less than when it was 
first conceived and it is, obviously as good as it is today, it 
is not providing adequate access to institutions of higher 
learning for our young men and women in uniform and we ask that 
we work together to remedy this.
    Mr. Chairman, this concludes my statement.
    Mr. Hobson. Thank you.
    Mr. Hobson. Mr. Woodbury.
    Mr. Woodbury. Thank you, Mr. Chairman.
    I am Dave Woodbury, AMVETS National Executive Director. I 
guess it is fitting that I speak last since I am going to 
address the subject of the national cemetery system.
    I have submitted a written statement, sir, for the record, 
and I will summarize those comments for you this afternoon. I 
am encouraged by the Administration's proposed VA Budget for 
fiscal year 2001. Compared to this time last year when the 
difference between the Administration's proposal and our 
independent budget analysis was $3 billion, we believe there is 
a real opportunity this year to fully fund VA's requirements so 
that eligible veterans receive the benefits to which they are 
legally entitled.
    And as a corollary, we hope that this year we can agree on 
a process which brings consistency to the VA's budget by 
recognizing the need for multi-year fiscal plans. As you well 
recognize, the VA's responsibilities carry multi-year fiscal 
implications. It would be helpful to recognize this dynamic and 
account for it so that longer-term managerial decisions may 
proceed in a logical and efficient manner.
    Within this context, let me turn to the subject of the 
National Cemetery Administration and what we believe to be its 
funding requirements in fiscal year 2001. The President's 
proposed budget requests $110 million, $13 million above the 
fiscal year 2000 appropriation. Our assessment is that while 
this proposed increase offers an essential initial step, it is 
nevertheless approximately $5 million below what will be 
required to sustain NCA in the face of increasing demands for 
burial space and related support costs.
    In recent years, NCA has struggled to maintain its massive 
network of cemeteries. They currently maintain in excess of 
13,000 acres containing over 2.2 million grave sites and 
columbarium niches across a system of 117 national cemeteries 
in 41 States and Puerto Rico. And today, our aging veteran 
population will continue to exacerbate the challenges with 
which they must deal.
    For example, the annual internment rate has grown during 
the past five years and is expected to reach over 80,000 this 
year. And based on the 1990 Consensus the veteran death rate is 
expected to steadily increase peaking at about 620,000 in the 
year 2008. Clearly the next five to seven years will severely 
stress NCA's ability to respond to the potential demand.
    For this reason, we recommend Congress make funds available 
this year to ensure the proper planning and fast-track 
construction of needed national cemeteries.
    In other areas, the Veterans Benefit Improvement Act of 
1998 made the State cemetery grants program more attractive by 
increasing the Federal share to 100 percent. But that was for 
construction of new cemeteries. Nevertheless, many States are 
still reluctant to establish or add new cemeteries in part 
because of the recurring maintenance costs and low plot 
allowance of $150 which is only available to State cemeteries 
for wartime veterans.
    Accordingly, we recommend that Congress increase the plot 
allowance to $350 and expand eligibility for the allowance to 
all veterans who are eligible for burial in a national 
cemetery.
    Yet, another challenge facing NCA is their responsibility 
to ensure all national cemeteries are maintained in a manner 
befitting their status as national shrines. Furthermore, of the 
117 national cemeteries, 59 are historic sites, listed in the 
National Registry of Historic Places. Due to their age and 
historical designation, these cemeteries are often more costly 
to repair and maintain.
    Accordingly, we urge Congress to ensure NCA is funded to 
meet the expected grounds maintenance and operational expenses 
of its vast cemetery system. Have the funding provide for 
preventive maintenance, equipment, minor construction and 
historic preservation. We also recommend that within the $115 
million recommended by the independent budget, $35 million be 
allocated to support an environment which is worthy of a 
national shrine at all national cemeteries.
    Again, Mr. Chairman, we are encouraged by the 
Administration's proposed VA budget for fiscal year 2001 and 
hope it signals a true recognition of our nation's continuing 
gratitude to our veterans and the sacrifices they have made in 
defense of freedom.
    I appreciate the opportunity to appear before you this 
afternoon and that concludes my comments.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. I would like to ask you one question, Mr. 
Woodbury. Are you burying 80,000 people a year in Government 
cemeteries?
    Mr. Woodbury. No. I don't think we are.
    Mr. Hobson. Do you know how many you are?
    Mr. Woodbury. I do not off the top of my head, sir.
    Mr. Hobson. The reason I am asking is that we just did a 
new cemetery in Ohio on Sherrgrants Street and we did one in 
Illinois that I remember, the Abe Lincoln one.
    Mr. Woodbury. That is our best guess for this year.
    Mr. Hobson. That is 80,000 people. I had no idea the number 
was that large. I am going to look at this State thing for 
Ohio. I had not looked at that before. For example, I have got 
an institution in Chillacauthe that has got an excess ground. 
But I don't know if I am going to get the money out of here but 
maybe--the State has got all the money right now--but maybe I 
can find some money at the State.
    The States are getting active in the building of these 
State VA type centers, the nursing homes. And my State is just 
building one and I think we will probably do another if we get 
the money sometime. I don't like where they are putting it 
but--it is not in my district--but it is interesting. You know, 
coming to these hearings sometimes you hear things that you 
didn't know about and, so, it is very helpful to have you come 
in and talk about these things. And I appreciate it very much.
    Thank you.
    Mr. Woodbury. Thank you, sir.
    Mr. Hobson. I am serious about it. I am going to put your 
name down and I will come back next year and see what we can 
do.
                              ----------                              

                                          Thursday, April 13, 2000.

                          THE AMERICAN LEGION


                                WITNESS

JOHN VITIKACS, ASSISTANT DIRECTOR, NATIONAL VETERANS AFFAIRS AND 
    REHABILITATION COMMISSION, THE AMERICAN LEGION
    Mr. Vitikacs. Good afternoon, Mr. Chairman.
    With help from 3 million members of the American Legion, we 
certainly appreciate the opportunity today to testify on the 
Administration's fiscal year 2001 budget proposal and we 
request that our complete statement be included in today's 
hearing record.
    Mr. Hobson. Without objection, it is so ordered.
    Mr. Vitikacs. The American Legion thanks the Subcommittee 
for the record increase of $1.7 billion for VA health care in 
fiscal year 2000. This increase helps to offset the previous 
fiscal constraints imposed on VA due to the Balanced Budget Act 
of 1997. As we consider VA's funding requirements for fiscal 
year 2001, we must take into consideration its anticipated 
fixed cost increases, its commitment to provide timely and 
accessible health care to all veterans, and the funding 
requirements of the recently enacted Veterans Millennium Health 
Care Act.
    The fiscal situation within the Veterans Health 
Administration at the start of a new decade and a new 
millennium is still precarious and requires the Subcommittee's 
continued support.
    The American Legion believes that the President's fiscal 
year 2001 budget proposal for the Department of Veterans 
Affairs provides a good starting point for further program 
improvements. The fiscal year 2001 medical care proposal relies 
far too heavily on achieving substantial cost savings through 
enhanced medical efficiencies and nearly $600 million in 
medical care cost fund collections.
    The American Legion recommends increasing the fiscal year 
2001 health care appropriation by $1.5 billion over current 
year funding or nearly $200 million above the President's 
request. Overall, VHA requires a funding increase of nearly $2 
billion for fiscal year 2001. Through direct appropriations and 
a combination of realistic efficiency savings and medical care 
cost fund revenues, the goal of a $2 billion increase is more 
achievable.
    Mr. Chairman, in fiscal year 2001, nearly $1 billion in 
additional funding is necessary just to implement all 
provisions of the Veterans Millennium Health Care Act. The 
President recommended a $1.3 billion increase for VA health 
care which leaves little funds available for other current 
service adjustments, program initiatives, and all other 
increases.
    The American Legion strongly believes that additional 
nonappropriated revenues must be identified to help sustain VA 
health care. Various pilot programs must be initiated to 
provide sufficient nonappropriated revenues to VHA and to 
achieve the goal of providing accessible and affordable health 
care to all veterans and military retirees and to their 
qualified dependents.
    In this regard, the American Legion would appreciate the 
Subcommittee's support in pursuing creative alternatives to 
VHA's almost complete reliance on the appropriations process. 
The American Legion commends the Administration for its fiscal 
year 2001 budget recommendations for the National Cemetery 
Administration and the State Cemetery Grants Program. However, 
we strongly urge the Subcommittee to include $1 million in 
advanced planning funds for a new National Cemetery in greater 
Pittsburgh, Pennsylvania, in addition to other new National 
Cemetery initiatives.
    The American Legion is supportive of the Administration's 
fiscal year 2001 budget recommendation and program initiatives 
for the Veterans Benefits Administration.
    The portion of the President's fiscal year 2001 budget 
where we take greatest exception are the funding 
recommendations for VA's medical and prosthetics research 
program, the major and minor construction programs and the 
State extended care grants program.
    The American Legion respectfully requests this Subcommittee 
to increase funding for these programs in light of their 
realistic budget requirements and their overall contribution 
and support of VA's diverse mission.
    Mr. Chairman, the American Legion thanks you, again, for 
the opportunity to testify at today's hearing, and I will be 
glad to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. I don't have any questions right now, but I 
appreciate very much your coming.
    Mr. Vitikacs. And the answer is, yes, the fiscal year 2000, 
the year that we are currently in, will be the first year ever 
in VA's history that they will bury over 80,000 eligible 
veterans and dependents.
    Mr. Hobson. I didn't realize that.
    Mr. Vitikacs. Thank you, again.
    Mr. Hobson. I have got a lot of questions about the VA but 
I am not able to get into it today.
                              ----------                              

                                          Thursday, April 13, 2000.

            THE AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

BOBBY L. HARNAGE, SR., NATIONAL PRESIDENT, AMERICAN FEDERATION OF 
    GOVERNMENT EMPLOYEES, AFL-CIO
    Mr. Hobson. Bobby Harnage, AFGE.
    Mr. Harnage. Thank you, Mr. Chairman.
    Well, first of all, Mr. Chairman, and let me say that I am 
Bobby Harnage, National President of the American Federation of 
Government Employees representing 600,000 Federal employees 
across the nation. And I ask that my written statement be 
submitted and included in the record.
    I want to thank you for giving us this opportunity to make 
these few comments. And thank you for the $1.7 billion increase 
for Veterans health care in fiscal year 2000 above what the 
President had requested. Without it, the unique health care 
system devoted to veterans would have been at risk.
    DVA's ability to care for veterans will remain shaky until 
the budget is linked to medical inflation and to full staffing 
levels. Since 1993, the Veterans Administration has reduced its 
staff by one for every six FTEs. Restoring there FTEs is key to 
reducing medical errors, improving the quality and timeliness 
of care and handling the intensifying demand for specialized 
care from an aging veterans population.
    AFGE endorses the fiscal year 2001 independent budget 
written by leading veterans groups. The fiscal year 2001 
independent budget calls for a $1.7 billion increase over the 
fiscal year 2000 funding level. But even this higher request 
will not allow the Veterans Administration to fully restore its 
staffing levels. It also does not allow the Veterans 
Administration to keep pace with rising medical inflation.
    Overall, the DVA budget has averaged 4.2 percent increase 
since fiscal year 1996. But to keep pace with the rising cost 
of health care and the needs of a sicker and aging population, 
the DVA budget should be increased by a rate of 4.4 percent 
each year from 1996 through 2005. AFGE asks the Subcommittee to 
hold VA accountable for sufficient staffing levels. Adequate 
staff to patient ratios are vital to manage workloads, prevent 
delays in care, avert medical errors and improve services. 
Research shows independent staff to patient ratios can have 
serious consequences for patients.
    DVA needs to adopt regulations establishing minimum and 
specific staff to patient ratios for all in-patient and out-
patient units. We urge report language to direct the DVA to 
study the relationship between medical errors and the 
reductions in clinical and supporting staff levels, as well as 
elimination of in-patient beds for mental health services.
    We are concerned by DVA's use of contractors. Sending 
veterans to non-VA health care providers who are not held 
accountable to the same standards of care as the DVA is simply 
not right. Currently, neither DVA's medical inspectors, nor 
DVA's Inspector General Office of Health Care Inspections 
studies the medical errors that are occurring at facilities in 
which DVA contracts for veterans medical care. Unlike the DVA's 
in-house operations, DVA's contractors are not required to 
inform veterans of medical errors or adverse events that occur 
in a contractor facility. Veterans are not entitled to 
additional compensation or disability benefits when they suffer 
medical malpractice----
    Mr. Hobson. We will look at that.
    Mr. Harnage. Okay.
    At the hands of the DVA contractors. The DVA requests $6.5 
million to support pay raises for DVA nurses under a nurses-
specific pay system. This request assumes that the nurses' pay 
increase in fiscal year 2001 will correspond to the same 
percentage increase for general schedule employees working 
side-by-side with them.
    In the past, medical directors have denied nurses the full 
percentage pay increase provided to GS employees, despite the 
DVA's budgetary intentions. We urge this Subcommittee to hold 
the DVA accountable and require that nurses receive at a 
minimum the same percentage increase paid to other DVA 
employees.
    Mr. Hobson. I am sure the Chairman is and I am a big nurse 
advocate. I wrote some nurse practice laws when I was in Ohio.
    Mr. Harnage. Very good.
    Mr. Hobson. If you have ever been in a hospital----
    Mr. Harnage. I have toured a lot of these medical 
facilities.
    Mr. Hobson [continuing]. If you ever been a patient, you 
want a nurse.
    Mr. Harnage. They make all the difference in the world. And 
they are very important, not only the health care, but to the 
patient. And we were very upset that this Administration and 
this particular Veterans Administration for not paying the 
nurses what they are, you know, they are entitled to and they 
are simply putting it in the budget for the money and then 
using it for something else. You give it to them for a pay 
raise but they use it for something else.
    Mr. Hobson. That is what I keep hearing.
    Mr. Harnage. With that I will end my comments, and just 
simply say that I am available for any questions you might 
have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Well, we will get it on the record and I assure 
you we will look at the pay raise and see how it varies. We may 
put some language in there to make sure that they use the money 
in the right places.
    Mr. Harnage. Now, I was at a hearing yesterday on nurses' 
pay and one of the things was a dentist there testified to 
where veterans were waiting nine months for a set of dentures 
because of the shortage of dentists and that is just, you know, 
absolutely ridiculous.
    Mr. Hobson. We will talk to the authorizers about that, 
too. Is that where you were, the authorizing Committee?
    Mr. Harnage. Yes.
    Mr. Hobson. With all the money we put in the system, those 
kinds of things should not occur. If we were on the outside and 
we scream about hospitals and HMOs and stuff, but this stuff is 
more outrageous than you hear there.
    Mr. Harnage. It sure is.
    Mr. Hobson. And, yet, you don't see the newspapers running 
the issue. I guess because it is veterans. I don't know why.
    Mr. Harnage. I don't understand it either.
    Mr. Hobson. But I mean you would think when it is the 
Government it is even more outrageous than when it is in the 
private sector. They are both outrageous.
    Mr. Harnage. Oh, we would be wanting to take the private 
sector to court.
    Mr. Hobson. That is true. [Laughter.]
    Well, you know, and it is good for all of you to come in 
and testify about specific instances, just like when these guys 
were down here before, because then we can go back and we can 
poke at those specific instances. That is why it is good when 
constituents come in and tell us specific things rather than 
broad allegations because they are much harder to get at and 
they are much easier for them to answer. But when we get the 
case or we get 10 cases or 20 cases we can go with that.
    Mr. Harnage. I was at Jamaica Plains, the day before 
yesterday, and that is the VA up in Boston, Massachusetts, and 
up there they are looking at privatizing the Dallas' Unit. They 
don't go through an A-76 there, the VA doesn't do a competitive 
bid.
    Mr. Hobson. They did one in mine, too.
    Mr. Harnage. But they do an analysis. And according to the 
analysis it could be done better and less expensive in-house. 
But they are still going to privatize it. If you go to 
Cincinnati, Ohio, to the Veterans Administration there, that 
hospital director will walk around with you very proudly and 
one of the first things he is going to show you is the dialysis 
unit and how great it is and what a good job they do. I don't 
understand those two comparisons.
    Mr. Hobson. But some of them may be the numbers, I don't 
know. They did the one in Chillocauthe, they moved and they did 
it in the hospital, the local hospital. They said it was more 
convenient and it was cheaper and they did more procedures. 
They, you know, it was more cost-effective because they didn't 
do enough.
    Sometimes that is true. I have got an Air Force hospital 
who did heart bypasses but they didn't do enough of them. And 
you don't want to go there, you don't want to go some place 
unless they have got about 350 to 500 procedures a year. So, I 
didn't get upset about that but sometimes you are right, those 
are usually excuses to opt out things.
    Mr. Harnage. To play a numbers game with you. They can say 
we reduced the deployment to this level but it is costing more 
money, they don't add that.
    Mr. Hobson. One thing that nobody has testified about that 
I hope we get some testimony on sometime is mental health 
services. I ran into a couple of psychiatrists the other day 
that are with the VA and they were complaining about the level 
of psychiatric care and I think there are a lot of veterans who 
and especially as you get older, you have more mental health 
problems. And it is something that I think we need to really 
look at.
    Mr. Harnage. I think one of the problems that a lot of 
people overlook in trying to compare the Veterans 
Administration to the private sector is the private sector does 
not have the type of patient that a veteran is. I mean maybe 
here in Washington, D.C., an emergency room, maybe it looks 
like a war zone, but mostly in the private practice it just is 
not that type of illness, the severity of it and the type of 
it.
    You know, we are pretty cruel to human beings when we get 
in battle and then there are psychological problems that you 
just don't find.
    Mr. Hobson. That is what concerns me about the mental 
health part of it.
    Mr. Harnage. And I appreciate you looking at it because 
very often that is overlooked that veterans are a different 
kind of situation.
    Mr. Hobson. I wanted to get that in the record because that 
is something I want to look at.
    Mr. Harnage. I appreciate it.
    Mr. Hobson. Nice to see you. Thank you for coming by.
    Mr. Harnage. Thank you very much.
    [The following statements were submitted for the record.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              --
--------

                Interested Individuals and Organizations

                                                                   Page
AARP.............................................................  1084
Academy of Natural Sciences......................................   207
Air Force Sergeant Association, Int'l Headquarters...............   952
Alliance to Save Energy..........................................   220
American Anthropological Association.............................   422
American Association of Engineering Societies....................   415
American Association of Homes and Services for the Aging.........   657
American Association of Nurse Anesthetists.......................   945
American Chemical Society........................................   428
American Council for an Energy-Efficient Economy.................   214
American Federation of Government Employees, AFL-CIO.............  1074
American Geological Institute....................................   479
American Heart Association.......................................  1090
American Helicopter Society International........................   583
American Indian Higher Education Consortium......................   665
American Legion..................................................  1067
American Lung Association/American Thoracic Society..............   228
American Mathematical Society....................................   428
American Museum of Natural History...............................   627
American Physical Society........................................   428
American Psychiatric Association.................................   970
American Psychological Society...................................   438
American Psychological Association...............................   597
American Public Power Association................................  1098
American Rivers..................................................   262
American Society for Microbiology................................   408
American Society of Civil Engineers..............................   539
American Society of Mechanical Engineers, International.......583, 1101
American Society of Plant Physiologists..........................   446
American Water Works Association.................................   243
AMVETS...........................................................  1043
Association of American Universities.............................   451
Association of Local Air Pollution Control Officials.............   401
Association of Metropolitan Water Agencies.......................   243
Association of Minority Health Professions Schools...............   236
Association of State Dam Safety Officials, Inc...................  1113
Association of State Drinking Water Administrators...............   253
Association of VA Nurse Anesthetists.............................   945
Babyland Family Services.........................................  1117
Bringing Rivers to Life..........................................   262
Brownsvillle Public Utilities Board..............................   271
California Industry and Government Central California Ozone Study 
  Coalition......................................................  1126
California Science Center........................................  1121
Carnegie Hall....................................................   635
Central New York Housing Authorities.............................   673
Central New York Regional Hemodialysis & Cardiac Care Enhancement 
  Center.........................................................  1130
City of Compton, CA..............................................   680
City of Dayton, OH...............................................  1150
City of Fairfield, CA............................................  1153
City of Folsom, CA...............................................  1159
City of Gainesville, FL..........................................   896
City of Lynn, MA.................................................  1173
City of Miami Beach, FL..........................................   923
City of Newark, NJ...............................................   910
City of Roseville, CA............................................  1223
Coalition for National Science Funding...........................  1134
Coalition for Community Development Financial Institutions.......   890
Coalition for EPSCoR States......................................   553
Columbia University Health Sciences Division, Audubon Biomedical 
  Science & Technology Park......................................   458
Computing Research Association...................................   463
Consortium for Citizens With Disabilities........................   694
Consortium of Social Science Associations........................   469
Council of Large Public Housing Authorities......................   685
County of Alachua, FL............................................   896
County of Sutter, CA.............................................  1237
County Sanitation Districts of Los Angeles County................  1140
Cow Creek Band of the Umpqua Tribe of Indians....................  1145
Danny Foundation.................................................   650
Detroit Rescue Mission Ministries................................   834
Disabled American Veterans.......................................  1043
Earth University.................................................   606
El Paso Water Utilities Public Service Board.....................   280
Enterprise Foundation............................................   703
Environmental Institute of Western Michigan University...........   386
Fairfield University.............................................  1155
Federation of American Societies for Experimental Biology........   428
Federation of Behavioral, Psychological & Cognitive Sciences.....   500
Fleet Reserve Association........................................   978
Florida Department of VA.........................................   962
Florida State University.........................................   591
Fond du Lac Band of Lake Superior Chippewa Indians...............   287
Geothermal Heat Pump Consortium..................................   301
Great Lakes Indian Fish and Wildlife Commission..................   294
Ground Water Protection Council..................................  1161
Habitat for Humanity.............................................   788
Hackensack University Medical Center Foundation..................   803
Hebrew Academy for Special Children, Inc.........................   812
Housing Assistance Council.......................................  1163
integrated Petroleum Environmental Consortium....................   393
International Center for Clubhouse Development...................  1167
Jackson State University.........................................   486
Joint Policy Board for Mathematics...............................   507
Joint Steering Committee for Public Policy.......................   515
Joslin Diabetes Center...........................................   986
Lac du Flambeau Band of Lake Superior Chippewa Indians...........  1169
Light of Life Ministries, Inc....................................   712
Local Initiatives Support Corporation............................   717
Lovelace Respiratory Research Institute..........................   546
Lymphoma Research Foundation of America, Inc.....................   991
Marietta College, Environmental Science and Engineering Center...  1175
Marine Conservation Biology Institute............................   520
Metropolitan Water District of Southern California...............  1184
Metropolitan Water Reclamation District of Greater Chicago.......  1179
Mickey Leland National Urban Air Toxics Research Center..........   310
Museum of Discovery and Science, Inc.............................  1188
National Academy for Forensic Computing & Investigation at 
  Central Piedmont Community College.............................  1202
National AIDS Housing Coalition..................................   795
National Alliance for the Mentally Ill...........................  1206
National Alliance to End Homelessness............................   737
National American Indian Housing Council.........................   804
National Association for Equal Opportunity in Higher Education...   494
National Association of Conservation Districts...................   318
National Association of Home Builders............................  1191
National Association of Home Builders Research Center............   727
National Association of Housing and Redevelopment Officials......   729
National Association of State Energy Officials...................   324
National Association of State Universities and Land Grant 
  Colleges.......................................................   330
National Association of Water Companies..........................   243
National Coalition for Osteoporosis & Related Bone Diseases......   999
National Congress of American Indians............................   744
National Corn Growers Association................................   525
National Council for Science and Technology Environment..........   532
National Council of State Housing Agencies.......................  1196
National Emergency Management Association........................   642
National Interreligious Service Board for Conscientious Objectors  1034
National Jewish Medical and Research Center, Environmental Lung 
  Center.........................................................  1212
National Rural Water Association.................................   339
National Space Grant Alliance....................................   620
National Utility Contractors Association.........................   346
Neve Yerushalayim College........................................   818
New York University..............................................   930
New York University School of Medicine...........................  1014
Northwest Indian Fisheries Commission............................   353
Nuclear Energy Institute.........................................   560
Oregon Health Sciences University................................  1220
Owens Corning....................................................   918
Paralyzed Veterans of America....................................  1043
Passaic Valley Sewerage Commission...............................   366
Polyisocyanurate Insulation Manufacturers Association............   373
Public Housing Authorities Directors Association.................   759
Resources Recovery, Inc. Richard Oak Foundation, Inc.............   380
Rural Enterprises of Oklahoma, Inc...............................   856
Safer Foundation.................................................  1007
Santa Marta Hospital, CA.........................................  1225
Santa Rosa Memorial Hospital, CA.................................  1229
SAR Information User Working Group...............................   937
SEUI Local 200-B, Syracuse, NY...................................  1018
Society for Neuroscience.........................................  1232
Space Science Working Group......................................   614
St. Joseph's Hospital Health Center..............................  1130
State and Territorial Air Pollution Program Administrators.......   401
Texas A & M University System....................................  1239
The American Institute of Biological Sciences....................  1096
The Arc..........................................................   750
The CORE Foundation..............................................  1136
The Milton S. Eisenhower Foundation..............................   772
The National Treasury Employees Union............................   359
The Nature Conservancy...........................................  1215
The Retired Enlisted Association.................................  1027
U.S. Conference of Mayors........................................   778
United Negro College Fund, Inc...................................   825
University Corporation for Atmospheric Research..................  1241
University of Medicine and Dentistry of New Jersey...............   883
University of Miami..............................................   568
Upper Mississippi River Basin Association........................  1251
Veterans of Foreign Wars.........................................  1043
Village of Freeport, NY..........................................   863
Village of Hempstead, NY.........................................   870
Wake Forest University Baptist Medical Center....................   851
Washington Drama Society, Inc., T/A Arena Stage..................  1253
William Tyndale College..........................................   878

                                <greek-d>

</pre></body></html>
